<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]

                       DEPARTMENT OF THE INTERIOR

                    Letter From the State of Nevada

                                   State of Nevada,
                       Colorado River Commission of Nevada,
                                                    April 26, 2005.
Hon. Conrad Burns, Chairman,
Subcommittee on Interior, Senate Committee on Appropriations, 
        Washington, DC.
    Dear Chairman Burns: The Colorado River Commission of Nevada, the 
state agency charged with protecting Nevada's interests and rights in 
the water, power and land resources of the Colorado River System, 
supports the appropriation of $5,200,000 of Bureau of Land Management 
funds for assistance in salinity control activities in the Colorado 
River Basin as recommended by the Colorado River Basin Salinity Control 
Forum for fiscal year 2006. Specifically, the Colorado River Commission 
supports the President's request for the Soil, Water and Air management 
for a designation that $800,000 be used to further advance Colorado 
River salinity control efforts.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations for the Colorado River Basin Salinity 
Control Program is essential to move the program forward so that the 
congressionally directed salinity objectives are achieved.
            Sincerely,
                                            George M. Caan,
                                                Executive Director.
                                 ______
                                 

                Letter From the Penobscot Indian Nation

                   Office of the Chief and Council,
                      Penobscot Nation, Community Building,
                              Indian Island, Maine, April 19, 2005.
Hon. Thad Cochran, Chairman,
Hon. Robert Byrd, Ranking Minority Member,
Committee on Appropriations

Hon. Conrad Burns, Chairman,
Hon. Byron Dorgan, Ranking Minority Member,
Subcommittee on Interior and Related Agencies, U.S. Senate, Washington, 
        DC.
    Dear Senators: Thank you very much for all the work you and the 
Committee members have accomplished over the years on behalf of Tribal 
governments and our citizens. Indian Country certainly has shown some 
improvement as a result of your efforts and the Committee is held in 
high esteem by all Tribes. We are most grateful for all that you have 
done and continue to do.
    On April 14 the House Appropriations Subcommittee on the Interior, 
Environment and Related Agencies held public hearings and on behalf of 
the Penobscot Nation, I testified and submitted a written statement. I 
am attaching a copy of our testimony and ask that you consider it 
during your deliberations this year and make it a part of any hearing 
record. I am also attaching a letter I recently sent to Claude Allen, 
President Bush's Domestic Policy Advisor and Director of the Domestic 
Policy Council. A number of tribal leaders have had two meetings in 
recent months with Mr. Allen at which numerous topics were discussed 
and a comprehensive list of issues affecting Federal agencies were 
developed.
    In follow up to these sessions, I sent the attached letter to Mr. 
Allen in which I commented on areas of concerns affecting various 
Federal agencies. Copies have also been sent to the respective Cabinet 
Level Secretaries overseeing those agencies and departments.
    At these meetings and in follow-up correspondence, it is clear that 
a fundamental area of concern is the inadequacy of funding for programs 
affecting Indian tribes. I am sure you hear this from various groups 
but I believe the situation in Indian County is particularly grave and 
is in fact inequitable when compared to other groups. I would like to 
draw your attention to a report entitled, A Quiet Crisis: Federal 
Funding and Unmet Needs in Indian Country. This was published by the 
U.S. Commission on Civil Rights in 2003 after a detailed examination of 
Indian programs. Its findings were not a surprise to those of who live 
on Indian reservations but should be shocking to the rest of the 
country and to policy makers and appropriators such as yourselves. If 
you have not read the report, I would urge that you to get a copy and 
review it in detail. I also want to point your attention to a 
subsequent report by the Commission entitled, Broken Promises: 
Evaluating the Native American Health Care System (Sept. 2004). These 
reports indicate that the level of Federal funding made available to 
Indian people, when compared to other groups for whom the Federal 
government has a responsibility, is so much less as to constitute a 
violation of the civil rights of American Indian people. To cite but 
one example, the per capita health care expenditures for Medicare 
recipients is $5,915; for Veterans getting health care from the VA, we 
spend an average of $5,214; for inmates in federal prisons, the 
Congress appropriates $3,803, and for Indian people the figure is 
$1,914. Gentlemen, if we know that it costs over $5,000 to provide 
health care to a Veteran and if we know that it costs almost $4,000 to 
serve the medical needs of prisoner, how can we spend less than $2,000 
per Indian? What message is this sending to the Indian people as to 
their relative value in this country.
    Two statements from the 2004 report bear repeating:

    ``It has long been recognized in Native American and medical 
communities that Native Americans are dying of diabetes, alcoholism, 
tuberculosis, suicide, unintentional injuries, and other health 
conditions at shocking rates. Beyond these mortality rates, Native 
Americans also suffer significantly lower health status and 
disproportionate rates of disease compared with all other Americans. 
These realities should come as no surprise to those with a basic 
knowledge of our nation's history and those charged with making 
policies that influence the future of the Native American population.''

    That report also pointed to the ``failure of Congress to provide 
the resources necessary to create and maintain an effective health care 
system for Native Americans.''
    The time has come to address this disparity and while I understand 
there are budget constraints I also know that when this country 
confronts a crisis, like we have in Iraq where we will soon have spent 
$300 billion, we can find the money necessary. Gentlemen, we have such 
a crisis here at home and ironically it is with the only people inside 
this country that the United States signed treaties with that included 
language committing the United States to the provision of health care. 
Would you consider committing to the simple proposition of allowing 
Indian health care expenditures to achieve parity with other groups? 
That would lead to a doubling of the budget of the Indian Health 
Service were we to achieve parity with prisoners or a two and a half 
fold increase in the IHS budget to achieve parity with Veterans. If you 
commit to achieving such parity I know it can't be done in one year but 
it could be accomplished in a phased fashion over three to five years.
    Finally, and more locally, I direct your attention to the fact that 
the proposed budget eliminates the BIA's Community Fire Protection. The 
proposed elimination of this program directly contradicts the 
Department of Interior's Strategic Plan (2003-2005) which identifies 
the ``Protection of Lives, Resources, & Property'' as a core mission. 
The Penobscot Reservation is an island in the middle of the Penobscot 
River, with one bridge providing the only entrance and exit. We have 
approximately 300 single-family homes which house approximately 545 
persons, 16 elderly apartments, a school with 100+ students in 
attendance and six tribal buildings housing approximately 125 
employees. Additionally, we are currently constructing an elderly 
assisted living complex, and are in the planning stages of building 15 
new single family homes. We recently met with our neighboring town's 
(Old Town, Maine), Fire Department officials to discuss the possibility 
of contracting with them for our fire protection needs. Unfortunately, 
the town reported to us that they could not enter into a contractual 
agreement. As indicated in the attached, it is a priority of the 
Penobscot people that the Committee restore funding for the Community 
Fire Protection and we ask that when you do you direct the BIA include 
an additional $150,000 to our TPA base for the Penobscot Nation's 
community fire program.
    Overall our request was for an additional TPA of $655,500 for Fire, 
Police, Economic & Community Development and Veterans Services 
Coordination for Indian Veterans of Maine, and, access to Title IV-E of 
Foster Care.
    Again, Thank you very much, we sincerely do appreciate all you are 
doing for Indian People.
    May GheChe' Nawais be with you, with all of our families and ``All 
Our Relations.''
                                      James Sappier, Chief,
                                                  Penobscot Nation.

Attachments.
  Prepared Statement of James Sappier, Tribal Chief, Penobscot Nation
    Chairman Taylor, Ranking Member Dicks and Members; Thank you for 
this opportunity to testify.
  --My name is James Sappier, Chief of the Penobscot Nation in Maine.
  --We live on Indian Island, one of over two hundred islands in the 
        Penobscot River that make up our reservation lands in central 
        Maine.
  --Our written testimony has been given to the Clerk, as well as a 
        copy of our letter to the President's Domestic Policy Council.
  --I will give a brief summary.
  --We strongly oppose the Administration's proposed fiscal year 2006 
        Bureau of Indian Affairs Budget which proposes a decrease to 
        the Tribal Priority Allocations (TPA) resulting in reduction 
        and/or elimination of programs vital to the Penobscot Nation's 
        safety and well-being.
  --The Penobscot Nation, as do most Tribal communities, rely heavily 
        upon BIA funding to support their essential community needs, as 
        fire protection, law enforcement, education, housing, trust 
        lands protection, health and human services. etc.
  --All Services that are 638 contracted by the Tribe.
  --Our specific requests to the Committee for the fiscal year 2006 
        budget includes:
    Appropriation requests of Bureau of Indian Affairs of $655,500
  --$150,000 for Community Fire Protection,
  --$100,000 for Economic Development,
  --A need for $60,000 for law enforcement,
  --$172,000 for community development, and
  --$173,500 for the Indian Veterans of Maine--the Penobscots, 
        Passamaquoddies, Maliseets and Micmacs of central Maine and, 
        SUPPORT FOR TRIBAL ACCESS TO TITLE IV-E FOSTER CARE

For Indian Health Services
    The Committee should increase the IHS budget to at least the level 
of health care that prisoners receive. Our budget would be doubled.
    Also, Tribes need a waiver to participate in Social Security 
benefits and programs. Indians don't live that long and programs that 
require age-based qualification for eligibility, discriminate against 
our members and their receiving full services.
  --An example, since January 2004, we have buried 21 Tribal members, 
        the average age was 57 years old.
  --This is actually 1 percent of our total Tribal population.

For the Environmental Protection Administration
    Each year the Tribal Operations Committee's Indian Caucus submits a 
Tribal budget based on need to the administration and each year they 
receive about 45 percent of their budget request.
    The Tribes will never catch up to the numerous entities that 
receive program and environmental support.
    Tribes are truly 25 years too late in coming into the EPA system.
    The letter to the President's Domestic Policy Council illustrates a 
more in-depth description of conditions that confront our Tribes and 
especially those areas within the scope of this Committee, the 
Interior, Health and Environment of Indian Country.
  --This letter places much emphasis on the ``Quiet Crisis--Federal 
        Funding and Unmet Needs In Indian Country'' a report prepared 
        by the U.S. Commission on Civil Rights in 2003.
  --It really brings to the forefront the real problems in Indian 
        Country.
  --After a detailed analysis, the Commission concluded that funding 
        for programs for Indian Tribes simply have not kept up with 
        spending for non-native programs, or to meet the increase 
        population growth of Indian Country.
  --Congress must consider the impact of inflationary costs.
  --Specifically federal funding for Native American programs is 
        inadequate and goes unnoticed because it is unreported, 
        unmonitored, unaccounted for, and inconsistently tracked.
    Specifically, for BIA the following were noted:
  --When adjusted for inflation, the impact of TPA funding shortfalls 
        become more evident.
  --The TPA budget has diminished the real spending power of tribal 
        governments dramatically.
  --Tribal governments do not receive funds at the rate of inflation, 
        and they have also been losing real spending power at a 
        dramatic rate.
  --Over the period of the report, 1998-2003, TPA spending power has 
        lost $36.5 million or 4.4 percent.
  --These inflationary costs coupled with the $10 million reduction is 
        making it impossible for Tribal Governments to continue to 
        operate programs that the Federal Government has a legal 
        obligation through treaties, settlement acts, and statutes to 
        provide.
  --Tribal self-determination is endangered if these reductions are 
        enacted.
  --Penobscot Nation has no other funding sources to pay for the 
        program operational shortfalls and may be left with no 
        alternative but to consider retrocession of these programs.
  --Under the Indian Self-Determination Act we can retrocede a program 
        back to the United States and the agency involved (BIA or IHS 
        for instance) would be required to send personnel to Maine, 
        establish offices and take over the management and operation of 
        that program.
  --The costs for administration, management and operations of BIA 
        programs would be 250-300 percent higher.
  --As reflected within the USCRC report, ``A Quiet Crisis,'' all 
        Departments listed actually place our Tribes in jeopardy.
  --A copy of the letter sent to the President's Domestic Policy 
        Council for their attention and involvement is available.
  --Each Department and agency has received a heads-up transmittal 
        letter and a copy of the Council letter as well.
  --The letter to the Domestic Policy Council brings to the forefront 
        many issues that need to be addressed by the Committee.
  --The Department of Interior's Strategic Plan (2003-2005) clearly 
        identifies as one of its four missions to be the ``Protection 
        of Lives, Resources, & Property''.
  --Certainly, our appropriation requests identified falls within the 
        scope of the Department's mission.
  --The Penobscot Nation is currently working on several economic 
        development projects, including a Mail-Order Pharmacy Service.
  --We are confident that these projects will have the potential to 
        change our devastating economic.
    Last July I resigned from EPA-Boston, went home, and was elected 
Chief in September taking Office in October. I could not continue 
working within the federal structure and watch the slow degradation 
overcoming our communities.
    Federal Agency Program Managers, 3 or 4 levels below the 
Secretariat will not and/or are very reluctant to disinvest program 
funds for purposes of increasing Indian Program funding. As well, this 
is true of Congressional Committees and their staffers as budget levels 
are determined for each Committee in carrying out their 
responsibilities.
    We should not pit one constituency against another and as no one 
gains and hard feelings cause unnecessary disruptions.
    What do we do with the USCRC report, A Quiet Crisis?
    In Indian Country, this question is being raised, and, we believe 
that yearly budget increases in phases one, two and three years can 
only be accomplished in the Administration, the Congress and the Tribes 
working together as true governmental partners. We really must do 
something and very, very soon.
    Would the United States commit to a three year phase approach to 
bring the Tribes up to parity, in program budget levels?
    The Penobscot Nation appreciates the opportunity to express our 
concerns pertaining to the proposed fiscal year 2006 appropriations and 
especially for your attention to these crucial matters.
    We truly need your support.
    I'd like to introduce Penobscot Nation elder, Sgt. Charles Shay, he 
would like to speak with you in regard to our Maine Indian Veterans. 
Sgt. Shay was a Prisoner of War in Germany during World War II.
    Thank you.

                Prepared Statement of Sgt. Charles Shay

  --My name is Charles Shay, and, I was a World War II ``Prisoner of 
        War'' in Germany in the 1940's.
  --This experience shaped my life, as it has for all the Indian 
        Veterans who have served in all the wars.
  --Maine for the first 150 years defined the Penobscot Indians as 
        ``paupers'' and in 1966 our Tribal members got the right to 
        vote.
  --You must remember that the Colonist joined us, the Penobscots in 
        those early years.
  --As we were at war with England and as well, the Boston Colony had a 
        Proclamation for scalping Penobscot men, women and children in 
        1757, signed by Governor Phips.
  --Before the United States and after the birth of the United States, 
        our Tribe has fought for this Country in every war.
  --Joining the service and defending the United States was never a 
        problem for my Tribe, the Penobscot Nation.
  --Penobscot Tribal members served in all wars from the Revolutionary 
        War to today's Iraq.
  --We have always been there when our Country called.
  --You should not treat our Indian Veterans the way you do.
  --Likewise Veteran services have been unknown to us and only recently 
        have we been able to receive some of these.
  --Penobscot Nation and the Tribes of Maine really need an Indian 
        Veteran Services Coordinator to advocate and guide Indian 
        Veterans through the maze of paperwork and programs, the forms 
        and applications.
  --Penobscot Nation is willing to have the Office centralized in Maine 
        at Indian Island. This cost of $173,500 should be shared 
        between Veterans Administration and the Bureau of Indian 
        Affairs, Department of Interior.
  --It is time to treat our People, Indian People, with the respect 
        they have earned.
  --Our Veterans have never received the full benefits for which they 
        have given their life. Many being wounded should have received 
        these over the many, many years they have been available.
    Thank you very much for taking the time to listen to me and we do 
need help for our veterans.
    Mr Chairman, Members of the Committee, Ladies and Gentleman: Before 
I begin stating the reason for my being here to address you, I think it 
appropriate to furnish you with information about myself. My name is 
Charles Norman Shay, born 27 June 1924, Native American and a proud 
member of the Penobscot Indian Nation. Our home is a small island on 
the Penobscot River located near Old Town, Maine.After graduating from 
High School in 1942 I was required to register for conscription into 
the military service which I found to be unfair because at time we were 
second class citizens in our own country without the right to vote in 
federal and state elections among other things. We were classified with 
paupers and other undisirables
    I entered the military service in April 1943 and after completing 
Basic Training and a Medical/Surgical Technician School, I was sent to 
England where I was assigned to the 16th Infantry Regiment, 1st 
Infantry Division who, at this time, were preparing for the invasion of 
Europe. Our unit debarked at ``Omaha Beach'' on 6 June 1944. I was 
awarded the ``Silver Star'' for actions that took place at this time. 
Our units continued on through France into Aachen, Germany and 
eventually on to Remagen, Germany where were able to cross the Rhine 
River on a bridge that had been secured by other forces of the 1st 
Army. Our mission, to establish a ``Beachhead'' so that other forces 
could follow. This action took place on 24 March 1945 and on 25 March 
the infantry squad that I was attached to became isolated from the main 
unit when German Forces launched a counter-attack. We were all taken 
captive, but only for a few short weeks. Once across the Rhine, allied 
forces made a massive advance across Germany and Austria and shortly 
thereafter World War II came to an end. In the summer of 1950, after 
spending four years in Vienna, Austria with the occupation forces I 
returned to the United States in July and was ssigned to the 7th 
Infantry Regiment, 3rd Infantry Division. In September of the same year 
we were on our way to Korea. Our Unit participated in many skirmishes 
with the North Korean and Chinese forces. I was awarded the ``Bronze 
Star'' with two Oak Leaf Clusters and the Combat Medic Badge, 2nd 
Award. On 24 June 1952 I took an ``Honorable Discharge'' from the U.S. 
Army after 10 years of service. Shortly thereafter, I enlisted in the 
U.S. Air Force and on 31 July 1964 I finally retired from the military 
service. While serving in the Air Force I perticipated in ``Operation 
Castle'' Atomic Test at Eniwetok Proving Ground in the winter of 1954. 
In 1965, I obtained a position with the International Atomic Energy 
Agency with Headquarters in Vienna, Austria until I retired on 31 
December 1984. I was recalled to U.N. Service in the spring of 1985 and 
acted as security office with the office of the High Commissioner for 
Refugies, Vienna Office for an additional two and one-half years.
    The Penobscot Indian has perticipated in all wars beginning with 
the Revolutionary War to the present war that is going on in Iraq. Our 
ancestors never evaded the opportunity to offer their services to the 
democratic government of the United States in time of war. This is 
substantiated by records that show that we had 38 Penobscots in the 
Revolutionary War, 20 in the Civil War, 26 in World War I, 80 in World 
War II at a time when the entire population of Indian Reservation 
numbered approximately 500 residents, 36 in the Korean War, 60 in the 
Viet Nam War. Many of our ancestors paid the ultimate price and many 
others returned maimed and disabled. For the wars following Viet Nam 
there are no statistics available. The experience of participating in 
the military service during war time has had a deep lying effect on our 
lives as any Veteran will tell you. Many experiences are sometimes hard 
to forget The time has come when we need to help and do what we can for 
our veterans and their dependents. Benefits available to this group of 
people are numerous and the interpretation and application for such can 
be very confusing to the layman. Our veterans are in dire need of an 
Indian Veteran Services Coordinator to guide them through the maize of 
paperwork and programs, forms and methods of application and sometimes 
just plain advice as to what is best for them. This person has to be 
experienced in interpretation and application of laws and regulations 
that govern federal benefits. This can only be done in a centralized 
office that would be available not only to the Penobscots but to all 
Indians in the State of Maine including indigenous groups that might be 
living here. The Penobscot Indian Nation is willing to host such an 
operation at our reservation, known as Indian Island. Our reservation 
is centrally located in comparison to other reservations. The 
coordinator of course would be responsible for monthly or bi-monthly 
visits to other reservations, a problem that would be resolved once an 
office has been established. Up until this time we have had people who 
have voluntarily assumed these responsibilities and operated out of 
their home. However, their knowledge of federal benefits was very 
limited and their activities were confined to arranging for military 
honors at funerals and the obtaining of head stones. A very small 
benefit for the Penobscot Veteran when one thinks of the sacrifices 
made by them. The cost of such an operation has been estimated to be 
$173,500.
    Taken into consideration were burials, transportation (the Veterans 
Hospital is located at Togus a distance of almost 200 miles), financial 
assistance in cases of poverty and/or low-income and of course wages 
for a coordinator, office supplies and computer hardware/software and 
installation of such. Office space would be provided including 
electricity and heat by the Penobscot Indian Nation. All costs should 
be shared between VA and BIA-DOL. As spokesman for the Penobscot Indian 
Veteran and for other Indian Veterans in the State of Maine we hope 
that you will not let us down and after your careful consideration that 
your response to this proposal will be positive.
    I thank you for your attention.

                                 ______
                                 
           Prepared Statement of the American Hiking Society

    Mr. Chairman and members of the Subcommittee, American Hiking 
Society represents 5,000 members and the 500,000 members of our 180 
affiliated organizations. As the national voice for America's hikers, 
American Hiking Society promotes and protects foot trails and the 
hiking experience--and is a long time partner with the National Park 
Service (NPS), USDA Forest Service, and Bureau of Land Management 
(BLM). Demand for recreation is growing at a rapid pace; unfortunately, 
federal funding for trails and recreation is not growing nearly as fast 
and is now declining in many areas. In order for Americans to enjoy the 
outdoors, experience our rich natural heritage, and find healthy places 
to recreate, we need protected open spaces and well-maintained trails 
and other recreation facilities. We appreciate the Subcommittee's past 
support and urge you to support strong funding that will protect trails 
and recreation resources for future generations. American Hiking makes 
the following funding recommendations for fiscal year 2006:
    National Park Service:
  --Rivers, Trails and Conservation Assistance program: $9.7 million
  --National Trails System: $10 million, plus $1.25 million for GIS 
        Network
    USDA Forest Service:
  --Recreation Management, Heritage and Wilderness: $275 million
  --Capital Improvement and Maintenance--Trails: $80 million
    Bureau of Land Management:
  --Recreation Management: $70 million
  --National Landscape Conservation System: $47 million
    Land and Water Conservation Fund (LWCF):
  --Stateside LWCF: $300 million
  --Federal LWCF: $450 million
  --Federal LWCF, Ice Age National Scenic Trail, National Park Service: 
        $4 million
  --Federal LWCF, Pacific Crest National Scenic Trail, Forest Service: 
        $5 million
  --Federal LWCF, Pacific Crest National Scenic Trail, BLM: $1.5 
        million
    Trails represent one of our nation's most valuable assets, bringing 
individuals and families outside for recreation, inspiration, and 
education, and providing healthy physical activities, alternatives for 
transportation, and economic development for local communities. Hiking 
is one of the nation's most popular outdoor activities--72 million 
Americans hike regularly or occasionally (Outdoor Industry Association 
Participation Study 2004). However, years of inadequate funding 
jeopardize the protection of natural and cultural resources and the 
experiences of millions of recreationists every year.
    Federal policy encouraging partnerships, healthy lifestyles, and 
promoting volunteerism to protect and maintain our public lands 
warrants increased funding for trail and recreation programs across the 
land management agencies. Targeted funding increases coupled with 
increased on-the-ground recreation staff, including trail and volunteer 
coordinators, is essential to providing and preserving hiking and other 
outdoor recreation opportunities nationwide.

 NPS, RIVERS, TRAILS, AND CONSERVATION ASSISTANCE PROGRAM (RTCA): $9.7 
                                MILLION

    Through its RTCA program, the NPS implements its natural resource 
conservation and outdoor recreation mission in communities across 
America. RTCA yields enormous benefits to communities by fostering 
partnerships between federal, state, and local interests to restore 
rivers and wildlife habitat, develop trail and greenway networks, 
preserve open space, and revitalize communities--all contributing to 
improved quality of life and close-to-home recreation. RTCA is highly 
effective and cost efficient. In 2004 alone, NPS community projects 
reported more than 680 new trail miles, more than 330 newly protected 
river miles, more than 22,700 acres of newly protected natural areas 
and more than $40 million leveraged funding from other sources. RTCA 
plays a critical role in creating a nationwide network of parks and 
open spaces, supporting conservation partnerships, promoting 
volunteerism, and encouraging physical activity. The Administration's 
HealthierUS Initiative explicitly highlights RTCA for its efforts in 
promoting physical activity.
    RTCA is a very successful and popular program but continues to lack 
adequate funding. Despite RTCA's accomplishments in coordinating 
upwards of 300 projects annually, RTCA funding has remained relatively 
stagnant during the last decade and lagged well behind the rate of 
inflation. The program's declining real budget and funding shortages 
result in limited staff positions in several regions, office closures, 
and reduced staff participation within communities and on-the-ground 
projects, diminishing essential services of this field-based technical 
assistance program. Flat funding results in an annual loss of 
approximately 4 positions, as personnel costs continue to rise through 
inflation and cost-of-living increases, while project costs must be cut 
back. We strongly urge you to fund RTCA at $9.7 million to remedy the 
program's continued erosion, compensate for losses due to inflation, 
and enable the program to respond to growing needs and opportunities in 
communities throughout the country.

 NPS, NATIONAL TRAILS SYSTEM: $10 MILLION, PLUS $1.25 MILLION FOR GIS 
                                NETWORK

    The NPS administers eighteen of the twenty-four national scenic and 
historic trails, but only one--the Appalachian National Scenic Trail--
is fully open for public use from end-to-end. For most of these trails, 
barely half of their congressionally authorized length and resources 
are protected and available for public use. A minimum of $10 million in 
fiscal year 2006 is crucial for resource protection, trail maintenance, 
interpretation, and volunteer coordination and support for these long-
distance trails. In addition, NPS requires $1.25 million to continue 
work on a Geographic Information System network for the National Trails 
System to better administer, manage, and protect trail resources and 
landscapes. American Hiking thanks the Subcommittee for its support of 
the National Trails System and urges you to increase funding to help 
complete and protect these national treasures. American Hiking Society 
endorses the specific funding requests submitted by the Partnership for 
the National Trails System.

 USDA FOREST SERVICE, RECREATION MANAGEMENT, HERITAGE AND WILDERNESS: 
                              $275 MILLION

    The current investment in Forest Service recreation falls far below 
national needs. The Forest Service estimates that recreation creates 
nearly 80 percent of the Gross Domestic Product generated from Forest 
Service land, yet only about 10 percent of the agency budget is 
dedicated to recreation. Additionally, our national forests include the 
vast majority of our nation's designated wilderness areas, where 
opportunities for primitive recreation are abundant. Flat funding, as 
proposed in the Administration's budget combined with cost of living 
increases and inflationary pressures, would result in a net decrease of 
$6.2 million to the program's real budget. The Forest Service requires 
increased funding for recreation management to protect critical 
resources; upgrade recreation facilities; reduce the $178 million 
recreation deferred maintenance backlog and address the $136 million 
capital improvement needs for recreation sites and facilities; augment 
on-the-ground recreation staff; improve recreation resource analyses 
and planning; and more effectively utilize partnerships and volunteers.

   FOREST SERVICE, CAPITAL IMPROVEMENT AND MAINTENANCE--TRAILS: $80 
                                MILLION

    The Forest Service manages 133,000 miles of trails and requires 
increased funding to restore and maintain these thousands of trail 
miles; reduce the $106 million trails maintenance backlog and address 
the $99.2 million capital improvement construction needs for trails; 
improve trail infrastructure; prevent and mitigate resource impacts; 
and provide safe, high-quality recreational experiences for millions of 
hikers and other trail enthusiasts. The fiscal year 2006 Administration 
budget request would result in a net decrease of $13.3 million, 
adversely affecting critical trail needs across the country. The Forest 
Service administers three national scenic trails and one national 
historic trail and manages parts of 16 other trails. We ask that you 
appropriate $3.037 million as a separate budgetary item, in addition to 
the Administration request, specifically for the Continental Divide, 
Florida, and Pacific Crest National Scenic Trails and the Nez Perce 
National Historic Trail as outlined by the Partnership for the National 
Trails System.
    Increased funding for recreation and trails is especially crucial 
to the agency's Recreation Agenda goal of placing trail and volunteer 
coordinators and/or recreation planners at each national forest and for 
each nationally designated area or trail. Despite the Forest Service's 
increased emphasis on recreation, we are very concerned that this 
conversation at the top is not translating to the ground. Very few 
national forests have even one full-time trails coordinator. 
Understaffing often results in volunteers performing essential 
functions instead of agency personnel or willing volunteers being 
turned away. And despite the number of hiking and other recreation 
organizations that offer to volunteer to build and maintain trails in 
national forests, very few forests have a volunteer coordinator. These 
efforts warrant an expanded commitment to trails and recreation 
funding, notably funding for recreation staff on the ground.

                BLM, RECREATION MANAGEMENT: $70 MILLION

    The BLM supports a broad range of recreational opportunities within 
its 261 million acres yet continues to receive very limited funding for 
recreation. BLM is focusing on a comprehensive travel management 
approach to managing roads and trails and providing adequate and 
appropriate public access and has generated many collaborative 
partnerships for trails. However, the BLM faces daunting challenges 
with a growing deferred maintenance backlog for upkeep of more than 
15,500 miles of trails. BLM is also facing critical inventory, planning 
and management challenges as it manages a staggering network of an 
estimated 600,000 mile of roads, trails, routes and ways available for 
public use--with 80,000 miles maintained and signed. Increased funding 
will support the development of travel management plans, interpretation 
projects, stewardship education, outreach projects, expansion of 
partnerships, and the protection of natural and cultural resources 
impacted by increased recreational use

    BLM, NATIONAL LANDSCAPE CONSERVATION SYSTEM (NLCS): $47 MILLION

    The NLCS protects and conserves the crown jewels of our public 
lands while providing a variety of benefits to the public, including 
diverse recreational opportunities. Additional funding is needed to 
support a range of activities in NLCS units including: environmental 
education, site interpretation, and developing more compatible land use 
ethics among public lands visitors; completing Resource Management 
Plans and initiating implementation actions for national monuments and 
conservation areas; monitoring of recreation use; management of 
portions of twelve national scenic and historic trails exceeding 5,200 
miles; and developing and strengthening partnerships for visitor 
services, recreation, interpretation, stewardship education, and 
volunteers. We request $4.169 million for national trail 
administration, management, and operations as outlined by the 
Partnership for the National Trails System.

 LAND AND WATER CONSERVATION FUND (LWCF): $300 MILLION STATESIDE; $450 
                            MILLION FEDERAL

    Federal and state land managers use the LWCF to create parks, 
protect trails and open spaces, and preserve wilderness and wildlife 
habitat. Over the past decade, the majority of LWCF funds have been 
diverted to programs unrelated to the traditional LWCF uses such as 
land protection and recreation. While LWCF funds have been cut 
severely, the need for open space and recreation has soared. LWCF has 
helped communities acquire nearly seven million acres of parkland, 
water resources, and open space. LWCF has also underwritten the 
development of more than 37,000 state and local park and recreation 
projects. Authorized at $900 million annually, LWCF is one of the most 
important conservation tools ever designed and is critical to the 
future protection of national trails. We request $12.5 million in 
federal LWCF for the National Trails System. We vigorously oppose the 
Administration's recommendation to terminate the state assistance 
program and urge you to retain strong funding for this vital program.
    Volunteer contributions are essential to trails and recreation 
programs, and American Hiking and its members and member clubs do their 
part every year to help maintain our nation's outstanding network of 
trails. However, an increase in volunteerism on public lands should not 
be perceived as an opportunity to cut agency budgets. In fact, the 
opposite is necessary. Creating a viable volunteer environment, 
leveraging willing human resources for burgeoning land managers' needs, 
requires additional investment in the infrastructure to support these 
volunteers. In return, volunteers can help reduce the enormous 
maintenance and construction backlogs in public agencies and be an 
educated, passionate voice for preserving and protecting our public 
lands.
    On June 4, 2005, American Hiking will coordinate the thirteenth 
National Trails Day (NTD) to raise public awareness and appreciation 
for trails. Participants will gather at more than one thousand of NTD 
events nationwide. American Hiking Society members and outdoorspeople 
nationwide appreciate the Subcommittee's support for trail and 
recreation in the past and look forward to continued strong support. 
Thank you for considering our request.
                                 ______
                                 
 Prepared Statement of the American Humane Association; American Horse 
 Defense Fund; American Horse Protection Association; American Mustang 
  and Burro Association, Inc.; American Society for the Prevention of 
 Cruelty to Animals; American Wild Horse Preservation Campaign; Center 
for Environmental Education and Information; Forest Guardians; Fund for 
Animals; Humane Society of the United States; International Society for 
   the Protection of Mustangs and Burros; Least Resistance Training 
   Concepts, Inc.; Return to Freedom; Society for Animal Protective 
    Legislation; Vaquero Heritage Foundation; Wild Horse and Burro 
   Coalition; Wild Horse and Burro Freedom Alliance; and Wild Horse 
                         Observers Association

        BUREAU OF LAND MANAGEMENT--WILD HORSE AND BURRO PROGRAM

    In fiscal year 2001, the BLM received a $9 million budget increase 
to halve the number of wild horses on the range within four years. 
Despite the agency's inability to meet this goal, large numbers of 
horses were removed from the range and this new level of funding was 
maintained through fiscal year 2004. Last year, the agency requested 
another increase of $10.5 million (plus another $2.3 million from 
Southern Nevada Public Land Management Act funds) so that it can once 
again begin mass roundups to drastically reduce the number of wild 
horses and burros on the range from a rough estimate of 35,000 to just 
25,000 in a mere two to three years. Yet the agency has failed to 
conduct the most basic research to justify its proposed action. Despite 
a statutory requirement to base roundups on current data, the agency 
now spends less than 4 percent of its budget on range work, including 
monitoring and censusing of wild horse populations, even though such 
work is critical to the successful management of wild horse and burro 
populations and the range itself. In fact, most herd management areas 
haven't been censused for at least five years.
    The removal of large numbers of horses creates a management crisis, 
witnessed by recent events including the slaughter of 41 wild mustangs. 
Although the BLM has recognized the shortage of good adoptive homes and 
has subsequently opened several long-term holding facilities where 
horses are pastured in large groups, it is unclear how the agency can 
sustain this plan of action; as more horses are rounded up, additional 
facilities are needed. For 2005, BLM intends to round up 9,800 wild 
horses and burros but estimates it will only be able to place 7,150 
through the adoption program. Already the agency spends some 40 percent 
of its annual budget on caring for approximately 21,000 horses removed 
from the range, with nearly another 40 percent of the budget going to a 
marketing and adoption program that cannot successfully place the 
thousands of wild horses and burros rounded up annually.
    Furthermore, the BLM has not submitted a biannual report regarding 
the status of the wild horse and burro program to Congress, as provided 
for in the 1971 Act. Astonishingly, 1997 was the last year the BLM 
presented a report to Congress, covering the years from 1992-1995. 
Since that time, the BLM has, for all intents and purposes, not been 
held accountable for its actions. Congress and the general public have 
been denied an opportunity to scrutinize the agency's management 
actions. Requesting additional funds to conduct massive and 
indiscriminate wild horse and burro removals to levels that jeopardize 
the welfare of these animals, while at the same time wasting hundreds 
of millions of taxpayer dollars on the environmentally destructive 
livestock grazing program, is nothing short of indefensible. The agency 
has apparently lost sight of its legal mandate to protect wild free-
roaming horses and burros.
    Most importantly, in light of the huge number of wild horses and 
burros being rounded up through emergency and scheduled gathers and the 
passage of a last-minute rider in the fiscal year 2005 omnibus spending 
package to allow for the slaughter of wild horses, it is imperative 
that the ``no-kill'' provision that has been attached to the Interior 
Appropriations bill for several years be included again in fiscal year 
2006. The Wild Free-Roaming Horse and Burro Act's core principles have 
always reflected the understanding that Americans want these animals to 
remain free from slaughter or other forms of killing. Therefore, we 
join with the Doris Day Animal League and other animal protection 
organizations in urging that the following language be incorporated 
into the bill:

    ``No appropriations made herein shall be available for the sale, 
slaughter or destruction of healthy, unadopted, wild horses and burros 
in the care of the Bureau of Land Management or its contractors.''

    Recent reports that 41 horses went to slaughter directly after they 
were sold by BLM highlights the urgent need for this language.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the nation's 35 Tribal Colleges and Universities 
(TCUs), which comprise the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2006 
Appropriations requests for the 27 colleges funded under the Tribally 
Controlled College or University Assistance Act (Tribal College Act), 
and for our two tribally controlled postsecondary vocational 
institutions. The U.S. Department of the Interior, Bureau of Indian 
Affairs, administers these programs. While AIHEC ultimately seeks full 
funding for all programs authorized under the Tribal College Act, we 
recognize that a focused approach with incremental increases is a 
realistic way to meet that goal. In fiscal year 2006, we seek a total 
of $69.8 million for Tribal College Act programs. Our first priority 
within this request is to increase funding for the day-to-day 
operations of institutions funded under Titles I & II of the Act. For 
this we specifically request $67.5 million; of which, $49.8 million 
would be for Title I grants (funding 26 tribal colleges) and $17.7 
would be allocated for Title II (Dine College). This request is an 
increase of $9 million for Title I grants and a $6.6 million increase 
for Dine College over fiscal year 2005 levels and a total of $24.275 
million over the President's budget request. Additionally, we seek 
$215,000 for the technical assistance contract under Sec. 105 of the 
Act, an increase of approximately $100,000 over the President's 
request. These funds will help address continually emerging technical 
assistance needs and to gather and analyze data necessary to comply 
with the Congressional request to provide added information on TCUs; 
and $2 million is requested for endowments under Title III of the Act. 
Also, we support $4.5 million for United Tribes Technical College; and 
$2.25 million for Crownpoint Institute of Technology; the fiscal year 
2006 submitted budget once again recommends eliminating funding for 
these two tribally controlled postsecondary vocational institutions.
    AIHEC's membership also includes three other TCUs funded under 
separate authorities within Interior Appropriations, namely: Haskell 
Indian Nations University; Southwestern Indian Polytechnic Institute; 
and The Institute of American Indian Arts. AIHEC supports the 
independently submitted requests for funding the institutional 
operations of these institutions.

                   BACKGROUND AND FUNDING DISPARITIES

    In 1972, six tribally controlled colleges established AIHEC to 
provide a support network for member institutions. Today, AIHEC 
represents 35 Tribal Colleges and Universities in 13 states, created 
specifically to serve the higher education needs of American Indians. 
Annually, they serve approximately 30,000 full- and part-time students 
from over 250 Federally recognized tribes.
    The vast majority of TCUs is accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews on a periodic basis to 
retain their accreditation status. In addition to college level 
programming, TCUs provide much-needed high school completion (GED), 
basic remediation, job training, college preparatory courses, and adult 
education. Tribal colleges fulfill additional roles within their 
respective communities functioning as community centers, libraries, 
tribal archives, career and business centers, economic development 
centers, public meeting places, and childcare centers. An underlying 
goal of TCUs is to improve the lives of students through higher 
education and to move American Indians toward self sufficiency.
    Title I of the Tribal College Act authorizes funding for the basic 
institutional operating budget of one qualifying institution per 
federally recognized tribe based on a full-time American Indian student 
enrollment formula. The Tribal College Act was first funded in 1981. 
Today, 24 years later and notwithstanding an increase of $6 million in 
fiscal year 2005, these colleges are operating at $4,447 per full-time 
Indian student count (ISC), less than 75 percent of their authorized 
level of $6,000 per ISC. If in 2005 the TCUs were to be fully funded at 
$6,000 per ISC, with inflation factored in, they would have the same 
buying power as their initial fiscal year 1981 appropriations, which 
was $2,831 per ISC. This is not simply a matter of appropriations 
falling short of an authorization; it effectively impedes our 
institutions from having the necessary resources to grow their programs 
in response to the changing needs of their students and the communities 
they serve.

                             JUSTIFICATIONS

    (a) Tribal colleges provide critical access to vital postsecondary 
education opportunities.--TCU reservations are located in remote areas, 
and their populations are among the poorest in the nation. On average, 
median household income levels are only about half of the level for the 
U.S. population as a whole. As a result, the cost of attending a 
mainstream institution, which for many reservation communities is 
several hours away, is prohibitively high, especially when tuition, 
travel, housing, textbooks, and other expenses are considered.
    (b) Tribal colleges are producing a new generation of highly 
trained American Indians as teachers, tribal government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals.--By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities. In contrast to the 
high rates of unemployment of reservations, 74 percent of recent tribal 
college graduates are employed and using the skills gained through 
their educational experiences. Many of these graduates are employed in 
``high need'' occupational areas such as Head Start teachers, 
elementary and secondary school teachers, and nurses/health care 
providers. Just as important, the overwhelming majority of tribal 
college graduates remain in their tribal communities, applying their 
newly acquired skills and knowledge where they are most needed. Nearly 
one-half of the faculty and staff of Little Big Horn College in Crow 
Agency, Montana are graduates of the college.
    (c) Tribal colleges meet the strict standards of mainstream 
accreditation boards and offer top quality academic programs.--Several 
TCUs have attained a ten-year accreditation term, the longest term 
granted to any higher education institution. The quality of the 
colleges' programs is reflected in the high rates of satisfaction 
reported by their graduates: 91 percent of TCU graduates surveyed 
reported being very satisfied or satisfied with courses in their major 
field of study and with overall instruction.
    (d) Tribal college attendance increases educational success and 
serves as highly effective bridges to four-year postsecondary 
institutions.--While most TCUs are two-year institutions offering 
certificates and associate degrees, their transfer function is 
significant. A survey of TCU graduates conducted by Harder + Company 
Community Research, San Francisco, CA for the American Indian College 
Fund, indicated that more than 80 percent of respondents who attended a 
mainstream college prior to enrolling at a tribal college did not 
finish the degree they were pursuing at the mainstream college. The 
rate of completion markedly improved for those who attended a tribal 
college prior to pursuing a degree at a mainstream institution. After 
completing tribal college coursework, less than half of respondents 
dropped out of mainstream college, and nearly 40 percent went on to 
obtain a bachelor's degree. This suggests tribal colleges may have a 
profound impact on the persistence of American Indian students in 
pursuit of baccalaureate degrees. The overwhelming majority of 
respondents felt that their tribal college experience had prepared them 
well for further education and noted that it had a very positive impact 
on their personal and professional achievements.

                         SOME ADDITIONAL FACTS

    (a) Enrollment Gains & New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since 1981, the number 
of colleges has increased from 6 to 27 and Indian student enrollments 
have risen a remarkable 348.2 percent. Over the last four years, the 
enrollments have increased an average of 7 percent. In fiscal year 
2005, two newly established TCUs, Saginaw Chippewa Tribal College 
(Michigan) and Tohono O'odham Community College (Arizona) became 
eligible to receive funds under the Tribal College Act. White Earth 
Tribal and Community College (Minnesota) is expected to become eligible 
for funding in fiscal year 2006. TCUs are in many ways victims of their 
own successes. The dramatic enrollment increases, coupled with a 
growing number of tribally chartered colleges, have forced TCUs to 
slice an already inadequate pie into even smaller pieces. Our fiscal 
year 2006 request would fund operations at Title I colleges at 
approximately $5,160 per ISC, which after 25 years is still short of 
the $6,000 per ISC currently authorized by Congress.
    (b) The Absence of State Funds for Institutional Operations.--While 
mainstream institutions have enjoyed a foundation of long-term stable 
state support, TCUs must rely on the Federal government for their 
operating funds. Because TCUs are located on Federal trust lands, 
states have no obligation to fund them even for the non-Indian state-
resident students who account for approximately 20 percent of TCU 
enrollments. Yet, if these same students attended any other public 
institution in the state, the state would contribute basic operating 
funds to the institution.
    (c) Local Tax and Revenue Bases.--TCUs cannot rely on local tax 
base revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. On reservations where tribal colleges are 
located, anywhere from 32.4 to 59.3 percent of the eligible workforce 
is unemployed. In comparison, the national unemployment rate for March 
2005 is 5.2 percent.
    (d) Trust Responsibility.--The emergence of tribal colleges is a 
direct result of the special relationship between American Indian 
tribes and the Federal government. TCUs are founded and chartered by 
their respective American Indian tribes, which hold a special legal 
relationship with the Federal government, actualized by more than 400 
treaties, several Supreme Court decisions, prior Congressional action, 
and the ceding of more than one billion acres of land to the Federal 
government. Beyond the trust responsibility, the fact remains that TCUs 
are providing a public service that no other institutions of higher 
education are willing, or able, to provide by helping the Federal 
government fulfill its responsibility to the American people, 
particularly in rural America. Despite the fact that only students that 
are enrolled members of a Federally recognized Indian tribe are counted 
when determining the level of operating funds, TCUs have open 
enrollment policies and do not discriminate based on race or ethnicity. 
They are simply and effectively removing barriers that have long 
prevented equal access to higher education for reservation community 
residents.

          THE PRESIDENT'S BUDGET REQUEST FOR FISCAL YEAR 2006

    The President's fiscal year 2006 budget calls for a $9,766,000 
decrease in institutional operating funds, an 18.5 percent cut, to an 
already inadequate funding level and once again calls for the 
elimination funding for the two tribally chartered vocational colleges. 
Despite a $5 million increase in the fiscal year 2005 Appropriation, 
the 26 colleges currently funded under Title I of the Act are receiving 
$4,447 per full time Indian student (ISC), less than 75 percent of the 
authorized level of $6,000 per ISC. The cut proposed in the President's 
fiscal year 2006 budget, if enacted, would cause some TCUs to no longer 
be able to meet minimum requirements for stable funding needed to pay 
overhead and the salaries of faculty and staff. This would not only 
jeopardize their accreditation status but would most likely force some 
of the colleges to close their doors.

          AIHEC'S APPROPRIATIONS REQUEST FOR FISCAL YEAR 2006

    We respectfully request a total appropriation of $69.8 million for 
our Tribal College Act authorized programs. Our first priority within 
this request is to increase funding for the day-to-day operations of 
institutions funded under Titles I & II of the Act, for this we 
specifically request $67.5 million; of which, $49.8 million would be 
for Title I grants (funding 26 tribal colleges) and $17.7 would be 
allocated for Title II (Dine College). This request is an increase of 
$9 million for Title I grants and a $6.6 million increase for Dine 
College over fiscal year 2005 levels and a total of $24.275 million 
over the President's budget request. This increase would bring funding 
for the basic operations of the 26 Title I colleges to approximately 
$5,160 per ISC, which is still short of the authorized amount of $6,000 
per ISC. Additionally, we seek: $215,000 for the technical assistance 
contract under Sec. 105 of the Act, an increase of approximately 
$100,000 over the President's request. These funds will help address 
ever-emerging technical assistance needs and to fund data collection 
and analysis necessary to comply with the Congressional requests for 
additional information on TCU operations, and $2 million for endowments 
under Title III of the Act, an increase of $1,030,000 over fiscal year 
2005 and the President's budget request.
    For our two tribally controlled vocational institutions, we support 
$4.5 million for United Tribes Technical College; and $2.25 million for 
Crownpoint Institute of Technology to restore and expand the funding 
for these programs that the fiscal year 2006 President's budget 
recommends eliminating.

                               CONCLUSION

    Tribal colleges provide higher education to thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment in the Tribal Colleges and Universities has 
paid great dividends in terms of employment, education, and economic 
development. Continuation of this investment makes sound moral and 
fiscal sense. We very much need your help to sustain and grow our 
programs and achieve our missions.
    Thank you for your past and continued support of the nation's 
Tribal Colleges and Universities and your consideration of our fiscal 
year 2006 appropriations requests.
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals

        BUREAU OF LAND MANAGEMENT--WILD HORSE AND BURRO PROGRAM

    On behalf of more than 74,000 supporters or the American Society 
for the Prevention of Cruelty to Animals (hereinafter ``ASPCA''), I 
respectfully submit the following testimony regarding the Bureau of 
Land Management Wild Horse and Burro Program.
    In fiscal year 2001, the BLM received a $9 million budget increase 
to halve the number of wild horses on the range within four years. 
Despite the agency's inability to meet this goal, large numbers of 
horses were removed from the range and this new level of funding was 
maintained through fiscal year 2004. Last year, the agency requested 
another increase of $10.5 million (plus another $2.3 million from 
Southern Nevada Public Land Management Act funds) so that it can once 
again begin mass roundups to drastically reduce the number of wild 
horses and burros on the range from a rough estimate of 35,000 to just 
25,000 in a mere two to three years. Yet the agency has failed to 
conduct the most basic research to justify its proposed action. Despite 
a statutory requirement to base roundups on current data, the agency 
now spends less than 4 percent of its budget on range work, including 
monitoring and censusing of wild horse populations, even though such 
work is critical to the successful management of wild horse and burro 
populations and the range itself. In fact, most herd management areas 
haven't been censused for at least five years.
    The removal of large numbers of horses creates a management crisis, 
witnessed by recent events including the slaughter of 41 wild mustangs. 
Although the BLM has recognized the shortage of good adoptive homes and 
has subsequently opened several long-term holding facilities where 
horses are pastured in large groups, it is unclear how the agency can 
sustain this plan of action; as more horses are rounded up, additional 
facilities are needed. For 2005, BLM intends to round up 9,800 wild 
horses and burros but estimates it will only be able to place 7,150 
through the adoption program. Already the agency spends some 40 percent 
of its annual budget on caring for approximately 21,000 horses removed 
from the range, with nearly another 40 percent of the budget going to a 
marketing and adoption program that cannot successfully place the 
thousands of wild horses and burros rounded up annually.
    Furthermore, the BLM has not submitted a biannual report regarding 
the status of the wild horse and burro program to Congress, as provided 
for in the 1971Act. Astonishingly, 1997 was the last year the BLM 
presented a report to Congress, covering the years from 1992-1995. 
Since that time, the BLM has, for all intents and purposes, not been 
held accountable for its actions. Congress and the general public have 
been denied an opportunity to scrutinize the agency's management 
actions. Requesting additional funds to conduct massive and 
indiscriminate wild horse and burro removals to levels that jeopardize 
the welfare of these animals, while at the same time wasting hundreds 
of millions of taxpayer dollars on the environmentally destructive 
livestock grazing program, is nothing short of indefensible. The agency 
has apparently lost sight of its legal mandate to protect wild free-
roaming horses and burros.
    Most importantly, in light of the huge number of wild horses and 
burros being rounded up through emergency and scheduled gathers and the 
passage of a last-minute rider in the fiscal year 2005 omnibus spending 
package to allow for the slaughter of wild horses, it is imperative 
that the ``no-kill'' provision that has been attached to the Interior 
Appropriations bill for several years be included again in fiscal year 
2006. The Wild Free-Roaming Horse and Burro Act's core principles have 
always reflected the understanding that Americans want these animals to 
remain free from slaughter or other forms of killing. Therefore, we 
join with the Doris Day Animal League and other animal protection 
organizations in urging that the following language be incorporated 
into the bill:

    ``No appropriations made herein shall be available for the sale, 
slaughter or destruction of healthy, unadopted, wild horses and burros 
in the care of the Bureau of Land Management or its contractors.''

    Recent reports that 41 horses went to slaughter directly after they 
were sold by BLM highlights the urgent need for this language.
    Thank you for your time and consideration in this matter.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                           Indian Reservation

    The Fort Peck Tribes are pleased to present testimony on the fiscal 
year 2006 BIA and IHS Budget. The Tribes are disappointed that the 
Administration has proposed a $108 million decrease in funding in BIA 
programs, including cuts to the Tribal Priority Allocation (TPA) 
account, and an $86 million reduction in Indian Health Service 
Construction. We urge the Appropriators to reject these cuts and 
recognize the need to increase funding for critical tribal programs 
like law enforcement, resource management, child welfare and general 
assistance, community health nurses, and education.

                        BUREAU OF INDIAN AFFAIRS

The Fort Peck Reservation Rural Water System
    The Tribes request $200,000 for the operation, maintenance and 
replacement (OM&R) of the Fort Peck Reservation Water System. Congress 
enacted the Fort Peck Reservation Rural Water System Act of 2000, 
Public Law 106-382, to ensure safe and adequate municipal, rural and 
industrial water supply to all of the residents of the Fort Peck Indian 
Reservation. This law directs that funding for the operation of the 
water system is to come from the BIA. After several years of 
construction, the Tribes and the Bureau of Reclamation have completed 
the raw water intake facility and we now seek funding for the 
operation, maintenance and replacement costs for this facility as 
required by the Act. To date, the BIA has informed the Tribes it has no 
OM&R funds to award us for this project.

Funding for Law Enforcement Programs
    In the fiscal year 2006 budget, the Administration has failed to 
request sufficient funds to fulfill its basic trust responsibility in 
the areas of health and safety. The Fort Peck Tribes are particularly 
concerned with the failure of the Administration to request any 
increase in law enforcement funding across Indian county. The only 
increase for this account was directed for the operation and 
maintenance of detention facilities. The Tribes are facing a crisis in 
direct law enforcement services, most particularly in the area of 
staffing. Tribal and BIA law enforcement departments are unable to 
compete with local and other federal law enforcement agencies in salary 
and benefits packages. Thus, even when a Tribe has the resources to 
hire an officer, it is unable to retain him once he is fully trained 
and certified.
    This problem will become more acute for the Fort Peck Tribes at the 
end of this year because the Fort Peck Tribes will no longer be able to 
receive Department of Justice COPS hiring retention grants. Without 
this federal funding to support the Public Safety Department, the Fort 
Peck Department will go from a department of 47 to a department of 14 
positions, with only 8 patrol officers, a loss of 70 percent of our law 
enforcement personnel. Eight officers cannot adequately patrol a 2 
million acre Reservation with a population of over 11,000, with a high 
incidence of substance abuse and violent crimes. A survey of current 
officers has shown that they will not continue to work for the Tribes 
under conditions where they must patrol alone, respond to calls without 
backup, and work longer hours for the same or less pay.
    To address this need, the Fort Peck Tribes request $907,840 to be 
added to the Tribes' law enforcement base budget to ensure the 
continued staffing and operation of the Fort Peck Tribes Public Safety 
Department. Without these funds, the Fort Peck Tribal Council will 
reluctantly be forced to consider returning the operation and 
management of the law enforcement department, which the Tribes have 
operated under an Indian Self-Determination Act contract since 1995, 
back to the BIA.

Tribal Priority Allocations
    The BIA's Tribal Priority Allocations system is intended to give 
tribes an additional measure of flexibility to determine how best to 
use available fund for local needs. However, the Administration has 
requested a $9.3 million reduction (more then 10 percent) in this 
account. The basis for this reduction is remised on the need to 
reevaluate the TPA funding distribution formula and to divert funds for 
the Office of Special Trustee. We do not believe that there is a need 
to reevaluate the distribution formula or fund the OST at the expense 
of Tribal governments. We are certain that the needs in Indian Country 
far exceed the existing level of funding for the TPA account. The 
Administration is simply wrong in seeking a reduction in this account. 
Particularly alarming are proposed reductions for the welfare 
assistance and the Johnson O'Malley programs. Many tribal members or 
families who do not qualify for assistance under the Temporary 
Assistance to Needy Families (TANIFF) program receive welfare 
assistance (general assistance for unemployed individuals and child 
welfare assistance) from the Fort Peck Agency. The BIA follows the 
State of Montana's payment standards under TANIFF when making welfare 
assistance payments. Monthly rates just increased by $30. The BIA 
estimates that the fiscal year 2006 monthly payment to Welfare 
Assistance clients on the Fort Peck Reservation will total $48,000 or 
$576,000 for the fiscal year. Unless Congress increases funding for 
this program of last resort, eligible tribal members in need of 
assistance will be turned away.

Education
            Higher Education
    We urge the Committee to support the education needs of Indian 
people. The President's budget requests $27.4 million for scholarships 
for Indian students to attend accredited post-secondary schools. This 
cuts $500,000 from the fiscal year 2005 enacted level. Obtaining a 
degree in higher education particularly for those individuals from 
families that have not previously sent anyone to college takes courage 
and often considerable personal sacrifice. We believe it is our 
responsibility to support the efforts of our people to attend college. 
The Tribes provide scholarship funds available through the BIA program. 
However, the current levels of funding are already far too low. For 
example, this year the Tribes have identified 230 students who are 
eligible for scholarship benefits for higher education but who cannot 
be served because of lack of funds. The BIA itself reports that the 
level of unmet requests for scholarships nationwide has increased 
steadily over the last three years.

            Tribal Colleges
    We oppose the Administration's proposal to cut tribal colleges 
funding by $9.7 million. Tribal colleges are important institutions in 
the remote tribal communities that they serve. On our Reservation, we 
operate the Fort Peck Tribal College, a fully accredited institution, 
offering Associate Degrees in arts, science and applied sciences.
    The College offers our students an opportunity to obtain a higher 
education without having to leave their homes and families, which can 
strain important cultural ties. The need for rural Tribal colleges is 
critical for many of our students, especially our single parent 
students, who need family members in close proximity so that they can 
assist in child care duties. These students do not have the resources 
or the network to attend school in Billings or Missoula. If it weren't 
for our Tribal College they would have no opportunity to improve their 
lives through higher education. We strongly urge the Subcommittee to 
increase funding for this vital program that is improving the lives of 
Indian people.

                         INDIAN HEALTH SERVICE

    The President's budget requests for IHS services and construction 
is inadequate and will not keep pace with medical inflation rates. The 
health indicators in Indian communities consistently demonstrate higher 
infant mortality, teenage suicide, accident, alcoholism, diabetes, and 
heart disease rates among Indian people when compared with other 
minorities and the general American population. Yet money directed to 
health care, especially preventative care, such as routine checkups and 
health education, that clearly improve the quality of life and help 
avoid more expensive health care costs in the future, is sorely missing 
from the Administration's fiscal year 2006 budget requests. The Federal 
government has a trust responsibility reaffirmed through treaties, 
legislation, executive orders and policies by Congress and Presidential 
Administrations to provide health care to Native Americans, an 
obligation that was paid for by the Native people of this county with 
millions of acres of land, resources, and our traditional way of life. 
While the Administration has lost sight of this obligation, Congress 
cannot abdicate its responsibility to meet this well documented need. 
The costs that the United States will incur through lost business 
productivity, bankruptcies, and disrupted families by not funding 
preventive health care needs, and the costs that Indian tribes will 
incur through the unmet health needs of their members, will far exceed 
the funds Indian tribes will request the Congress to restore to the 
fiscal year 2006 budget.

Contract Health
    The Tribes' request a near doubling of our inadequate Contract 
Health budget to $10.413 million to meet the growing health demands of 
our more than 11,000 tribal members. Far too many members are not 
referred out for contract health care services which their primary 
health care professionals determine are medically necessary. Members 
are told that no funds are available for contract health services. 
Patients requiring surgeries are mostly given prescriptions for pain 
instead of receiving contract health services. The need for Contract 
Health care funding only highlights the Tribes need for a fully staffed 
and equipped health facility capable of providing a full range of 
medical services. The United States boasts the best health care system 
in the world. The time for improved health care services in Indian 
country is long overdue.

Health Program Specialist
    The Tribes' IHS funding request is $132,000 to continue funding 
four our Health Programs Specialist. This position was created by the 
Tribes in partnership with the IHS to better coordinate the delivery of 
preventative and treatment programs for the people of the Fort Peck 
Reservation. Specifically, the Health Programs Specialist coordinates 
Health and Wellness Promotion, Disease Prevention and Substance Abuse 
Treatment programs for all eligible Indian beneficiaries within the 
exterior boundaries of the Fort Peck Indian Reservation. For fiscal 
year 2005, the Indian Health Service was able to utilize carry-over 
funds to fund this position, although it was initially thought that the 
position would be funded by IHS Headquarters using Health Promotion and 
Disease Prevention (HP/DP) program funds. Unfortunately, we have now 
been informed by the IHS that if the Tribes want this program to 
continue then this position must be absorbed by our already underfunded 
Service Unit. We request that the Congress earmark an additional 
$130,000 for the Verne E. Gibbs Service Unit to fund our Health 
Programs Specialist position. We do not understand why the IHS is 
currently advertising for a GS-14/15 Health System Administrator 
position for the Billings Area Office at a time when they claim to have 
no funds for the Tribes' Health Program Specialist position.

Health Facilities Needs
    The Fort Peck Tribes are shocked and dismayed by the 
Administration's $86 million cut in IHS facilities construction. The 
Fort Peck Tribes are in dire need of an inpatient facility where our 
people can receive care and not have to be flown to Billings or 
Williston to receive adequate medical care. However, when we discussed 
this with Indian Health Service officials, we were told that the IHS 
will not consider the Fort Peck Reservation for a new in-patient 
facility. We further understand that it will take years to get on the 
list for a new facility and receive facilities funding. It is clear 
that there is extraordinary need for health facilities construction in 
Indian County, which is mostly rural in character and in dire need of 
additional medical facilities. We urge the Congress to examine this 
matter and restore the IHS facilities construction budget. This is the 
first step toward addressing this unmet need in Indian Country. We 
request that the IHS Regional Office be instructed to undertake a needs 
assessment regarding the proposed facility. Thank you for allowing us 
to submit these comments.

    LEVEL OF DEPARTMENT OF INTERIOR BUREAU OF INDIANS AFFAIRS AND IHS
                       FUNDING TO FORT PECK TRIBES
------------------------------------------------------------------------
                                                    Fiscal year
                                         -------------------------------
                                           2005 current    2006 adequate
------------------------------------------------------------------------

        Bureau of Indian Affairs

Fort Peck Agency:
    Aid to Tribal Gov't.................  ..............         $36,800
    Social Services.....................        $464,681         532,909
    Welfare Assistance..................         289,325         576,000
    Wildland Fire Protection............         173,413         246,807
    Economic Development................         147,705         191,668
    Probate.............................         119,621         175,476
    IBDP Grants.........................  ..............         375,000
    Other Rights Protection.............         159,661         205,027
    Real Estate Services................         707,780         989,524
    Executive Direction.................         109,907         147,674
    Administrative Services.............         282,800         359,510
    Trust Services......................          49,640          90,652
    Lease Compliance....................          67,650         105,682
    Safety Management...................  ..............           1,800
    Road Maintenance....................         422,000         447,000
    Irrigation O&M......................  ..............         299,200
    Facilities Op./Maintenance..........         441,460         494,376
                                         -------------------------------
      Total.............................       3,435,643       5,275,105
                                         ===============================
         Indian Health Services

Fort Peck service unit:
    Hospitals & Clinics.................       4,638,300       7,055,100
    Direct Operation....................           6,700           9,100
    Dental..............................         551,500       1,529,800
    Mental Health.......................         452,400         767,100
    Contract Health.....................       5,671,900      10,413,000
    Public Health Hearing...............         326,200         441,000
    Maintenance & Improvements..........          59,100         215,100
    Environmental Health................         316,000         427,200
    Facilities..........................         325,900         521,700
    Quarters............................          40,300         257,300
    AIDS Prevention.....................  ..............         135,200
                                         -------------------------------
      Total.............................      12,388,300      21,771,600
                                         ===============================
      Tribal Public Law 93-638 BIA

Contracts & grants:
    Assiniboine and Sioux Rural Water     ..............         200,000
     System O&M.........................
    Scholarships........................         326,817         345,000
    Adult Voc. Tech./Direct Employment..         277,893         304,000
    Johnson O'Malley Program............         157,945         172,000
    Housing Improvement Program.........         222,950       5,179,000
    Indian Child Welfare Act............          66,915          96,915
    Sexual Abuse Victim. Prog...........         148,670         150,600
    Water Resources.....................         104,561         126,426
    Fish & Wildlife.....................         112,000         212,614
    Tribal Courts.......................         235,784         549,764
    Law and Justice.....................       1,104,299       1,782,372
    Detention Services/juvenile services       1,782,372       2,140,764
    Appraisals..........................          50,782          50,782
    Water Mang. Planning................         105,600         105,600
    Noxious weed eradication............           9,630          25,000
    Natural resources...................         284,466         333,252
                                         -------------------------------
      Total.............................       4,990,684      11,774,089
                                         ===============================
      Tribal Public Law 93-638 IHS

Contracts & grants:
    Tribal Health Specialist............  ..............         130,000
    Tribal Health Administration........         140,255         147,268
    Community Health Rep................         704,838         740,080
    Environmental Health Program........         396,426         101,247
    Health Education....................         150,431         157,953
    Nutritionist........................          70,476         115,475
    Janitorial Services.................         121,550         127,627
                                         -------------------------------
      Total.............................       1,283,976       1,519,650
                                         ===============================
Spotted Bull Treatment Center:
    Alcohol Prevention/Education........         783,667         928,566
    Residential Aftercare...............         482,164         578,597
    Youth Services Center...............         114,700         185,471
                                         -------------------------------
      Total.............................       1,380,531       1,692,634
------------------------------------------------------------------------

                                 ______
                                 
           Prepared Statement of the Awwa Research Foundation

    Thank you for the opportunity to present Congressional testimony on 
behalf of the Awwa Research Foundation (AwwaRF or Foundation) and to 
introduce the work of the Foundation to the Subcommittee on Interior 
and Related Agencies. For fiscal year 2006, AwwaRF requests your 
consideration for a $5 million add-on for drinking water research in 
the EPA Science and Technology account. This request is made with deep 
appreciation for the past 18 years of support provided by Congress and 
with a firm understanding of the future challenges facing the water 
suppliers of the United States.
    AwwaRF first requested assistance from the VA-HUD-Independent 
Agencies Committee 22 years ago and was awarded three separate $1 
million earmarks in fiscal year 1984, fiscal year 1985, and fiscal year 
1986. AwwaRF matched the $3 million in earmarks by securing funding 
from leading water utilities. Priority drinking water research was 
initiated, studies were conducted through a process of peer review and 
competitive awarding of research grants, and results transferred to the 
water supply and regulatory communities. That was the beginning of a 
voluntarily funded, industry-sponsored non-profit research effort that 
has become an organizational model for environmental research programs 
throughout the world.
    Beginning in 1985, AwwaRF created the research subscription program 
in which water agencies voluntarily placed a research charge in their 
rate base. The donations from each participating utility are 
collectively used to fund priority research issues of the water supply 
community. To ensure the effective application of the funds, AwwaRF 
manages a comprehensive program of research identification, grant 
awards, and administration of research contractors. Hundreds of 
drinking water agencies throughout the United States and Canada have 
joined the research subscription program, making AwwaRF the most broad-
based research program in the world. In 1991, AwwaRF approached the VA-
HUD Committee once again, not for continued seed money, but with a 
request that the Congress help the water supply community leverage its 
own funding in order to address a growing list of drinking water 
research issues. The Committee has responded favorably to each of these 
requests from fiscal year 1992 through fiscal year 2005. During this 
same period, the number of AwwaRF subscribing utilities has increased 
to over 920 including water suppliers in England, Scotland, France, 
Australia, The Czech Republic, and South Korea. This underscores the 
global nature of drinking water research issues as well as the 
collaborative approach to solutions.
    The success of this type of public-partnership approach is evident 
in the fact that since 1983, the VA-HUD Committee's $52 million in 
earmarked add-ons to AwwaRF has been matched with $232 million in 
industry funding and $78 million in contributions. This means that the 
$52 million in Congressional earmarks has been leveraged to a total 
value of $362 million in drinking water research. In these difficult 
budgetary times, this kind of partnership is the best way to fund 
priority drinking water research.
    For fiscal year 2006, we request an earmarked add-on of $5 million, 
which is the same amount provided in fiscal year 2005. Among the 
priority research areas for fiscal year 2006 are:

                         WATER UTILITY SECURITY

    Foresight allowed the Foundation to quickly provide new tools to 
water utilities when the emphasis on security greatly increased after 
September 11, 2001. The Foundation's methodology for vulnerability 
assessment quickly became the core of the drinking water community's 
preparedness planning and is currently being used to conduct 
evaluations mandated by Congress.

                     NEW AND EMERGING CONTAMINANTS

    As the science of water advances, so does the ability to detect 
contaminants in drinking water that may affect human health. Research 
information is critical to determine where and to what extent these 
contaminants occur, how effective current treatment methods are at 
removing them, and what new technologies may be needed. The Foundation 
often provides regulators and the water community with the first data 
available on new contaminants. The information is used to identify 
knowledge gaps and develop research plans. Newly emerging contaminants 
such as perchlorate, endocrine-disruption compounds, and MTBE are the 
focus of current Foundation studies including the AwwaRF/East Valley 
Water District perchlorate research partnership funded through the 
efforts of Congressman Jerry Lewis.

                 INFRASTRUCTURE RENEWAL AND REPLACEMENT

    A notable percentage of U.S. drinking water distribution systems 
are reaching the end of their reliable lifespan. The CBO estimates that 
the national cost to replace this infrastructure is from $12 to $20 
billion per year over the next two decades. Research is critical for 
water utilities to make cost-effective, long-term capital planning 
decisions on how to renew, reuse, or replace their infrastructure. 
Fully 30 percent of the Foundation's annual budget has been allocated 
to infrastructure-related research. The findings are providing tools 
and technologies for cost-effective selection of pipe-renewal 
techniques, corrosion-control practices to prolong the life of existing 
pipes, and planning and asset management.

                          NEW SOURCES OF WATER

    Recurring drought and rapid population growth in regions where 
drinking water is already a scarce commodity has forced water utilities 
to look for new water sources to augment and sustain future water 
needs. The use of reclaimed wastewater, surface water and groundwater 
of poorer quality, seawater, and brackish water requires the 
development and application of new technologies. Foundation research is 
evaluating cost-effective and reliable techniques while considering 
energy costs and the responsible management of residues. Desalination 
and water sustainability are research areas of particular emphasis.
    Over 850 research projects have been completed or are ongoing. The 
collective result has been an expansion of knowledge that is of great 
value to both the drinking water and the regulatory communities.
    AwwaRF's initiatives began in the first term of President Reagan 
when budget deficits were threatening to choke off federal 
discretionary spending. These deficits continue for the fiscal year 
2006 appropriations cycle when the post 9-11 world threatens to curtail 
discretionary spending. In fiscal year 2006, AwwaRF, supported by 22 
years of credibility with Congressional and an internationally 
recognized program of drinking water research management, requests $5 
million in earmarked funding. AwwaRF has historically provided a 
funding leverage of almost $6 for every $1 of Congressional funds. In 
fiscal year 2005, this match was $7.52 for every $1 of Congressional 
add-on. It is expected that in fiscal year 2006 AwwaRF will continue or 
exceed the same level of participation by the water community.
    We trust that the urgency of the drinking water research agenda, 
AwwaRF's international credibility, and the provision for a significant 
funding match, provides a very compelling argument in support of a 
fiscal year 2006 earmark of $5 million.
                                 ______
                                 
              Prepared Statement of Cass County, Minnesota

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $1.2 million 
appropriation to the State of Minnesota from the Forest Legacy Program 
for the Brainerd Lakes conservation effort.
    I have served in the position of Cass County Land Commissioner for 
13 years. Cass County is a very fast growing rural county in North 
Central Minnesota. The population is increasing at an annual rate of 
approximately 5 percent a year. This is placing tremendous pressure on 
the quality of our natural environment. One of our main goals is to 
maintain the balance between growth and conservation of our natural 
resources for future generations.
    The Brainerd Lakes area of North Central Minnesota, located just 
two hours north of the Twin Cities metropolitan area, is a popular 
four-season recreation spot for residents of Minneapolis and St. Paul 
as well as other visitors attracted by its lakes, streams, rivers and 
forests. Visitors to the area enjoy fishing, hunting, skiing, snow-
shoeing, wildlife viewing, hiking, canoeing, and camping. In the 
summer, the population of the Brainerd Lakes area quadruples in size, 
and the outstanding recreational opportunities offered throughout the 
region are fueling a growing demand for second home development.
    As development pressures increase, efforts to protect the 
environmental, economic and social values of Minnesota's north woods 
are underway. This year, an opportunity exists to complete a 
conservation easement on 4,790 acres of privately owned forestland in 
the Brainerd Lakes region through the Forest Legacy Program. The 
Brainerd Lakes Forest Legacy project is a collaborative effort among 
the state of Minnesota, the Potlatch Corporation, and local community 
supporters to ensure the continued availability of these strategically 
located productive forestlands for multiple benefits. A conservation 
easement over these lands, which are immediately adjacent to Crow Wing 
and Pillsbury State Forests, will maintain the integrity of this 
productive forest, ensure public access and allow for sustainable 
forest management, thereby providing raw materials and jobs for the 
resource-based economy of northern Minnesota. The protection of these 
lands will also create a contiguous block of more than 22,000 acres of 
undeveloped forestland, one of the most significant remaining areas of 
open space in the Brainerd Lakes area.
    The President's budget proposal for fiscal year 2006 includes the 
$1.2 million needed for the Brainerd Lakes conservation effort. I urge 
you to support the full funding of this project in the fiscal year 2006 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    Support for fiscal year 2006 Federal Funding of $5.2 Million for 
the Department of the Interior--Bureau of Land Management to assist in 
the Colorado River Basin Salinity Control Program, with $800,000 to be 
designated specifically to salinity control efforts.
    Your support and leadership are needed in securing adequate fiscal 
year 2006 funding for the Department of the Interior-Bureau of Land 
Management with respect to the federal/state Colorado River Basin 
Salinity Control Program. This program is carried out as a part of 
ecosystem and watershed management pursuant to the Colorado River Basin 
Salinity Control Act (Public Law 93-320) and the Clean Water Act 
(Public Law 92-500).
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Due to geological 
conditions, much of the lands that are controlled and managed by the 
BLM are heavily laden with salt. Past management practices have led to 
human-induced and accelerated erosional processes from which soil and 
rocks, heavily laden with salt have been deposited in various stream 
beds or flood plains. As a result of this disposition, salt is 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its 
Environmental Quality Incentives Program (EQIP). In keeping with the 
Congressional mandate to maximize the cost-effectiveness of the 
salinity control program, the Colorado River Board of California 
(Colorado River Board) is requesting that Congress appropriate and the 
administration allocate adequate funds to support BLM's portion of the 
Colorado River Basin Salinity Control Program.
    The Colorado River Board, the state agency charged with protecting 
California's interests and rights in the water and power resources of 
the Colorado River System, requests that Congress appropriate 
$5,200,000 of these funds in fiscal year 2006, to accomplish activities 
that BLM either has underway or should initiate in order to further 
control the concentrations of salinity of the Colorado River. It is 
particularly important that the BLM's line item for Management of Lands 
and Renewal Resources be adequately funded. The Colorado River Board 
urges the Subcommittee to specifically mark, $800,000 from this line-
item for the Colorado River Basin Salinity Control Program as has been 
the direction to BLM from the Subcommittee in past years.
    The Colorado River Basin Salinity Control Forum (Forum), on behalf 
of the seven Colorado River Basin states, has submitted testimony to 
your Subcommittee. The Colorado River Board concurs in the fiscal year 
2006 funding request and justification statements for BLM as set forth 
in the Forum's testimony.
    California's Colorado River water users are presently suffering 
economic damages, estimated at $330 million per year, due to the 
River's salinity, as stated in a recent report prepared by the Bureau 
of Reclamation and The Metropolitan Water District of Southern 
California. In addition, the federal government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin states with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2006 and in future fiscal years, that the Congress provide 
adequate funds to the Bureau of Land Management for its activities 
related to salinity control in the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective Salinity Control 
Program will avoid the additional economic damages to river users in 
California.
    The Colorado River Board greatly appreciates your support of the 
federal/state Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this important program.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Grand Ronde 
                          Community of Oregon

    Mr. Chairman, Members of the Subcommittee, I am Jack Giffen, Jr., a 
Tribal Council Member of the Confederated Tribes of the Grand Ronde 
Community of Oregon. It is my pleasure to submit the Grand Ronde 
Tribe's following comments on the fiscal year 2006 Bureau of Indian 
Affairs and Indian Health Service appropriations items:
  --Reject the BIA's proposed restructuring of its Operation of Indian 
        Programs budget and direct the Agency to collaboratively work 
        with Indian tribes on any revision to the budget format;
  --Restore BIA Endangered Species funding in Non-Recurring Programs, 
        Resources Management, to the $3 million level established in 
        fiscal year 2002, and
  --In IHS, adjust the distribution of Contract Health Services funding 
        among Regions to reflect the absence of any IHS inpatient care 
        facilities within a Region.
    Our concerns are discussed below.
  reject the bia's proposed restructuring of its operation of indian 
  programs budget and direct the agency to collaboratively work with 
           indian tribes on any revision to the budget format
    Mr. Chairman, to the best of our knowledge, the Confederated Tribes 
of Grand Ronde have never received any specific information from the 
BIA regarding its proposal to ``restructure'' its Operation of Indian 
Programs budget. Nor have we ever been consulted on this proposal. Now 
we understand the BIA is asking your Subcommittee to approve this 
restructured budget. We urge you to reject that request and direct 
instead that the BIA enter into a collaborative effort with tribes to 
address perceived concerns with the current budget structure, and that 
the collaborators jointly report back to this Subcommittee with any 
recommendations for revising the budget structure.
    We particularly urge you to reject the BIA's budget restructuring 
proposal because we understand such a restructured budget is intended 
to pave the way for the BIA changing individual tribal-specific budgets 
from stable historically based amounts to so-called ``needs'' based 
amounts, which would be fluid and uncertain. Such a proposal is 
tremendously complicated and controversial, with very serious and long-
term consequences for tribal governments, our interaction with the BIA, 
the federal trust responsibility, and the unique government-to-
government relationship between the tribes and the United States. Such 
a change must not be undertaken without the full understanding and 
participation of the tribes. After all, it is the tribes--not the 
Bureau--that are to be served by the budget.

   RESTORE BIA ENDANGERED SPECIES FUNDING IN NON-RECURRING PROGRAMS, 
  RESOURCES MANAGEMENT, TO THE $3 MILLION LEVEL ESTABLISHED IN FISCAL 
                               YEAR 2002

    Mr. Chairman, our Tribe is what is called a ``restored'' tribe. 
After a long, harsh, and unjust termination, the Confederated Tribes of 
Grand Ronde were restored to federal recognition in 1983. In 1988, with 
the help of Congress, we had a part of our old reservation land base 
restored to us--about 10,000 acres of forest in the Coast Range. Upon 
the restoration of this land to us, it was removed from BLM 
administration and taken into trust by the Bureau of Indian Affairs. At 
that time, the BIA had no identified funding for Endangered Species-
related activities. In fiscal year 1991, with the listing of the 
Northern Spotted Owl in the Pacific Northwest, our Tribe, along with 
others, worked with Congress to establish a separate $1 million fund 
specifically for NSO ESA compliance activities on Northwest timber 
reservations. In fiscal year 1995 with the listing of the Marbled 
Murrelet, funding was increased to $1.83 million. In fiscal year 1996, 
the ESA compliance funds for Northwest timber tribes was combined with 
funds to reintroduce the Black Footed Ferret on the Cheyenne River 
Sioux Reservation, and the $2.6 million total was established as a 
separate Endangered Species program within BIA Non-Recurring Programs--
Resources Management. In fiscal year 2002, the Administration proposed 
cutting the program to $1.6 million, but Congress funded it at $3 
million. From then until fiscal year 2005, Administration requests and 
across-the-board cuts have diminished the program to about $2.2 
million.
    For fiscal year 2006, the BIA is requesting that all the Endangered 
Species Program funding except $210,000 be eliminated. Such a reduction 
will eliminate all funding for field-level ESA compliance activities in 
the Bureau of Indian Affairs. Nowhere else in the Agency's budget is 
any funding identified for the conduct of this federal mandate on a 
trust resource, the active harvest of which has long provided our 
Tribal government an important source of revenue. It is our 
understanding the BIA's fiscal year 2006 Budget Justification states 
that this reduction in funding ``will curtail the ESA compliance effort 
for individual timber sales.'' We agree.
    Today, about 6.1 million board feet of timber is harvested annually 
from our Reservation. All of this timber supports local non-Indian 
sawmills, and is becoming increasingly important as other sources of 
timber dry up and as imports place increasing pressure on domestic 
lumber prices. The elimination of field funding for the federal ESA 
mandate will have a significant impact on our ability to continue to 
supply timber into the local market. We will have to either curtail our 
harvest, or force the cost of the federal ESA mandate to be passed 
along to local mills. Neither is an attractive option for our Tribe or 
for the local timber economy.
    We understand that the ESA budgets for other federal agencies are 
proposed to remain relatively robust for fiscal year 2006, including an 
$80 million program for states and territories. We absolutely fail to 
understand how, at the same time, the BIA can propose to eliminate its 
only source of funding for federally-mandated on-the-ground ESA 
compliance for a forest resource it is obliged to manage in trust for 
the benefit of tribes, and upon which many tribes heavily rely for 
basic governmental revenues. It is unjust and unjustifiable, and we 
urge the Subcommittee to restore these funds.

  IN IHS, ADJUST THE DISTRIBUTION OF CONTRACT HEALTH SERVICES FUNDING 
AMONG AREAS TO REFLECT THE ABSENCE OF ANY IHS INPATIENT CARE FACILITIES 
                             WITHIN AN AREA

    Mr. Chairman, we request that your Subcommittee look into the 
equity of the Indian Health Service's distribution of its Contract 
Health Services funds among the IHS Areas with regard to the presence 
or absence in the various Areas of IHS-funded inpatient health 
facilities, and to direct an appropriate adjustment for those Areas 
that do not have any such facilities.
    The IHS Portland Area, covering Oregon, Washington, and Idaho, does 
not have a single IHS inpatient facility. Almost all other Areas 
(California may be an exception) have numerous IHS inpatient facilities 
offering hundreds of beds, the availability of which provides an IHS-
funded alternative to otherwise sending a Native American patient to a 
non-federal hospital. In the Portland Area, we do not have that option, 
and all our inpatient requirements must be taken care of at non-IHS 
hospitals and charged against our allocation of Contract Health 
Services funds. Almost all other IHS Areas have two IHS funded sources 
for inpatient care--IHS inpatient facilities and Contract Health 
Services, while the Portland Area has only one source that must cover 
all our needs--Contract Health Services. We do not believe the current 
CHS funding distribution methodology takes this disparity into account, 
and that, accordingly, the Portland Area is inequitably penalized.
    Mr. Chairman, the ability of the IHS to provide reasonable health 
services to all Native Americans is in crisis and getting worse. With 
grossly insufficient resources, IHS personnel every day are making 
quick ``life or limb'' decisions that often turn people away to 
otherwise avoidable or untimely sickness or death. It is exactly 
because the IHS system is so overstressed that we urge your 
Subcommittee to make sure that the Portland Area, with no IHS inpatient 
facilities, is assured of receiving equitably adjusted participation in 
Contract Health Services funding. When every dollar is essential, it is 
essential that every dollar be equitably distributed. So, we ask you to 
review the CHS funding distribution methodology, and adjust it for 
Areas that do not have IHS funded inpatient facilities as an option.
    That concludes my testimony. Thank you.
                                 ______
                                 
   Prepared Statement of The Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

                                SUMMARY

    Mr. Chairman, I am Ron Suppah, Chairman of the Confederated Tribes 
of the Warm Springs Reservation. I hereby present the following 
requests for the fiscal year 2006 BIA and IHS appropriations:
  --Reject the BIA's proposed budget restructuring,
  --Add $2 million to BIA TPA Forestry designated for Warm Springs,
  --Restore Endangered Species funding in Non-Recurring Programs to 
        $3,000,000,
  --Restore BIA Water Management Planning & Pre-Development in Non-
        Recurring Programs and add $500,000 for Warm Springs water 
        settlement implementation,
  --Add or earmark $750,000 for Warm Springs in BIA Law Enforcement, 
        Special Programs and Pooled Overhead,
  --Add $2.5 million to IHS Hospitals and Clinics to fulfill U.S. 
        commitments in the Warm Springs IHS Joint Venture Agreement 
        Pilot Project,
  --Fully fund BIA's JOM and Welfare Assistance programs,
  --Direct the OST to fully consult with tribes on the implementation 
        of OST's trust reform initiatives and that BIA funds shall not 
        be diverted to OST, and
  --We request the Committee work with the NW Portland Area Indian 
        Health Board to revise the Medicare Modernization Act to 
        respect the unique legal relationship between Indian tribes and 
        the federal government.

  REJECT THE BIA'S PROPOSED RESTRUCTURING OF THE OPERATION OF INDIAN 
                            PROGRAMS BUDGET

    In the early 1990s, Warm Springs participated in the Tribal-BIA 
Joint Task Force that developed the current BIA budget system, which 
the Interior Appropriations Subcommittees adopted in fiscal year 1993, 
to delineate those parts of the BIA budget subject to tribal control 
and eliminate opaque BIA budget practices. The current Tribal Budget 
System continues to be supported by the tribes.
    The BIA now asserts that the budget format, which they helped 
develop and under which they have been operating for twelve years, is 
``confusing and complex,'' and is urging Congress to adopt a new budget 
format that has not been reviewed by the tribes, provides less detail, 
enables increased internal transfers without oversight or explanation, 
and is intended to facilitate a drastic and fundamental change in the 
sensitive fiscal relationship between tribes and the Bureau--changing 
from a stable and predictable historically based tribal budget to an 
uncertain, shifting and murky ``needs'' based tribal budget. These 
changes entirely favor the BIA and disadvantage the tribes. Yet the BIA 
budget is for the benefit of tribes, not the BIA. Especially when 
budgets are tight, the federal obligation should be to the tribes and 
not the BIA. There is no need to rush to adopt the BIA's proposal, and, 
in fact, there is great reason to proceed with caution and due 
deliberation. The BIA must explain to its ``stakeholders'' why it feels 
budget change is needed, and then work with the tribes, as it did in 
the early 1990s, to address whatever budget structure adjustments might 
be warranted. We urge the Subcommittee to direct the Bureau to do so.

     ADD $2 MILLION TO BIA TPA FORESTRY DESIGNATED FOR WARM SPRINGS

    We request the addition of $2 million to the Bureau of Indian 
Affairs Tribal Priority Allocation budget specifically for the BIA 
Forestry program at Warm Springs. The insufficiency of BIA Forestry 
funding has been documented many times. The IFMAT-II report found 
federal Indian forest funding to be strikingly below that for National 
Forests and recommending that BIA Forestry funding be increased by $119 
million annually to achieve funding parity. At Warm Springs, we 
recently were awarded a $14 million judgment in a lawsuit against the 
BIA for timber mismanagement. Since 1996 when the Tribe received its 
initial ruling that the BIA had breached its trust responsibility, BIA 
Forestry funding has not increased on our Reservation, and in fact has 
declined from the early 1990s. The $2 million increase for Warm Springs 
is necessary for BIA to fulfill its trust responsibility for our forest 
resource.

    RESTORE ENDANGERED SPECIES FUNDING IN NON-RECURRING PROGRAMS TO 
                               $3,000,000

    This budget item is the only BIA funding for northern spotted owl 
and marbled murrelet ESA compliance, and was initiated by Congress in 
fiscal year 1993. Since then, BIA has twice sought to significantly 
reduce it, but Congress has steadily maintained the program. Now, for 
fiscal year 2006, BIA requests only $210,000, eliminating all field 
funding and acknowledging in the Justification the cut will ``curtail 
the ESA compliance effort for individual timber sales.'' For fiscal 
year 2006, we ask that the program be restored to at least the fiscal 
year 2002 level of $3,000,000, because our commercial timber harvest 
and economy are so dependant on funding of this federal mandate.

   RESTORE BIA WATER MANAGEMENT PLANNING AND PRE-DEVELOPMENT IN NON-
RECURRING PROGRAMS TO $7.7 MILLION AND ADD OR EARMARK $500,000 FOR WARM 
            SPRINGS WATER SETTLEMENT IMPLEMENTATION STUDIES

    We request $500,000 be specifically provided for the Warm Springs 
Tribe to complete the studies and planning necessary for Water 
Management Planning and Pre-Development on the Reservation. In 1997, 
Warm Springs was the first tribe in many years to reach a negotiated 
water settlement with the United States and the State of Oregon. This 
settlement left most of the water in the Metolius and Deschutes Rivers 
and eliminated the need for the expensive water development legislation 
that normally accompanies tribal water settlements. But financial 
support is still needed for the Tribe to realize many of the benefits 
of the settlement, including development of a Comprehensive Warm 
Springs Water Development Plan, conduct of water quality modeling for 
the Deschutes River Basin, and examining potential energy development. 
Adding or designating $500,000 will allow the Tribe to pursue these 
projects and will allow the Tribe and the United States to realize the 
benefits of settlement.

   ADD OR EARMARK $750,000 FOR WARM SPRINGS IN BIA LAW ENFORCEMENT, 
                  SPECIAL PROGRAMS AND POOLED OVERHEAD

     Beginning in the early 1960's, as our Tribe began to assert more 
jurisdiction and authority over Reservation law enforcement, the BIA 
responded by gradually transferring federal funding elsewhere. For 
fiscal year 2006, we note that the Administration has requested an 
increase of more than $11 million for Law Enforcement programs. 
However, only $2.5 million of that increase is for officers and 
equipment. Our concern is that this fiscal year 2006 requested increase 
will be directed to those locations where tribes have left law 
enforcement responsibility entirely up to the BIA. Tribes such as Warm 
Springs that have stepped forward to help share local law enforcement 
responsibilities must not be penalized for having done so, and should 
share in BIA LES funding increases.
    The needs at Warm Springs are severe. Our tribal police force is 
extremely overextended. Major crime has increased on our Reservation to 
the degree that the FBI has assigned an additional agent in the area. 
Additionally, the Warm Springs jail, designed and built by the BIA, 
fails to meet current federal requirements, especially for juvenile 
offenders. BIA must meet its responsibilities for the public safety of 
the Warm Springs Reservation. Accordingly, we request that the Congress 
direct an increase of $750,000 in BIA Law Enforcement Services for Warm 
Springs.

ADD $2,500,000 TO IHS HOSPITALS AND CLINICS TO FULFILL U.S. COMMITMENTS 
     IN THE WARM SPRINGS IHS JOINT VENTURE AGREEMENT PILOT PROJECT

    From fiscal year 2002 through fiscal year 2005, the IHS budget 
increased by an average of 3.1 percent annually, but the real 
purchasing power of the IHS budget was diminished by an estimated $886 
million. The Northwest Portland Area Indian Health Board estimates that 
it will take an increase of $371 million in fiscal year 2006 to 
maintain current program services levels nationwide. The 2.1 percent 
fiscal year 2006 increase amounts to only $62.9 million. Moreover, 
after covering mandatory pay increases and new facilities staffing at 
$27.4 million, only $34.5 million is available for program increases. 
This increase will amount to less than 10 percent of the amount of 
purchasing power that will be lost to medical inflation. It is truly a 
``drop in the bucket''.
    In 1993 the Congress, Indian Health Services (IHS) and the Warm 
Springs Tribe entered into an innovative ``Joint Venture Pilot 
Project'' where the Tribe financed and constructed a new clinic to 
federal standards and the Congress and IHS agreed to fully fund and 
staff an enhanced health care program in the new facility. However, IHS 
has failed to live up to its promise. And inadequately funded federal 
mandates have further diminished health services at Warm Springs. Due 
in part to these financial pressures, the Portland Area Office has 
begun to renege on the terms of the JV agreement. We request a $2.5 
million increase in funding IHS Hospitals and Clinics to offset 
unfunded pay costs, to adjust for 12 percent medical inflation and to 
provide full direct services for Warm Springs.

          FULLY FUND BIA'S JOM AND WELFARE ASSISTANCE PROGRAMS

    The BIA's welfare assistance program cut of $6.4 million, more than 
7 percent, is cruel and short-sighted. The vaunted economic recovery 
has yet to arrive in Indian Country, and the 30 percent unemployment 
level at Warm Springs is more than twice the level in the second-most 
depressed county in rural Oregon.
    Regarding JOM, in 1960 our Tribe entered into an agreement with the 
State and the local public school district to provide our students with 
a better K-12 education. Since that time, the BIA's Johnson O'Malley 
program has provided partial but critical funding to support our 
students in the local school district. The 53 percent cut to the JOM 
program will result in the loss of vital school programs. We urge the 
Committee to reject these cuts.

 DIRECT THE OST TO FULLY CONSULT WITH TRIBES ON THE IMPLEMENTATION OF 
   TRUST REFORM INITIATIVES AND THAT BIA FUNDS NOT BE DIVERTED TO OST

    The Administration's budget includes a significant increase for 
trust management within the Office of the Special Trustee (OST). It 
appears that millions of dollars and significant FTE are being 
transferred from the field where they are most needed to centralized 
operations and bureaucracies in Albuquerque, NM and Washington, DC. It 
makes little sense to transfer funding, staff and management authority 
from the very resource management programs needing improvement in the 
name of ``trust reform''. Many of the trust management problems facing 
the BIA have resulted from inadequate systems and insufficient staff in 
the field necessary to properly fulfill their fiduciary trust duties. 
Funding levels for field staff functions including resources 
management, appraisals, inspections, enforcement, collections, title, 
records and probate must be increased and their administrative systems 
overhauled to improve fiduciary trust operations to the ``most 
exacting'' standards. Further, appropriate trust reform improvements 
must provide flexibility necessary to deal with the unique needs, 
circumstances and differences among tribes.

 WE REQUEST THE COMMITTEE WORK WITH THE NW PORTLAND AREA INDIAN HEALTH 
 BOARD TO REVISE THE MEDICARE MODERNIZATION ACT TO RESPECT THE UNIQUE 
  LEGAL RELATIONSHIP BETWEEN INDIAN TRIBES AND THE FEDERAL GOVERNMENT

    For the past several years the Committee has assumed that both IHS 
and tribes will increase Medicare and Medicaid collections and assumes 
an $8.4 million increase in fiscal year 2006. However, these same 
programs are implementing changes that will result in the reduction of 
collections. The Medicare Modernization Act (MMA) will reduce IHS 
Medicare reimbursements, including reductions of up to $25 million for 
prescription drugs provided through IHS and tribal programs. Also, the 
President has proposed $48 billion in Medicaid cost savings over the 
next 10 years. The Oregon Health Plan is already reducing patient 
eligibility for the program as well as adding new payment restrictions, 
which will increase annual costs to the Tribes' Managed Care Program 
from $600,000 to $1.2 million annually. They will also reduce 
reimbursements for health care services provided by the WSSU. Rationing 
of certain health care services is the logical result if these cuts 
continue. Further compounding this problem is the Administration's 
departure from past policy that acknowledged the federal government's 
unique legal responsibilities to provide services to tribes and 
Indians. We urge the Committee to remind the Administration of the 
unique trust obligation to tribes and Indian people.
    Mr. Chairman, that concludes the Warm Springs' fiscal year 2006 
testimony on BIA and IHS.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife

    Defenders of Wildlife is a national non-profit organization 
dedicated to saving and restoring wildlife and wildlife habitat. We 
have substantial concerns about the administration's fiscal year 2006 
budget and make recommendations in the following priority areas.
    1. Fish and Wildlife Service (FWS): Endangered Species (ESA) 
Program.--Defenders urges a total of $212 million for the four 
endangered species operations accounts, an increase of $68.8 million 
over fiscal year 2005 allocated as follows: $30 million for Listing, an 
increase of $14 million; $15 million for Candidate Conservation, an 
increase of $5.8 million; $110 million for Recovery, an increase of 
$40.1 million; and $57 million for Consultation, an increase of $8.9 
million. In addition, we request revision of the annual earmark for 
California condor recovery through the Peregrine Fund to include 
funding for all three recovery areas, including central California, 
rather than only for Arizona and Southern California as has been done 
historically.
    We are extremely disappointed that the President's $140.1 million 
request cuts FWS ESA implementation by $3 million or 2 percent below 
enacted. Although the administration contends that increases in grant 
programs will meet the same needs, these cannot substitute for mandated 
FWS obligations under the ESA. Recovery funding is substantially cut by 
nearly $6 million or 10 percent even though FWS has said that more than 
200 already listed species are on the verge of extinction, primarily 
due to insufficient recovery funds. The administration requested a $2.2 
million sorely needed increase in listing, but it is paid for by cuts 
in other endangered species accounts--and even that amount will not 
begin to cover the more than $150 million listing backlog and at least 
286 candidate species. While consultation does receive a modest 
increase, candidate conservation is cut by $1 million, yet both of 
these programs are in need of significant increases. Demand for efforts 
to conserve the long list of candidates while they await protection far 
exceeds funding; increases are needed to fund projects with local 
stakeholders and partners. In addition, the number of projects reviewed 
under the Consultation program has increased from 40,000 in 1999 to 
more than 75,000 in 2004 and further increases are expected. Finally, 
the development and implementation of Habitat Conservation Plans 
(HCPs), which allow activities to proceed while still protecting 
species, continues to expand, with funding critically needed to help 
ensure timely and effective development and monitoring of 440 existing 
and nearly 300 new HCPs and to alleviate the two to four year waiting 
period for new HCP applications.
    2. Fish and Wildlife Service: National Wildlife Refuge System 
Operations and Maintenance.--Defenders and the Cooperative Alliance for 
Refuge Enhancement, a diverse coalition of 21 conservation, recreation 
and scientific organizations, are requesting an fiscal year 2006 
increase of $16 million over enacted for a total of $397 million. We 
greatly appreciate the subcommittee's support in the past and ask that 
it be continued. We further request that any increase provided be 
directed to the System's highest operational priorities rather than to 
the ``Cooperative Conservation Initiative,'' as proposed in the 
president's budget, which is administered at the departmental level and 
does not address the most pressing operational needs. The National 
Wildlife Refuge System is our nation's only public lands system 
dedicated to wildlife conservation. Each year, 40 million people visit 
and enjoy wildlife refuges--there is a refuge in every state and within 
an hour's drive of most American cities. Despite its crucial role in 
the conservation of our nation's wildlife, the Refuge System has been 
crippled for years by severe funding shortfalls. Current information 
indicates that the full operations and maintenance backlog totals $2.7 
billion--the operations backlog is $1.4 billion of which the highest 
priority needs total $290 million, while the maintenance backlog is 
$1.3 billion.
    3. Fish and Wildlife Service: Multinational Species Conservation 
Fund (MNSCF).--Defenders urges $10.5 million, an increase of $4.8 
million over the fiscal year 2005 level for this small but highly 
successful program aimed at providing resources for on the ground 
conservation of endangered wildlife in foreign countries. This Fund 
uses small amounts of money appropriated by Congress to leverage a 3 to 
1 match in private dollars for every government dollar. These dollars 
have funded anti-poaching patrols for rhinos in Indonesia and rebuilt 
wildlife reserves destroyed by war in the Congo. Despite this 
tremendous success and the already meager funding for these programs, 
however, the administration has proposed cutting the Fund by $1.4 
million, a damaging 25 percent reduction from last year. Defenders is 
also opposed to a proposal in the budget to place the Neotropical 
Migratory Bird Fund under the MNSCF, a move that will help further the 
administration's tendency to play budgetary shell games. Moreover, the 
two programs are administered through different FWS divisions, so it 
makes no sense to combine them.
    4. Fish and Wildlife Service: Wildlife Without Borders.--Defenders 
urges a total of $2.5 million, an increase of $0.5 million over the 
2005 level of $2 million for Wildlife Without Borders. This is an 
important program that supports the Department of the Interior in 
meeting its obligations to conserve species of international concern 
around the globe. We are particularly concerned that a $394,000 
reduction proposed in the president's budget appears to eliminate most 
of the Mexican portion of the program which helps train indigenous 
people to care for the environment through agricultural methods that 
reduce economic dependency on their forests and lands thus protecting 
important habitat for species such as pronghorn sheep and monarch 
butterflies. This program is an important funding mechanism for trans-
border work. It is especially important in light of increasing 
pressures on habitat from NAFTA-stimulated development, growing 
Department of Homeland Security activities (fencing, lighting, 
vegetation removal, motorized access into remaining remote areas) and 
urbanization of the border region. Wildlife Without Borders supports 
win-win, collaborative, multi-party and entrepreneurial approaches to 
conservation.
    5. Bureau of Land Management (BLM): Sage Grouse and Range 
Improvement Fund.--Defenders supports the $7.6 million request in the 
president's budget for conservation of the sage grouse and other 
sagebrush dependent species. Fully funding the BLM's sage grouse 
conservation efforts is essential if the BLM National Sage Grouse 
Habitat Conservation Strategy, released in November of 2004, is going 
to have a chance at success. In light of the Fish and Wildlife 
Service's decision not to list the sage grouse under the ESA, BLM, as 
the largest manager of sage grouse habitat in the country, is now the 
primary responsible agency for sage grouse conservation. In addition, 
Defenders is concerned that the administration's failure to request an 
appropriation from the Range Improvement Fund to fund range improvement 
projects will result in direct conflict and competition with already 
under funded BLM wildlife programs through the Challenge Cost Share 
program. If not funded through the Range Improvement Fund, these 
projects will be forced to compete with legitimate wildlife 
conservation projects.
    6. Forest Service: Wildlife and Fisheries Programs.--Defenders 
urges funding at no less than last year's level of $134.7 million for 
the Wildlife and Fish Management account. The president's budget 
slashes this account by almost $10 million, more than a 7.8 percent 
cut. The 193 million acre National Forest System is critically 
important to the conservation of wildlife, fish and their habitat--more 
than 425 species listed under the Endangered Species Act and an 
additional 3,200 at risk species occur on Forest Service lands. Fish 
and wildlife resources on our National Forests are important to people 
all across the nation--about 40 million visits per year are primarily 
for hunting, fishing or wildlife viewing. We also are concerned that 
funding for the Wildlife, Fish, Water and Air activity under the Forest 
Service Research and Development program appears to be substantially 
declining. Several years ago, the budget for Forest Service R&D was 
consolidated such that amounts for individual activities are no longer 
explicitly shown in the president's budget. Agency information shows 
that funding levels for Wildlife, Fish, Water and Air dropped from $52 
million in 2003 to $39.9 million in 2004, nearly a 25 percent cut and 
were only at $45.3 million for 2005 despite a steady increase in the 
R&D budget.
    7. Fish and Wildlife Service: Migratory Bird Programs.--Defenders 
supports the President's request of $41.6 million for Migratory Bird 
Management, an increase of nearly $6.2 million over the fiscal year 
2005 level, and we urge at least $1 million over the fiscal year 2005 
$4 million level for the Neotropical Migratory Bird Conservation Act. 
As currently funded, these programs cannot fulfill their mandates to 
adequately monitor and plan for the conservation of 825 species of 
migratory birds, of which more than 750 species are non-game birds. 
Nearly 100 non-game birds are listed under the ESA and 131 species are 
on the FWS current list of Birds of Conservation Concern. Thus, over 25 
percent of all U.S. migratory birds are in serious need of conservation 
to assure their long-term survival.
    8. Bureau of Indian Affairs: Native American Fish and Wildlife 
Society.--Defenders supports an allocation of $750,000 for the Native 
American Fish and Wildlife Society through the Bureau of Indian Affairs 
resources management account, an increase of $282,000 over the static 
$468,000 level allocated to the Society for many years. The Native 
American Fish and Wildlife Society is a national tribal organization 
incorporated in 1983 to develop a communications network for the 
exchange of information and management techniques to assist Native 
Americans with the conservation, protection and enhancement of their 
wildlife resources. Efforts on tribal lands are critical to the 
conservation of our nation's biodiversity and Defenders believes that 
the Society and its role will become increasingly important in this 
work.
    9. Conservation Trust Fund (CTF).--Defenders urges full funding of 
the CTF (conservation spending category) at its dedicated fiscal year 
2006 level of $1.8 billion for the Interior appropriations subcommittee 
portion of the fund. Unfortunately, the President's budget cuts the 
fund by nearly a billion dollars or 52 percent below its dedicated 
fiscal year 2006 level. While we greatly appreciated the subcommittee's 
strong support for fully funding and maintaining the integrity of this 
historic dedicated fund during its first two years, we are dismayed 
that in subsequent years the subcommittee has backed away from its 
commitment. We understand that the subcommittee continues to be under 
substantial funding constraints not within its control, and we again 
will be working to generate congressional support for a 302(b) 
allocation sufficient to allow full funding for the CTF. Defenders 
continues to believe that establishment of the CTF was the greatest 
piece of conservation funding legislation enacted in our lifetimes and 
a commitment that must be kept.
    State and Tribal Wildlife Grants Program.--Defenders and the more 
than 3,000 organizations nationwide in the Teaming With Wildlife 
Coalition request at least $85 million, $16 million above the 2005 
level, for this important program for fiscal year 2006 under the CTF. 
Within this amount, we strongly support increases for the tribal 
portion of the program which provides crucial funding for wildlife 
projects and assessments to conserve the many declining species on 100 
million acres of tribal lands. We are grateful for the subcommittee's 
support and while we appreciate the administration's requested increase 
of $5 million, the amount still falls far below the need. This 
important program gives states desperately needed funding to develop 
and implement comprehensive conservation plans to protect declining 
species and their habitats before protection under the ESA is 
necessary. The key to the program's success in its ability ultimately 
to avert the need to list numerous species in the future is the 
planning process which requires states to produce a comprehensive 
wildlife conservation strategy by October 2005. We urge the 
Subcommittee to continue its oversight of this critical process.
    Land and Water Conservation Fund (LWCF).--Defenders urges funding 
of at least $450 million for LWCF under the CTF, $194 million above the 
enacted level: $350 million for federal LWCF and $100 million for state 
LWCF. We further urge Congress to maintain the integrity of the LWCF 
and reject the administration's continued attempts to use it to fund 
other programs. Despite the administration claim that LWCF is funded at 
$680 million, the total for true LWCF purposes is only $132 million. 
Fifteen other important but non-LWCF programs are used to make up the 
difference. In particular, we urge inclusion of $3 million for 2,500 
acres in the Suwannee Wildlife Corridor in Florida between Osceola 
National Forest and Okefenokee National Wildlife Refuge and funding for 
acquisition in the Lower Rio Grande Valley National Wildlife Refuge in 
Texas which protects the highest diversity of birds in the National 
Wildlife Refuge System--lands planned for acquisition are jeopardized 
by rapidly increasing development and more than 40 willing sellers are 
available.
    Other Important Fish and Wildlife Service Grants.--Defenders 
recommends $90 million for the Cooperative Endangered Species Fund, $10 
million over the 2005 level and supports the request of $40 million for 
Landowner Incentive Grants and $10 million for Private Stewardship 
Grants under the CTF. Eighty per cent of habitat for more than half of 
listed species occurs on non-federal lands. The Cooperative Endangered 
Species Fund provides grants to states for conservation activities on 
non-federal lands both for listed and candidate species. Landowner 
Incentive and Private Stewardship Grants provide funding to states and 
private landowners for efforts to conserve species at risk on private 
lands. In addition to supporting the president's request, Defenders 
also supports allocation of $6 million of the total $40 million 
Landowner Incentive Program request to strengthen the technical 
capacity of the national network of state Natural Heritage Programs. By 
making a small proactive investment, Congress can strengthen the 
ability of the network to provide the empirical data needed to inform 
voluntary conservation efforts and natural resource decisions. This 
request would provide funding to each of the 50 states to improve their 
natural heritage information resources, and to NatureServe to ensure 
the national consistency and quality of these state-based data.

                                 ______
                                 
           Prepared Statement of the Doris Day Animal League

    The Doris Day Animal League is a non-profit, member supported 
animal advocacy organization located in Washington, D.C. On behalf of 
our more than 350,000 members and supporters, we respectfully present 
to the subcommittee testimony pertinent to the Bureau of Land 
Management's Wild Horse and Burro Program.
    In 1971, Congress charged the BLM with preserving America's wild 
horses and burros via passage of the Wild Free-Roaming Horse and Burro 
Act. The Act declares that ``wild free-roaming horses and burros are 
living symbols of the historic and pioneer spirit of the West . . . 
[who] shall be protected from capture, branding, harassment or death.'' 
Further, they are to be considered as ``an integral part of the natural 
system of the public lands.'' We are gravely concerned that the BLM is 
failing to fulfill this mandate.
    In fiscal year 2001, the BLM received a $9 million budget increase 
to halve the number of wild horses on the range within four years. 
Despite the agency's failure to meet this goal, large numbers of horses 
were removed from the range and this new level of funding was 
maintained through fiscal year 2004.
    Last year, the agency requested another monumental increase of 
$10.5 million (plus another $2.3 million from Southern Nevada Public 
Land Management Act funds) so that it can once again conduct mass 
roundups to drastically reduce the number of wild horses and burros on 
the range from an estimated 39,000 to 25,000 in just two to three 
years. Yet the agency has failed to conduct the most basic research to 
justify its proposed action. Despite a statutory requirement to base 
roundups on current data, the agency now spends just 3 percent of its 
budget on range work, including monitoring and censusing of wild horse 
populations, even though such work is critical to the successful 
management of wild horse and burro populations and the range itself. In 
fact, most herd management areas haven't been censused for at least 
four years.
    The need for such basic field research cannot be over stressed. 
Multiple roundups in recent years brought in significantly fewer horses 
than had been anticipated. One explanation is the BLM's reliance on old 
data. Further, the agency operates on the premise that wild horses and 
burros have an annual population growth rate of 20-25 percent when the 
rate may be closer to 18 percent. The very real possibility exists that 
the agency may actually take the wild horse and burro population well 
below the arbitrary target Appropriate Management Level of 25,000 
animals, simply because it doesn't actually know how many horses and 
burros roam the range today.
    The removal of such huge numbers of horses also creates a 
management crisis. Although the BLM has recognized the shortage of good 
adoptive homes and has subsequently opened several long-term holding 
facilities where horses are pastured in large groups, it is unclear how 
the agency can sustain this plan of action; as more horses are rounded 
up, additional facilities are needed. Already the agency spends some 40 
percent of its annual budget on caring for some 21,000 horses removed 
from the range, with nearly another 40 percent of the budget going to a 
marketing and adoption program that can never be expected to 
successfully place the thousands of wild horses and burros rounded up 
annually. Allowing these animals to be sold without limitation, as is 
now allowed via a recent amendment to the 1971 Act, is no answer 
either. The recent slaughter of dozens of mustangs sold under this new 
authority demonstrates this in the starkest of terms.
    Ironically, while the government is spending millions to remove 
wild horses and burros from the range, it spends millions more to 
subsidize livestock grazing on public lands, a practice that has been 
cited by the General Accounting Office as being the primary cause of 
range degradation: ``. . . the primary cause of degradation in 
rangeland resources is poorly managed domestic livestock (primarily 
cattle and sheep) grazing . . . wild horses are vastly outnumbered on 
federal rangelands by domestic livestock . . .'' (Rangeland Management: 
Improvements Needed in Federal Wild Horse Program, GAO, 1990). Despite 
some grazing reductions in recent years, domestic livestock still so 
dramatically outnumber wild horses on BLM land (the ratio is estimated 
to be 50:1) that the removal of tens of thousands of horses has not had 
a significant impact on the health of the range.
    Most importantly, in light of the huge number of wild horses and 
burros being rounded up through emergency and scheduled gathers and the 
passage of the last-minute amendment in the fiscal year 2005 omnibus 
spending package to allow for the slaughter of wild horses, it is 
imperative that the ``no-kill'' provision that has been attached to the 
Interior Appropriations bill for several years now remain intact. The 
Wild Free-Roaming Horse and Burro Act's core principles have always 
reflected the understanding that Americans want wild horses and burros 
to remain free from slaughter or other forms of killing. Therefore, it 
is imperative that this following language be incorporated into the 
Interior Appropriations bill:

    ``No appropriations made herein shall be available for the 
slaughter or destruction of healthy, unadopted, wild horses and burros 
in the care of the Bureau of Land Management or its contractors.''
                                 ______
                                 
         Prepared Statement of the Endangered Species Coalition

    On behalf of the undersigned organizations and the millions of 
members we represent nationwide, we urge you to fully fund programs of 
the Endangered Species Act at the U.S. Fish and Wildlife Service at a 
level of no less than $212 million for the fiscal year 2006 
appropriations process.
    The Endangered Species Act is a safety net for wildlife, plants and 
fish that are on the brink of extinction. This law successfully helped 
to bring back our nation's majestic symbol, the American Bald Eagle. We 
have a responsibility to future generations to protect endangered 
species and the special places they call home. However, for years, the 
Endangered Species Act has been under funded, making it difficult for 
the U.S. Fish and Wildlife Service experts to carry out their 
responsibilities under the Endangered Species Act.
    The four Fish and Wildlife Service endangered species operating 
accounts are key to effective implementation of the Endangered Species 
Act, however, President Bush requested a total of only $140.1 million, 
a cut of $3.1 million or 2 percent in his fiscal year 2006 budget. 
These important accounts should be funded at a level of no less than 
$212 million for fiscal year 2006.
    The undersigned organizations request the following funding 
increases for the U.S. Fish and Wildlife Service endangered species 
operating accounts:

                                LISTING

    The listing line item funds the addition of species to the 
endangered and threatened species list and the designation of critical 
habitat. This line item has suffered years of chronic under funding. 
Due to the lack of resources, a backlog of listing decisions and 
critical habitat designations has built up over the years. There are a 
total of 286 species currently awaiting protection on the Candidate 
List. An astounding 65 species have been languishing without protection 
since 1975. The Fish and Wildlife Service has estimated a need of at 
least $153 million to alleviate the backlog. The President's budget 
requested $18.1 million. While this is an increase of $2 million above 
2005 enacted levels, it is still well below the actual need. To begin 
to address the backlog, Listing should be funded at no less than $30 
million for fiscal year 2006.

                                RECOVERY

    While the Endangered Species Act has been extremely successful at 
preventing wildlife from going extinct, the purpose of the Endangered 
Species Act is to protect and recover endangered and threatened fish, 
plants and wildlife. The President's budget requested $64.2 million for 
recovery, a cut of $5.6 million, or nearly 10 percent, below last 
year's enacted levels. By turning its back on recovery funding, the 
Bush administration is setting the Endangered Species Act up for 
failure. The administration claims that the increases in the grant 
programs will benefit recovery. However, there are no assurances that 
funding provided through the grant programs will help the Fish and 
Wildlife Service meet its mandatory responsibilities under the Act to 
research, develop and implement recovery plans; to monitor the 
populations of listed species; or to oversee species recovery. The Fish 
and Wildlife Service has indicated that more than 200 currently listed 
species may be extremely close to extinction because of the lack of 
resources dedicated to recovery. Recovery should be funded at no less 
than $110 million.

                              CONSULTATION

    The consultation program is the ``look before you leap'' mechanism 
that the federal departments and agencies must go through in order to 
proceed with a federal project in areas where endangered and threatened 
species are located. This process reviews the impacts to species, while 
identifying alternatives and mitigation measures needed to ensure that 
the federal government is not driving species to extinction through its 
actions. It is an important part of the checks and balances system to 
ensure that endangered fish, wildlife, and plants are protected on the 
ground. Shortage of personnel in this program area causes delays of 
project reviews thus creating conflicts between agencies. The 
consultation budget also funds the Service's work with non-federal 
entities for permitting and development of Habitat Conservation Plans; 
lack of funding prevents the Fish and Wildlife Service from ensuring 
that these plans are properly developed, implemented and monitored. The 
President's budget requested $49.4 million for consultation, an 
increase of approximately $1 million over the fiscal year 2005 enacted 
amount. Consultation should be funded at no less than $57 million.

                         CANDIDATE CONSERVATION

    This program protects species before they are actually listed, thus 
in theory averting the need to ever list them at all. The theory fails 
to hold up when not enough money is provided to arrest the decline of 
candidate species. The President's budget request is $8.3 million, a 
cut of $1 million below last year's level. Candidate Conservation 
should be funded at no less than $15 million.
    The Endangered Species Act is a broadly supported and very 
successful law. Without the necessary funding, an increasing number of 
species will slip closer to the brink of extinction. We ask the members 
of the Appropriations Committee to fully fund the Endangered Species 
Act this year.
    Abyss Marine Technologies, Hunstville, AL; Alaska Wilderness 
League, Washington, DC; American Bird Conservancy, Washington, DC; 
American Malacological Society, Wilmington, DE; American Rivers, 
Washington, DC; Animal Protection Institute, Sacramento, CA; Animal 
Protection Voters, Santa Fe, NM; Arizona Native Plant Society, Tucson, 
AZ; Aveda, Minneapolis, MN; Black Bear Conservation Committee, Baton 
Rouge, LA; California Turtle and Tortoise Club, Van Nuys, CA; 
Californians for Radioactive Safeguards, Atherton, CA; Center for 
Biological Diversity, Tucson, AZ; Center for Native Ecosystems, Denver, 
CO; Colorado Wild, Durango, CO; Conservation Science Institute, Front 
Royal, VI; Conservation Havens LLC, Boulder, CO; Defenders of Wildlife, 
Washington, DC; Delaware-Otsego Audubon Society, Oneonta, NY; 
Endangered Habitats League, Los Angeles, CA; Endangered Species 
Coalition, Washington, DC; Environmental Commons, Gualala, CA; First 
Class Fitness, Inc., Hicksville, NY; Forest Guardians, santa Fe, NM; 
Foundation for Global Sustainability, Knoxville, TN; Glen Canyon 
Institute, Salt Lake City, UT; Great Egg Harbor Watershed Association, 
Newtonville, NJ; Greendale Environmental Group, Greendale, WI; Green-
Rock Audubon Society, Beloit, WI; Habitat Education Center, Madison, 
WI; High Country Citizens Alliance, Crested Butte, CO; Humane Education 
Network, Menlo Park, CA; The Humane Society of the United States, 
Washington, DC; Jumping Frog Research Institute, Angels Camp, CA; 
Kittatinny Group, Sierra Club, Kutztown, PA; Mass Audubon, Boston, MA; 
Maricopa Audubon Society, Tempe, AZ; National Audubon Society, 
Washington, DC; National Forest Protection Alliance, Missoula, MT; 
National Wildlife Federation, Washington, DC; Native Plant Conservation 
Campaign, San Francisco, CA; Natural Resources Defense Council, 
Washington, DC; New England Wild Flower Society, Framingham, MA; New 
Mexico Audubon Council, Los Alamos, NM; Northwest Ecosystem Alliance, 
Bellingham, WA; Ohio Valley Environmental Coalition, Huntington, WV; 
Pacific Green Party, Portland, OR; Predator Conservation Alliance, 
Bozeman, MT; Public Employees for Environmental Responsibility, 
Washington, DC; Puget Sound Urban Wildlife Photography Club, Issaquah, 
WA; The Rewilding Institute, Albuquerque, NM; Rogue Valley Audubon 
Society, Medford, OR; Sagebrush Sea Campaign, Chandler, AZ; Salem 
County Watershed Task Force, Woodstown, NJ.; Southern Appalachian 
Biodiversity Project; Asheville, NC; Southern Maryland Audubon Society, 
Inc.; Waldorf, MD; Stanford Open Space Alliance, Stanford, CA; Students 
for the Environment and Animal Life, Barrington, IL; T&E, Inc.; 
Cortato, AZ; Tennessee Native Plant Society; Nashville, TN; Turtle 
Island Restoration Network, Forest Knolls, CA; U.S. Public Interest 
Research Group, Washington, DC; Western Nebraska Resources Council, 
Chandron, NE; Wild Virginia, Charlottesville, VA; and The Xerces 
Society for Invertebrate Conservation, Portland, OR.
                                 ______
                                 
Prepared Statement of Friends of Balcones Canyonlands National Wildlife 
                                 Refuge

    Mr. Chairman and Honorable Members of the Subcommittee, my name is 
Heidi Wittenborn, President of Friends of Balcones Canyonlands National 
Wildlife Refuge, and on behalf of the Friends organization I would like 
to express my appreciation for this opportunity to submit our 
testimony. Friends urges you to appropriate $1.9 million from the Land 
and Water Conservation Fund for the U.S. Fish and Wildlife Service to 
acquire a conservation easement for Balcones Canyonlands National 
Wildlife Refuge. The property to be protected is key Golden-cheeked 
Warbler habitat and would connect the two largest blocks of habitat on 
the Refuge, creating a continuous habitat corridor. Its acquisition 
would be a significant step towards the long range goal of completing 
the Refuge. Acting now is particularly important, as the window of time 
is closing rapidly as a result of urban expansion, and the opportunity 
for protecting the species is at risk.
    Friends is a nonprofit, volunteer organization. Its mission is to 
support, complete, and enhance Balcones Canyonlands National Wildlife 
Refuge and its diverse ecology, and promote its use for recreational, 
educational, and scientific purposes. The organiza-tion's membership is 
drawn primarily from Central Texas communities situated near the 
Refuge.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step towards recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 21,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the City and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    Balcones Canyonlands Refuge, although 13 years old, is not yet half 
complete. It is important to act now as time is a critical 
consideration in completing the Refuge. Because of the proximity of the 
Refuge to the Austin metropolitan area, urban expansion is a serious 
threat to habitat needed by the Refuge. There are already three real 
estate developments within the acquisition boundary of the Refuge.
    This year, a conservation easement is available on the 623-acre 
Armstrong property, which contains a substantial amount of Golden-
cheeked Warbler habitat, and on which this important bird has been 
sighted. Portions of the property also may be suitable for management 
of Black-capped Vireo habitat. The property is in a strategic location 
and will connect major segments of the Refuge, alleviate cumulative 
habitat fragmentation within the approved acquisition area of the 
Refuge, and preclude development and land uses that would be 
incompatible with the Refuge's objectives. It is anticipated that the 
conservation easement covering this segment of the Refuge could be 
acquired for $1.9 million and that the transaction could be consummated 
within 6 months following appropriation of the needed funds.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a source of eco-tourism for the surrounding area. 
Over the longer term, the Balcones Refuge is expected to become a major 
draw for birders interested in viewing the endangered Warbler and 
Vireo, for which this area provides unique habitat. The Refuge has been 
described as one of the Last Great Places by the Nature Conservancy and 
as an ``Important Bird Area'' by two national conservation groups based 
on its ``global importance'' to the endangered Warbler and Vireo.
    Also, Balcones Canyonlands offers Central Texas a variety of 
recreational opportunities compatible with wildlife protection. Once 
completed, Balcones Canyonlands will be a step towards providing 
additional accessible public outdoor areas, identified as a critical 
need in a recent study for Texas Parks and Wildlife.
    For all of these reasons Friends of Balcones Canyonlands National 
Wildlife Refuge strongly recommends that you set aside $1.9 million 
from the Land and Water Conservation Fund for Balcones Canyonlands 
Refuge for fiscal year 2006.
    Thank you again for the opportunity to present this statement to 
the Subcommittee.
                                 ______
                                 
  Prepared Statement of Friends of Big South Fork National River and 
                         Recreation Area, Inc.

    I want to thank you for the opportunity to submit this testimony on 
behalf of the Friends of Big South Fork National River and Recreation 
Area, Inc. The Friends of the Big South Fork is a non-profit group of 
interested citizens formed to support and promote the Big South Fork 
National River and Recreation Area by raising funds to preserve, 
restore and enhance the park's natural and cultural resources, to 
provide improved services and facilities for visitors, to increase 
public awareness and support of the park and to enhance educational and 
interpretive activities, thus increasing public appreciation, 
understanding and protection of the park. The Friends recognize the 
Park as both a National Treasure and one of our most important Local 
Resources. We Proactively Assist the National Park Service in 
protecting, preserving and interpreting this National Resource, and 
particularly in educating the public to the many resources it offers. 
We are requesting in Priority form for the Big South Fork NRRA, 
$4,458,300 and for the Obed Wild and Scenic River $3,174,000.
    The following are two needs we have in the region in the process of 
fulfilling our boundaries for Big South Fork National River and 
Recreation Area and Obed Wild and Scenic River. It is important to this 
region and the Cumberland Plateau to fully fund these land 
acquisitions.

                LAND ACQUISITION FOR BIG SOUTH FORK NRRA

    There are approximately 5,900 acres of privately held property 
within the authorized boundary of the Big South Fork NRRA (125,000 
acres). One parcel of 242.6 acres has already been subdivided for 
development and is a threat to the gorge. A second parcel of 404 acres 
(approximately 90 acres of which fronts the gorge) is currently being 
developed by the property owner who says that he intends to develop all 
the way down to the gorge. A group of concerned organizations 
approached the landowner about buying a portion of the property to 
buffer the creek but he said it was all or nothing and wanted $1 
million for the parcel.
    BISO submitted two NPS LARS for fiscal year 2006 with the following 
requests:
Priority 1
    Proposed number of tracts: 2
    Proposed number of acres: 625
    Estimated dollar amount: $2,062,500
Priority 2
    Proposed number of tracts: 6
    Proposed number of acres: 726
    Estimated dollar amount: $2,395,800

            LAND ACQUISITION FOR OBED WILD AND SCENIC RIVER

    Currently one-third of the land within the park boundary is in 
private ownership. The fiscal year 2006 LARS request states, ``Last 
year, one of the largest tracts of land in private ownership was sold 
to a private developer because the NPS did not have the funds to 
purchase the land. This developer plans to subdivide the tract for home 
sites. This tract of just under 200 acres included approximately 2 
miles of river frontage, an old road that leads to the river, and 
several rock shelters. The park is concerned about the developer 
reopening the old road and providing access to the river that will 
diminish the wild' values for which it was set aside.''
NPS LARS for fiscal year 2006
    Proposed number of tracts: 40 (all remaining)
    Proposed number of acres: 1,397
    Estimated Cost: $3,174,000 \1\
---------------------------------------------------------------------------
    \1\ The park received $750,000 for land acquisition in fiscal year 
2004 which will reduce this total dollar amount as well as the number 
of tracts and acres remaining to be purchased once the money is 
expended.
---------------------------------------------------------------------------
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    Mr. Chairman, Members of the Committee, I, Peter J. Defoe, Chairman 
of the Fond du Lac Band of Lake Superior Chippewa, would like to thank 
you for this opportunity to present testimony on fiscal year 2006 
appropriations. The Fond du Lac Reservation was established by Treaty 
with the United States on September 30, 1854, and encompasses 100,000 
acres of land in northeastern Minnesota. The Band provides employment 
or services to nearly 6,500 Indian people living within the service 
area of the Reservation. Because federal funds are essential to meet 
the needs of Indian people, the Fond du Lac Band urges Congress to 
restore or increase funding in the following areas:

Bureau of Indian Affairs
  --Tribal Priority Allocation--restore full funding, including $8.8 
        million for Johnson O'Malley
  --Public Law 93-638 Pay Cost Increases
  --Fond du Lac Law Enforcement and Resource Management Appropriation--
        $10 million increase
  --Circle of Flight--$592,000
  --Natural Resources--restore full funding to resource management 
        programs
  --Tribal Colleges and Universities--restore $9.8 million
  --School Construction and School Operations--restore full funding to 
        education programs
Environmental Protection Agency
  --Indian General Assistance Program (GAP)--restore $5 million
  --Clean Water Program--restore $131.8 million
  --State and Tribal Assistance Grants--restore $643.9 million
  --Clean Water State Revolving Fund--restore $120 million
Indian Health Services
  --Increase funding for Indian health care

                        BUREAU OF INDIAN AFFAIRS

    The fiscal year 2006 BIA Budget proposes substantial cuts which 
would be a decrease of $110 million from the fiscal year 2005 enacted 
levels. If implemented, these funding reductions would severely reduce 
our ability to provide essential services to our members, educate our 
children, care for our elderly and infirm and protect and manage our 
natural resources.
    Tribal Priority Allocations (TPA).--We request that Congress 
restore full funding to the TPA program and specifically restore $8.8 
million to the Johnson O'Malley program. TPA funds enable tribes to 
provide vital programs and services, including education, social 
services, law enforcement, courts, resource management, road 
maintenance and administrative services. Johnson O'Malley funding, 
which helps Indian children with tutoring, cultural enrichment and 
Native language education, is critical to tribal education programs. 
Nearly $100 million was cut from the TPA in 1996, and this cut has 
never been restored. Proposed cuts for fiscal year 2006 include $8.8 
million to Johnson O'Malley, $6.4 million to welfare assistance and 
$431,000 for energy development programs. If implemented, these cuts 
would severely erode this irreplaceable source of funds for essential 
tribal government services. The proposed $9.9 million fixed costs 
increase does not offset the loss in funds from the permanent, across-
the-board reductions each year, and the targeted cuts in this year's 
budget.
    Public Law 93-638 Pay Cost.--We ask Congress to restore full pay 
cost funding for all tribes in fiscal year 2006, and restore pay cost 
funding not received in fiscal year 2002-2005 through a special 
appropriations equitable adjustment. The only general increase tribes 
could count on each year was a cost of living pay increase, known as 
the 638 Pay Cost account. Tribes received only 75 percent of their 638 
pay cost funding in fiscal year 2002, only 15 percent in fiscal year 
2003 and about 30 percent in fiscal year 2004. As a result, tribes' 
core service funding is far less, in real terms, than nearly a decade 
ago. I strongly urge the Committee to restore full pay cost funding for 
all tribes in fiscal year 2006 and to consider restoring funds not 
received in past years.
    Fond du Lac Law Enforcement and Resource Management Program.--We 
request a one-time appropriation of $10 million to the Fond du Lac 
Resource Management Program for law enforcement and natural resource 
protection ($1.5 million in base funding for court operations and law 
enforcement, $1.5 million for resource management and conservation 
enforcement, and $7 million for expansion of office space). We strongly 
support the Administration's request for additional funding under the 
Indian Country Law Enforcement Initiative but request that additional 
funds be made available to the Band.
    In 1997, the Minnesota Supreme Court held that certain traffic 
regulations are ``civil-regulatory'' in nature and are unenforceable on 
the Reservation under Public Law 280. In order to fill this void, the 
Band established its own police force, using COPS, BIA and Tribal 
funds. In addition, the Band has worked with all local law enforcement 
agencies to establish a cross-deputization agreement that ensures 
maximum law enforcement protection for the Reservation. However, 
because of the short-term, limited financial resources available, there 
are significant unmet needs in this area, particularly in light of 
proposed reductions in COPS funding. Given this increased 
responsibility, the Band needs funding to expand the staff and its 
capabilities. With this in mind, we request that $1.5 million be added 
to our base budget to continue to implement the enforcement systems for 
the Band.
    The Band is also responsible for enforcing Band law in connection 
with members' exercise of hunting, fishing and gathering rights 
reserved under Treaties with the United States in 1837 and 1854. The 
courts, including the Supreme Court, have expressly reaffirmed the 
Band's hunting and fishing rights under these Treaties, which can be 
exercised over approximately 8 million acres in northern and central 
Minnesota. It is also essential that the Band continue to manage on-
reservation resources in order to meet the demands of an increasing 
population. The on-reservation resources and the off-reservation Treaty 
rights are vitally important to Band members as they provide the 
foundation for our culture, subsistence, employment and recreation. 
Therefore, we seek an additional $1.5 million in base funding for the 
Fond du Lac Resource Management Division to enable us to protect these 
resources for future generations. The funds for this program have not 
been increased since 1991. We also request $7 million for the expansion 
of office space, as our current building is inadequate to house both 
law enforcement and natural resource management staff.
    Circle of Flight.--We ask Congress to restore the Circle of Flight 
program to the BIA's fiscal year 2006 budget to at least the fiscal 
year 2005 level of $592,000, and to consider providing the fiscal year 
2006 requested amount of $1.113 million. The Tribal Wetland & Waterfowl 
Enhancement Initiative (Circle of Flight) was again eliminated by the 
President in his fiscal year 2006 budget request. Circle of Flight has 
been one of Interior's most effective resource programs for many years. 
Since fiscal year 1991, Great Lakes tribes and our partners have 
restored or enhanced more than 66,000 wetland, grassland and native 
prairie acres. The program has invested more than $6 million in habitat 
projects, and has leveraged these dollars for an additional $18 million 
in federal, state, private and tribal funding, yielding an impressive 
match ratio of 3 to 1.
    Natural Resources.--We support full restoration of funding for all 
natural resource programs including: $452,000 to the Central Office 
Natural Resources Program, $11.2 million to Non-Recurring Programs and 
$2 million for Water Management Planning & Development.
    Tribal Colleges & Universities (TCU).--We ask that the proposed 
decrease of $9.8 million to the TCU program be restored. Tribally-
controlled colleges are vitally important for Indian education because 
the success of Indian students at tribal colleges is much higher than 
at other colleges. In 1987, the Fond du Lac Tribal and Community 
College--a partnership between the Fond du Lac Band and the State of 
Minnesota--opened its doors. The College currently serves 492 Indian 
students, with a full-year equivalency of 269, a 135 percent increase 
from 1998. The proposed cut would reduce the grant amount available to 
individual colleges. In order to prevent closure of tribal colleges or 
loss of educational services, we ask Congress to fully fund this 
program. Funding for TCUs must be increased from fiscal year 2005 
levels to account for inflation and increases in student enrollment. 
TCUs are significantly under-funded compared to state community 
colleges and desperately need funding for increased operations costs.
    Education: School Construction.--We support restoration of the 
$89.5 million proposed cut to education construction and the 
restoration of proposed cuts to other education programs. School 
construction and operation funding is essential for tribes to provide 
comprehensive educational services to children of all ages. The Fond du 
Lac Band was fortunate to be one of the few tribes in recent years to 
receive funding for new school construction and in 2002, the Band 
completed construction of the Fond du Lac Ojibwe School, which is an 
example of the successful use of tribal education construction funding.
    Education: School Operations.--We support restoration of $1.3 
million to BIA school operations funding and full funding for 
Administrative Cost Grants. While a portion of the proposed budget 
would increase the Indian School Equalization Program (formula funds), 
which we fully support, that increase cannot be offset by other 
reductions in education funding as those other funds are essential for 
tribes to meet the requirements of the No Child Left Behind Act. We 
also recommend full funding of the Administrative Cost Grants at $64 
million to meet 100 percent of need. These funds provide critically 
needed administrative support for tribally-controlled schools similar 
to contract support costs. The BIA has acknowledged that currently it 
only addresses 70 percent of need for the Administrative Cost Grants.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Fond du Lac Environmental Program has been addressing a number 
of important environmental problems and projects on our Reservation. We 
support restoration of the following proposed cuts to the EPA budget, 
which would impact our ability to provide environmental services:
  --Restore $5 million to the Indian General Assistance Program (GAP), 
        which is essential for development of tribal environmental 
        programs and provides vital support for further expansion and 
        improvement of the Band's program.
  --Restore $131.8 million to the Clean Water Program, which provides 
        grants to tribes under Section 106 of the Clean Water Act to 
        protect water quality and aquatic ecosystems. We use this 
        funding for water quality monitoring, data collection, and 
        protection and restoration of aquatic ecosystems.
  --Restore $643.9 million for State and Tribal Assistance Grants. This 
        program is the source of funds for our air quality monitoring 
        project.
  --Restore $120 million to the Clean Water State Revolving Fund. This 
        program provides funds for and state and tribal wastewater 
        treatment systems.

                         INDIAN HEALTH SERVICE

    The proposed increase of $72 million is inadequate, considering the 
substantial unmet need for health care in Indian country. The Band 
supports the efforts of all Indian tribes to receive 100 percent of the 
Level of Need Formula (LNF) so that it can address the serious and 
persistent health issues that confront its community. The Band serves 
about 5,500 Indian people at its clinics, but the current funding level 
meets only 38 percent of our health care funding needs. In addition, 
the Band requests an increase in funding for substance abuse and mental 
health programs in order to combat the growing methamphetamine problem 
on our Reservation.

                 SUPPORT FOR PROPOSED BUDGET INCREASES

    Finally, the Band supports the proposed increases in the budget for 
the following programs: $31.1 million for Fixed Costs associated with 
BIA programs; $2 million for the new Leadership Academy; $23 million in 
competitive grants to states and tribes for environmental and health 
projects under the EPA State and Tribal Performance Fund; $5 million 
for Tribal Wildlife Grants and $18.3 million for the Landowner 
Incentive Program, FWS programs addressing the considerable need for 
managing shared natural resources. The Band has received grants from 
the FWS programs this year, which will be used for important fisheries, 
wildlife and wild rice management and restoration projects.
    In conclusion, the needs at Fond du Lac and throughout Indian 
country remain massive. Preservation of current BIA funding is critical 
to maintain program levels. Your consideration of our additional 
funding requests will enable us to improve the delivery of services to 
Band members and help ensure that we enter the 21st Century with a 
renewed sense of hope. If we can provide any additional information, 
please do not hesitate to contact our counsel, Mary J. Pavel or Anne D. 
Noto at Sonosky, Chambers, Sachse, Endreson & Perry LLP, 1425 K Street 
NW, Ste. 600, Washington D.C. 20005; 202-682-0240(tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9b4a9b8afbcb599aab6b7b6aab2a0f7bab6b4">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdaca3a2b9a28dbea2a3a2bea6b4e3aea2a0e3">[email&#160;protected]</a> Miigwech. Thank you.
                                 ______
                                 

        Letter From the Grand County Council, Grand County, Utah

                                      Grand County Council,
                                        Moab, Utah, April 25, 2005.
Hon. Conrad Burns, Chairman,
Hon. Byron L. Dorgan, Ranking,
Senate Appropriations Subcommittee on Interior and Related Agencies, 
        U.S. Senate, Washington, DC
    Dear Sirs: I am writing this letter on behalf of the Grand County 
Council expressing our support of our local Bureau of Land Management 
Moab Field Office's application for 2006 Land Water Conservation Funds 
in the amount of $1.2 million.
    The money would allow the BLM to purchase 14 acres of private lands 
in the Colorado River Special Recreation Management Area (SRMA) for 
expansion of BLM's Westwater Ranger Station. This expansion would allow 
the BLM to add additional parking, campsites and a leach field for 
wastewater.
    The money would also be used to purchase a conversation easement of 
530 acres of riverfront property located downstream of the Westwater 
Ranger Station. This easement would prevent development in a habitat 
for nesting bald eagles, four endangered fish species and for 
enhancement of wetland properties.
    We strongly support this application and ask that you do all that 
you can to lobby for the Colorado River SRMA project on behalf of the 
BLM office in Grand County.
    Thank you for consideration of this request.
            Sincerely,
                                   Jerry McNeely, Chairman,
                                              Grand County Council.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

 AGENCIES--BUREAU OF INDIAN AFFAIRS AND ENVIRONMENTAL PROTECTION AGENCY

    1. BIA Treaty Rights Protection/Implementation.--$4.196 million 
($325,000 above fiscal year 2005 enacted).
    Agency/Program Line Item.--Department of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Other Recurring Programs, 
Resources Management, Wildlife and Parks, Rights Protection 
Implementation, Great Lakes Area Resources Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that it shares with the 1854 Authority.
---------------------------------------------------------------------------
    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
Self-Determination and Educational Assistance Act, 25 U.S.C. 
Sec. Sec. 450f and 450h; and the treaties between the United States and 
GLIFWC's member Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 
491, Treaty of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and 
Treaty of 1854, 10 Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    2. EPA Environmental Programs and Management.--$300,000 (fiscal 
year 2004 enacted).
    Agency/Program Line Item.--Environmental Protection Agency, 
Environmental Programs and Management (funneled through the EPA's Great 
Lakes National Program Office).
    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    As Congress has recognized for over 20 years, funding for GLIFWC's 
conservation, habitat protection, and law enforcement programs: (i) 
honors federal treaty obligations to eleven Ojibwe Tribes; and (ii) 
provides a wide range of associated public benefits. The lack of a 
secure funding base jeopardizes GLIFWC's ability to: (i) implement 
federal court orders and intergovernmental agreements governing the 
exercise of treaty-guaranteed hunting, fishing and gathering rights; 
and (ii) participate in cooperative management partnerships in 
Wisconsin, Michigan and Minnesota.
    1. BIA Treaty Rights Protection/Implementation.--$4.196 million. As 
its primary Indian Self-Determination and Educational Assistance Act 
funding base, GLIFWC seeks to:
    a. Restore $100,000 of base funding that Congress consistently has 
provided since fiscal year 2002 but that the Administration has not 
proposed for fiscal year 2006;
    b. Restore $75,000 of base funding for annual pay cost adjustments 
that the Administration has funded in previous years but has failed to 
include in its fiscal year 2006 budget proposal; and
    c. Provide $150,000 in additional base funding to sustain 
enhancements in conservation law enforcement and emergency services 
capabilities.
    2. EPA Environmental Programs and Management.--$300,000. As an EPA 
funding base for its primary environmental program elements, GLIFWC 
seeks to:
    a. Provide $189,700 for basic scientific/technical capabilities to: 
(i) continue participation in a number of Great Lakes initiatives 
(including the Binational Program to Restore and Protect Lake Superior, 
the Lake Superior Lakewide Management Plan (LaMP), and the Great Lakes 
Regional Collaboration); (ii) carry out habitat and human-health 
related research; and iii) provide the requisite analysis and data to 
support participation in regional initiatives and to assess the impact 
of particular projects on tribal treaty rights.
    b. Provide $110,300 to undertake three habitat and human health-
related research projects regarding: (i) GLIFWC's fish consumption 
mercury advisory program; (ii) ceded territory sulfide mining site 
evaluation and monitoring; and (iii) a Lake Superior herring 
contaminant assessment.

       CEDED TERRITORY TREATY RIGHTS--GLIFWC'S ROLE AND PROGRAMS

    Established in 1984, GLIFWC is a natural resources management 
agency for its 11 member Ojibwe Tribes regarding their ceded territory 
(off-reservation) hunting, fishing and gathering treaty rights. Its 
mission is twofold:
  --Ensure that its member Tribes are able to exercise their rights for 
        the purposes of meeting subsistence, economic, cultural, 
        medicinal, and spiritual needs; and
  --Ensure a healthy, sustainable natural resource base that supports 
        those rights.
    GLIFWC is a ``tribal organization'' within the meaning of the 
Indian Self-Determination and Educational Assistance Act (Public Law 
93-638). It is governed by a Constitution developed and ratified by its 
member Tribes and by a board comprised of the Chairs of those Tribes.
    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists.
    Its activities include: (i) natural resource population assessments 
and studies; (ii) harvest monitoring and reporting; enforcement of 
tribal conservation codes in tribal courts; (iii) funding for tribal 
courts and tribal registration/permit stations; (iv) development of 
natural resource management plans and tribal regulations; (v) 
negotiation and implementation of agreements with state, federal and 
local agencies; (vi) invasive species eradication and control projects; 
(vii) biological and scientific research, including fish contaminant 
testing; and (viii) development and dissemination of public information 
materials.

         JUSTIFICATION & HOW THE REQUESTED FUNDS WOULD BE USED

    For over 20 years, Congress has recognized GLIFWC as a cost 
efficient agency that plays a necessary role in: (i) meeting specific 
federal treaty and statutory obligations toward GLIFWC's member Tribes; 
(ii) fulfilling conservation, habitat protection, and law enforcement 
functions required by federal court decisions affirming the Tribes' 
treaty rights; (iii) effectively regulating harvests of natural 
resources shared among the treaty signatory Tribes; and (iv) serving as 
an active partner with state, federal and local governments, with 
educational institutions, and with conservation organizations and other 
non-profit agencies.
    And, particularly relevant to the requested EPA funds, Tribal 
members rely upon treaty-protected natural resources for religious, 
cultural, medicinal, subsistence, and economic purposes. Their treaty 
rights mean little if contamination of these resources threatens their 
health, safety, and economy, or if the habitats supporting these 
resources are degraded.
    With the requested stable funding base, GLIFWC will:
    1. Maintain its Core Capabilities to Conserve Natural Resources and 
to Regulate Treaty Harvests.--As was the case with the BIA funding base 
provided by Congress for the past 4 years, GLIFWC would: (i) restore 
program cuts caused by chronic under-funding; \3\ (ii) provide cost-of-
living pay increases to staff; \4\ and (iii) solidify law enforcement 
and emergency response infrastructure improvements that have been 
instituted with a combination of BIA and U.S. Department of Justice 
COPS funds.\5\
---------------------------------------------------------------------------
    \3\ For example, the previously restored funding base was used to: 
(i) reinstitute fall juvenile walleye recruitment surveys to previous 
levels; (ii) restore tribal court and registration station funding 
cuts; (iii) restore Lake Superior lamprey control and whitefish 
assessment programs; (iv) restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects; (v) replace aging 
equipment; (vi) meet expanding harvest monitoring needs; and (vii) meet 
uncontrollable increases in employee benefit costs.
    \4\ Since fiscal year 2002, the Administration has not included 
funding for GLIFWC employee cost of living pay adjustments in GLIFWC's 
base funding levels. Failure to include these adjustments in succeeding 
budgets negates their very purpose and results in recurring de facto 
budget cuts if the adjusted salaries are to be paid in subsequent 
years.
    \5\ GLIFWC has: (i) upgraded its patrol capabilities with new 
vehicles, boats, snowmobiles, and off-road vehicles; (ii) increased 
officer medical training and upgraded first aid equipment; (iii) 
upgraded its radio systems to be compatible with surrounding agencies; 
and (iv) established ongoing joint training with federal, state, and 
local agencies.
---------------------------------------------------------------------------
    2. Remain a Trusted Environmental Management Partner and Scientific 
Contributor in the Great Lakes Region.--With the requested EPA funding 
base, GLIFWC would maintain its ability to bring a tribal perspective 
to the interjurisdictional mix of Great Lakes managers.\6\ It also 
would use its scientific expertise to study issues and geographic areas 
that are important to its member Tribes but that others may not be 
examining.\7\
---------------------------------------------------------------------------
    \6\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Regional 
Collaboration, and the development of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \7\ With the requested fiscal year 2006 EPA funds, GLIFWC would: 
(i) continue its long-standing program to collect and test fish for 
mercury and to communicate testing results through health care 
providers and GIS maps; (ii) assess the impacts of contaminants leaking 
from a closed mine in Wisconsin; (iii) conduct water testing and 
baseline monitoring of heavy metals in the area of a proposed sulfide 
mine in Michigan's Upper Peninsula near pristine Lake Superior 
tributaries where native coaster brook trout spawn; and (iv) assess 
mercury, PCB and organochlorine levels in Lake Superior herring, the 
second most commercially-harvested fish in the United States waters of 
Lake Superior.
---------------------------------------------------------------------------
    The lack of a secure, ongoing EPA funding base jeopardizes GLIFWC's 
role as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. The federal government's treaty 
obligations to GLIFWC's member Tribes compel more than the mere 
opportunity to compete for a diminishing patchwork of discretionary EPA 
grants. This is particularly true given important current initiatives 
such as the Great Lakes Regional Collaboration in which GLIFWC 
participates as a full partner.
    3. Maintain the Overall Public Benefits That Derive From its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member Tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    Over the past 20 years, GLIFWC has built many partnerships that: 
(i) provide accurate information and data to counter social 
misconceptions about tribal treaty harvests and the status of ceded 
territory natural resources; (ii) maximize each partner's financial 
resources; (iii) avoid duplication of effort and costs; (iv) engender 
cooperation rather than competition; and (v) undertake projects and 
achieve public benefits that no one partner could accomplish alone.

                 OTHER RELATED APPROPRIATIONS CONCERNS

    1. BIA Contract Support Costs.--GLIFWC asks Congress to direct the 
BIA to fully fund contract support costs, as GLIFWC has experienced a 
$341,000 shortfall since 1995 despite its consistently low indirect 
cost rate of less than 15.25 percent and its current rate of 14.93 
percent.
    2. BIA Circle of Flight Tribal Wetland & Waterfowl Initiative.--
Once again, Congress should fully fund this long-standing tribal 
contribution to the North American Waterfowl Management Plan that the 
Administration again proposes to eliminate.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States

    Thank you for the opportunity to offer testimony to the Interior 
and Related Agencies Subcommittee on several funding items of 
importance to The Humane Society of the United States (HSUS) and its 
8.6 million supporters nationwide. As the largest animal protection 
organization in the country, The HSUS urges the Committee to address 
these priority issues in the fiscal year 2006 budget.

       LAW ENFORCEMENT DIVISION OF THE FISH AND WILDLIFE SERVICE

    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology and 
a full complement of Special Agents are essential if law enforcement is 
to have any hope of effectively enforcing the nation's endangered 
species trade laws. We commend the Administration's $1.295 million 
increase for the Law Enforcement Division in fiscal year 2006. The HSUS 
strongly supports an additional increase of $8.3 million over the 
Administration's request for U.S. Fish and Wildlife Service Law 
Enforcement Operations and Maintenance, to better house and equip the 
Wildlife Forensics Laboratory and to hire and train additional new 
Special Agents for proper enforcement of the Captive Wildlife Safety 
Act.
    The Captive Wildlife Safety Act, which was signed into law in 
December 2003, as Public Law 108-191, was passed unanimously in both 
the House and Senate and takes aim at the epidemic of private ownership 
of dangerous big cats as pets. We are disappointed that the Service is 
more than eight months late in promulgating the regulations necessary 
for enforcement of this important law. According to some estimates, 
there are up to 15,000 big cats kept as pets in the United States. A 
small increase of $1.3 million over last year's level should be 
appropriated to hire and train one new Special Agent for each of the 
Fish and Wildlife Service's seven regions. Additional funds will allow 
for adequate enforcement of this new law.
    Investigating sophisticated wildlife smuggling operations requires 
the latest in law enforcement technology. The Clark R. Bavin Wildlife 
Forensics Laboratory is capable of providing assistance in the 
prosecution of wildlife crimes by analyzing claws, teeth, feathers, 
tissue, blood, and other wildlife samples. The laboratory is 
indispensable in the vigorous enforcement of the nation's wildlife 
trade laws. The HSUS urges the Committee to appropriate $7 million to 
enable completion of the renovation of the dermestid colony, and 
morphology, bio-level III containment, and firearms facilities, as well 
as new additions for pathology, an atrium that would include a 60-seat 
conference room for agent and inspector training and scientific 
conferences.

                MULTINATIONAL SPECIES CONSERVATION FUND

    The HSUS joins a broad coalition of organizations in requesting an 
increase over the Administration's request for the Multinational 
Species Conservation Fund (MNSCF). The MNSCF is a fund established by 
Congress to benefit African and Asian elephants, rhinos, tigers, great 
apes, and neotropical migratory birds and marine turtles. Congress has 
been very supportive of these programs in the past. Unfortunately, the 
Administration's fiscal year 2006 request falls short of the funds 
necessary to carry out these valuable missions. We ask that you 
continue to support these highly threatened mammals and birds in fiscal 
year 2006 by appropriating $2 million each for the African Elephant 
Conservation Fund, the Asian Elephant Conservation Fund, the Great Ape 
Conservation Fund, and the new Marine Turtle Fund. We further request 
$2.5 million for the combined Rhinoceros and Tiger Conservation Fund, 
and $5 million for the Neotropical Migratory Birds Conservation Fund, 
for a total of $15.5 million.
    While there are threats to the long-term survival of elephants, 
rhinos, tigers, great apes, and neotropical migratory birds, there have 
been improvements attributable to funds made available through the 
MNSCF. Grants made from the MNSCF provide a stable funding source that 
has leveraged over four times as much in additional contributions from 
range states, non-governmental organizations, and others.
    While The HSUS wholeheartedly supports increased funding for the 
MNSCF, we are concerned about past incidents and future opportunities 
for funds from these conservation programs to be allocated to promote 
trophy hunting, trade in animal parts, and other consumptive uses--
including live capture for trade, captive breeding, and entertainment 
for public display industry--under the guise of conservation for these 
animals. Grants made to projects under the MNSCF must be consistent 
with the spirit of the law.

  ENVIRONMENTAL PROTECTION AGENCY--OFFICE OF RESEARCH AND DEVELOPMENT

    In 2000, the passage of the ICCVAM Authorization Act into Public 
Law 106-545 created a new paradigm for the field of regulatory 
toxicology, one that promotes chemical testing methods that are often 
faster, more economical than existing methods, as well as more 
responsive to the concerns of many members of the public about the 
continuing use of animals in toxicity testing. The new paradigm 
requires federal agencies to ensure that new and revised animal and 
alternative test methods be scientifically validated prior to 
recommending or requiring use by industry. An internationally agreed 
upon definition of validation is supported by the 15 federal regulatory 
and research agencies that compose the Interagency Coordinating 
Committee on the Validation of Alternative Methods (ICCVAM), including 
the EPA. The definition is: ``the process by which the reliability and 
relevance of a procedure are established for a specific use.''
    In recent years, thanks to Congressional leadership, efforts to 
provide specific funding for and prioritization of research, 
development and validation of non-animal and other alternative test 
methods have helped to guide EPA's approach to this necessary thrust 
for sound and efficient science that also replaces, reduces or refines 
the use of animals in toxicity testing. However, recent dialogue with 
the EPA has demonstrated a lack of prioritization for funding 
validation studies of non-animal and other alternative methods. This is 
the equivalent of developing a new car that is intended to provide 
reduced emissions without assessing the validity of the reduced 
emissions claim, ensuring the car will never be marketed.
    For several years, the enacted budget for the Office of Research 
and Development has hovered at approximately $500 million, comprising 
just 9 percent of EPA's total budget. Animal protection organizations 
have consistently supported a request for a mere 1-2 percent of this 
budget to go specifically for research, development and validation of 
non-animal, alternative test methods. Chairman Walsh secured a $4 
million appropriation first-ever directive for research, development 
and validation of non-animal test methods in the fiscal year 2002 
budget for EPA. And while the animal protection community is greatly 
appreciative of this directive, we have yet to receive a detailed 
accounting of the expenditure of funds. The agency has stated that 
funding has been provided for bench science that may have future 
relevant applications. EPA contends it has used monies from the Science 
and Technology Account for the Office of Research and Development to 
fund research and development of non-animal and other alternative test 
methods; but the funding stops at the stage when a test method must be 
scientifically validated in order to be considered for incorporation 
into recommendations or requirements. Unfortunately this approach does 
little to support the final development or necessary validation studies 
for non-animal test methods with potential current application in 
reducing costs and increasing efficiency in existing EPA programs. 
Moreover, no detailed reporting on the actual expenditure of funds 
under the Computational Toxicology Program to promote alternative 
methods has ever been submitted to the Congress. Therefore, we join 
with the Doris Day Animal League and other animal protection groups in 
support of including the following report language in the 
appropriations bill:

    ``The Committee recognizes the EPA's commitment to developing a 
Computational Toxicology Program to reduce the use of animal testing 
and the cost of such testing. It is the Committee's expectation that, 
commensurate with Committee approval for full funding of the 
Computational Toxicology Program for the last several years, EPA 
demonstrate real progress not only in development of computational 
toxicology methods, but importantly, in validation of new and revised 
test methods, non-animal methods, and alternative methods so that these 
can be utilized in regulatory program activities. The Committee 
encourages EPA to develop and implement specific plans for validation 
studies of new and revised, non-animal and alternative methods for 
chemical screening and priority setting. The Committee requests that 
EPA submit an annual report detailing results of its Computational 
Toxicology program, to include a section on EPA's overall activities 
and itemized expenditures focused specifically on development, 
standardization and validation of new, revised test methods, non-animal 
methods, and alternative methods. The Committee further requests the 
EPA to report annually on how it is working through public/private 
partnerships to promote newer and more efficient safety testing schemes 
that will reduce animal use and enhance environmental and human 
safety.''

        BUREAU OF LAND MANAGEMENT--WILD HORSE AND BURRO PROGRAM

    In fiscal year 2001, the BLM received a $9 million budget increase 
to halve the number of wild horses on the range within four years. 
Despite the agency's inability to meet this goal, large numbers of 
horses were removed from the range and this new level of funding was 
maintained through fiscal year 2004. Last year, the agency requested 
another increase of $10.5 million (plus another $2.3 million from 
Southern Nevada Public Land Management Act funds) so that it can once 
again begin mass roundups to drastically reduce the number of wild 
horses and burros on the range from an estimated 35,000 to 25,000 in 
just 2 to 3 years. Yet the agency has failed to conduct the most basic 
research to justify its proposed action. Despite a statutory 
requirement to base roundups on current data, the agency now spends 
less than 4 percent of its budget on range work, including monitoring 
and censusing of wild horse populations, even though such work is 
critical to the successful management of wild horse and burro 
populations and the range itself. In fact, most herd management areas 
haven't been censused for at least 5 years.
    The removal of large numbers of horses creates a management crisis, 
as witnessed by recent events. Although the BLM has recognized the 
shortage of good adoptive homes and has subsequently opened several 
long-term holding facilities where horses are pastured in large groups, 
it is unclear how the agency can sustain this plan of action; as more 
horses are rounded up, additional facilities are needed. For 2005, BLM 
intends to round up 9,800 wild horses and burros but estimates it will 
only be able to place 7,150 through the adoption program. Already the 
agency spends some 40 percent of its annual budget on caring for 
approximately 21,000 horses removed from the range, with nearly another 
40 percent of the budget going to a marketing and adoption the program 
that cannot successfully place the thousands of wild horses and burros 
rounded up annually.
    Furthermore, the BLM has not submitted a biannual report regarding 
the status of the wild horse and burro program to Congress, as provided 
for in the 1971 Act. Astonishingly, 1997 was the last year the BLM 
presented a report to Congress, covering the years from 1992-1995. 
Since that time, the BLM has, for all intents and purposes, not been 
held accountable for its actions. Congress and the general public have 
been denied an opportunity to scrutinize the agency's management 
actions. Requesting additional funds to conduct massive and 
indiscriminate wild horse and burro removals to levels that jeopardize 
the welfare of these animals, while at the same time wasting hundreds 
of millions of taxpayer dollars on the environmentally destructive 
livestock grazing program, is nothing short of indefensible. The agency 
has apparently lost sight of its legal mandate to protect wild free-
roaming horses and burros.
    Most importantly, in light of the huge number of wild horses and 
burros being rounded up through emergency and scheduled gathers and the 
passage of a last-minute rider in the fiscal year 2005 omnibus spending 
package to allow for the slaughter of wild horses, it is imperative 
that the ``no-kill'' provision that has been attached to the Interior 
Appropriations bill for several years be included again in fiscal year 
2006. Recent reports that 41 horses went to slaughter immediately 
following the sale by the BLM underscore the need for this language. 
The Wild Free-Roaming Horse and Burro Act's core principles have always 
reflected the understanding that Americans want these animals to remain 
free from slaughter or other forms of killing. Therefore, we join with 
the Doris Day Animal League and other animal protection organizations 
in urging that the following language be incorporated into the bill:

    ``No appropriations made herein shall be available for the sale, 
slaughter or destruction of healthy, unadopted, wild horses and burros 
in the care of the Bureau of Land Management or its contractors.''

                        PROTECTION FOR WALRUSES

    We urge this subcommittee to appropriate $500,000 in fiscal year 
2006 to fund much-needed research on the Pacific walrus. New promising 
methodologies for surveying walrus populations are being developed and 
require funding support. Walruses are targeted by Native hunters for 
subsistence, despite a paucity of data regarding their current 
population status or population structure. Hundreds of walruses are 
killed annually; in some years this number has climbed to as many as 
7,000. Moreover, in some hunting villages, females and their calves are 
preferentially killed, against the recommendation of the U.S. Fish and 
Wildlife Service and standard management practice. A portion of these 
funds could also be used to assist and improve the Walrus Harvest 
Monitor Project, which collects basic management data.

                         ENDANGERED SPECIES ACT

    The four Fish and Wildlife Service endangered species operating 
accounts are key to effective implementation of the Endangered Species 
Act. However, President Bush requested a total of only $140.1 million, 
a cut of $3.1 million or 2 percent in his fiscal year 2006 budget. 
These important accounts should be funded at a level of no less than 
$212 million for fiscal year 2006.
    Listing.--This line item has suffered years of chronic under 
funding. Due to the lack of resources, a backlog of listing decisions 
and critical habitat designations has built up over the years. The Fish 
and Wildlife Service has estimated a need of at least $153 million to 
alleviate the backlog. The President's budget requests an increase of 
$2 million above fiscal year 2005 enacted levels, but it is still well 
below the actual need. To begin to address the backlog, Listing should 
be funded at no less than $30 million for fiscal year 2006.
    Recovery.--While the ESA has been extremely successful at 
preventing wildlife from going extinct, the purpose of the Act is to 
protect and recover endangered and threatened fish, plants and 
wildlife. The President's budget requested $64.2 million for recovery, 
a cut of $5.6 million, or nearly 10 percent below last year's enacted 
levels. By turning its back on recovery funding, the Bush 
administration is setting the Endangered Species Act up for failure. 
The Fish and Wildlife Service has indicated that more than 200 
currently listed species may be extremely close to extinction because 
of the lack of resources dedicated to recovery. Recovery should be 
funded at no less than $110 million.
    Consultation.--The consultation program is the ``look before you 
leap'' mechanism that the federal departments and agencies must go 
through in order to proceed with a federal project in areas where 
endangered and threatened species are located. Shortage of personnel in 
this program area causes delays of project reviews and creates 
conflicts between agencies. The consultation budget also funds the 
Service's work with non-federal entities for permitting and development 
of Habitat Conservation Plans; lack of funding prevents the FWS from 
ensuring that these plans are properly developed, implemented and 
monitored. The President's budget requests an increase of approximately 
$1 million for consultation, over fiscal year 2005. Consultation should 
be funded at no less than $57 million.
    Candidate Conservation.--This program protects species before they 
are actually listed, thus in theory averting the need to ever list 
them. The theory fails to hold up when not enough money is provided to 
arrest the decline of candidate species. The President's budget request 
is $8.3 million, a cut of $1 million below last year's level. Candidate 
Conservation should be funded at no less than $15 million.
                                 ______
                                 
  Prepared Statement of the Municipal Subdistrict, Northern Colorado 
                       Water Conservancy District

    I am requesting your support and assistance in insuring continued 
funding for the Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program. These 
ongoing cooperative programs have the dual objectives of recovering 
four species of endangered fish while water use continues and water 
development proceeds in compliance with the Endangered Species Act of 
1973, state law, and interstate compacts. Partners in the two programs 
are the States of New Mexico, Colorado, Utah, and Wyoming, Indian 
tribes, federal agencies and water, power and environmental interests. 
I respectfully request support and action by the Subcommittee that will 
provide the following:
    An increase of $691,000 in the fiscal year 2006 Recovery Element 
budget (Resource Management Appropriation; Ecological Services 
Activity; Endangered Species Subactivity; Recovery Element) allocated 
to ``Colorado River fish recovery project'' to allow U.S. Fish and 
Wildlife Service (FWS) Region 6 to meet its funding commitment to the 
Upper Colorado River Endangered Fish Recovery Program. This is the 
level of funding appropriated in fiscal years 2003, 2004, and 2005 for 
this program. These funds are needed for FWS direct participation in 
managing and implementing the Upper Colorado Program's actions, 
monitoring achievement of recovery goals, managing data associated with 
fish population abundance and sampling, evaluating stocking, and 
monitoring fish and habitat response to recovery actions.
    The appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2006.
    An increase of $211,000 in the ``Resource Management Appropriation; 
Ecological Services Activity; Endangered Species Subactivity; Recovery 
Element'' budget allocated to the ``San Juan River Recovery 
Implementation Program.'' These funds are needed to support the FWS 
Recovery Program Coordinator and staff who are responsible for program 
management and support of all Recovery Program activities.
    The enactment of Public Law 106-392, as amended by Public Law 107-
375, authorized the Federal Government to provide up to $46 million of 
cost sharing for these two ongoing recovery programs' remaining capital 
construction projects. Raising and stocking of the endangered fish 
produced at program hatchery facilities, restoring floodplain habitat 
and fish passage, regulating and supplying instream habitat flows, 
installing diversion canal screens and controlling nonnative fish 
populations are key components of the programs' ongoing capital 
construction projects. Subsection 3(c) of Public Law 106-392 authorizes 
the Secretary of the Interior to accept up to $17 million of 
contributed funds from Colorado, Wyoming, Utah, and New Mexico, and to 
expend such contributed funds as if appropriated for these projects; 
and provides for an additional $17 million to be contributed from 
revenues derived from the sale of Colorado River Storage Project (CRSP) 
hydroelectric power. This substantial non-federal cost-sharing funding 
demonstrates the strong commitment and effective partnerships embodied 
in both of these successful programs. The requested federal 
appropriations are critically important to these efforts moving 
forward.
    The support of your Subcommittee in past years is greatly 
appreciated and has been a major factor in the success of these multi-
state, multi-agency programs as they have progressed forward towards 
delisting the endangered fish species in the Upper Colorado and San 
Juan River Basins while necessary water use and development activities 
are occurring. I request the Subcommittee's assistance to ensure that 
the FWS is provided with adequate funding for these vitally important 
programs.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition

    On behalf of the Highlands Coalition, I would like to offer 
testimony in support of several important projects proposed for the 
fiscal year 2006 Interior and Related Agencies Appropriations bill that 
would significantly advance conservation of the four-state Highlands 
region. The Highlands region has now been the subject of two federal 
studies that have highlighted its importance for conservation of public 
drinking water supplies, wildlife habitat, and recreational 
opportunities. And last year Congress unanimously approved the 
Highlands Conservation Act recognizing the ``national significance of 
the Highlands region to the United States.'' The projects described 
below would help assure that this region can continue to meet the needs 
of the more than 25 million Americans who live within an hour's drive 
of the Highlands.
    The Highlands Coalition includes 117 national, regional, state and 
local organizations working to protect the more than 2 million-acre 
Highlands region that stretches from southeastern Pennsylvania through 
north-central New Jersey, the Hudson Valley of New York and into the 
Litchfield Hills of Connecticut. The Highlands Coalition was galvanized 
by the landmark regional study of the New York-New Jersey Highlands, 
published in 1992, that found the Highlands region to be of national 
significance due to the diversity and quality of its natural resources 
and landscape, all located so close to the nation's most densely 
populated area.
    In 2002, the U.S. Forest Service published a detailed study update 
that reinforced the findings of the 1992 Highlands Study and recognized 
accelerating land use pressures on the region. The study update noted 
that the Highlands are the backyard and lifeblood of a metropolitan 
complex extending from Philadelphia through Newark and New York City 
and up to Hartford, supplying clean drinking water to over 15 million 
people, hosting 14 million recreational visits annually and providing 
habitat for 247 threatened and endangered species.
    The study update further revealed that over 5,000 acres of land in 
the New York-New Jersey Highlands are lost each year to suburban sprawl 
and that the rate of loss of forests and wetlands in particular has 
quadrupled, threatening the quantity and quality of public drinking 
water supplies. Statistics indicate that if the status quo continues, 
the population of the region will increase by nearly 50 percent, 
impacting water quality in over 70 percent of Highlands watersheds and 
causing water demand to exceed supply in many areas. Wildlife habitat 
and recreational outlets in the Highlands will be similarly impacted if 
the current rate and pattern of development continues.
    The Highlands Coalition supports several projects proposed for the 
fiscal year 2006 Interior and Related Agencies Appropriations bill that 
would help improve our understanding of the Highlands region and 
provide immediate protection for some of its most high value resource 
areas:

                         FOREST LEGACY PROGRAM

    The Highlands Coalition supports three important Forest Legacy 
projects in the Highlands that have been put forward by the States of 
New Jersey, New York, and Connecticut.
    The Sparta Mountain South tract in the northwestern section of the 
N.J. Highlands seeks $3.9 million to extend the Sparta Mountain 
greenway in rural Sussex County. These 2,200 acres of rugged mountains 
and streams provide an important greenway corridor between Allamuchy 
State Park and the Sparta Mountain Wildlife Management Area. Sparta 
Mountain South provides habitat for many endangered species and 
neotropical migratory birds.
    The Surprise Lake project in the New York Highlands seeks $1 
million to conserve 648 acres most notable for wonderful recreation 
values and watershed protection. The project lies in the middle of a 
network of protected lands that is being assembled across the Hudson 
Highlands, a scenic area accessible from New York City by public 
transit or automobile in less than an hour. The Surprise Lake project 
area features scenic vistas from high ridgelines, long distance hiking 
opportunities, and represents one of the highest quality mountain 
recreation opportunities within close range of the New York 
metropolitan area. The project area also protects the Breakneck Brook, 
a key tributary of the Hudson River, and provides valuable wildlife 
habitat.
    The Skiff Mountain project, part of a contiguous network of 7,000 
acres in Western Connecticut, seeks $2.3 million to preserve 937 acres. 
Skiff Mountain is part of the Housatonic River Watershed, which extends 
from western Massachusetts to Long Island Sound. The mountain's 
northern uplands-transitional hardwoods forest contains Class A streams 
and habitat for black bear, bobcats, coyotes and neotropical songbirds. 
Skiff Mountain borders on the Appalachian Trail, and is ranked number 1 
among Connecticut projects this year.

                       HIGHLANDS CONSERVATION ACT

    The four states of the Highlands Coalition support the 
appropriation of $10 million to preserve one Pennsylvania project, one 
New Jersey project, one New York parcel, and three smaller Connecticut 
properties, as listed below, plus $1 million for technical support.

  --Oley Hills, PA
          Cost: $2,800,000
          HCA Request: $1,400,000
          Size: 1,133 acres
    The Oley Hills consists of a grouping of properties in the Oley 
Hills core conservation area of the Reading Prong, the geologic 
formation that lies at the heart of the Pennsylvania Highlands. The 
Oley Hills project area boasts of three state-designated ``exceptional 
value'' streams--Pine Creek, Oysterville Creek, and Saucony Creek. 
These pristine waterways provide important water quality protection for 
the Schuylkill River and are the subjects of state-funded watershed 
protection plans.

  --Wyanokie Highlands, NJ
          Cost: $7,700,000
          HCA Request: $3,850,000
          Size: 1,288 acres (4 parcels)
    The Wyanokie Highlands form the headwaters of Burnt Meadow and West 
Brooks that flow into North Jersey's Wanaque Reservoir, which provides 
drinking water for nearly two million NJ residents. The acquisition of 
these four parcels will help complete a critical greenway in the 
Wyanokies linking Long Pond Ironworks State Park with Norvin Green 
State Forest. These parcels are the largest portion of the missing link 
and include waterways of exceptional ecological significance, which 
drain into the Wanaque Reservoir.

  --Arrow Park, NY
          Cost: $6,141,000
          HCA Request: $3,000,000
          Size: 267 acres
    Arrow Park is the last significant property buffering Sterling 
Forest State Park from residential and commercial development in the 
Town of Monroe. This Project provides habitat for threatened species, 
and protects wetlands critical to the health of the watershed in and 
around Sterling Forest, which, in turn, provides drinking water to 
millions of residents of New York and New Jersey. Matching funds for 
this Project are anticipated from New York State and private 
organizations. Arrow Park will be included in Sterling Forest State 
Park and managed by the State of New York in accordance with the 
Sterling Forest Master Plan.

  --Jones Mountain, CT
          Cost: $1,000,000
          HCA Request: $500,000
          Size: 151 acres
    This 151-acre forested mountain provides the visual backdrop for 
the Town of New Hartford that, along with the Farmington River, defines 
the character of the fast-developing community of New Hartford. The 
property consists of rugged old forest (primarily oak, black birch and 
red maple), meadow and intermittent streams. Preservation of this area 
is critical as half of the property drains into the East Mountain 
Brook, a tributary to the Farmington River, a Federally designated Wild 
and Scenic River. Any development would likely cause erosion that would 
impact the watershed.

  --Sweeton Pasture Lot, CT
          Cost: $200,000
          HCA Request: $100,000
          Size: 44 acres
    The Sweeton Pasture Lot is largely forested. Its forest is 
primarily hardwood, with red oak, chestnut oak, black birch, white 
birch, beech, hickory, as well as some stands of eastern hemlock and 
white pine. The property also contains wetlands. The topography 
primarily slopes to the east and south. There are scenic views in 
several directions from a hilltop in the northwestern part of the 
property. Acquisition of this property will protect habitat for a 
number of migratory songbirds and large mammals, including black bear, 
fisher, coyote, and bobcat.

  --Embree, CT
          Cost: $1,000,000
          HCA Request: $500,000
          Size: 80 acres
    The site is located off of Route 37 on the Sherman/New Milford 
border, and abuts several protected properties and non-subdividable 
lots. The property would create a large undisturbed corridor within a 
proposed trail system, and offer an ideal outdoor classroom for local 
schools, universities and environmental organizations. The project 
contains the highest point in the Town of Sherman and is the Town's 
priority parcel for acquisition. This forested property is steep with 
numerous rock outcrops, and contains an exceptionally large undisturbed 
(ca 3-4 acre) vernal pool. It is very likely that the vernal pool 
contains numerous species of reptiles and amphibians, many of which are 
declining precipitously in the northeastern United States. The site 
contains ideal habitat for Timber rattlesnake, bobcat and black bear as 
well as a suite of other mammals and neo-tropical migratory birds. 
Preservation of this site would be an important connection to already 
protected properties in Sherman.
    The $11 million includes $1 million for technical support and 
research supplied by the U.S. Forest Service as specified in the HCA 
bill, which will be used to extend the 2002 USFS study update to 
Pennsylvania and Connecticut.
    In conclusion, the Highlands Coalition is grateful for the 
considerable federal investment that has been made over the last decade 
to support conservation of the Highlands region. We would appreciate 
the subcommittee's support for the important projects outlined above to 
continue the fine partnership with states and local communities that is 
steadily securing valuable natural resources across the region.
                                 ______
                                 
      Prepared Statement of the Hoosic River Watershed Association

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $2 million 
appropriation from the Land and Water Conservation Fund for the 
acquisition of Broad Brook watershed project in the Green Mountain 
National Forest.
    The Hoosic River Watershed Association is a 501(c)3 non-profit 
citizens' group founded in 1986 and dedicated to the restoration, 
conservation and enjoyment of the Hoosic River and its watershed, 
through education, research, and advocacy. We envision a watershed that 
is ecologically sound and adds to the quality of life of its residents. 
The Broad Brook watershed is a subdivision of the Hoosic watershed. We 
strongly support its acquisition because this is an unusual opportunity 
to protect an entire tributary drainage basin. The potential benefits 
go well beyond protecting habitat and water quality in the Broad Brook 
basin itself. Both published literature and the results of our own 
research in the Hoosic drainage have demonstrated that the type of land 
use in tributary basins has a significant impact on the water quality 
of the river mainstem. Thus the Hoosic's ability to support a healthy 
coldwater fish community depends in large part on the cool, clean water 
from tributaries that traverse forested landscapes. But it is 
unrealistic to expect that these relatively pristine and commercially 
desirable tributary basins will remain undeveloped in the coming years. 
As their landscapes shift from forest and field to higher-impact land 
uses, water quality and habitat will degrade throughout the watershed. 
Making the Broad Brook subwatershed a part of Green Mountain National 
Forest will be an important counter-measure against this trend.
    The acquisition will provide other benefits as well. The Green 
Mountains of Vermont are one of the northeast region's most popular and 
heavily-visited areas, which each year draw millions of tourists 
attracted to its scenic beauty. The Green Mountains region contains 
outstanding natural resources such as wildlife habitat for black bear, 
deer, and neotropical songbirds, as well as extensive timber resources. 
The area boasts excellent trout streams and encompasses the watersheds 
that provide drinking water for many Vermont communities. The 
acquisition of properties in the Green Mountain National Forest 
protects recreational opportunities that have long been important to 
residents and visitors alike, such as camping, hiking, hunting, and 
cross-country skiing.
    Available for acquisition and completion in fiscal year 2006 is the 
3,921-acre Broad Brook watershed property, located in the southernmost 
portion of the forest just north of the Massachusetts border. For many 
years, the Massachusetts city of North Adams, which owns this parcel, 
used the Broad Brook watershed as a source of drinking water for city 
residents. However, several years ago the city ceased depending on 
Broad Brook for its water and is now interested in selling the 
property. Located within the boundaries of the Green Mountain NF in the 
towns of Pownal and Stamford, the Broad Brook property would be an 
outstanding addition to this forest, known for its excellent 
recreational opportunities and critical wildlife habitat.
    The state of Vermont has mapped this parcel as being entirely 
within black bear production habitat, regions which support high 
densities of cub producing females. On the property there can be found 
a large and healthy population of the state threatened Large Whorled 
Pogonia (Isotria verticillata), and close to 7 miles of pristine 
headwater streams. A portion of the Appalachian National Scenic Trail, 
which in this part of Vermont coincides with the Long Trail, passes 
across the Broad Brook property. The tract is adjacent to other Forest 
Service ownership, the Stamford Meadows Wildlife Management Area--a 
state-owned sanctuary--as well as other conservation lands near the 
town of Pownal.
    On November 2, 2004, the town of Pownal voted 2-1 in favor of 
purchase of the Broad Brook parcel by the GMNF. With that approval and 
with an additional $2 million from the LWCF in fiscal year 2006, the 
USFS can move to complete this critical acquisition. The forest is also 
pursuing other high priority acquisitions totaling $1.5 million, 
allowing for continued management of important wildlife species as well 
as ensuring public access to the Appalachian Trail and other recreation 
opportunities in this popular national forest.
    Thank you for the opportunity to present this request.
                                 ______
                                 
   Prepared Statement of the Institute of American Indian and Alaska 
                  Native Culture and Arts Development

           SUMMARY OF FISCAL YEAR 2006 REQUEST: $10.5 MILLION

    IAIA's fiscal year 2006 federal budget request for operations, 
endowment, and matching funds for capital construction of a center for 
lifelong education are as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Fiscal Year 2006 Institutional Operations....................        6.5
Capital Construction Matching Funds to a W.K. Kellogg                4.5
 Foundation Challenge Grant..................................
                                                              ----------
      Total Request of Fiscal Year 2006......................       10.5
------------------------------------------------------------------------

                           EXECUTIVE SUMMARY

    IAIA promotes Native American cultural life and its artistic 
expression through post-secondary instruction, research, artistry and 
scholarship. The Institute enables its Native students to deepen and 
rediscover their living heritage of language, history, and culture 
through the creative arts.
    Academic Programs.--IAIA offers Associate and Baccalaureate degrees 
in Studio Arts (AFA, BFA), Visual Communications (AAS, BFA), Creative 
Writing (AA, BFA) and Museum Studies (AFA and BA).
    Accreditation.--IAIA is fully accredited by the North Central 
Association of Colleges and Schools (NCA) and by the National 
Association of Schools of Arts and Design (NASAD), the only national 
professional accrediting agency in higher education covering the entire 
field of art and design that is recognized by the U.S. Department of 
Education.
    In 2004 IAIA underwent rigorous evaluations and an accreditation 
site review by NCA and NASAD. Both visiting teams not only approved the 
continued accreditation of the Institute, but raised the Institute's 
standing to a ten-year status--the highest level of achievement 
possible for colleges and universities. However, the accreditation 
final report concluded that further emphasis be placed on the 
stabilization of the Institute's base federal funding for operations, 
endowment, and capital construction. In accordance with accreditation 
mandates, this budget request lays out specific recommendations for 
sustained operations, along with appropriate funding increases, for the 
further stabilization and strengthening of IAIA's education programs 
and facilities.
    Operating Budget Request of $6.5 million.--To begin to address 
defined five-year goals, including important assessment and 
accreditation mandates, IAIA's federal budget request represents a 
$500,000 increase over fiscal year 2005 funding. The accreditation 
reports require a stronger assessment and stability of financial 
systems. Because core funding is not obtained from the State of New 
Mexico, it is essential that a particular emphasis be placed on core 
federal support. The Institute will continue to leverage funds to 
ensure jointly supported planned improvements. Further justifications 
for this request are found in the previously submitted comprehensive 
budget.
    Request for Federal Matching Funds of $4 million to meet a W.K. 
Kellogg Challenge Grant.--As authorized by its legislation, the 
Institute is committed to the creation of a center for lifelong 
education, scholarly research and cultural exchange to express the 
various dimensions of Native cultures to all peoples. As presented in 
previous federal requests, IAIA won a national competition for a $2 
million grant from the W.K. Kellogg Foundation to plan and design this 
new center, which will be located on IAIA's campus. The new center is 
projected to serve 16,000 participants annually. Construction and 
development costs are projected at $37 million, of which $21 million 
has been secured. Diversified support for remaining costs is being 
secured through private, state, and tribal partnerships.
    Of critical importance, the Kellogg Foundation has committed an 
additional $16 million, but requires a federal match of a total of $8 
million. Thus far, IAIA has secured almost $4 million in federal 
dollars through appropriations and competitive programs. IAIA's fiscal 
year 2006 request of the remaining $4 million will secure this large 
private sector grant opportunity for the direct benefit of Indian 
peoples and their communities.

                        BACKGROUND AND KEY FACTS

    IAIA, originally established in 1962, has produced the majority of 
North America's most successful Indian artists. Founded as a Bureau of 
Indian Affairs (BIA) high school, IAIA has evolved into a federally 
chartered four-year college, building its own campus and operating the 
national American Indian Arts Museum in the historic plaza of Santa Fe.
    Charter and Mission.--IAIA moved out of the control of the BIA into 
a Congressionally chartered institution in 1988 and is authorized under 
Public Law 99-498, as amended. This law affirms and acknowledges that 
Native cultures and arts are critical to the nation and deems it 
appropriate and essential for the federal government to provide base 
support to IAIA in the advancement, preservation, and promotion of 
diverse Native cultures and arts. IAIA's mission is to serve as the 
national center of research, training, language and scholarship for 
Native Americans and Alaska Natives through the dedicated study, 
creative application, preservation and care of our Native cultures and 
arts.
    Governance.--IAIA is governed by a board of trustees (majority 
Native) appointed by the President of the United States and confirmed 
by the Senate.
    Funding.--As a national post-secondary institution, IAIA's 
operations are funded through direct federal support and a diversified 
private sector approach to foundations, corporations, tribes, and 
individual donors. It does not receive state support for base 
operations.
    Museum.--IAIA's enabling legislation also authorizes funding to the 
IAIA Museum and specifies its dual purpose of public education and 
presentation. Its facilities and collections provide hands-on training 
for students and faculty, and showcase student and alumni works. It 
provides a highly visible venue for public relations, education, and 
outreach, attracting over 50,000 visitors annually. The museum also 
houses the largest National Collection of Indian Contemporary Art with 
more than 6,500 pieces.
    Campus.--In 1989, 140 acres was donated to the Institute for the 
establishment of a permanent campus. IAIA developed the infrastructure 
for site development and created an impressive master campus plan. The 
first phase of new campus construction is nearly complete.
    Student Body.--IAIA's student body represents virtually every state 
in the country, as it enrolls 70-90 percent of the 562 federally 
recognized tribes. On average, over 90 percent of enrolled students 
come from impoverished reservations located in isolated communities 
with family income levels below federal poverty standards. Graduates 
become renowned artists and/or highly respected professionals in tribal 
communities and mainstream society.
    Tuition.--IAIA is strongly committed to assisting its student body 
access both federal and private sources of scholarship, financial aid 
and other tuition assistance public and private programs. Tuition rates 
are similar to community colleges in the Santa Fe area.
    Performance Measures.--IAIA undergoes rigorous assessment through 
reviews by mainstream accreditation committees and meets strict 
evaluation standards. It holds dual accreditation as a four-year fine 
arts college by the North Central Association of Colleges and Schools 
and the National Association of Schools of Art and Design. In 2004 it 
achieved 10-year accreditation, the highest standard in higher 
education.
    Community Outreach and Support.--Through public education and 
outreach, IAIA serves over 50,000 students, community members and 
national and international visitors annually. Please note that this 
budget request has the unanimous support of the American Indian Higher 
Education Consortium, All Indian Pueblo Council, National Congress of 
the American Indian, and National Indian Education Association.

           JUSTIFICATIONS AND HIGHLIGHTS OF MAJOR SUCCESSES.

    Student Graduation Rates.--While IAIA's Baccalaureate degree 
programs are new and still under evaluation, IAIA's Associate degree 
programs have a 42 percent graduation success rate as compared with the 
22 percent national average rate of mainstream higher education 
institutions.
    Library and Technology Center (LTC).--Through federal, state and 
private support, IAIA built a new center for academic learning, 
research, and study. The LTC houses a Computer Lab, Learning Resource 
Center, a student support center, and extensive book collections and 
photographic archives. The library's collection is available locally 
and internationally via the online catalog on our Web site.
    Native Circle.--A Program for Student Success. IAIA instituted a 
groundbreaking initiative to increase student academic success and 
retention through culturally-based learning assistance. Native Circle 
creates culturally integrated support to meet the needs of our unique 
population of students. Native Circle promotes student success and 
provides support in all arenas of the student experience.
    Film Program for Native American Writers, Directors, and Actors.--
In partnership with ABC Entertainment, Walt Disney, Screen Actors Guild 
and the National Museum of the American Indian, IAIA created a new 
initiative to further the advancement of Native Americans pursuing 
careers in the entertainment industry. Several participants won highly 
competitive ABC Talent Scholarships, and Walt Disney and ABC 
Entertainment Writing Fellowships.

                           CURRENT CHALLENGES

    Federal investment has been critical to IAIA's evolution and 
numerous achievements. Appropriations for new campus construction were 
leveraged by over 60 percent in state, private, and other federal 
competitive grant programs, allowing the Institute to establish the 
first phase of its own campus.
    Although IAIA has developed from a two-year college into a four-
year institution, appropriations increases have averaged less than four 
percent from 1998 to 2004. Operating expenses have had to be kept to a 
minimum despite the tremendous development of a four-year curriculum. 
Although the Institute achieved the highest accreditation for its four-
year programs, it suffers from inadequate resources to build an 
appropriate infrastructure to support its new designation. 
Institutional assessments conducted by accreditation boards this past 
year highlighted key shortfalls within IAIA's infrastructure. The 
following three major areas were identified:
  --Operations.--Strengthening of current operational systems and 
        stabilization of core operations financed by the Federal 
        Government.
  --Compensation.--Implementation of an appropriate compensatory 
        structure to support competitive markets, factoring in Santa 
        Fe's high cost of living, and the professional development, and 
        new hires of credentialed faculty for four-year programs.
  --New Systems.--Implementation of new systems and reorganization to 
        address shortfalls in current systems.

                               CONCLUSION

    It is without doubt that the accomplishments of IAIA have been 
outstanding over the past five years. We proudly and respectfully 
commit this budget request to the United States Congress for review and 
consideration. We greatly value our partnership to sustain and 
strengthen this important institution, its many achievements, and a 
future full of promise for the continuous cultural advancement of our 
diverse tribal nations. Thank you for your serious consideration.

                                 ______
                                 
 Prepared Statement of the International Society of Tropical Foresters

    As a former member of the USDA Forest Service Research Program and 
current President of the International Society of Tropical Foresters, I 
am pleased to see an increase of $9.016 million in the President's 
fiscal year 2006 budget for Forest Service Research and Development (FS 
R&D). Also pleasing are the increases in funding for the Forest 
Inventory and Analysis and the Biobased Products and Bioenergy programs 
above the fiscal year 2005 enacted level. These are important and 
positive increases.
    However, I see problems with the lack of recognition of the need 
for additional silviculturists to strengthen the Healthy Forests 
Restoration program. Silviculturists in Forest Service Programs 
generally (in National Forests, Research and Development, and State and 
Private Forestry) have been reduced in numbers at an alarming rate 
during the past several years. Yet, they are needed to plan and carry 
out thinning of fire hazardous forest lands and in restoring cut and 
burned over forest lands through planting or natural regeneration 
programs. Silviculturists have always been the backbone of Forest 
Service management programs, and they are essential to current Healthy 
Forests Restoration programs working together with other specialists in 
water, fire, insects, diseases, ecology and wildlife habitat. I 
recommend that the Forest Service recognize the need for more 
silviculturists in Research and Development as well as in non-research 
programs of the Forest Service. This would require at least an increase 
in funding of $2 million more for Research and Development and 
additional funding for the other two branches of the Forest Service.
    The rest of the President's fiscal year 2006 budget looks good, 
although I would like to add a little special detail on two 
International Research Institutes that are a part of the overall 
Research programs.

      INTERNATIONAL INSTITUTE OF TROPICAL FORESTRY IN PUERTO RICO

    The International Institute of Tropical Forestry (IITF) has a 
mission of research that contributes to the sustainable use of forest 
resources, the conservation of primary forests, the rehabilitation of 
degraded lands and the management of wildlife and watersheds. This work 
is conducted in an extensive network of collaborators with the 
Institute in Puerto Rico, other Caribbean islands, and in Latin 
America. The decrease of $51,000 in the fiscal year 2006 budget for 
IITF will impact research on watershed conditions and invasive plants 
and animals and the delivery and practical use of all of the research 
programs of IITF.
    I would like to see the $51,000 decrease restored, and an increase 
of $300,000 for silvicultural research aimed at sustainable forest 
management practices in the fiscal year 2006 budget for IITF.

            INSTITUTE OF PACIFIC ISLANDS FORESTRY IN HAWAII

    The Institute of Pacific Islands Forestry (IPIF) in Hawaii has a 
mission of research on invasive species, forested wetlands, and 
ecosystem restoration. The President's fiscal year 2006 budget for IPIF 
includes a $65,000 increase over fiscal year 2005. This increase will 
be used to strengthen research on invasive species. However, other 
programs that supplement or support research on ecosystem restoration 
include watershed research, fire research (especially since invasive 
species have created fire prone situations) and wetlands research. This 
work needs to continue. The $100,000 decrease in mangrove and wetlands 
research, as well as ridge to reef studies, should be restored. An 
additional increase of $300,000 for silvicultural research in the 
fiscal year 2006 budget for IPIF would greatly enhance work to restore 
native ecosystems in Hawaii.
    Previous FS budgets have made possible the construction of an 
office and laboratory facility to house the IPIF R&D and outreach 
programs. The construction of this facility in Hilo, Hawaii began in 
early 2004, and I am pleased to see that IPIF will soon occupy these 
new quarters.
    I would like to be sure that the $65,000 increase in the 
President's fiscal year 2006 budget for IPIF be retained in the overall 
FS R&D budget.
                                 ______
                                 
       Prepared Statement of the Intertribal Timber Council (ITC)

                                SUMMARY

    Mr. Chairman, I am Nolan C. Colegrove, Sr., President of the 
Intertribal Timber Council. I am a member of the Hoopa Tribe and serve 
as their Forest Manager. I am pleased to present the following 
recommendations for fiscal year 2006 Bureau of Indian Affairs, U.S. 
Forest Service and Department of Energy appropriations:
    (1) Reject the BIA's proposed restructuring of the BIA budget,
    (2) Restore Endangered Species funding in Non-Recurring Programs--
Resources Management, to $2.6 million and add $4 million for activities 
involving ESA,
    (3) Implement IFMAT II report recommendations to--
      (a) increase BIA Forestry base funding by $119.6 million, and
      (b) integrate Interior BIA fire funding into the BIA base 
        Forestry budget,
    (4) Add $8 million to Cadastral Surveys in Non-Recurring Real 
Estate Services, and retain the $1.6 million proposed increase for 
Regional Office Land Titles and Records,
    (5) Within Wildland Fire funding in BLM, direct BIA to develop a 
Native American fire crew leadership training program,
    (6) Add $17.5 million to Forest Service State & Private Forestry to 
fund recently authorized Tribal and State Forested Watershed Assistance 
Programs,
    (7) Restore Cooperative Lands Forest Health Management funding in 
Forest Service State and Private Forestry to the fiscal year 2005 level 
of $47.6 million, and
    (8) Add $100 million in Energy Department Energy Conservation for 
biomass programs being authorized in H.R. 6, the Energy Policy Act of 
2005.

                 INTERTRIBAL TIMBER COUNCIL BACKGROUND

    The Intertribal Timber Council (ITC) is a twenty-nine year old 
organization of seventy forest owning tribes and Alaska Native 
organizations that collectively possess more than 90 percent of the 7.7 
million timberland acres and a significant portion of the 9.5 million 
woodland acres that are under BIA trust management. These lands provide 
vitally important habitat, cultural and spiritual sites, recreation and 
subsistence uses, and through commercial forestry, income for the 
tribes and jobs for their members. In Alaska, the forests of Native 
corporations and thousands of individual allotments are equally 
important to their owners. To all our membership, our forests and 
woodlands are essential to our physical, cultural, and economic well-
being, and their proper management is our foremost concern.

       REJECT THE BIA'S PROPOSED RESTRUCTURING OF THE BIA BUDGET

    Mr. Chairman, the ITC urges Congress to reject the BIA's proposed 
restructuring of its Operation of Indian Programs budget for fiscal 
year 2006. The restructuring undermines tribal government and Self-
Determination, and provides the BIA with greater autonomy to shift 
funding as it chooses. In the current climate of intense budget 
pressures, the BIA should have increased responsibility to inform the 
tribes about the use of the money that is supposed to be provided to 
meet tribal needs and federal trust obligations. Greater detail, 
transparency, and accountability are needed, not less. Restructuring 
would eliminate TPA and create amorphous pools of funds that will be 
easier for the BIA to manipulate, out of view of the very tribes the 
budget is to assist. The current budget system was developed and 
implemented by tribes, the BIA and Congress in fiscal year 1993 to 
clearly identify all BIA funds subject to tribal control. The BIA 
budget is intended to serve the tribes, not the bureaucracy.
    Restructuring the BIA budget is exceptionally complicated and 
controversial; tribal involvement and consultation must be required 
before the BIA is granted the authority to implement what it has 
characterized as a ``needs-based budget.'' The BIA is already failing 
to adequately fund almost all of its programs, including its trust 
resource obligations; giving the BIA virtually carte blanche authority 
to shift and distribute this scarcity among the tribes will be an 
unending source of BIA mischief and increasing distrust among the 
tribes. At the very least, any such plan would be disruptive and 
extremely controversial. Shifting funds would destabilize both Self-
Governance tribes and direct service tribes. Further, the proposed 
budget justification is vague and apparently anticipates differential 
administrative treatment. ``One set of standards should apply to 
programs managed directly by BIA. Another set of standards should be 
applied to BIA's management of grants under Indian Self-
Determination.'' BIA-OIP-1.

RESTORE ENDANGERED SPECIES FUNDING IN NON-RECURRING PROGRAMS--RESOURCES 
MANAGEMENT, TO $2.6 MILLION AND ADD $4 MILLION FOR ACTIVITIES INVOLVING 
                                THE ESA

    We request that the BIA Endangered Species program be restored to 
its fiscal year 2001 level of $2.6 million, and that another $4 million 
be added to address unmet needs for funding to support tribal 
activities involving the ESA. Even at current levels, for instance, the 
BIA Pacific Region states its ESA program is so underfunded it cannot 
fund one full-time biologist, yet there are over 290 federally listed 
species and 102 federally recognized Indian tribes within the Region. 
For fiscal year 2006, BIA is proposing to cut its ESA program to 
$210,000, effectively eliminating the only funding identified in the 
BIA budget for field-level ESA compliance activity. The fiscal year 
2006 BIA Justification frankly acknowledges this on page BIA-NRP-17, 
stating ``the reduction will curtail the ESA compliance effort for 
individual timber sales.'' We fear that the virtual elimination of the 
ESA program would increase the difficulty of harvesting Indian timber 
in accordance with tribal management plans and violate the federal 
trust responsibility. Tribal governments would be deprived of needed 
jobs and revenue, and tribal forests themselves would be placed in 
jeopardy of catastrophic loss due to wildfire, insects and disease 
because of the inability to properly manage forest stocking levels. It 
is sadly bizarre that the Interior Department's Fish and Wildlife 
Service budget is proposing $80 million for ESA grants to states and 
territories, for which the United States does not have a trust 
responsibility.

IMPLEMENT IFMAT II REPORT RECOMMENDATIONS TO--(A) INCREASE BIA FORESTRY 
  BASE FUNDING BY $119.6 MILLION, AND (B) INTEGRATE INTERIOR BIA FIRE 
               FUNDING INTO THE BIA BASE FORESTRY BUDGET

    The National Indian Forest Resources Management Act (Public Law 
101-630) Section 312 (25 U.S.C. 3111) requires the Interior Secretary 
to provide for an independent assessment and report on the status of 
Indian forests and forest management every ten years. The first Indian 
Forest Management Assessment Team (IFMAT-I) report was issued in 
November, 1993, and the second (IFMAT-II) in December, 2003. In 
addressing its statutory mandates, the IFMAT II report recommends, and 
the ITC urges, that BIA base Forestry funding be increased by $119.6 
million to bring it into per acre funding parity with the Forest 
Service (IFMAT-II page 98). This increase would include funding for 
several unfunded federal mandates that expose tribal timber sales to 
the prospect of challenge and shut-down, hindering forest health and 
depriving tribes of revenue; for example, the current BIA budget 
provides no identified funds for archeological surveys required by the 
National Historic Preservation Act.
    The IFMAT-II report also recommends that fire funding be made a 
permanent part of BIA's base Forestry funding in order to efficiently 
address forest health as part of overall Indian forest management 
(IFMAT-II page 60). The ITC agrees and requests the Committee to shift 
funding for BIA fire and fuels management and preparedness to Forestry 
in Non-Recurring Programs. IFMAT-II stresses the contribution that 
fire-related funding (fuels management, preparedness, and emergency 
stabilization) has made to tribal forestry since 1991. For 2001, the 
total BIA Forestry budget including base program funding and fire 
funding is $9.38 an acre, or two-thirds the $13.70 per acre combined 
base and fire funding for the Forest Service. While fire funding has 
helped reduce the funding disparity with National Forests, integration 
of BIA fire funds with funding for other programs would lead to more 
effective and coordinated management, while avoiding duplication of 
effort and other inefficiencies.

   ADD $8 MILLION TO CADASTRAL SURVEYS IN NON-RECURRING REAL ESTATE 
 SERVICES, AND RETAIN THE $1.6 MILLION PROPOSED INCREASE FOR REGIONAL 
                     OFFICE LAND TITLES AND RECORDS

    We request that fiscal year 2006 BIA funding for cadastral surveys 
be increased to $16 million. We also note that the BLM itself has 
statutory responsibilities to provide cadastral surveys on Indian trust 
lands, and we ask that the BLM be directed to institute such a program 
as part of its baseline responsibilities. Reliable and accurate 
boundaries and clear, current title are essential for the management of 
Indian trust lands and resources. Without them, land use and management 
are clouded, its income subject to question, and its protection 
jeopardized. A lack of surveys is a major cause of timber trespass.
    We support the requested fiscal year 2006 increase of $1.6 million 
for Land Titles and Records in Regional Office Trust Services, although 
we remain concerned about the adequacy of funding for this program.

  WITHIN WILDLAND FIRE FUNDING IN BLM, DIRECT BIA TO DEVELOP A NATIVE 
             AMERICAN FIRE CREW LEADERSHIP TRAINING PROGRAM

    We request that the BIA be directed to develop a Native American 
fire crew leadership training program. Native American crews constitute 
25 percent of the line fire work force and have proven to be invaluable 
assets for protecting both Indian and non-Indian forests and 
communities. There is an increasing need for fire crew leadership 
training to improve the readiness and field effectiveness of tribal 
fire crews. Failure to do so could endanger the safety and hinder the 
deployment of otherwise fully trained and able tribal fire crews.

 ADD $17.5 MILLION TO FOREST SERVICE STATE & PRIVATE FORESTRY TO FUND 
  RECENTLY AUTHORIZED TRIBAL AND STATE FORESTED WATERSHED ASSISTANCE 
                                PROGRAMS

    We request funding to initiate both tribal and state watershed 
assistance programs in fiscal year 2006. Title III of the Healthy 
Forests Restoration Act (Public Law 108-148) establishes needed 
watershed forestry assistance programs for states (Section. 302, $15 
million) and for tribes (Section 303, $2.5 million). The combined 
authorized funding for these two programs is $17.5 million a year. With 
drought now encroaching on the West, healthy forested watersheds are 
becoming especially important for their role in capturing, holding, 
filtering, and releasing steady supplies of clean water, providing 
riparian and other habitat, and assuring sustainable fire-resistant 
forest stands. Fire and drought imperil watersheds that often span 
jurisdictional boundaries. Funding of both the tribal and state 
watershed programs is essential to help communities, particularly 
smaller rural communities like those found on Indian reservations, to 
actively participate in collaborative watershed management.

 RESTORE COOPERATIVE LANDS FOREST HEALTH MANAGEMENT FUNDING IN FOREST 
  SERVICE STATE AND PRIVATE FORESTRY TO THE FISCAL YEAR 2005 LEVEL OF 
                             $47.6 MILLION

    Pest, disease, and invasive species management on Indian trust land 
is funded in USFS Forest Health Management for Federal Lands, and the 
ITC supports maintaining the adequacy of that budget. The ITC also 
urges that funding for Forest Health Funding on Cooperative Lands be 
restored to its fiscal year 2005 level. It is essential to address 
forest health on a broad landscape basis; where ownership patterns are 
complex, inadequate coverage on Coop lands increases the prospects of 
damage to neighboring Federal and tribal lands, with a consequent loss 
of forest productivity.

 ADD $100 MILLION IN ENERGY DEPARTMENT ENERGY CONSERVATION FOR BIOMASS 
   PROGRAMS BEING AUTHORIZED IN H.R. 6, THE ENERGY POLICY ACT OF 2005

    Many timber tribes are pursuing biomass to reduce costs of forest 
health treatments by generating electricity, and we urge that $100 
million be added to the Dept. of Energy budget in anticipation of the 
programs being authorized in Section 939 of H.R. 6.

                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    As President of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this testimony, 
which reflects the needs, concerns and issues of the tribal membership 
arising from the President's fiscal year 2006 Budget.

                            INDIAN EDUCATION

    Johnson O'Malley. We urge the Subcommittee to restore $8.8 million 
to the Johnson O'Malley (JOM) program.--The Administration proposes 
substantial cuts to education funding, and Indian education has been 
especially hit hard. Of particular significance to the Band is the 
proposed $8.8 million decrease in JOM funding--cutting funding for this 
program in half. The JOM program provides funding for supplemental 
education programs for Indian students attending public schools. 
Because the Band's member children attend public schools, this funding 
forms the core of the Band's education program. We urge the 
Subcommittee to restore full funding to this program.
    Lac du Flambeau Education Program. The Band also requests an 
additional appropriation of $93,000 for its education program.--The 
Band's education program has been historically under-funded. It is 
impossible to demonstrate the successful performance required by the 
Administration for continued funding when the program has never been 
fully funded in the first instance.
    The Band received only $56,134 in JOM funding in fiscal year 2005. 
Of this, $45,000 supports an Indian Student Mentor at the local high 
school, and the balance is used to partially fund the Tribal Education 
Coordinator. The mentor program is very important to our freshman 
students, who arrive at the high school as a minority after graduating 
from the majority-Indian Reservation grade school. The mentor provides 
support and intervention to ease this transition. However, we have 520 
grade school students who are not served by the JOM program due to lack 
of funding. An additional $93,000 is required to meet the basic needs 
of these students.

                     NATURAL AND CULTURAL RESOURCES

    Circle of Flight. We strongly urge the Subcommittee to restore 
$592,000 for the Tribal Wetland and Waterfowl Enhancement Initiative 
(Circle of Flight), which the Administration proposes to eliminate 
entirely.--Congress has restored this funding when it was targeted in 
past years, and the Band would like to thank the Subcommittee for 
understanding how important this program is in restoring and preserving 
our Nation's wetlands and waterfowl populations. The preservation and 
restoration of wetlands is vital to the culture and economy of the 
Great Lakes region. Moreover, in addition to waterfowl habitat and 
gathering areas, wetlands are important in providing flood control, 
clean water and recreation, benefiting residents up and down the 
Mississippi Flyway. Your strong support of this program is required 
again.
    Wildlife and Parks. We urge this Subcommittee to restore full 
funding to the Wildlife and Parks budget, including the proposed $4.2 
million cut to tribal management and development programs.--Tribes are 
leaders in natural resource protection and this funding is essential to 
maintain these programs. The Band has a comprehensive Natural Resource 
Department and dedicated staff with considerable expertise in natural 
resource and land management. Our activities include raising fish for 
stocking, conservation law enforcement, data collection on water and 
air quality, developing well head protection plans, conducting wildlife 
surveys and administering timber stand improvement projects on the 
86,000-acre reservation.
    The Band also requests the Subcommittee set aside $200,000 for Lac 
du Flambeau--$100,000 for Fish Hatchery Operations and $100,000 for 
Management and Development.--The Wildlife and Parks budget has not 
increased significantly since 1990, and the Band requires additional 
funding to continue its fish hatchery and management programs.
    Tribal Historic Preservation Officers. The Band requests that $9.9 
million be allocated within the Historic Preservation Fund for Tribal 
Historic Preservation Officers (THPOs).--In 1995, Congress began 
encouraging tribes to assume historic preservation responsibilities as 
part of self-determination. There are currently 54 tribes in the United 
States--six in Wisconsin--approved by the Secretary to administer 
historic preservation programs. These programs conserve fragile places, 
objects and traditions crucial to tribal culture, history and 
sovereignty.
    As was envisioned by Congress, more tribes qualify for funding 
every year. In fiscal year 2001, there were 27 THPOs with an average 
award of $154,000; in fiscal year 2005, there are 54 THPOs, and the 
Band will likely receive $48,000. Paradoxically, the more successful 
the program becomes overall, the less each tribe receives to maintain 
professional services, ultimately crippling the programs. The requested 
appropriation would provide a modest base funding amount of $180,000 
per THPO program.
    Lac du Flambeau Boarding School Historic Restoration. The Band 
requests an appropriation of $337,653 from the Saving America's 
Treasures Account for the restoration of the Lac du Flambeau Boys and 
Girls Indian School, as a historic site.--From 1895-1932, the Lac du 
Flambeau boarding school was operated with the purpose of assimilating 
Indian children from the region. The school's history represents a 
snapshot of a painful era of American Indian policy faced by our 
ancestors. Unfortunately, this story is rarely told in present day 
textbooks. The Band's goals in restoring the buildings are to provide a 
place to tell the story of the boarding school era--a story of cultural 
survival and personal endurance in the face of seemingly insurmountable 
obstacles--and to honor those who kept our tribal traditions alive in 
these difficult circumstances. Funding would cover exterior and 
interior restoration and associated infrastructure, personnel and 
engineering costs.
    Forestry. The Band requests that the Subcommittee earmark $107,000 
for the Lac du Flambeau Forestry Department.--The Reservation contains 
46,000 acres of forested land that supports hunting, gathering and 
employment opportunities for tribal members. Proper management of the 
forest is essential not only to sustain our subsistence lifestyle, but 
also to provide economic growth for the Band. Two foresters and one 
technician undertake a broad range of management activities, including 
tree planting, prescribed burning, forest road design and maintenance, 
and timber sale establishment and administration. The total cost of 
operating the forestry program is $217,000, but the program received 
only $98,672 in fiscal year 2005--a decrease from previous years--and 
has not received a substantial funding increase since 1991. Additional 
funding is needed to maintain forest development, timber sale 
management and wildfire control activities. Forest management requires 
secure, long-term funding to be cost-effective and demonstrate results.
    Great Lakes Indian Fish and Wildlife Commission. The Band also 
supports funding for the Great Lakes Indian Fish and Wildlife 
Commission (GLIFWC) in the amount of $4,196,000 to meet the needs 
outlined in the Commission's testimony submitted to this 
Subcommittee.--The Band is a member of the Commission, which assists 
the Band in protecting and implementing its treaty-guaranteed hunting, 
fishing and gathering rights.

         PAY COST SHORTAGES FOR BIA PUBLIC LAW 93-638 EMPLOYEES

    We urge the Subcommittee to restore full Public Law 93-638 pay cost 
funding for tribes in fiscal year 2006 and to restore pay cost funding 
not received in fiscal year 2002-2005 through a special 
appropriation.--Under the Indian Self-Determination Act, many tribes 
have assumed responsibility for providing core services to their 
members. If these services were provided by the federal government, 
employees would receive pay cost increases mandated by federal law. 
While tribal governments have assumed this responsibility, Congress and 
Interior have failed to fulfill their obligation to ensure that tribes 
have the same resources to carry out these functions. Tribes received 
only 75 percent of the pay cost adjustment in fiscal year 2002, 15 
percent in fiscal year 2003 and approximately 30 percent in fiscal year 
2004. This inequity threatens to undermine tribal self-determination.
    The Band also requests an appropriation of $59,600 to provide a 5 
percent cost of living increase for its employees.--Funding for the 
Band's most critical core services, including law enforcement, courts, 
education, natural resource management and social services, has eroded 
significantly in recent years because of the lack of appropriate pay 
cost increases. The requested appropriation would cover a 5 percent 
cost of living adjustment for the Band's program employees within TPA, 
Management and Development and Fish Hatchery Operations.

                    ENVIRONMENTAL PROTECTION AGENCY

    Indian General Assistance Program. The Band requests that the 
Subcommittee increase funding for the Indian General Assistance Program 
(GAP) by $10.8 million.--GAP funding is the primary federal mechanism 
available for tribes to protect our lands. These funds, which provide 
support for many of our programs, enable tribes to assume environmental 
responsibilities delegated by EPA. We ask the Subcommittee to restore 
the proposed $5 million cut to this program and to increase GAP funding 
to at least $68.3 million to enable tribes to continue developing 
environmental management infrastructure. We also ask you to clarify 
that GAP funding can be used for development, implementation and 
continued support of tribal environmental programs, not merely 
``capacity building.''
    Clean Water Program. We request restoration of full funding to the 
Clean Water Program, including restoration of $171,000 from this fund 
for the Band's Water Resources Program.--The Clean Water Program 
provides grants to tribes under Section 106 of the Clean Water Act to 
protect water quality and aquatic ecosystems. We received $171,000 in 
fiscal year 2005, the minimum required to support the Band's program. 
In fiscal year 2006, the Administration proposes to reduce this to 
$150,000. Continued operation of the program requires restoration of 
this $21,000 cut.
    State and Tribal Assistance Grants. The Band supports restoration 
of $643.9 million for State and Tribal Assistance Grants.--These grants 
are used to support a variety of tribal environmental programs, 
including water quality programs, and are an essential source of tribal 
environmental funding.

                             INDIAN HEALTH

    We urge the Subcommittee to significantly increase funding for 
Contract Health Care (CHC).--Federal funding for health services has 
fallen dramatically behind the rising cost of health care over the past 
five years. In fiscal year 2000, The Band's shortfall for health care 
was $1.2 million. We anticipate the fiscal year 2005 shortfall to be in 
excess of $2.9 million. This deficit has increased 136 percent or an 
average annual increase of 27 percent. Despite rising costs, the 
Administration proposes an increase of only $27 million for CHC. A 
substantial funding increase is needed to address the need across 
Indian county. In addition, we urge the Subcommittee to look at ways to 
reduce costs for Indian health care. For example, currently vendors for 
CHC are paid at full rates, rather than medical assistance rates. A 
rate change would cut the Band's health care budget shortfall in half.
    The Band also requests an appropriation of $8 million for 
construction of a new clinic facility.--The inadequate design of the 
present facility, which was not intended for use as a clinic, restricts 
access to patient care and limits the quality of service we are capable 
of providing to community. A new facility would improve patient access 
to providers, enable the Band to provide wellness education and health 
screenings for cancer and diabetes, and reduce payments to outside 
vendors because more high cost services could be provided on-site.

                                 ______
                                 
          Prepared Statement of the Mesa County Commissioners

    The Mesa County Commissioners urge you to support the proposed $1.5 
million appropriation to the Bureau of Land Management from the Land 
and Water Conservation Fund (LWCF) for the Colorado Canyons National 
Conservation Area.
    As you may be aware, Mesa County lies on the Western border of 
Colorado and covers 3,309 square miles. The percentage of public lands 
in Mesa County is 71 percent. We work very closely with the Bureau of 
Land Management.
    Located in west central Colorado and straddling a 23-mile stretch 
of the Colorado River within Colorado and Utah, the 122,300-acre 
Colorado Canyons National Conservation Area (NCA) contains a multitude 
of nationally significant resources. This landscape supports a varied 
range of recreational uses--activities such as floating the Colorado 
River, big game hunting, hiking, camping, mountain biking, horseback 
riding, and fossil viewing.
    The 1.5-mile ``Trail Through Time'', administered by the BLM and 
the Museum of Western Colorado, interprets fossilized dinosaur remains 
found in a 140-million-year-old quarry. Twenty-five miles of the 
internationally renowned Kokopelli Mountain Bike Trail pass through 
Colorado Canyons NCA. The Kokopelli Trail receives 31,000 annual 
visitors, and usership is projected to double by 2025. In addition, a 
53-mile trail network, known as the Kokopelli Loop, lies within the 
NCA.
    In fiscal year 2006, the BLM has the opportunity to acquire and 
protect a number of private parcels both on the Colorado River and at 
other critical locations within the NCA from willing sellers, and which 
represent the last significant in-holdings in the NCA.
    Without protection, these properties face imminent threats from 
rural residential development. Conserving them this year will 
consolidate federal ownership within the Colorado Canyons NCA and 
protect the area's unique richness of essential natural and 
recreational resources.
    Again, we urge you to give this project your strongest support 
during the Congressional deliberations of the fiscal year 2006 Interior 
Appropriations bill.
    Thank you for your support.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association

    The National Parks Conservation Association (NPCA) is the only 
national nonprofit conservation organization that advocates exclusively 
for the national parks. Through public education, advocacy, and citizen 
outreach, NPCA works to protect, preserve, and enhance America's 
national parks for present and future generations. On behalf of 
approximately 300,000 NPCA members, we appreciate the opportunity to 
share our funding priorities and respectfully request the Committee 
consider these views as you shape the fiscal year 2006 Interior budget.

                 OPERATIONS OF THE NATIONAL PARK SYSTEM

    A top NPCA priority is to significantly increase funding for Park 
Service operations. NPCA is requesting an increase of $100 million 
above the President's fiscal year 2006 request, $150 million above 
current fiscal year 2005 spending levels, for a total of $1.8 billion 
for Operations of the National Park System.
    NPCA appreciates and supports the efforts in the President's budget 
to cover fixed costs. In recent years, the parks have been stretched 
thin by unbudgeted cost-of-living increases, un-reimbursed storm 
damage, and insufficient funding for homeland security needs, which 
have contributed to and compounded the burden of the annual operating 
deficit.
    However, the increase of $50.5 million for Operations of the 
National Park System does not leave room for any programmatic increase 
in the base operating budgets for the 388 NPS units. Without increased 
programmatic funding to the parks, visitor service and resource 
protection needs remain unmet at parks throughout the system.
    NPCA greatly appreciates the effort of the Committee to work on a 
bipartisan basis to address the core operating needs of the parks, 
particularly the successful effort last year to significantly increase 
the base operating budget of the parks. Continuing this effort in the 
fiscal year 2006 is crucial.

Land Acquisition
    NPCA supports a number of projects included in the President's 
fiscal year 2006 National Park Service Federal Land Acquisition budget 
request including: $8 million for Big Thicket National Preserve, $1.6 
million for Lewis and Clark National Historic Site, $5.8 million for 
Sleeping Bear Dunes National Lakeshore, $1.9 million for Wrangell-St. 
Ellias National Park and Preserve, $3 million for Pinnacles National 
Monument, $1.6 million for the Carter G. Woodson National Historical 
Site, and $4.3 million for Flight 93 National Memorial.
    In addition, NPCA respectfully requests the consideration of a 
number of priority NPS land acquisition projects listed below.
  --Big South Fork National River and Recreation Area, TN
    Request.--$2,062,500
    Description.--Funding is needed to purchase 625 acres (2 tracts) 
within the authorized boundary of the Big South Fork NRRA. There are 
approximately 5,900 acres of privately held property within the 
boundary of the park, much of it threatened by development near the 
gorge.
  --George Washington Birthplace National Monument, VA
    Request.--$2,000,000
    Description.--Funding is needed to purchase two tracts of land in 
the expanded boundary of the park. Public Law 107-354, signed into law 
by President Bush in 2002, authorized expansion of the park's boundary 
by 112 acres. Now being marketed by commercial real estate interests, 
this land is surrounded by parkland, the Potomac River, and its 
tributary, Pope's Creek.
  --Gettysburg National Military Park, PA
    Request.--$2,000,000
    Description.--Funding is needed to purchase in-holdings from 
willing sellers. Of the 5,989 acres inside Gettysburg's boundary, 
nearly 20 percent or 1,154 acres remains privately owned. The last 
funding provided to acquire threatened lands at Gettysburg was in 
fiscal year 2001.
  --Grand Teton National Park, WY
    Request.--$4,600,000
    Description.--Funding is needed to purchase from willing sellers 
4.37 acres adjacent to the Moose-Wilson road, known as the ``Hartgrave 
Property.'' This property is a critical wildlife area and highly 
visible to park visitors.
  --Harpers Ferry National Historical Park, WV
    Request.--$3,000,000
    Description.--Funding is needed to acquire Schoolhouse Ridge 
properties inside the park boundary. Public Law 108-307 authorized the 
addition of 1,240 acres (191 acres which is privately owned) to the 
park. The $2.9 million approved in fiscal year 2005 will be applied to 
acquisition of two tracts totaling 111 acres. This land outside 
Washington, DC faces significant development threats.
  --Lewis & Clark National Historic Park, OR/WA
    Request.--$3,750,000
    Description.--Funding is needed to complete acquisitions to 
coincide with the Lewis and Clark bicentennial celebration in November 
2005. Public Law 108-387 re-designated Fort Clatsop National Memorial 
as Lewis and Clark National Historical Park, expanding the boundary of 
the park. The President's fiscal year 2006 Budget includes $1,600,000 
to purchase approximately 160 acres of property from Cathlamet Timber 
to complete the Dismal Unit in Washington. An additional $2,150,000 is 
needed to acquire property from the Garvin family and complete the new 
Station Camp unit in Washington, and a smaller acquisition adjacent to 
Fort Clatsop to complete the acquisition from Weyerhauser in Oregon.
  --Mount Rainier National Park, Carbon River Valley, WA
    Request.--$4,000,000
    Description.--Funding is needed to complete acquisition of 800 
acres from willing sellers to address seasonal flooding and improve 
road access to the park. Local land conservancies are purchasing 
options on these lands to protect the lands from development adjacent 
to the park.
  --Obed Wild and Scenic River, TN
    Request.--$3,174,000
    Description.--Funding is needed toward the acquisition of 1,397 
acres to protect from development the wild values for which the park 
unit was established. Currently one-third of the land within the park 
boundary is in private ownership. $750,000 was appropriated in fiscal 
year 2004 for such purposes.
  --Petrified Forest National Park, AZ
    Request.--$5,000,000
    Description.--Funding is needed to begin the purchase of private 
lands incorporated into the park through the Petrified Forest National 
Park Expansion Act signed into law by President Bush in 2004 (Public 
Law 108-430). The expansion will protect globally significant 
paleontological resources, as well as nationally significant 
archeological resources. There are currently approximately 79,500 
privately owned acres within the expansion.
  --Valley Forge National Historic Park, PA
    Request.--$4,500,000
    Description.--Funding is needed to acquire lands north of the 
Schuylkill River. Nearly 400 acres within the park boundary remains 
privately-owned in one of the fastest growing areas in the state. 
Valley Forge preserves, protects, and maintains the cultural and 
natural resources associated with the encampment of Gen. Washington's 
Continental Army.
  --Virgin Islands National Park, USVI
    Request.--$850,000
    Description.--Funding is needed to acquire a 1-acre high priority 
land tract (Penn Property) located adjacent to the 376-acre Maho Bay 
Estate. This area is under significant development pressure that 
threatens to disrupt the character of the park, including the 
spectacular views of Maho Bay and public access to the scenic shoreline 
and waters of the park. This fragile area contains large nesting 
colonies of brown pelicans, as well as migratory warblers and terns 
that make their winter homes on St. John.
  --California Desert Parks, CA (Death Valley NP, Joshua NP, Mojave 
        National N. Pres)
    Request.--$1,000,000
    Description.--Funding would be used in fiscal year 2006 toward the 
purchase of desert park in-holdings from willing sellers. There are 
substantial numbers of private property parcels located within the 
boundaries of the Mojave National Preserve, Joshua Tree and Death 
Valley. For example, within Mojave alone there are over 1,100 
privately-owner parcels and over 300 willing sellers. These funds would 
match private dollars raised by the National Park Foundation, which has 
already worked to identify, map, and prioritize in-holdings for 
purchase from willing sellers.

Construction
  --Death Valley National Park, CA--Install Photovoltaic System on 
        Visitor Center/Headquarters Complex and Replace Roof
    Request.--$606,000
    Description.--The roof on the Furnace Creek Visitor Center and 
Headquarters Complex needs to be replaced. It currently leaks and 
drains into the visitor center at the front desk area where visitors 
pay entrance fees and receive information. Death Valley proposes to 
replace the old roof and install a new one with a 50 kW photovoltaic 
(PV) system. The PV system would provide approximately 30 percent of 
the Furnace Creek complex's annual energy demand. The PV system would 
be interpreted to the public to showcase National Parks Service's 
sustainability efforts.
  --Everglades National Park, FL--Modify Water Delivery System
    Request.--$25,000,000
    Description.--NPCA supports the Presidents fiscal year 2006 request 
of $25,000,000 within the Department of Interior budget for a Modify 
Water Delivery System, as well as the $35,000,000 from the U.S. Army 
Corps of Engineers. This funding is critical to ensure significant 
restoration benefits for Everglades National Park and the South Florida 
Ecosystem.
  --Hamilton Grange National Monument, NY--Relocation and Restoration 
        of Alexander Hamilton's Home
    Request.--$10,465,000
    Description.--Funding is requested to move the Hamilton house to a 
new location within Hamilton's original property lines. Public Law 106-
482, signed into law in 2000 authorized the Secretary of the Interior 
to acquire by donation suitable land to serve as the new location for 
the home of Alexander Hamilton and to authorize its relocation to the 
acquired land. The 1995 approved General Management Plan for the Grange 
called for its relocation and restoration.
  --Seward, Alaska--Mary Lowell Visitor Center
    Request.--$9,800,000
    Description.--Funding is requested to replace the Park Service's 
deficient visitor center/administration facility with a multi-agency 
facility in Seward that will serve the Park Service, U.S. Forest 
Service and Alaska State Parks. Under previous appropriations, 
sufficient land has been acquired for such purposes.

Other
  --National Underground Railroad Network to Freedom
    NPCA supports the President's Budget request of $482,000 for the 
Network to Freedom (NTF) program managed by the Park Service and 
respectfully requests an additional $1 million for NTF operations, and 
$500,000 for NTF grants for a total request in fiscal year 2006 of 
$1,982,000 for the Underground Network to Freedom program.
    The Underground Railroad Network to Freedom program was created to 
promote and preserve sites, partnerships, and programs that educate the 
public about the historical significance of the Underground Railroad. 
The current funding level of $482,000 for operations does not 
adequately cover staff salaries or basic programmatic needs. The 
President's fiscal year 2006 does not include any funding for NTF 
grants nor any increase in operations.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    This statement shares with the Subcommittee the views of the 
National Recreation and Park Association on fiscal year 2006 
appropriations for selected programs within its jurisdiction. 
Referenced programs are administered by the National Park Service.
    We recommend the following:
  --$100,000,000 from the Land and Water Conservation Fund for state 
        assistance to be invested by state and local governments on a 
        50/50 matching basis. Funds should be appropriated to the 
        states as authorized by the Land and Water Conservation Fund 
        Act, Public Law 88-578, as amended.
  --$25,000,000 to address the most distressed urban recreation 
        resource conditions and deficiencies identified and aided 
        through the Urban Park and Recreation Recovery Program. This 
        program funds no land acquisition.
  --$9,700,000 for the Rivers, Trails and Conservation Assistance 
        (RTCA) program to support field-based technical assistance that 
        yields conservation and recreation benefits through 
        collaboration with state and local interests.
  --Sufficient funds to enable the National Park Service, through 
        Federal Lands to Parks and related programs, to collaborate 
        with state and local recreation and park officials and others 
        on the conservation and use of surplus federal real property.
    If substantially adopted, our recommendations will help address an 
increasing national imperative to improve physical and mental health 
and to sustain the environment.

           LAND AND WATER CONSERVATION FUND STATE ASSISTANCE

    Our recommendations relative to LWCF assistance and urban park 
restoration are also supported by Advocates for Health, Public Parks, 
and Recreation, a broad coalition of health and recreation-related 
groups. A statement by that coalition accompanies our statement.
    We commend the Subcommittee for continuing national support for 
fiscal partnerships with state and local recreation and park 
authorities. Concurrently, we believe the President's proposed 
termination of LWCF State Assistance and zero funds for fiscal year 
2006 is remarkably shortsighted. In our judgment, the administration's 
reasons for these actions reflect limited awareness of program purpose, 
public and personal health, actual long-term impact and value results 
arising from investments, and actual fiscal conditions of state and 
local governments.
    Ironically, the President's budget continues to recommend that 
other programs be funded from the LWCF account, thus creating the 
illusion that LWCF is at least partially funded. If the Congress in its 
wisdom determines to fund these programs from the LWCF account then all 
jurisdictions and agencies presently eligible for LWCF and assistance 
engaged in wildlife habitat and forest conservation should be equally 
eligible to participate in programs drawn from the LWCF treasury 
account.
    The Interior Department's claim that state and local governments 
should, in effect, go it alone financially ignores one of the key 
tenants of the act: That a portion of annual OCS receipts should be 
reinvested through the Land and Water Conservation Fund. The record of 
LWCF grants to both small rural communities and large jurisdictions is 
evidence that the LWCF assistance is a highly efficient way to get OCS 
receipts back to the people for resource conservation and public 
recreation.
    The fiscal needs of state and local governments are well 
documented. For example, unfunded fiscal year 2004 requests for LWCF 
from local and state officials exceeded $836 million, according to 
applications submitted to the National Park Service for fiscal year 
2006. Our April 2005 interim report on local park and recreation 
capital investment needs for the period fiscal year 2005-2009 indicates 
that these local governments alone need once $72 billion for park and 
recreation facilities and lands. This reflects both the need for 
investment and program effectiveness, while suggesting that our request 
is very conservative. NRPA's priorities reflect a nationwide demand to 
increase the recreation capacity of public systems, especially those 
relatively close to home.
    We continue to note our concern that the administration's proposed 
budget again offers to divert access of the Land and Water Conservation 
Fund to a number of other non-LWCF activities. The LWCF act, broad in 
its application and resultant diversity of projects, is very specific 
in its policy objectives--provision of recreation opportunities to 
improve human health through direct access to lands and waters and 
recreation facilities.
    Non-federal recreation and park resources are essential to quality 
recreation experiences for all people. These systems provide the 
majority of public recreation destinations, services, and visitor 
experiences. They are not incidental to sustaining the social and 
environmental integrity of federal land systems.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    The Urban Park and Recreation Recovery Program recognizes the 
recreation values associated with conservation of the built 
environment. Funds are restricted to restoration and, thus, renewed and 
expanded public use of local recreation facilities and sites that have 
been worn out by use, age, or the elements. These facilities and sites 
are no less important than conservation of other recreation spaces and 
places of high ecological and aesthetic value. Demand for Urban Park 
and Recreation Recovery Program assistance remains high. It is 
reflected in both the number of requests for assistance and the quality 
and objectives of projects when the program has been funded. Based on 
demand for fiscal year 2001-2003 appropriations, for example, our 
recommendation would support from 50 to 90 projects.

           NATIONAL PARK SERVICE INTERGOVERNMENTAL ACTIVITIES

Rivers and Trails Conservation Assistance Program
    We recommend $9.7 million for the Rivers, Trails, and Conservation 
Assistance Program. The program continues to illustrate the critical 
importance of federal contributions to public/public and public/private 
partnerships for conservation of natural and cultural resources and 
public recreation access. The program provides technical assistance to 
local governments, citizens, and community organizations, and state 
agencies to consider recreation and conservation strategies. The 
results include planning, restoration, and development of waterways and 
trails, and conservation of open space and greenways, among other types 
of projects. In most cases, local governments continue to invest non-
federal funds in projects stimulated by local public interests and 
federal technical assistance.

Federal Lands to Parks Program
    We recommend an appropriation of at least $1 million to support the 
Federal Lands to Parks program, also part of NPS Recreation and 
Conservation Assistance activities. The FLP program is an exemplary 
service. It guides federal agencies and state and local governments in 
the conversion of federal surplus properties to public recreation and 
park uses and conservation of historic or wildlife values. The number 
of surplus properties potentially available for state and local parks 
and demands for assistance has increased beyond the present capacity of 
program staff. A large part of this demand was generated by the closure 
of several military bases between 1988 and 1995. In recent years, 
program staff has assisted in the transfer of about 20-25 properties 
annually. There is a current backlog of some sixty pending transfers. 
Anticipated base closure and reuse decisions will substantially impact 
the capacity of program staff.
    While there is today considerable attention and debate on the 
stewardship and priorities of the National Park System and National 
Park Service, we urge the Subcommittee to not let this situation divert 
attention from other congressional authorities in the Interior 
department's domain.
    Local and state park systems are critical to the health and well-
being of the American people and others who work and reside among us. 
With sufficient funds, more appropriate recreation resources will 
become accessible and better environmental stewardship will result. 
Local systems can better address diverse public interests and our 
collective need for quality recreation services for children. Local 
agencies, in particular, host programs that serve millions of 
nutritious breakfasts, lunches, snacks, and suppers to needy children. 
Public recreation and park sites and services help reduce crime and 
delinquency, especially during non-school hours, days, and seasons. 
Recreation and park policy-makers and managers recognize that at any 
given time perhaps 45 million people have a physical disability and 
public staff attempt to accommodate their needs for recreation. In 
addition to providing public recreation experiences, state and local 
agencies contribute importantly to sustaining plant and wildlife 
diversity.
    We appreciate this opportunity to share the views of our members.

Local Government Park and Recreation Capital Investment Survey--Fiscal 
                             Year 2005-2009

                           PRELIMINARY REPORT

                              INTRODUCTION

    The National Recreation and Park Association is a 501(c)(3) 
education, research, and service organization. It is an advocate for 
progressive policy and programs that support sufficient investment in 
public recreation and park systems and services. NRPA members are 
public executives, managers, elected and appointed citizen policy 
makers, and citizen advocates associated with the creation and use of 
public recreation and park places and recreation services. Over 20,000 
members are associated with public park and recreation agencies and 
allies at all levels of governments, individuals engaged in research, 
undergraduate and graduate education, continuing education and 
training, recreation services and site and program adaptations for 
persons with disabilities, and recreation for members of the Armed 
Forces and their dependents.
    As a national advocate for appropriations from the federal Land and 
Water Conservation Fund and Urban Park and Recreation Recovery Program, 
for example, NRPA has a continuing interest in the status of capital 
development and infrastructure needs of local park and recreation 
agencies. Our work on behalf of local general-purpose governments and 
special purpose park and recreation districts requires periodic 
assessments of both the short and longer-term fiscal conditions and 
capital investment needs. Further, this survey increases our awareness 
of both present and longer-term deficiencies and factors that influence 
decisions. This survey reveals a total capital investment need of 
$72.697 billion for fiscal year 2005 to fiscal year 2009, inclusive. 
Funds are needed to increase local parkland by 1.36 million acres, in 
addition to development of public recreation facilities.
    NRPA surveys of local government park and recreation capital 
investment estimates were conducted first in 1990, and have been 
conducted every five years since. The present study assesses the fiscal 
year 2005 capital development and recreation and park spatial needs of 
local agencies. It also projects capital investment program (CIP) needs 
for the period fiscal year 2005-2009.

                                METHODS

    A survey of the National Recreation and Park Association-maintained 
chief administrator database was conducted, beginning in December 2004, 
to analyze and assess capital investment needs. From a list of 4,787 
local public government agencies, a 15 percent random sample (n = 734) 
was drawn. Selected agencies were mailed a cover letter explaining the 
importance of the study, a survey instrument, and a pre-stamped return 
envelope. A post card reminder was sent to each agency three weeks 
after the initial mailing; one follow up mailing, again requesting 
participation and a second survey instrument, was sent three weeks 
later.
    During the data collection process, some agency mailings were 
returned as undeliverable. Efforts were made to correct the addresses 
and re-mail the request to participate in the study. In the end, the 
addresses of only four agencies could not be identified. Removing them 
from the effective sample, a total of 730 agencies had the opportunity 
to participate in the study. A total of 333 agencies responded and 
provided usable data for analysis purposes, resulting in an effective 
response rate of 45.6 percent.

                                RESULTS

    Descriptions of Agencies:
  --The overwhelming majority of the respondents (86.7 percent) were 
        from agencies they described as general-purpose government. 
        Another 11.5 percent of the respondents described their agency 
        as being a special purpose district.
  --A slight majority of the agencies (42 percent) operate under a July 
        1 fiscal year, but the number of agencies operating under a 
        fiscal year that begins January 1 was a close second (38.3 
        percent). Twelve percent of the respondents used a October 1 
        fiscal year.
  --The largest number of agencies served populations of 10,000-24,999 
        (26.3 percent). However, there was a fairly even distribution 
        of the remaining agencies across the spectrum of area 
        population. For example, 15.4 percent of the respondents served 
        the smallest category of population (under 10,000); slightly 
        less than 20 percent served populations of 25,000-49,999; 
        slightly over 15 percent served populations of 50,000-99,999; 
        and, 12.4 percent were in communities of 100,000-249,999.
  --The number of full-time equivalent employees serving these agencies 
        ranged from zero to 1,239. Almost 21 percent had no full-time 
        employees. However, the average number of full-time equivalent 
        staff was slightly under 57 employees. The median was 9.5 full-
        time employees.
  --These agencies also depended on an average of 324 volunteers. The 
        estimated number of volunteers working for these agencies 
        ranged from zero (26.2 percent) to 15,100.
  --The average size of respondent agency land systems was 1,776 acres. 
        Size ranged from zero (7.3 percent) to 65,528 acres. Of that 
        total, 28 percent of this acreage was undeveloped.
    Agency Finances:
  --Agencies reported fiscal year 2005 operating budgets of slightly 
        under $9.8 million. The smallest 2005 operating budget was 
        $3,067; the largest budget was over $1.2 billion.
  --Between the years 2000-2004, most agencies experienced an increase 
        in their capital investments (98.4 percent). Only 1.6 percent 
        reported a decrease. On average, agencies increased their size 
        by over 520 acres during this period through their capital 
        investment program. The largest increase reported was 80,000 
        acres. However, over 42 percent saw no increase in acreage.
  --Capital investment programs increased the estimated investment 
        value of agencies by an average of $4.6 million. One agency 
        reported increasing their investment value by $160 million.
  --The average capital improvement budget for fiscal year 2005 was 
        $5,366,774. Agency capitol improvement programs (CIP) ranged 
        from zero (7.9 percent) to over $756 million. Of their total 
        CIP budget, an average of $479,712 will be used for fee simple 
        acquisition of land/water. Almost $9,000 will be expended for 
        leases or easements; over $1.6 million will be spent for new 
        construction and/or development; and, approximately $1.17 
        million will be expended for rehabilitation and/or restoration 
        of existing lands or facilities.
  --In fiscal year 2005, agencies estimated that they would acquire 
        permanent public interest in almost 25 acres of additional 
        land. Over 73 percent of the respondents would acquire no new 
        acreage in 2005; two agencies expect to increase by 1,000 
        acres.
  --Only 27.4 percent of the agencies reported having mandatory 
        dedication laws; slightly more had payment in-lieu of 
        dedication requirements (29.2 percent). Thirty-five percent 
        impose impact fees for parks and recreation.
  --In fiscal year 2005, agencies expect to receive gifts, bequeathals, 
        dedications or by other non-purchase means, permanent public 
        interest in slightly less than 25 acres of land. Almost 80 
        percent expected to receive no new land via non-purchase means 
        in fiscal year 2005.
    Agency Needs--fiscal year 2005-2009:
  --Over the next five years, agencies estimated a need to acquire an 
        average of 285 acres of recreational land/water. Where 30.4 
        percent of the agencies indicated they needed no new acreage 
        over the next five years, others' responded that they needed up 
        to 16,000 acres.
  --During the same five-year period, agencies estimated a need for an 
        average of $15.3 million for capital improvement programs. Very 
        few (< 5 percent) indicated no need. One agency reported a need 
        of $285 million.
  --Of agencies' total capital investment needs over the next five 
        years, agencies reported needing an average of $2.48 million 
        for fee simple acquisition of land/water. They also reported 
        needing an average of $98,606 for leases, easements, and other 
        non-title acquisition, an average of $7.34 million for new 
        construction or development, and $4.62 million for 
        rehabilitation and restoration.
  --Each of the estimates for space and capital improvement funding was 
        derived either through staff assessments and estimates (55.8 
        percent) or a comprehensive public planning process (32.2 
        percent).
  --When asked the purpose of land acquisition, agencies ranked 
        ``expanding public recreational access generally'' as the 
        foremost reason. This was followed by ``eliminating or reducing 
        specific recreation deficiencies,'' ``conserving specific 
        natural resource features,'' and ``shaping and controlling 
        direction of land use change.''
  --Over the next five years, three-fourths of all agencies expect a 
        shortfall in agency capital investment funding.
  --Agencies reported that approximately 42 percent of the CIP funding 
        would come from general tax revenues. Further, they reported 
        that local bond and revenue issues would account for 17.5 
        percent of their funding. State grants (8.9 percent), fees/
        charges (6 percent), federal grants (5.4 percent), and private 
        gifts/donations (2.6 percent) were the other primary sources of 
        capital investment funding.
  --Looking to the future over the next five years, respondents 
        reported that general tax revenues would decrease as a 
        proportion of CIP funding (37.6 percent), as would fees/charges 
        (5.9 percent). Local bonds and revenue issues (20.9 percent), 
        federal grants (6.4 percent), and private gifts/donations (4.5 
        percent) would increase in importance over the next five years. 
        The dependency of agencies on state grants will remain about 
        the same (8.8 percent).
  --A majority of agencies (70 percent) stated that if greater amounts 
        of federal assistance were available, it would leverage an 
        increase in capital investments provided through local fiscal 
        sources. Twenty-eight percent indicated their investments would 
        remain the same. Very few indicated their local investments 
        would decrease (2.4 percent).
  --Slightly more than half of the respondents indicated their agency 
        had the powers of eminent domain/condemnation authority for 
        recreation resource protection and use (58.3 percent). Less 
        than 10 percent of the agencies had used this authority to 
        acquire land over the past five years.
  --Of those that had used this authority, the reasons for its use was 
        (1) to purchase resources from unwilling sellers, (2) to allow 
        the courts to set fair market value, (3) to create clear title 
        to the property, and (4) to protect the resource from an 
        imminent threat.
  --Local factors or other priorities have negatively influenced 
        investments in public parks and recreation, in about 68 percent 
        of local jurisdictions. Agencies reported that ``local economic 
        budget stress'' was the most important factor depressing 
        investment, followed by ``homeland security and first 
        responder'' priorities.

                       LOCAL GOVERNMENT PARK AND RECREATION CAPITAL INVESTMENT NEEDS, FISCAL YEAR 2005 AND FISCAL YEARS 2005-2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                         Est. local
                                                            Capital    Space needs   Capital needs   Est. local govt     govt  space    Est. local  govt
          Population size            Percent   Factor\1\  budget 2005   2005-2009      2005-2009      capital budget    needs-- 2005-     capital inv
                                     agencies                sample    sample mean    sample mean          2005             2009        needs--2005-2009
                                                              mean      (acreage)                                         (acreage)
--------------------------------------------------------------------------------------------------------------------------------------------------------
9,999 and under...................       15.4    737.198     $459,667       10.875      $1,446,136       $338,865,849           8,017     $1,066,088,835
10,000-24,999.....................       26.3   1,258.98      405,684       34.490       2,493,045        510,748,287          43,422      3,138,696,855
25,000-49,999.....................       19.6    938.252    2,789,692       72.153       6,988,100      2,617,433,996          67,698      6,556,599,255
50,000-99,999.....................       15.1    722.837    1,804,671      219.146      10,114,108      1,304,482,842         158,407      7,310,851,531
100,000-249,000...................       12.4    593.588    3,102,271      343.239      28,567,877      1,841,470,969         203,743     16,957,548,760
250,000-499,999...................        4.2    201.054    4,402,255    1,445.830      52,742,385        885,090,876         290,691     10,604,067,396
500,000 and over..................        6.9    333.303   54,511,580    1,765.170      81,197,401     18,168,873,178         588,338     27,063,337,315
                                   ---------------------------------------------------------------------------------------------------------------------
      Totals......................       99.9  .........   67,475,820    3,890.910     183,549,053     25,666,965,996       1,360,314     72,697,189,947
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Based on total population of 4,787 agencies.

                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District

    I am requesting your support and assistance in insuring continued 
funding for the Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program. These 
ongoing cooperative programs have the dual objectives of recovering 
four species of endangered fish while water use continues and water 
development proceeds in compliance with the Endangered Species Act of 
1973, state law, and interstate compacts. Partners in the two programs 
are the States of New Mexico, Colorado, Utah and Wyoming, Indian 
tribes, federal agencies and water, power and environmental interests. 
I respectfully request support and action by the Subcommittee that will 
provide the following:
    An increase of $691,000 in the fiscal year 2006 Recovery Element 
budget (Resource Management Appropriation; Ecological Services 
Activity; Endangered Species Subactivity; Recovery Element) allocated 
to ``Colorado River fish recovery project'' to allow U.S. Fish and 
Wildlife Service (FWS) Region 6 to meet its funding commitment to the 
Upper Colorado River Endangered Fish Recovery Program. This is the 
level of funding appropriated in fiscal years 2003, 2004 and 2005 for 
this program. These funds are needed for FWS direct participation in 
managing and implementing the Upper Colorado Program's actions, 
monitoring achievement of recovery goals, managing data associated with 
fish population abundance and sampling, evaluating stocking, and 
monitoring fish and habitat response to recovery actions.
    The appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2006.
    An increase of $211,000 in the ``Resource Management Appropriation; 
Ecological Services Activity; Endangered Species Subactivity; Recovery 
Element'' budget allocated to the ``San Juan River Recovery 
Implementation Program.'' These funds are needed to support the FWS 
Recovery Program Coordinator and staff who are responsible for program 
management and support of all Recovery Program activities.
    The enactment of Public Law 106-392, as amended by Public Law 107-
375, authorized the Federal Government to provide up to $46 million of 
cost sharing for these two ongoing recovery programs' remaining capital 
construction projects. Raising and stocking of the endangered fish 
produced at program hatchery facilities, restoring floodplain habitat 
and fish passage, regulating and supplying instream habitat flows, 
installing diversion canal screens and controlling nonnative fish 
populations are key components of the programs' ongoing capital 
construction projects. Subsection 3(c) of Public Law 106-392 authorizes 
the Secretary of the Interior to accept up to $17 million of 
contributed funds from Colorado, Wyoming, Utah, and New Mexico, and to 
expend such contributed funds as if appropriated for these projects; 
and provides for an additional $17 million to be contributed from 
revenues derived from the sale of Colorado River Storage Project (CRSP) 
hydroelectric power. This substantial non-federal cost-sharing funding 
demonstrates the strong commitment and effective partnerships embodied 
in both of these successful programs. The requested federal 
appropriations are critically important to these efforts moving 
forward.
    The support of your Subcommittee in past years is greatly 
appreciated and has been a major factor in the success of these multi-
state, multi-agency programs as they have progressed forward towards 
delisting the endangered fish species in the Upper Colorado and San 
Juan River Basins while necessary water use and development activities 
are occurring. I request the Subcommittee's assistance to ensure that 
the FWS is provided with adequate funding for these vitally important 
programs.
                                 ______
                                 
    Prepared Statement of Partnership for the National Trails System

    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 
several years, through operations funding and earmarked Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service. We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service and your support for the trails in the Bureau of 
Land Management's National Landscape Conservation System. To continue 
the progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of 23 of the national scenic 
and historic trails for FiscalYear 2006 through these appropriations:
  --National Park Service: $9.980 million for the administration of 18 
        trails and for coordination of the long-distance trails program 
        by the Washington Park Service office.
  --USDA Forest Service: $3.037 million to administer 4 trails and 
        $933,000 to manage parts of 16 trails administered by the Park 
        Service or Bureau of Land Management; Construction: $1.2 
        million for the Continental Divide Trail, $500,000 for the 
        Florida Trail, and $1 million for the Pacific Crest Trail.
  --Bureau of Land Management: to administer the Iditarod National 
        Historic Trail: $250,000, the Camino Real de Tierra Adentro 
        National Historic Trail: $389,000, the Old Spanish National 
        Historic Trail: $150,000 and $3.38 million to manage portions 
        of 9 trails administered by the Park Service or the Forest 
        Service; $407,000 for operating the Casper NH Trail 
        interpretive center.
  --We ask that you appropriate $7 million for the National Park 
        Service Challenge Cost Share Program and continue to earmark 
        $2.5 million for Lewis & Clark Bicentennial projects and one-
        third of the remaining $4.5 million (approximately $1.5 
        million) for the other 17 national scenic and historic trails 
        it administers or create a separate $1.5 million National 
        Trails System Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and earmark the money for the 12 
        national scenic and historic trails it administers or manages.
  --We ask that you appropriate $1.253 million to the National Park 
        Service National Center for Recreation and Conservation to 
        support the second year of a five-year interagency pilot 
        project to develop a consistent system-wide Geographic 
        Information System (GIS) for the National Trails System.
    We ask that you appropriate from the Land and Water Conservation 
Fund:
  --to the Forest Service: $5 million to acquire land for the Pacific 
        Crest Trail, $250,000 for management of the Pacific Crest Trail 
        land acquisition program; $150,000 to acquire land for the 
        Overmountain Victory Trail in North Carolina;
  --to the Bureau of Land Management: $1.5 million to acquire land for 
        the Pacific Crest Trail and $1.6 million to acquire land for 
        the Oregon Trail in Oregon;
  --to the Park Service: $4 million to grant to the State of Wisconsin 
        to match state funds to acquire land for the Ice Age Trail.

                         NATIONAL PARK SERVICE

    We request $1.253 million to fund the second year of a 5-year 
interagency effort to develop a consistent GIS for all 24 national 
scenic and historic trails. This initiative is described in the August 
2001 report (requested by Congress in the fiscal year 2001 
appropriation) ``GIS For The National Trails System'' and is built upon 
work already underway on the Ice Age, Appalachian, Florida, Oregon, 
California, Mormon Pioneer and Pony Express Trails to develop 
consistent information and procedures that can be applied across the 
National Trails System. The requested funding will be shared with the 
Bureau of Land Management and the Forest Service.
    The $9.980 million we request for Park Service operations includes 
increases for many of the trails to continue the progress and new 
initiatives made possible by the $975,000 funding increase provided for 
nine of the trails in fiscal year 2001 and the $500,000 increases 
provided in fiscal year 2004 and fiscal year 2005. We ask you to direct 
the Park Service to add the $500,000 increase that you provided for 
fiscal year 2005 to the base funding of the trails that received it. 
$73,000 of our requested increase will finally provide significant 
operational support for the Natchez Trace Trail, which currently 
receives only $27,000 in annual operations funding. Another $630,000 
will enable the Park Service to begin managing three new national 
historic trails--Ala Kahakai, El Camino Real de Tierra Adentro, and Old 
Spanish--the latter two administered with the Bureau of Land 
Management. These funds will provide full-time management, support 
projects for these trails and development of Comprehensive Management 
Plans for the Ala Kahakai and Old Spanish Trails. We also request 
$200,000 for maintenance of the Pacific Crest Trail in Kings Canyon/
Sequoia, Lassen, and North Cascades National Parks.
    We request an increase of $823,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 
significant sites along the Santa Fe Trail, to develop GIS mapping, and 
to fund public outreach and educational programs of the Santa Fe Trail 
Association. An increase of $451,000 for the Trail of Tears will enable 
the Park Service to work cooperatively with the Trail of Tears 
Association to develop a GIS to map the Trail's critical historical and 
cultural heritage sites so they can be protected and interpreted for 
visitors.
    The $100,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to continue developing 
comprehensive interpretation and auto tour guides for the Oregon, 
California, Mormon Pioneer and Pony Express Trails with a library of 
images derived from the GIS map database of the trails.
    We request $1,777,000 to continue funding the regular operation of 
the Lewis & Clark Trail and the operation of ``Corps II,'' a major 
component of the Federal government's commemoration of the Bicentennial 
of the Lewis & Clark Expedition in the final year of that 
commemoration.
    All of these trails are complicated undertakings, none more so than 
the 4,000 mile North Country Trail. With more than 650 miles of Trail 
across 7 national forests in 5 states there is good reason for close 
collaboration between the Park Service and Forest Service to ensure 
consistent management that provides high quality experiences for 
hikers. Limited budgets for both agencies have severely hampered their 
ability to practice this effective management procedure. The $845,000 
we request will give them that ability for the first time while also 
providing greater support for the regional and local trail building and 
management led by the North Country Trail Association, hastening the 
day when our nation's longest national scenic trail will be fully 
opened for use.
    The $893,000 we request will enable the Park Service to help WDNR 
and other partners to accelerate acquisition of land for the Ice Age 
Trail and further development of the Trail GIS to more efficiently plan 
resource protection, trail construction and maintenance to correct 
unsafe conditions and better mark the Trail for users. The funds will 
also provide assistance to the Ice Age Park & Trail Foundation to 
better equip, train and support the volunteers who build and maintain 
the Ice Age Trail and manage its resources.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $7 million in Challenge Cost 
Share funding to the Park Service for fiscal year 2006 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct $2.5 
million for Lewis & Clark Bicentennial projects and one-third of the 
other $4.5 million for the national scenic and historic trails to 
continue the steady progress toward making these trails fully available 
for public enjoyment. We suggest, as an alternative to the annual 
earmarking of funds from the Regular Challenge Cost Share program, that 
you establish a separate National Trails System Challenge Cost Share 
program with $1.5 million funding.

                          USDA--FOREST SERVICE

    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 16 other trails. We ask you to appropriate $3.037 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Caminos Real de Tierra 
Adentro and de Tejas, Lewis & Clark, California, Iditarod, Mormon 
Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony Express, Trail 
of Tears and Santa Fe Trails, we ask you to appropriate $933,000 
specifically for these trails.
    Work is underway, supported by funds you provided for the past five 
years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association has built 100 miles of new Trail 
across Eglin Air Force Base, in the Ocala National Forest, Big Cypress 
National Preserve and along Lake Kissimmee and the Choctawahatchee 
River. FTA volunteers helped clear trees and other debris scattered 
across 850 miles of trail by four hurricanes in 2004. The Partnership 
requests an additional $500,000 for trail construction in fiscal year 
2006 to enable the Forest Service and FTA to build 90 more miles on 
these and other segments of the Florida Trail.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $1.2 million to build or reconstruct 267 
miles of the CDT in fiscal year 2006.
    A Forest Service lands team is working with the Pacific Crest Trail 
Association (PCTA) and the Park Service National Trail Land Resources 
Program Center to map and acquire better routes for the 300 miles of 
the Pacific Crest Trail located on 227 narrow easements across private 
land or on the edge of dangerous highways. We request $200,000 to 
continue the work of the fulltime Trail Manager and the lands team and 
$100,000 for Optimal Location route planning. We also request $1 
million for new trail construction and reconstruction of fire and flood 
damaged bridges along the PCT in California and Washington by the 
Forest Service and the PCTA.

                       BUREAU OF LAND MANAGEMENT

    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of two scenic trails and 3,115 miles of 
seven historic trails administered by the National Park Service and 
U.S. Forest Service. The significance of these trails was recognized by 
their inclusion in the National Landscape Conservation System and, for 
the first time, in fiscal year 2002, by provision of specific funding 
for each of them. The Partnership applauds the decision of the Bureau 
of Land Management to include he national scenic and historic trails in 
the NLCS and to budget specific funding for each of them. We ask that 
you continue to support the funding for the National Landscape 
Conservation System and that you appropriate for fiscal year 2006 
$250,000 for the Iditarod National Historic Trail, $389,000 for El 
Camino Real de Tierra Adentro National Historic Trail, $150,000 to 
continue development of the Comprehensive Management Plan for the Old 
Spanish National Historic Trail, $300,000 for construction of new 
sections of the Continental Divide National Scenic Trail, $100,000 for 
maintenance of the Pacific Crest Trail, and $2.980 million, as 
requested by the Administration, for management of the portions of the 
seven other trails under the care of the Bureau of Land Management. We 
also request $1.5 million for construction of the California Trail 
Interpretive Center in Elko, Nevada, $407,000 to operate the Historic 
Trails interpretive center in Casper, Wyoming, and $1 million for 
construction of safety and other recreational improvements along the 
Iditarod National Historic Trail.

                    LAND AND WATER CONSERVATION FUND

    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement and in Attachment 2. The $5.250 million we request for the 
Pacific Crest National Scenic Trail will continue acquisition underway 
by the Forest Service and Park Service. The $150,000 requested for the 
Overmountain Victory National Historic Trail will protect a key link 
and access to a 7-mile section of the trail in the Pisgah National 
Forest in North Carolina.
    The $3.1 million requested for the Bureau of Land Management will 
protect a key section of the Pacific Crest National Scenic Trail and an 
important historical site along the Oregon National Historic Trail in 
Oregon.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Wisconsin has matched $6.93 million of fiscal year 
2000-2005 LWCF funding with more than $17.5 million to help conserve 
the resources of the Ice Age National Scenic Trail. With this 2.5:1 
match of State to Federal funds, Wisconsin has purchased 26 parcels 
totaling 5,553 acres and now has another 40 parcels under negotiation, 
appraisal or option to purchase. The National Park Service has spent an 
additional $3 million to protect the Ice Age Trail interpretive site. 
All of the LWCF funds appropriated by Congress for the Ice Age NST have 
been spent. The requested $4 million Land and Water Conservation Fund 
grant to Wisconsin will continue this very successful Federal/State/
local partnership for protecting land for the Ice Age Trail.
    The essential funding requests to support the trails are detailed 
in Attachment 2.

         PRIVATE SECTOR SUPPORT FOR THE NATIONAL TRAILS SYSTEM

    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2004 the trail organizations channeled 668,996 
hours of documented volunteer labor valued at $11,801,091 to help 
sustain the national scenic and historic trails. The organizations also 
applied private sector contributions of $6,449,719 to benefit the 
trails. These contributions are documented in Attachment 1.

 ATTACHMENT 1--CONTRIBUTIONS MADE IN 2004 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimated
                                                                     Volunteer       value of        Financial
                          Organization                                 hours         volunteer     contributions
                                                                                       labor
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference....................................         174,902      $3,085,271      $3,099,000
Camino Real Trail Association...................................           3,230          56,977       \1\ 1,000
Continental Divide Trail Society................................       \1\ 1,500          26,460  ..............
Continental Divide Trail Alliance...............................          21,700         382,788         592,948
Florida Trail Association.......................................      \1\ 60,000       1,058,400         165,000
Ice Age Park & Trail Foundation.................................          87,256       1,539,196         631,761
Iditarod National Historic Trail, Inc...........................       \1\ 3,920          69,149      \1\ 80,000
Heritage Trails/Amigos De Anza & others.........................  ..............  ..............  ..............
Anza Trail Coalition of Arizona.................................           6,870         121,187      \1\ 12,000
Lewis & Clark Trail Heritage Foundation.........................          54,737         965,561         300,000
Mormon Trails Association.......................................           1,390          24,520           2,040
Iowa Mormon Trails Association..................................         \1\ 750          13,230       \1\ 2,080
Nebraska Mormon Trails Association..............................         \1\ 125           2,205       \1\ 2,635
National Pony Express Association...............................          35,647         628,813          25,000
Pony Express Trail Association..................................           5,685         100,283          38,176
Nez Perce Trail Foundation......................................           3,140          55,390           5,082
North Country Trail Association.................................          42,297         746,119         205,877
Old Spanish Trail Association...................................           8,081         142,549          43,703
Oregon-California Trails Association............................          57,926       1,021,815         591,559
Overmountain Victory Trail Association..........................         \1\ 800          14,112  ..............
Pacific Crest Trail Association.................................          34,100         601,524         434,500
Potomac Trail Council...........................................       \1\ 1,500          26,460  ..............
Santa Fe Trail Association......................................      \1\ 32,600         575,064         156,400
Trail of Tears Association......................................          30,840         544,018          60,958
                                                                 -----------------------------------------------
      Totals....................................................         668,996      11,801,091       6,449,719
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


   ATTACHMENT 2--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM REQUESTED FISCAL YEAR 2006 APPROPRIATIONS FOR THE
                                             NATIONAL TRAILS SYSTEM
----------------------------------------------------------------------------------------------------------------
                                                Fiscal year
                                  ---------------------------------------
           Agency/Trail                                          2006         Project/programs possible with
                                    2005 cong.  2006 admin.    partners              increased funding
                                     approp.      request      request
----------------------------------------------------------------------------------------------------------------
Park Service:
    Ala Kahakai..................     $229,000  \7\ $231,00     $231,000  Continue preparation of Comprehensive
                                                          0                Management Plan (CMP) for new trail;
    Appalachian..................    1,137,000    1,155,000    1,155,000  Operations of NPS A.T. Park Office;
                                                                           $350,000 of the total supports
                                                                           volunteer-based trail and land
                                                                           management guided by ATC; Park ranger
                                                                           to deal with trail encroachments;
                                                                           support for GIS work;
    Natchez Trace................       27,000       27,000      100,000  Planning & building new trail &
                                                                           bridges; backlog maintenance with
                                                                           SCA;
    El Camino Real...............      111,000  \7\ 111,000      242,000  Full-time administrator; implement CMP
                                                                           with Bureau of Land Management;
    California...................      253,000      253,000      278,000  Continue to develop GIS-based
                                                                           comprehensive interpretation for 4
                                                                           trails auto tour guides;
    Ice Age......................      579,000  \7\ 588,000      893,000  Accelerate Trail corridor planning and
                                                                           land acquisition by agency partners;
                                                                           Increase Trail development,
                                                                           maintenance and resource management
                                                                           by IAP&TF volunteers;
    Juan Bautista de Anza........      256,000  \7\ 262,000      262,000  Coordination of Trail site protection,
                                                                           interpretation & development projects
                                                                           with local agencies & organizations;
                                                                           Outreach to schools and Latino
                                                                           communities;
    Lewis & Clark................    1,749,000  \7\ 1,777,0    1,777,000  Planning, coordination & support for
                                                         00                local Bicentennial projects and
                                                                           ``Corps II'';
    Mormon Pioneer...............      128,000      128,000      153,000  Continue to develop GIS-based
                                                                           comprehensive interpretation for 4
                                                                           trails auto tour guides;
    North Country................      641,000  \7\ 641,000      845,355  Advance Trail construction, route
                                                                           planning, protection and public
                                                                           awareness by providing regional
                                                                           services and technical assistance for
                                                                           volunteers and partners;
    Old Spanish..................       72,000       72,000      157,000  Full-time administrator; continue
                                                                           preparation of CMP with Bureau of
                                                                           Land Management;
    Oregon.......................      253,000  \7\ 261,000      286,000  Continue to develop GIS-based
                                                                           comprehensive interpretation for 4
                                                                           trails auto tour guides;
    Overmountain Victory.........      168,000      171,000      188,000  New route signs & interpretive
                                                                           exhibits; mapping Trail sites for
                                                                           protection inventory, feasibility
                                                                           study for location of Trail
                                                                           headquarters and visitor contact
                                                                           site;
    Pony Express.................      182,000      182,000      207,000  Continue to develop GIS-based
                                                                           comprehensive interpretation for 4
                                                                           trails auto tour guides;
    Potomac Heritage.............      250,000      252,000      252,000  Assistance to local agencies &
                                                                           organizations for planning &
                                                                           educational projects;
    Santa Fe.....................     674,0001      \1\ \7\    1,516,000  Preserve cultural resources; begin GIS
                                                    693,000                mapping; design & distribute
                                                                           interpretive media with SFTA;
    Selma to Montgomery..........      297,000  \7\ 304,000      304,000  Comprehensive management plan
                                                                           developed and trail interpretation
                                                                           begun in collaboration with citizen
                                                                           support organizations & local
                                                                           agencies;
    Trail of Tears...............      333,000  \7\ 333,000      784,000  Develop GIS, interpret critical Trail
                                                                           sites & provide new visitor
                                                                           facilities with TOTA;
    NTS-Washington Office........      294,000  \7\ 297,000      350,000  Program coordination and funding for
                                                                           special projects and training for
                                                                           staff & partners;
                                  ---------------------------------------
      National Trails System.....    7,633,000    7,738,000    9,980,355  Total National Trails System
                                                                           operations funding
                                  =======================================
Challenge Cost Share.............  \2\ 7,343,0  \3\ 4,916,0    7,000,000  $2.5 M for Lewis & Clark; \1/3\ of
                                            00           00                remaining $4.5 M for rest of National
                                                                           Trails System
Interagency GIS Project..........  ...........  ...........  \4\ 1,253,0  Development of GIS for National Trails
                                                                      00   System;
BLM:
    Iditarod Trail...............      165,000      179,000      250,000  Coordination and support for
                                                                           collaborative management with other
                                                                           Federal agencies, Iditarod Trail
                                                                           organizations and State of Alaska;
                                                                           bridges and cabins;
    El Camino Real...............      268,000      308,000      389,000  Collaborative administration and
                                                                           management with National Park
                                                                           Service; Full-time Trail
                                                                           Administrator; Site certification and
                                                                           protection;
    Old Spanish..................      102,000       52,000      150,000  Full-time Trail Administrator;
                                                                           Collaborative administration and
                                                                           management with National Park
                                                                           Service; Continue preparation of
                                                                           Comprehensive Management Plan; Site
                                                                           protection and interpretation;
    Continental Divide...........      115,000      211,000      300,000  Marking 230 miles of CDT in Wyoming
                                                                           and work in Idaho, Montana and New
                                                                           Mexico; Interagency management
                                                                           collaboration;
    Pacific Crest................       90,000       90,000      190,000  PCT maintenance in California;
                                                                           Interagency management collaboration;
    Juan Bautista de Anza........       56,000       84,000       84,000  Interpretive exhibits for Anza Trail
                                                                           in Arizona and California;
    California...................      163,000      179,000      179,000  California Trail resource inventories
                                                                           in Utah, Nevada and California;
    Lewis & Clark................    1,818,000    1,976,000    1,976,000  Lewis & Clark Bicentennial
                                                                           preparations and activities in Idaho
                                                                           and Montana;
    Mormon Pioneer...............      129,000      145,000      145,000  ......................................
    Nez Perce....................       43,000      149,000      149,000  Lewis & Clark Bicentennial
                                                                           preparations in Idaho and Montana;
    Oregon.......................      144,000      210,000      210,000  Interagency management collaboration;
    Pony Express.................      121,000      147,000      147,000  Marking Pony Express Trail in Utah and
                                                                           Nevada;
                                  ---------------------------------------
      National Trails System.....    3,164,000    3,730,000    4,169,000  Total National Trails System
                                                                           operations funding
                                  =======================================
Casper NHT Center................      407,000  ...........      407,000  Operating Oregon, California, Mormon
                                                                           Pioneer, and Pony Express National
                                                                           Historic Trails interpretive center;
Construction of:
    California Trail Interpretive    1,500,000  ...........    1,500,000  Continued funding for construction of
     Center-NV.                                                            California National Historic Trail
                                                                           interpretive center in Elko, Nevada;
    Iditarod Trail...............  ...........  ...........    1,000,000  Safety and other recreational
                                                                           improvements along Iditarod National
                                                                           Historic Trail;
FOREST SERVICE:
    Continental Divide...........     493,000+  ...........      754,000  Continued support for full
                                                                           administrative responsibility and for
                                                                           consistent interagency collaboration
                                                                           for each trail; support for
                                                                           consistent management with trail
                                                                           organization and local agency
                                                                           partners; trail brochures, signs,
                                                                           project planning etc.; Also $572,500
                                                                           to plan 382 new miles of CDT;
                                                                           $200,000 for work of full-time Trail
                                                                           administrator and $100,000 for
                                                                           Optimal Location Planning for PCT and
                                                                           $100,000 to increase Trail
                                                                           maintenance by volunteers coordinated
                                                                           by PCTA; $650,000 to continue
                                                                           collaboration with Florida Trail
                                                                           Association to inventory 430 miles of
                                                                           the Florida Trail and further develop
                                                                           Trail GIS; $500,000 to manage lands
                                                                           acquired for the FNST; $49,000 to
                                                                           support education and public outreach
                                                                           activities of Nez Perce Trail
                                                                           Foundation;
    Florida......................     493,000+  ...........    1,150,000
    Pacific Crest................     493,000+  ...........      500,000
    Nez Perce Trails.............     394,000+  ...........      633,000
                                  ---------------------------------------
      Total (+ = plus portion of   \5\ 2,873,0    1,000,000    3,037,000
       $1 million allocation)....           00
                                  =======================================
    Appalachian, North Country,        906,000      350,000      933,000  Improved trail maintenance, marking,
     Ice Age, Iditarod,                                                    interpretation, archaeological
     California, Juan Bautista de                                          studies, historic site protection and
     Anza, Caminos Real Tierra                                             trailhead facilities for trail
     Adentro & Tejas, Lewis &                                              segments in National Forests;
     Clark, Oregon, Old Spanish,                                           $200,000 to address deferred
     Mormon Pioneer, Overmountain                                          maintenance, remove blowdown trees on
     Victory, Pony Express, Santa                                          30 miles of trail, make improvements
     Fe, Trail of Tears.                                                   and provide liaison for collaborative
                                                                           management of the North Country Trail
                                                                           with National Park Service; Re-
                                                                           location and reconstruction of
                                                                           sections of the Appalachian Trail,
                                                                           replacement of major bridges and
                                                                           installation of toilets at shelters;
    Continental Divide Trail.....      986,000  ...........    1,200,000  Trail construction projects along the
                                                                           Continental Divide Trail:
                                                                           reconstructing or building 267 miles
                                                                           of trail in Montana, Idaho, Wyoming,
                                                                           Colorado and New Mexico;
    Florida Trail................      493,000  ...........      500,000  Trail construction projects totaling
                                                                           90 miles in Seminole State Forest,
                                                                           Aucilla Wildlife Refuge and along the
                                                                           Choctawahatchee, Kissimmee, Yellow,
                                                                           and Suwannee Rivers;
    Pacific Crest Trail..........      986,000  ...........    1,000,000  Trail construction projects along the
                                                                           Pacific Crest Trail, including
                                                                           reconstruction of fire and storm
                                                                           damaged bridges and structures in
                                                                           California and Washington;
                                                                           Fabrication and installation of
                                                                           roadside interpretive signs at Trail
                                                                           highway crossings;
                                  ---------------------------------------
      National Trails System.....    6,244,000    1,350,000    6,670,000  Total: National Trails System funding
                                  =======================================
Nat. Forest System:
    Trail Maintenance............   41,496,000  ...........  ...........  Trail maintenance throughout the
                                                                           National Forest System.
    Trail Construction...........   35,278,000  ...........  ...........  New trail construction and trail re-
                                                                           construction throughout the National
                                                                           Forest System.
    Capital Improvement &           76,774,000   63,700,000   80,000,000  Trail maintenance and new trail
     Maintenance--Trails.                                                  construction throughout the National
                                                                           Forest System.
LWCF FOR TRAILS:
    LWCF grant--FS Pacific Crest.  ...........    1,000,000    5,000,000  USDA-Forest Service acquisition of
                                                                           lands in southern California, Oregon
                                                                           and southern Washington to preserve
                                                                           the scenic integrity of the Pacific
                                                                           Crest Trail.
    LWCF grant--BLM Pacific Crest  ...........  ...........    1,500,000  BLM acquisition of Sky King Cole Ranch
                                                                           in the Cascade Siskiyou National
                                                                           Monument, including land along
                                                                           Pacific Crest Trail.
    LWCF grant--FS Pacific Crest.  ...........  ...........      250,000  Land acquisition program management.
    LWCF grant--FS Florida.......    2,000,000  ...........  ...........  ......................................
    LWCF grant--FS Appalachian...    1,500,000  ...........  ...........  ......................................
    1LWCF grant Ice Age--            1,000,000  ...........    4,000,000  Assistance provided to State of
     Wisconsin \6\.                                                        Wisconsin to protect threatened Ice
                                                                           Age Trail corridor and connect trail
                                                                           segments across private land in Dane,
                                                                           Chippewa, Columbia.
    LWCF grant--BLM Oregon.......    1,000,000    1,600,000    1,600,000  BLM acquisition of land along the
                                                                           Sandy River in Oregon.
    LWCF grant--FS Overmountain    ...........  ...........      150,000  USDA-Forest Service acquisition of
     Victory.                                                              land to protect key link in the
                                                                           Overmountain Victory Trail in North
                                                                           Carolina.
    LWCF grant--BLM Lewis & Clark    3,500,000  ...........  ...........  ......................................
    LWCF grant--NPS Lewis & Clark    5,000,000  ...........  ...........  ......................................
                                  ---------------------------------------
      Total......................   14,000,000    2,600,000   12,500,000  ......................................
----------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Includes $4.902 million earmarked for Lewis & Clark Bicentennial projects. One-third of the remaining funds
  (about $813,000 of $2.44 million) are earmarked for National Trails System projects.
\3\ Administration request does not allocate any funds for the National Trails System. The Congressional earmark
  is needed to accomplish this.
\4\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\5\ Appropriation includes: $2.873 million for administration of the Continental Divide, Florida, and Pacific
  Crest National Scenic Trails and the Nez Perce National Historic Trail, funding for full-time administrators
  for each trail and land acquisition teams for the Florida and Pacific Crest Trails.
\6\ This would be a grant to the State of Wisconsin to be matched at least 1:1.
\7\ Includes portion of $500,000 base operations funding increase provided by Congress for fiscal year 2005
  which the Park Service considers available to be reprogrammed to other parks in fiscal year 2006 and
  subsequent years.

          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the Committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Interior--Bureau of Indian Affairs.--The 
Puyallup Tribe has analyzed the President's fiscal year 2006 budget and 
submit the following detailed written testimony to the Senate Interior 
Subcommittee on the proposed funding bill for the Dept. of Interior and 
Related Agencies. In the fiscal year 2005 budget process, the Puyallup 
Tribe supported actions of Congress to restore the base level funding 
for various programs. We look forward to working with the 109th 
Congress to insure that funding levels for programs necessary for the 
Puyallup Tribe to carry-out our sovereign responsibility of self-
determination and self-governance for the benefit of Puyallup tribal 
members and the members from approximately 435 federally recognized 
Tribes who utilize our services are included in the fiscal year 2006 
budget. The following provides a brief review of the Puyallup Tribe's 
priorities and special appropriation requests for fiscal year 2006.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 200 Tribes and Alaskan 
Villages. The Puyallup Nation Law Enforcement Division currently has 21 
commissioned officers to cover 40 square miles of reservation in 
addition to the usual and accustomed fishing areas. The officers are 
charged with the service and protection of the Puyallup Reservation 
seven days a week, twenty-four hours a day. We currently operate with 
outdated equipment, patrol vehicles requiring constant repair and 
insufficient staff levels. With the continuing increase in population, 
increase in gang related activities on the Puyallup Reservation and the 
impact of the increase in manufacturing of meth amphetamines in the 
region, the services of the Puyallup Nation Law Enforcement Division 
are exceeding maximum levels.
    A major area of concern is the status of the Tribe's Regional 
Incarceration Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the Tribe's ability to house detainees but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the Tribes ability to house 
juvenile detainees. With no juvenile facilities, Native American youth 
are sent to non-native facilities. These and other issues regarding the 
deplorable conditions existing in Indian Detention facilities are 
documented in the September 2004 report issued by the U.S. Department 
of Interior Inspector General's Office. We respectfully request 
congressional support to fund the BIA Law Enforcement program at the 
$190 million level proposed in the fiscal year 2006 budget to operate 
law enforcement services at a safe and effective method. We further 
request Committee support to fund the Department of Justice--Detention 
Facilities Construction program for fiscal year 2006 at $30 million to 
address deficiencies in tribal detention facilities.
    The following list is a brief summary of law enforcement needs of 
the Puyallup Nation Law Enforcement and Detention Facilities programs;
  --Juvenile Incarceration Facility $2.5 million (est.);
  --Staffing for Juvenile Facility--8 employees @ $320,600;
  --Adult Incarceration Facility $3.5 million (est);
  --Additional staff for dispatching center--3 employees @ $120,800;
  --Additional Officers--4 @ $225,900;
  --Equipment; firearms, radios and equipment--$30,000;
    Fisheries & Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and Governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
Non-Indian fisherman, and surrounding communities. Our Resource 
Management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek support and endorsement 
in the following areas:
  --Tribal Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on Bull Trout and Chinook 
        Salmon which is in an highly urbanized setting more so than any 
        other Pacific Northwest Tribe. We request Committee support to 
        increase base contract funding in the amount of $350,000 for 
        additional fisheries staff.
  --Western Washington Timber-Fish-Wildlife Program.--The TFW Program 
        has allowed for the expansion of tribal participation in the 
        state forest practice rules and regulations that have an affect 
        on listed salmon populations. In fiscal year 2004 Congress 
        restored TFW base funding for the Bureau of Indian Affairs. 
        However, this base funding increase is being proposed to be 
        discontinued in the President's fiscal year 2006 budget. 
        Continued funding in this area is essential to facilitate 
        tribal participation in monitoring, research, data analysis and 
        adaptive management processes that are a cornerstone to the TFW 
        process. We request Committee support for base funding level of 
        $3.555 million to the TFW fiscal year 2006 budget.
  --Unresolved Hunting and Fishing Rights Program.--The Medicine Creek 
        Treaty secured the Puyallup Tribe and other tribes the right to 
        hunt on open and unclaimed lands. This treaty right is reserved 
        in the same paragraph that also reserved the right to fish and 
        gather shellfish. Unfortunately, the BIA program that is 
        designed to support this treaty activity has not received 
        adequate, if any, appropriations in the last several years. 
        Funds that were made available to tribes have been on a 
        competitive basis with a maximum amount per program due to 
        limited funding. The Puyallup Tribe has established a Hunting-
        Wildlife Management program that works cooperatively with 
        signatory Tribes to the Medicine Creek Treaty, Washington 
        Department of Fish and Wildlife, U.S. Forest Service and the 
        National Park Service. For further development and 
        participation in unresolved hunting issues, the Puyallup Tribe 
        is requesting Committee support for establishment of base 
        funding of $95,000 for the Hunting-Wildlife Management Program.
    Tribal Priority Allocation & Contract Support Costs.--The 
President's fiscal year 2006 budget calls for $2.28 billion to be 
allocated to the Bureau of Indian Affairs, which is a decrease of $110 
million from the fiscal year 2005 enacted level. This request includes 
$760 million for Tribal Priority Allocations (TPA), a $9.4 million 
decrease from the fiscal year 2005 enacted level. These decreases 
proposed by the Administration are on top of the continued funding 
short fall for critically needed tribal programs supported by TPA 
funding. TPA budget activity includes the majority of funding used to 
support on-going services at the ``local tribal'' level, including; law 
enforcement, natural resources management (fisheries), child welfare, 
housing, tribal courts and other tribal governmental services. TPA has 
not received adequate funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases TPA has received over the past few years have not been 
adequate to keep pace with inflation. At a minimum, we request your 
support and endorsement in the following:

  --Support by Congress to fund the TPA fiscal year 2006 request at the 
        fiscal year 2005 enacted level as adjusted for inflation, for a 
        minimum request of $769.4 million.

    Another concern the Puyallup Tribe has with the fiscal year 2006 
budget request is the on-going issue of contract support costs. The 
President's fiscal year 2006 budget request includes $134.6 million to 
address the Bureau of Indian Affairs continuing contract support costs. 
At a minimum, we request your support and endorsement in the following:

  --Support by Congress to fund the Contract Support Cost fiscal year 
        2006 request at the fiscal year 2005 enacted level as adjusted 
        for inflation, for a minimum request of $140.6 million. Full 
        funding of Contract Support is a mandate towards the full 
        realization of Self-determination and Self-governance.

    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their health care programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) is a successful ambulatory 
program that provides comprehensive ambulatory medical dental, mental 
health, drug and alcohol treatment services to an expanding population 
in Tacoma and Pierce County, Washington. In fiscal year 2002 it was the 
most productive Indian health program in the tri-state areas of 
Washington, Oregon and Idaho,
    Adequate funding for the continued operations and delivery of 
quality care is essential. PTHA, like most IHS facilities, is being 
asked to do more with less. The cost of supplies and staff increases as 
does the eligible population increases, yet funding has not kept pace. 
IHS has lost $1.9 billion in purchasing power since 1992. Unlike 
private practice counterparts, we can not raise fees, negotiate higher 
reimbursement from insurance companies or restrict the population we 
serve. Preserving purchasing power and ensuring that medical needs are 
met must be paramount to IHS and HHS.
    Highlights of the IHS Budget request include an increase of $72 
million over the fiscal year 2005 level for a total of $3.840 million 
for the Indian Health Service in fiscal year 2006. These increases, 
however, are off-set by the historic short fall of funding that has 
failed to keep up with inflation. We request congressional support for 
the fiscal year 2006 IHS budget in the following areas:
  --Fund medical and general inflation costs, which have again reached 
        double digits;
  --Fund the increased expenses due to population growth. Although AI/
        NA population has a 2.1 percent growth rate, growth has not 
        been funded for 11 years;
  --Funding for Contract Support Coast should be increased to $284 
        million for fiscal year 2006; and
  --Index Contract Care to population growth and the medical inflation 
        rate. Contract care is most vulnerable to inflation since 
        services are provided by vendors constrained by IHS guidelines. 
        There are no IHS hospitals in the Pacific Northwest which makes 
        our clinic dependent on Contract Care for necessary specialty 
        referrals and hospital care. Contract Health Services should be 
        increased to $495 million for fiscal year 2006.
                                 ______
                                 
         Prepared Statement of the Rivers and Trails Coalition

    Mr. Chairman and members of the Subcommittee, the Rivers and Trails 
Coalition, composed of local, regional, statewide, and national 
organizations representing hundreds of thousands of Americans 
nationwide committed to conservation and recreation, respectfully asks 
that you fund the National Park Service Rivers, Trails and Conservation 
Assistance (RTCA) program at $9.7 million in fiscal year 2006.
    Through its Rivers, Trails and Conservation Assistance program, the 
National Park Service (NPS) implements its natural resource 
conservation and outdoor recreation mission in communities across 
America. The Rivers and Trails Coalition formed many years ago to 
support this invaluable field-based technical assistance program that 
yields enormous conservation and recreation benefits to communities by 
fostering partnerships between federal, state, and local interests. The 
resulting cooperative efforts restore rivers and wildlife habitat, 
develop trail and greenway networks, preserve open space, and 
revitalize communities--all contributing to improved quality of life 
and close-to-home recreation. RTCA staff provide on-the-ground 
assistance solely at the request and invitation of communities in 
coordinating projects, facilitating public meetings, serving as a 
liaison and convener of government and non-profit groups, assessing and 
mapping resources, developing promotional materials and events, and 
identifying sources of funding.
    RTCA is a very successful and popular program but continues to lack 
adequate funding. Current demand for RTCA services greatly exceeds the 
program's capacity. Despite RTCA's accomplishments in coordinating 
upwards of 300 projects annually, RTCA funding has remained relatively 
stagnant during the last decade, virtually flat for the last four 
years, and has lagged well behind the rate of inflation, resulting in 
real cuts to the program. The program's declining real budget and 
funding shortages have resulted in limiting staff positions in several 
regions, office closures, and reduced staff participation within 
communities and on-the-ground projects, diminishing essential services 
of this field-based program. RTCA currently has 80 staff in 33 field 
offices, compared to 90 staff in 2002. Flat funding results in an 
annual loss of approximately 4 positions, as personnel costs continue 
to rise through inflation and cost-of-living increases, while project 
costs must be cut back. RTCA faces further reductions in service and 
the loss of additional staff in fiscal year 2006 if the program 
receives flat or reduced funding.
    RTCA is a highly effective and cost efficient program. In 2004 
alone, NPS community projects reported more than 680 new trail miles, 
more than 330 newly protected river miles, more than 22,700 acres of 
newly protected natural areas.
    RTCA receives less than \1/2\ of 1 percent of the total funding for 
the National Park Service, yet by building local partnerships it 
succeeds in attracting substantial local funding every year. In 2004 
the program reported more than $40 million leveraged funding from other 
sources. This program is an excellent value for the American taxpayer 
and merits increased funding to accomplish its mission as a community-
based National Park Service technical assistance and outreach program.
    The Rivers and Trails Coalition supports the NPS current strategic 
planning effort to include an emphasis on working on issues of common 
interest to national parks and gateway communities adjacent to national 
parks. This strategy represents a positive, proactive approach to 
improving management and brings RTCA and its associated projects and 
partnerships into closer contact with NPS superintendents and core 
National Park Service missions. However, the RTCA program is best able 
to fulfill its mission by assisting all types of communities--urban, 
rural, and suburban; local, state, and national--to achieve on-the-
ground conservation successes for their projects, where the technical 
assistance is requested and based on true needs. In addition to 
regional trail systems and greenway development, open space protection, 
and river corridor protection, projects include transportation 
alternatives, brownfield redevelopment, youth conservation projects, 
and floodplain planning, among numerous other conservation and 
recreation initiatives.
    RTCA plays a critical role in creating a nationwide, seamless 
network of parks and open spaces, supporting conservation partnerships, 
promoting volunteerism, and encouraging physical activity. The 
Administration's HealthierUS Initiative explicitly highlights RTCA for 
its efforts in promoting physical activity through the development of 
local trails, greenways, and parks.
    The President's budget proposal for fiscal year 2006 calls for a 
reduction of $500,000 to the RTCA program. The Rivers and Trails 
Coalition respectfully requests that Congress restores funding to this 
program and increases the program budget by $1.5 million to meet the 
real needs that this program serves.
    We see evidence in community after community of the value of NPS 
involvement through productive partnerships, and we can report the 
unparalleled success of RTCA in bringing greenways, blueways, and 
creative conservation partnerships to fruition.
    Our requested funding level would allow this extremely beneficial 
program to continue current projects without interruption, restore 
recent cuts, put staff closer to the people they serve, and meet the 
outstanding requests from communities around the nation. We strongly 
believe it makes sense to strengthen programs such as RTCA that support 
communities through partnerships and capacity-building, enabling local 
stakeholders to better manage and conserve their recreational and 
natural resources from the bottom-up.
    We urge you to fund the Rivers, Trails and Conservation Assistance 
program at $9.7 million in the fiscal year 2006 Interior Appropriations 
bill to remedy the program's continued erosion, compensate for losses 
due to inflation, and enable the program to respond to growing needs 
and opportunities in communities throughout the country. Thank you for 
your consideration.
    Respectfully submitted by the Rivers and Trails Coalition, 
comprised of the following organizations:
    The Accokeek Foundation; American Canoe Association; American 
Hiking Society; American Rivers; American Society of Landscape 
Architects; American Trails; American Whitewater; Appalachian Mountain 
Club; Association of State Floodplain Managers; Bay Circuit Alliance; 
Bikes Belong Coalition; Conservation District of Southern Nevada; East 
Coast Greenway Alliance; International Mountain Bicycling Association; 
National Association of Service & Conservation Corps; National Audubon 
Society; National Parks Conservation Association; National Recreation 
and Park Association; New York-New Jersey Trail Conference; New York 
Parks and Conservation Association; North American Water Trails; 
Outdoor Industries Association; Rails to Trails Conservancy; Scenic 
America; Trout Unlimited; Washington Area Bicyclist Association; and 
Washington Trails Association.
                                 ______
                                 
Prepared Statement of the Santa Clara Valley Water District, San Jose, 
                               California

                                SUMMARY

    This statement urges the Committee's support of an appropriation 
add-on of $4 million from the United States Environmental Protection 
Agency in fiscal year 2006 ($2 million under State and Tribal 
Assistance Grants and $2 million under Environmental Programs and 
Management account).

               PERCHLORATE CLEANUP IN SANTA CLARA COUNTY

    Background.--The perchlorate originated from a former highway 
safety flare manufacturing plant owned by Olin Corporation, which was 
operated for 40 years. Operations ceased in 1996, and perchlorate 
contamination was discovered in 2000. The Central Coast Regional Water 
Quality Control Board (Regional Board) is providing regulatory 
oversight of the contamination case, which has affected several hundred 
drinking water supply wells. Groundwater is currently the only source 
of drinking water in this area and over 2,000 families are being 
provided with bottled water or treated groundwater. Significant 
concerns remain regarding this community's exposure to perchlorate in 
their drinking water and perchlorate accumulation in agricultural crops 
and livestock. To address these concerns and ensure that the 
groundwater basin in this area is aggressively restored and cleaned up, 
the Santa Clara Valley Water District (District) is requesting Federal 
assistance. We request funding to facilitate a prompt and complete 
cleanup of groundwater resources in the Llagas Valley, Santa Clara 
County.
    Perchlorate Investigation and Cleanup Status.--To date, the 
District has sampled more than 1,000 water supply wells in the Llagas 
Valley. In addition, Olin Corporation has sampled about 600 wells. 
Results to date show more than 450 wells with detectable perchlorate 
above 4 parts per billion. Bottled water is currently being delivered 
to over 1,600 families and businesses in the area. Olin Corporation has 
installed perchlorate removal systems on three wells for two small 
water systems in the San Martin area that serve a total of about 450 
customers.
    The full extent of perchlorate contamination has not yet been 
determined. Olin Corporation has installed a groundwater cleanup system 
at their former manufacturing facility. However, they have not yet 
presented a plan for cleaning up the 9.5 mile long plume of 
contamination, controlling additional plume movement, or long-term 
solutions for well water users who currently rely on bottled water. 
Olin has advised state officials that they are not prepared to commit 
to cleanup of perchlorate impacts to private wells until a State or 
Federal Maximum Contaminant Level (MCL) for perchlorate is established. 
Adoption of an MCL at the State and Federal levels has been delayed.
    Additional funding is necessary to determine the best long-term 
solution for the entire groundwater basin and initiate cleanup efforts. 
Funding for District-led initiatives will help break a regulatory 
deadlock with Olin that is currently preventing meaningful action to 
protect well owners.
    Fiscal Year 2005 Funding.--$1.1 million was appropriated for 
Perchlorate activities under State and Tribal Assistance Grants in 
fiscal year 2005. Project applications for fiscal year 2005 funds will 
include municipal-scale perchlorate removal treatment technology 
demonstration projects and staffing to manage projects and complete 
technical analysis.
    Fiscal Year 2006 Funding Recommendation.--It is requested that the 
Committee support an appropriation add-on of $4 million from the United 
States Environmental Protection Agency in fiscal year 2006 ($2 million 
under State and Tribal Assistance Grants and $2 million under 
Environmental Programs and Management account).
                                 ______
                                 
  Prepared Statement of the Shoshone-Bannock Tribes of the Fort Hall 
                           Indian Reservation

    On behalf of the Shoshone-Bannock Tribes of the Fort Hall 
Reservation, I appreciate the opportunity to present testimony on 
fiscal year 2006 appropriations for BIA and IHS budgets. We are Idaho's 
largest tribe, with a reservation population of nearly 8,000 residents, 
Indian and non-Indian, spread out over a 753 square mile reservation. 
Like many tribes, we have vast unmet needs in law enforcement, health 
care, natural resources, education and social services. We oppose the 
Administration's effort to further reduce funding for BIA- and IHS-
funded programs. These proposed reductions impact Indian tribes more 
severely than other program cuts because Indian programs are 
significantly under funded. We are troubled that the President's budget 
contains huge increases for the Office of the Special Trustee (OST) 
while cutting funds for the BIA programs that most directly serve 
Indian people. Congress should not fund the OST at the expense of 
tribal governments. We are grateful to the work of this Committee, and 
to our senators, for your many efforts to improve the lives of our 
members. You recognize the devastating impacts to Tribal communities 
which result from a lack of resources, both human and financial.
    This year alone the Shoshone Bannock Tribes will supplement funding 
for BIA-and IHS-funded programs which serve the Fort Hall Reservation 
by over $4 million dollars. This figure does not include the $3.9 
million the Tribes pays annually to have a fully-funded insurance 
program which in turn allows the IHS health facility at Fort Hall to 
bill third party payors. Without such collections, the IHS program 
serving our reservation is woefully under funded. Our direct service 
IHS ambulatory clinic operates with a $5 million budget, with $1.638 
million of that amount financed from third party collections, nearly a 
third of its budget. Even with these third-party collections, the 
clinic operates at 60 percent of level of need. If the IHS does not 
meet its targeted collection figure, the level of need will drop below 
60 percent. Simply put, our programs are not meeting the needs of our 
members. Congress must prioritize Indian programs.

                     TABLE 1.--SHOSHONE-BANNOCK TRIBES' PROGRAM SHORTFALLS--FISCAL YEAR 2005
----------------------------------------------------------------------------------------------------------------
                                                                           Budget      Funding       Projected
             Program description                    Funding source         amount       amount       shortfall
----------------------------------------------------------------------------------------------------------------
Law Enforcement..............................  BIA....................   $2,022,443   $1,135,395      ($887,048)
Fire/Ambulance...............................  BIA....................    1,375,080       20,417     (1,354,663)
Courts.......................................  BIA....................    1,152,101      214,507       (937,594)
Agricultural Extension.......................  BIA....................       61,164       32,188        (28,976)
Survey & Mapping.............................  BIA....................       88,767       43,072        (45,695)
Chemical Dependency..........................  IHS....................      888,163      512,069       (376,094)
                                              ------------------------------------------------------------------
      Total..................................  .......................  ...........  ...........     (3,630,070)
----------------------------------------------------------------------------------------------------------------


  TABLE 2. TRIBES' TRIBAL HEALTH CONTRACT SUPPORT COST (CSC) SHORTFALLS
                  (FISCAL YEAR 2000-2004 AND 2005 EST.)
------------------------------------------------------------------------
                       Fiscal year                        CSC  shortfall
------------------------------------------------------------------------
2000....................................................       ($12,459)
2001....................................................        (42,283)
2002....................................................        (50,072)
2003....................................................        (86,800)
2004....................................................       (229,952)
                                                         ---------------
      Total Five Year CSC Shortfall.....................       (421,567)
                                                         ===============
Estimated FY 2005 CSC Shortfall.........................       (342,127)
------------------------------------------------------------------------

    The shortfalls I report to you today do not include shortfalls in 
Contract Support Cost (CSC) funding which the BIA, IHS, and tribes have 
been unable to convince the Administration or Congress to fully fund. 
For the four year period ending in fiscal year 2004, we calculate our 
IHS Contract Support Cost shortfall at $421,000. Our fiscal year 2005 
shortfall for IHS CSC is estimated to be $342,000.
    It is difficult to convey to you how these shortfalls impact our 
community. We wish we had more resources so that our Tribes can turn 
around a troubled youth and make him a productive member of society, 
not a burden to it; to provide a job to a hard working adult so he can 
regain his pride and self- worth; to give life-saving medicines to a 
sick Tribal elder to restore her health so that she may remain vital 
and productive. Our programs work. We simply seek our equitable share 
of funds similar to what the federal government provides to states and 
local governments. Our reservation residents are counted when 
determining the size of a block grant the United States awards to the 
State. Without an earmark to pass that grant through to tribal 
governments, however, we do not receive our share. The funds Congress 
and the Administration choose to provide Indian tribes continue to go 
down as our population grows. How great does the crisis need to get 
before proper attention is paid? Are not U.S. Census and other 
statistics on American Indian and Alaskan Native (AIAN) unemployment 
figures, poverty levels, mortality, suicide rates, and motor vehicle 
accidents enough, without any request from Tribal leaders, to move the 
Congress and the Administration to act on our behalf?
    We want to stand shoulder to shoulder with our Federal, state and 
local counterparts to improve our reservation's economy, tackle crime 
and substance abuse, and keep our members healthy and productive 
citizens. Please increase funding above the President's request for the 
BIA and IHS budgets for these mostly pass-through funds to Indian 
tribal governments.

                   TRIBAL JUSTICE CENTER ($5 MILLION)

    We seek an appropriation of $5 million that we will put toward the 
construction costs for our Tribal Justice Center. With prior 
appropriations by Congress, for which we are grateful, the Tribes 
completed designs for our Tribal Justice Center. When completed, the 
Justice Center will house a 45-member Police Department, 25-member 
Tribal Court, and an 80-bed adult and 20-bed juvenile corrections 
facility. The $5 million in construction funds we request comprise less 
than 30 percent of the project's estimated cost of $16.8 million 
(fiscal year 2005 dollars). We are financing another third of the 
project with Tribal funds and we are seeking other loans and grants. 
The cost of this project will only increase if we delay funding.
    Police.--The Tribal police department has inadequate storage space 
for evidence. Our police armory needs more safeguards. There is no 
secure booking area. There is no space for confidential interviews with 
witnesses. Public business is often conducted outside the building. The 
dispatchers work in a crowded, under-ventilated space which often 
overheats.
    Corrections.--The Adult Corrections facility currently in use does 
not have multiple exits, sprinklers, or other fire fighting systems. It 
operates at 132 percent over capacity. All these factors create a 
hazard to inmates and corrections staff. There is no work-release 
available. There is no medical facility. We cannot offer educational 
facilities. There is no secure facility for inmates to receive visitors 
or to meet with attorneys. There is inadequate plumbing and ventilation 
at the facility.
    Courts.--The Tribal Court handles 4,000 cases plus 1,500 juvenile 
cases. There is inadequate space and facility for the court's records, 
and only one courtroom. The buildings do not meet plumbing or electric 
standards. There is no space for defendants to hold confidential 
meetings with attorneys. This facility also provides inadequate 
security.
    We are witnessing an increase on our reservation in juvenile 
crimes, methamphetamine abuse, and violence. We need to bring our 
police, courts and corrections facilities into the 21st century.

                  COMMUNITY WATER SYSTEM ($3 MILLION)

    We seek $3 million to continue construction of a Community Water 
System. The need for safe drinking water has reached crisis stage on 
our reservation. Water for many of the reservation's 8,000 residents 
has been contaminated by ethylene dibromide (EDB), a probable 
carcinogen. Studies have also found increased levels of nitrate in the 
water. Thanks to prior appropriations, we have built about 31 of the 
145 miles of water line required to be built on our reservation. We 
seek $3.0 million in IHS funds to finance the wells, storage tanks and 
pumps to extend the water line throughout the reservation (requiring 
design and engineering, right-of-way acquisition, environmental 
studies, etc.). Despite the Tribes' efforts to secure funding from 
multiple sources (IHS, USDA, EPA, HUD, ICDBG) as well as provide its 
own funds for the cost of the water line, the cost for pvc pipe has 
soared due to the rising cost of oil. We can only finance 5 miles of 
pipe rather than 15 miles this year due to the increased cost for pvc 
pipe.

                                GAY MINE

    We have grown very concerned over environmental contaminants, 
especially selenium, at Gay Mine, an open phosphate mine located on the 
reservation. We, along with the State of Idaho, U.S. EPA, U.S. 
Department of the Interior, and five private mining companies, were 
signatories to a 2001 Consent Order/Administrative Order on Consent to 
identify procedures to ensure cost recovery by governmental entities in 
an Area-Wide Investigation into contamination from phosphate mining 
operations in southeast Idaho, under CERCLA. The BIA funded an on-site 
coordinator (OSC), but since January 2004, this position has been 
vacant. BIA officials inform us that funds to finance site 
investigations, take samplings, and assess damages under the Natural 
Resources Damage and Restoration Program are oversubscribed. We 
submitted a $5.6 million budget to BIA to finance staff and to 
undertake a site investigation of soil, water, vegetation, livestock, 
and big game as well as to build a fence around the affected area.

PUBLIC LAW 93-638 FISH AND WILDLIFE MANAGEMENT PROGRAMS/AMERICAN FALLS 
                               RESERVOIR

    Resident Fisheries Program ($100,000) and Wildlife Program 
($100,000).--The Tribes request additional funding to restore and 
protect the reservation's streams and tributaries so that they can once 
again support native fish populations. We seek to hire a fisheries 
technician to perform fencing projects, sloping, willow planting, rip 
rap and other activities to repair stream banks and promote habitat 
restoration which have been compromised by land and water use 
practices.
    The Tribal Fish and Wildlife Program is responsible for the 
management of threatened and endangered species, development of hunting 
regulations, monitoring of harvests of various species and resolution 
of conflicts between humans and wildlife. We cannot fulfill our federal 
mandates with current appropriations. Our staff has dropped to two 
full-time employees. Additional funding will permit us to hire an 
additional wildlife technician to perform tagging, game counts, habitat 
work and population counts of threatened and endangered species, and 
replace a 17-year old GMC truck.
    Columbia River Fish Management Program ($270,400).--Federal 
assistance is required in order for the Tribes to participate in the 
basic processes that regulate salmon recovery and harvest. The Tribes 
seek funding of $270,400 in fiscal year 2006 to hire the necessary 
personnel to fulfill our obligations to work with State, federal and 
other agencies regarding fisheries management, recovery and harvest 
activities. Without increased funding, the Tribes cannot ensure that 
adequate numbers of salmon return to reservation streams to spawn. 
Current funds do not cover management and harvest tasks.
    American Falls Reservoir Restoration Plan ($123,000).--The Tribes 
request $123,000 to finance the preparation of a comprehensive 
Restoration Plan for the American Falls Reservoir. The plan will 
involve community stakeholders. It would evaluate existing 
environmental impacts resulting from the Reservoir (stream bank 
erosion, sediment buildup, fish and national flyway habitat reduction) 
and generate a report outlining recommended actions to restore, 
protect, and enhance streams and tributaries and the surrounding 
habitats for wildlife and human recreation.

               FORT HALL POLICE DOG PROGRAM ($132,678.72)

    The Tribes request an appropriation of $132,678.72 to implement the 
Fort Hall Police Dog Program. The Tribes have the duty to serve and 
protect all residents of the Reservation. Two major interstates, 
Interstate 15 (North to South) and Interstate 86 (East to West), and 
U.S. Highway 191 (North to South), pass through the reservation. This 
program will assist police officers on patrol, narcotic searches, arson 
(accelerant) detection and cadaver searches. The program would also 
promote interagency cooperation with surrounding law enforcement 
agencies including the Idaho State Police, Bingham and Bannock County 
Sheriff's Offices and the City of Pocatello Police Department.

 INCREASE FUNDING FOR BIA AND IHS CONTRACT SUPPORT COSTS ($136 MILLION)

    Last month, the United States Supreme Court, in Cherokee Nation v. 
Leavitt, issued a unanimous decision holding that the Indian Health 
Service was liable to Indian tribes for failing to pay full contract 
support costs under the Indian Self-Determination Act. Recent figures 
of the collective shortfall in the current fiscal year for all 
contracts between the IHS and tribes are estimated at $99 million, and 
for all contracts between the BIA and tribes are estimated at $37 
million. Indian tribes are entitled to receive the funds negotiated in 
their contracts. To address this, we propose several options. The 
Congress could include language in the fiscal year 2006 appropriations 
bill which amends Public Law 93-638 to read:

    ``Notwithstanding any other provision of law, necessary amounts are 
appropriated to pay contract support costs required under Sections 
106(a)(2), 403(g)(3) and 508(c), when not otherwise provided for.''

    This proposal will authorize the expenditure of funds from the 
Treasury in the absence of an ordinary agency appropriation. Another 
alternative would be to ``sweep up'' unexpended and unobligated 
balances similar to existing bill language for trust reform. See, 
Public Law No. 108-7,  113, 117 Stat. 239.
    The United States would not think to shortchange defense 
contractors in their government contracts. Why is it acceptable to 
shortchange Indian tribal governments when the United States insists 
that it is honoring its trust responsibility to Indian tribes? Full 
funding of tribal contract support cost needs should not be funded by 
Congress by offsetting other programs serving Indian tribes. We are 
doing all we can to meet our members' needs. Full funding of Contract 
Support Costs helps us better serve our members.
    Thank you for affording the Shoshone-Bannock Tribes the opportunity 
to make known our comments regarding the President's budget proposal 
and our needs for fiscal year 2006.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation

    The Society for Animal Protective Legislation (SAPL) respectfully 
requests the Senate Appropriations Committee's Subcommittee on Interior 
and Related Agencies appropriate an additional $19.562 million for the 
United States Fish and Wildlife Service Division of Law Enforcement, 
$12 million for certain funds under the Multinational Species 
Conservation Fund (including $500 thousand for the Great Ape Survival 
Partnership of the United Nations Environment Programme), an additional 
$4.4 million for the Clark R. Bavin National Fish and Wildlife 
Forensics Laboratory, and $1 million to enforce the Captive Wildlife 
Safety Act. SAPL also endorses the testimony of the Doris Day Animal 
League in support of restoring the protections from commercial sale and 
slaughter of wild horses and burros in the care of the Bureau of Land 
Management or its contractors.

  UNITED STATES FISH AND WILDLIFE SERVICE DIVISION OF LAW ENFORCEMENT

    SAPL urges increased funding to enable the Law Enforcement Division 
of the U.S. Fish and Wildlife Service (FWS) to undertake its important, 
expanding work. FWS agents are responsible for enforcement of over a 
dozen conservation laws including the Lacey Act, Migratory Bird Treaty 
Act, Endangered Species Act, Marine Mammal Protection Act, African 
Elephant Conservation Act, the Wild Bird Conservation Act, and 
implementation of the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES). Special agents undertake a 
variety of wildlife trade cases involving illegal shipments of caviar, 
elephant ivory, shahtoosh, reptiles, primates, African finches, bear 
viscera, turtle eggs, coral, exotic big cats, and many other species. 
It is well-known that the trade in wildlife is rivaled only by the 
trade in drugs in terms of its magnitude in global commerce. 
Environmental contaminants and industrial hazards also pose a major 
concern to the Law Enforcement Division.

Special Agents
    In fiscal year 2004, the FWS Division of Law Enforcement 
investigated thousands of cases involving vital wildlife protection 
statutes that are important to millions of Americans. For example, in 
2004, service special agents conducted 12 manatee protection task 
forces and teamed with State officers to complete another six 
cooperative enforcement operations to protect manatees from boat 
strikes in Florida's costal waters. Such work resulted in the issuance 
of over 1,416 citations to boaters speeding in manatee protection zones 
and the collection of over $116,000 in fines. Special agents also 
conduct crucial anti-poaching and wildlife law enforcement training for 
officials in numerous countries across the globe. This training is 
essential to protect threatened and endangered wildlife from being 
poached in range states. Currently there are 222 agents; however, the 
full authorized agent force is 261. We encourage the service to 
expedite the filling of the 39 vacancies. The cost to fill these 
vacancies is $7.254 million. The operational funds for current agents 
are short of that necessary to fulfill each inspector's critical 
responsibilities for the entire fiscal year; an additional $9.768 
million is needed. Therefore, the total needed for full agent staffing 
is an additional $17.022 million.

Port Inspectors
    Approximately 100,000 shipments worth more than $1 billion are 
processed by FWS inspectors at the 16 Designated Ports of Entry each 
year. In response to wildlife smugglers' attempts to use United Parcel 
Service (UPS) and Federal Express (FedEx) to get their wildlife 
contraband into the United States, Memphis (a FedEx hub) and Louisville 
(a UPS hub) were established as Designated Ports of Entry. However, to 
handle the round-the-clock workload generated by these two hubs, FWS 
will need to operate 3 shifts a day. To allow for 24-hour operation, 
seven days a week, funds are needed for three shifts with 3 inspectors 
each and for an additional special agent to investigate violations 
uncovered by the inspectors. $1.8 million additional dollars are needed 
to provide this enforcement at these extremely active ports.

Incident Management, Analysis and Reporting System (IMARS) 
        Implementation
    As part of Secretary Norton's law enforcement reforms, all 
Department enforcement bureaus are required to implement a uniform 
records system for reporting law enforcement information. SAPL requests 
$500,000 for implementation of IMARS for the Service's Law Enforcement 
Program and its harmonization with the program's existing system, the 

Law Enforcement Management Information System (LEMIS).
    Implementation of IMARS and its integration with LEMIS will ensure 
department-wide access to wildlife enforcement data without sacrificing 
the Law Enforcement Program's ability to meet unique wildlife-related 
data collection and analysis needs.

Enhancing Computer Forensic Capabilities
    Increasingly, criminals engaged in wildlife trafficking are 
routinely utilizing computers for their illegal operations. Therefore, 
once such computers are seized, computer forensic experts must be 
available to conduct examinations of such computers in an effort to 
identify and retrieve evidence of wildlife crimes. Currently, the 
National Fish & Wildlife Forensics Laboratory has only one computer 
evidence examiner and a supervisor who conducts examination part-time. 
SAPL respectfully requests that $240,000 be appropriated for the 
creation of a centrally located field computer seizure and analysis 
unit staffed with two computer forensic experts.

                MULTINATIONAL SPECIES CONSERVATION FUND

    Since 1988, the United States has shown its steadfast commitment to 
global conservation efforts by legislatively creating a series of funds 
to assist in wildlife protection in all regions of the world. The 
African Elephant Conservation Fund, the Asian Elephant Conservation 
Fund, the Rhinoceros and Tiger Conservation Fund, and recently, the 
Great Ape Conservation Fund, are vital tools to prevent these species 
from declining further and, in some cases, going extinct. SAPL 
respectfully requests that $2.5 million be appropriated for the Asian 
Elephant Conservation Fund, $2.5 million for the African Elephant 
Conservation Fund, $3 million for the Great Ape Conservation Fund and 
$4 million for the Rhinoceros and Tiger Conservation Fund.

 THE AFRICAN ELEPHANT CONSERVATION AND THE ASIAN ELEPHANT CONSERVATION 
                                 FUNDS

    These funds have provided important funding for elephant 
conservation projects. For decades, poachers and smugglers exploiting 
the global ivory trade have targeted elephants. Today, elephants are at 
great risk not only for ivory, but also for their meat, which is 
consumed as ``bushmeat,'' particularly in Africa. Conservation projects 
that have received funding under these Funds include: anti-poaching 
assistance, acoustic monitoring of forest elephants, and research 
utilizing immunocontraception as a means of population control.

               THE RHINOCEROS AND TIGER CONSERVATION FUND

    This find provides essential financial assistance to protect the 
world's remaining five rhino species and tiger subspecies. Rhinos have 
been poached historically for their horns, which are used in 
traditional Asian medicines, while tigers have been exploited for their 
valuable skins, bones and other body parts. In the last century, it is 
estimated that the total number of all wild tigers scattered across 
their range has plummeted to 5,000 animals. Recent U.S. funding has 
contributed to the equipping and operating of anti-poaching patrols, 
studies of population dynamics using DNA technology, establishing 
conservation education programs in rhino and tiger range states to 
increase awareness about these species, and rhino translocations.

                    THE GREAT APE CONSERVATION FUND

    Funds available to address the growing threat of the trade in 
bushmeat and the habitat decimation perpetrated on great apes by timber 
companies and other extractive industries. Chimpanzee, bonobo, gorilla, 
orangutan, and gibbon populations have declined substantially, and 
there is a serious threat to their long-term survival. Grants from this 
fund enable conservation and anti-poaching projects to be established 
and effectively implemented to the benefit of these endangered ape 
species.
    A specific earmark for the Great Ape Survival Partnership (GRASP) 
is needed under the Great Ape Conservation Fund. The United Nations 
Environment Programme has undertaken a significant, ambitious endeavor 
to examine all of the relevant parameters concerning great ape decline 
and survival in range states. A modest additional $500,000 from the 
United States Congress, administered through the Great Ape Conservation 
Fund, would provide support for GRASP's continuing work to undertake 
stakeholder workshops and technical missions in range states. This will 
assist dramatically in the development of long-term national planning 
projects to conserve all remaining great apes.

   THE CLARK R. BAVIN NATIONAL FISH AND WILDLIFE FORENSICS LABORATORY

    The Service's forensics lab is uniquely capable of providing 
assistance in the prosecution of wildlife crimes and is the world's 
only forensic laboratory devoted specifically to wildlife crime. The 
lab analyzes teeth, claws, hairs, feathers, tissues, blood, and other 
wildlife samples to determine species of origin and connect wildlife 
and suspects to the scene of the crime. This lab has always been on the 
cutting edge of wildlife prosecutions and must be funded adequately to 
fulfill its vital roles. Further, the lab is an internationally well-
respected icon, and the Secretariat of CITES has, for instance, entered 
into Memorandums of Understanding with the lab to, among other things, 
assist in the analysis of ballistic evidence. At the CITES Standing 
Committee meeting in Geneva, Switzerland in March 2004, the CITES 
Secretariat specifically recommended that Parties contact the Bavin lab 
to assist in the identification of bear parts and derivatives during 
investigations.
    The laboratory has begun an important and significant 
rehabilitation and expansion project, which includes plans to enlarge 
lab capabilities with a 27,000 square foot addition, including a 
training and conference room, a new pathology lab with a bio-level 3+ 
containment capability, and a new evidence control area. Sadly, funding 
constraints are preventing the Bavin lab from meeting its planned 
development goals fully. Last session, Congress appropriated $2.6 
million to fit-out the pathology and bio-containment sections of the 
building shell, which is still being constructed with fiscal year 2003-
2004 funds. We respectfully urge this Subcommittee to appropriate an 
additional minimum of $4.4 million, which represents the balance 
necessary to enable the completion of the fit-out of the one-story 
expansion of the existing facility. This $4.4 million appropriation 
would be extremely modest given the importance of the Clark R. Bavin 
National Fish & Wildlife Forensics Laboratory and the actual expansion 
and renovation needs for the lab.

                    THE CAPTIVE WILDLIFE SAFETY ACT

    On December 19, 2003 the President signed into law the Captive 
Wildlife Safety Act to prevent the interstate and foreign commerce in 
big cats--lions, tigers, leopards, cheetah, jaguars, or cougars or any 
hybrid of such species--for personal possession as ``exotic'' pets. In 
recent years, the United States has seen a dramatic increase in the 
number of these dangerous animals being kept in private hands, with a 
concomitantly dramatic rise in the number of unfortunate attacks by 
these inherently wild animals. It is imperative that the FWS be given 
the tools it needs to enforce this important law, for the benefit of 
the animals themselves and the humans who are at risk because of the 
big cats who are being kept in captivity. While the legislation 
authorized an appropriation of up to $3 million each year for 
implementation and enforcement of the Act, no funding has been provided 
for enforcement of this relatively new law. SAPL appreciates the 
difficult financial situation confronting Congressional Appropriators 
this year; as a result, we urge a modest appropriation of $1 million 
for enforcement of the Captive Wildlife Safety Act.

              PROTECTION OF THE TOKLAT WOLF PACK IN ALASKA

    For more than four decades, the Toklat wolf pack in Alaska has been 
the most studied, viewed and photographed family of wolves in the 
world. However, the fate of this celebrated wolf pack is now uncertain 
as some of its members, including the alpha male and the alpha female, 
have recently been trapped and killed by hunters just outside of Denali 
National Park. Only six young wolves remain. In order to protect the 
last remaining members of the Toklat wolf pack, we respectfully request 
that the distinguished Subcommittee urge the Secretary to take 
immediate action and expand the protective buffer zone established to 
protect wolves which stray outside of Denali National Park. Currently, 
this buffer zone measures only 55 square miles in the northeast corner 
of the park. With the recent deaths of the Toklat members, it is clear 
that this zone has become inadequate to protect the wolves as it was 
intended to do.
    In addition to hunting and trapping, the survival of the Toklat 
wolves is threatened by the Alaska's airborne wolf killing program. 
Currently, the state permits the use of aircraft to shoot wolves for 
the purpose of boosting game populations. Alaskan residents passed 
ballot initiatives in 1996 and 2000 to ban the use of aircraft to hunt 
wolves, but the governor reinstated the practice in 2003. We believe 
hunting wolves by air violates the federal Airborne Hunting Act (passed 
in 1971, primarily to put an end to aerial wolf killing in Alaska). The 
Act specifically prohibits shooting or attempting to shoot or harassing 
any bird, fish, or other animal from aircraft except for certain 
specified reasons, including protection of wildlife, livestock, and 
human life. Wildlife, livestock and humans are not being threatened by 
the wolf, therefore, we respectfully request that the distinguished 
Subcommittee urge the Secretary to clarify that the federal Airborne 
Hunting Act does not permit the use of aircraft to chase down and kill 
wolves in an effort to increase game populations.

     HONOR THE U.S. OBLIGATION TO PHASE OUT STEEL JAW LEGHOLD TRAPS

    Approximately 140 of 517 national refuges currently permit use of 
steel jaw leghold traps. These traps slam with a vice-like grip on the 
limbs of their victims, breaking bones, tearing ligaments and tendons, 
severing toes and causing excruciating pain. Alternative traps, which 
reduce the suffering of trapped animals are available and can be used 
instead.
    The American Veterinary Medical Association, the American Animal 
Hospital Association, the World Veterinary Association and the National 
Animal Control Association have condemned leghold traps as 
``inhumane''. The vast majority of Americans object to use of these 
traps as evidenced by numerous public opinion polls. Massachusetts, 
Arizona, Colorado, Washington, and California have prohibited use of 
these cruel devices by public referendum. New Jersey, Florida, and 
Rhode Island prohibit use of steel jaw traps too.
    In response to the widespread international opposition to steel jaw 
leghold traps, the U.S. Trade Representative signed an 
``Understanding'' with the European Union on December 11, 1997 in which 
the United States committed to phase out use of ``conventional steel 
jawed leghold restraining traps.'' The U.S. Department of Interior is 
responsible for honoring this U.S. obligation on lands under its 
jurisdiction and needs to begin implementing a phase out on use of 
these devices. So far, no action has been taken by the Department of 
Interior to comply with this official agreement. We respectfully 
request this distinguished Subcommittee urge the Secretary to take 
action this year.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District

    I am requesting your support and assistance in insuring continued 
funding for the Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program. These 
ongoing cooperative programs have the dual objectives of recovering 
four species of endangered fish while water use continues and water 
development proceeds in compliance with the Endangered Species Act of 
1973, state law, and interstate compacts. Partners in the two programs 
are the States of New Mexico, Colorado, Utah, and Wyoming, Indian 
tribes, federal agencies and water, power and environmental interests. 
I respectfully request support and action by the Subcommittee that will 
provide the following:
    An increase of $691,000 in the fiscal year 2006 Recovery Element 
budget (Resource Management Appropriation; Ecological Services 
Activity; Endangered Species Subactivity; Recovery Element) allocated 
to ``Colorado River fish recovery project'' to allow U.S. Fish and 
Wildlife Service (FWS) Region 6 to meet its funding commitment to the 
Upper Colorado River Endangered Fish Recovery Program. This is the 
level of funding appropriated in fiscal years 2003, 2004, and 2005 for 
this program. These funds are needed for FWS direct participation in 
managing and implementing the Upper Colorado Program's actions, 
monitoring achievement of recovery goals, managing data associated with 
fish population abundance and sampling, evaluating stocking, and 
monitoring fish and habitat response to recovery actions.
    The appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2006.
    An increase of $211,000 in the ``Resource Management Appropriation; 
Ecological Services Activity; Endangered Species Subactivity; Recovery 
Element'' budget allocated to the ``San Juan River Recovery 
Implementation Program''. These funds are needed to support the FWS 
Recovery Program Coordinator and staff who are responsible for program 
management and support of all Recovery Program activities.
    The enactment of Public Law 106-392, as amended by Public Law 107-
375, authorized the Federal Government to provide up to $46 million of 
cost sharing for these two ongoing recovery programs' remaining capital 
construction projects. Raising and stocking of the endangered fish 
produced at program hatchery facilities, restoring floodplain habitat 
and fish passage, regulating and supplying instream habitat flows, 
installing diversion canal screens and controlling nonnative fish 
populations are key components of the programs' ongoing capital 
construction projects. Subsection 3(c) of Public Law 106-392 authorizes 
the Secretary of the Interior to accept up to $17 million of 
contributed funds from Colorado, Wyoming, Utah and New Mexico, and to 
expend such contributed funds as if appropriated for these projects; 
and provides for an additional $17 million to be contributed from 
revenues derived from the sale of Colorado River Storage Project (CRSP) 
hydroelectric power. This substantial non-federal cost-sharing funding 
demonstrates the strong commitment and effective partnerships embodied 
in both of these successful programs. The requested federal 
appropriations are critically important to these efforts moving 
forward.
    The support of your Subcommittee in past years is greatly 
appreciated--and has been a major factor in the success of these multi-
state, multi-agency programs as they have progressed forward towards 
delisting the endangered fish species in the Upper Colorado and San 
Juan River Basins while necessary water use and development activities 
are occurring. I request the Subcommittee's assistance to ensure that 
the FWS is provided with adequate funding for these vitally important 
programs.
                                 ______
                                 
 Prepared Statement of the State and Territorial Air Pollution Program 
   Administrators and the Association of Local Air Pollution Control 
                               Officials

    The State and Territorial Air Pollution Program Administrators 
(STAPPA) and the Association of Local Air Pollution Control Officials 
(ALAPCO) appreciate this opportunity to provide testimony regarding the 
fiscal year 2006 proposed budget for the U.S. Environmental Protection 
Agency (EPA), particularly regarding grants to state and local air 
pollution control agencies under Sections 103 and 105 of the Clean Air 
Act. STAPPA and ALAPCO recommend that the budget for federal grants to 
state and local air quality agencies, which was proposed at $223.6 
million, be increased by $100 million, for a total of $323.6 million in 
fiscal year 2006.
    STAPPA and ALAPCO are the national associations of air quality 
officials in 53 states and territories and more than 165 metropolitan 
areas across the country. The Clean Air Act gives state and local air 
quality officials the primary responsibility for implementing our 
country's clean air program. These agencies must work to limit or 
prevent emissions of a variety of pollutants, including particulate 
matter, ground-level ozone, toxic air pollution and acid rain, among 
others, which are emitted from a variety of sources. State and local 
air pollution control agencies are responsible for implementing myriad 
activities and programs designed to protect public health. These 
activities must address the fundamental and continuing elements of air 
quality programs, as well as address emerging problems. Among the many 
activities state and local air agencies must carry out are monitoring 
ambient air quality, providing compliance assistance to the regulated 
community, issuing permits to sources, inspecting facilities, compiling 
inventories of emissions, carrying out enforcement actions, providing 
public education and outreach, formulating control strategies, and 
developing State Implementation Plans.

      IS AIR POLLUTION A SIGNIFICANT PROBLEM IN THE UNITED STATES?

    Air pollution poses a very serious threat to public health and the 
environment. We know of no other environmental problem that presents a 
greater risk. Consider the fact that all of us breathe; we need air to 
live. Most of us have no control over the cleanliness of the air we 
inhale--we are largely dependent on federal, state, and local air 
programs to ensure that our air is healthful to breathe. When 
determining priorities for federal funding, then, it seems reasonable 
to designate the improvement and protection of air quality as one of 
the government's highest priorities.
    While the United States, at all levels of government, has 
accomplished much in terms of improving air quality, we still have 
significant problems. For example, more than 160 million tons of 
pollution are emitted annually in this country. Over 146 million people 
live in areas that violate at least one of the six health-based 
National Ambient Air Quality Standards. Fine particulate matter alone 
is responsible for up to 30,000 premature deaths each year and causes 
other health problems, such as aggravation of existing respiratory and 
cardiovascular disease, damage to lung tissue, impaired breathing, 
irregular heart beat, heart attacks and lung cancer.
    Hazardous--or toxic--air pollution is another huge problem. Over 
200 million people in the United States live in areas where the 
lifetime cancer risk from exposure to those pollutants is over 1 in 
100,000 and 3 million face a lifetime cancer risk of 1 in 10,000. One 
hazardous air pollutant that has received a lot of notice lately is 
mercury. Mercury emitted into the air finds its way into the fish we 
eat. Forty-five states have issued notices that the fish caught in 
their water bodies contain elevated concentrations of mercury. As many 
as 15 percent of women of child-bearing age are exposed to mercury 
levels that are above those EPA considers safe for a developing fetus.

  ARE THERE MAJOR NEW ACTIVITIES FACING STATE AND LOCAL AIR AGENCIES?

    State and local air agencies must carry out a myriad of activities 
to address our air quality problems. These activities are ongoing and 
continual, in order to both improve air quality and to maintain the 
strides that have already been made. In the coming months, state and 
local air quality agencies will take on significant additional 
activities in an effort to attain new, more stringent health-based 
National Ambient Air Quality Standards (NAAQS) for ozone and fine 
particulate matter (PM<INF>2.5</INF>). Last year, all or parts of 
nearly 500 counties were designated as nonattainment for the 8-hour 
ozone standard and, in January of this year, EPA designated 225 
counties, in whole or in part, as nonattainment for the 
PM<INF>2.5</INF> standard. The nonattainment areas--areas not attaining 
these standards--are required to develop State Implementation Plans 
(SIPs) identifying the measures they will take to reduce emissions in 
their areas in order to attain the standards. They will also have to 
demonstrate to EPA's satisfaction that they will attain the standards 
as expeditiously as practicable and in any event no later than 2010 for 
PM<INF>2.5</INF> and between 2007 and 2024--with areas with more severe 
ozone problems getting more time--for ozone. Those who are attaining 
the standards will have to work to maintain their air quality and 
submit plans to EPA to demonstrate how they will do so. States are 
required to submit their plans to EPA by April 2007 for ozone and April 
2008 for PM<INF>2.5</INF>.
    In addition, on March 10, 2005, EPA finalized a determination that 
28 states in the Eastern United States and the District of Columbia 
contribute significantly to nonattainment of the ozone and 
PM<INF>2.5</INF> standards in downwind states and is requiring these 
upwind states to revise their SIPs to include control measures to 
reduce emissions of sulfur dioxide and/or nitrogen oxides. Under the 
Clean Air Interstate Rule (CAIR), these states are required to submit 
these revisions by September 10, 2006.
    Accordingly, during the next fiscal year state and local agencies 
will be consumed with developing and refining emission inventories, 
modeling emission trends, projecting emissions and pollution 
concentrations, identifying emission reduction measures and modeling 
the impact of these emission reduction measures on pollution 
concentrations in their states. In addition, to the extent that any of 
the emission reduction measures requires regulatory or legislative 
action or funding, state and local agencies will need to prepare 
regulatory and legislative proposals to implement these measures. 
Furthermore, they will need to follow their administrative procedures 
for these plans, requiring many states to begin well in advance in 
order to provide a completed plan to EPA by April 2007. For those 
states covered by CAIR, all of this work will need to be concluded in 
fiscal year 2006, since the plans are due by September 2006.
    All of these activities, which are intended to help areas meet the 
standards and protect public health, represent significant effort for 
which adequate funding is essential. These new activities, as well as 
the ongoing responsibilities, lead STAPPA and ALAPCO to recommend an 
increase of $100 million in the federal grant program under Sections 
103 and 105 of the Clean Air Act (increasing the President's request 
from $223.6 million to $323.6 million).

                  HOW ARE AIR QUALITY PROGRAMS FUNDED?

    Funding for state and local air pollution control programs comes 
from several sources, including state and local appropriations; the 
federal permit fee program under Title V of the Clean Air Act; state 
and local permit and emissions fee programs and federal grants under 
Sections 103 and 105 of the Clean Air Act. Section 103 has usually 
funded specific monitoring efforts (e.g., particulate matter or air 
toxics monitoring), while Section 105 supports the foundation of state 
and local air quality programs, including, but not limited to, 
personnel.
    The Clean Air Act authorizes the federal government to provide 
grants up to 60 percent of the cost of state and local air quality 
programs, while state and local agencies must provide a 40-percent 
match (as per Section 105). In reality, however, the federal government 
provides approximately 25 percent of the total state/local air budget, 
while state and local governments supply 75 percent (not including 
income from Title V permit fees, which state and local agencies collect 
from major sources and can fund only permit-related activities). In a 
time of limited state and local resources, where state and local 
governments are straining to maintain existing programs, additional 
federal funding is needed to meet the challenges of air quality 
programs.

       HOW MUCH MONEY IS NEEDED FOR STATE AND LOCAL AIR PROGRAMS?

    The total amount needed for state and local efforts to implement 
the Clean Air Act is estimated to be in excess of $1 billion each year. 
If EPA were to supply 60 percent of that amount, as the Clean Air Act 
envisioned, federal grants would amount to approximately $600 million 
annually.
    The fiscal year 2006 budget request for state and local air quality 
agencies under Sections 103 and 105 of the Clean Air Act, rather than 
being $600 million, is actually $223.6 million. Not only is this far 
short of the amount that is needed, but over the past decade, federal 
grants for state and local air agencies to operate their programs (not 
including the separate monitoring program funded with Section 103 
grants) have decreased by 25 percent in terms of purchasing power 
(based upon U.S. Department of Labor inflation statistics).

             COULDN'T PERMIT FEES BE USED TO FILL THE GAP?

    Unfortunately, the permit fee program under Title V of the Clean 
Air Act Amendments of 1990 is not the answer to the state and local air 
agencies' financial problems for several reasons. First, the fees must 
support only the operating permit program and must not be used for 
other activities. Second, fees only apply to major sources and do not 
cover the significant costs related to non-major sources, which include 
minor source permits, monitoring, enforcement, compliance assistance, 
etc. Third, the current fees already are substantial and there would be 
considerable resistance to any increases. Fourth, fee revenue is 
decreasing due to reductions in emissions, on which they are based. 
Finally, increases in costs for air quality programs (except for permit 
programs themselves) are not addressed by permit fee programs.
    The Title V fee program, while essential to state and local 
efforts, is not the solution to the funding problem. Federal grants 
must be expanded to meet the significant resource requirements.

             HOW ELSE WOULD ADDITIONAL FUNDS BE PUT TO USE?

    In addition to the attainment activities discussed above, state and 
local air agencies face other high-priority responsibilities on which 
they would spend increased grant funds. These include the following, 
among others: improving emission inventories of toxic air pollution; 
implementing programs to address toxic air pollution; improving risk 
assessment capacity; increasing the frequency of inspections of minor 
sources; expanding criteria pollutant monitoring; reducing 
concentrations of fine particulates; developing SIPs to address 
regional haze; increasing public outreach efforts and response to 
citizen concerns; improving small business compliance assistance; 
purchasing replacements for monitoring equipment that has outgrown its 
expected usage; increasing the number of air toxics monitoring 
locations to better characterize baseline concentrations and localized 
impacts; improving modeling tools to determine the emission reductions 
needed to attain public health standards; and addressing minor sources, 
including issuing permits.

                               CONCLUSION

    The current budget does not meet the needs of state and local air 
agency efforts and, we believe, should be increased substantially. 
However, we understand that there are many programs competing for 
limited federal funds and that Congress has a very difficult task in 
determining how the resources should be allocated. Therefore, although 
we believe that air pollution poses a significant threat to public 
health and should be among our highest priorities, we recommend that 
federal grants to state and local air quality agencies be increased by 
$100 million above the President's request in fiscal year 2006, for a 
total of $323.6 million. Unless state and local air quality agencies 
receive substantial increases in resources, and are granted the 
flexibility to target them to the activities that are most appropriate 
in individual states and communities, we will find it increasingly 
difficult or impossible to obtain and maintain healthful air quality.
                                 ______
                                 
   Prepared Statement of the State of Wyoming, Office of the Governor

    I am writing to request support and action by your Subcommittee to 
provide an appropriation of $986,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
``Platte River Recovery'') to the U.S. Fish and Wildlife Service (FWS) 
for fiscal year 2006 to allow FWS to continue its necessary 
participation in the development of the Platte River Recovery 
Implementation Program. This is the same level of funding appropriated 
to the FWS in fiscal year 2005 for FWS participation in this project. 
The $986,000 is needed by FWS Region 6 for its Platte River activities 
during this critical time in the development of the Platte River 
Recovery Implementation Program. Congress has appropriated funding in 
this FWS line item each year since 1998--however, once again, as was 
the case last year, the President's recommended budget for fiscal year 
2006 ``zeroed out'' the ``Platte River Recovery'' line item. We have 
been advised that since the Congress--with the much appreciated 
assistance of your Subcommittee--restored this funding last year that 
it was ``zeroed out'' in the budget released on February 7, 2005 for 
the reason that it was an ``earmark'' in the 2005 appropriations act 
providing funding for the FWS. We respectfully request your assistance 
to restore this line item so as to provide the requisite funding.
    In 1997, the States of Nebraska, Wyoming, and Colorado and the U.S. 
Department of the Interior signed a Cooperative Agreement for Platte 
River Research and Other Efforts Relating to Endangered Species Along 
the Central Platte River, Nebraska (Cooperative Agreement). The 
signatories to the Cooperative Agreement realize a comprehensive, 
basin-wide, cooperative approach for addressing the Endangered Species 
Act (ESA) issues in the Central and Lower Platte River Basin region is 
the most equitable and effective means to resolve endangered species 
conflicts and meet the habitat needs of four threatened and endangered 
species--the whooping crane, piping plover, least tern and pallid 
sturgeon. Agreement activities presently underway include the 
development of a Recovery Implementation Program document, a 
programmatic biological opinion and a record of decision. Following 
completion of these actions, a Program Implementation Agreement is to 
be entered into by the three States and Interior in early 2006.
    Given the high level of ongoing activities associated with these 
Cooperative Agreement efforts and the fact that the program, when 
initiated, will provide federal Endangered Species Act compliance for 
existing and new water projects in Colorado, Nebraska and Wyoming, it 
is critically important that the ``Platte River Recovery'' funding be 
provided for fiscal year 2006. The requested Federal appropriation will 
be used in concert with other federal and non-federal cost-sharing 
funding in furtherance of cooperatively resolving long-standing 
endangered species and water resource conflicts. Your Subcommittee's 
assistance in addressing this issue last year was greatly appreciated 
and we will be most grateful for your assistance in again solving this 
same problem for the upcoming federal fiscal year. Thank you.
                                 ______
                                 
        Prepared Statement of the Village of Wellington, Florida

                    ENVIRONMENTAL PROTECTION AGENCY

    Mr. Chairman and members of the subcommittee: On behalf of the 
Village of Wellington, we are pleased to submit this statement for the 
record in support of our fiscal year 2006 request for funding in the 
amount of $2.7 million for the Village's Water Clean Up and Phosphorus 
Removal Project. The Village is most appreciative of the $300,000 
provided by the VA/HUD Subcommittee in its fiscal year 2005 bill.

                       PROJECT EXECUTIVE SUMMARY

    The 1994 Everglades Forever Act (EFA) established water quality 
goals for the restoration and preservation of the Everglades Protection 
Area. It also identified Basin B within the Village of Wellington as an 
area that will need to meet the new phosphorus standard by December 31, 
2006 for its storm water discharges into the Arthur Marshall 
Loxahatchee National Wildlife Refuge (Conservation Area No. 1).
    The Acme Basin B Discharge project is one of 55 that comprise the 
Comprehensive Everglades Restoration Plan (CERP). The Basin B drainage 
area is part of the Acme Improvement District, which was created by the 
state of Florida in 1953 to provide drainage for agricultural land in 
central Palm Beach County. During the 50 years since its inception, 
land uses within the improvement district have changed dramatically. 
The Acme Improvement District now serves the Village of Wellington and 
over 50,000 residents. Basin B consists of 8,680 acres of low-density 
development located in the southern half of the Improvement District. 
The western boundary of Basin B abuts the Loxahatchee Refuge.
    The benefits created by the CERP Acme Basin B Discharge project are 
largely related to restoration of the natural environment. The health 
of the Loxahatchee Refuge and Everglades National Park will be enhanced 
with improved quality and quantity of water generated from within the 
basin. Specifically, the project will provide the equivalent of 28.5 
million gallons of water per day to the Everglades, which, without the 
project, would be needlessly sent to the ocean via the Lake Worth 
Lagoon.
    The Village has been working diligently to arrive at a solution to 
meet the EFA requirements in an economic and technically feasible 
manner. The actual phosphorus standard has been adopted by the Florida 
Department of Environmental Protection (FDEP) through the Environmental 
Regulatory Commission (ERC). Therefore, the Village has been evaluating 
numerous alternatives to be used, to arrive at a Basin B Water Quality 
Clean Up Solution to meet those requirements.
    Some of these alternatives that have been, or are still being, 
evaluated, are:
    A water quality improvement Pilot Program with CH2M Hill 
Constructors, Inc. was completed and results submitted to SFWMD for use 
in design of STA's.
    Development of a Best Management Practices (BMP) Ordinance with 
phosphorous fertilizer limitations and livestock waste handling 
procedures among others. Two Ordinances have already been adopted by 
the Village.
    Preparation of a Request for Proposals and obtaining responses for 
a ``Multi-Purpose Storm Water Management Program'' as a design/build/
operate (DBO) contract.
    Development of Basin B Water Quality Clean Up alternatives for 
further evaluation by the South Florida Water Management District 
(SFWMD) through its study consultants, Burns & McDonnell, and Brown & 
Caldwell.
    Work with SFWMD and the U.S. Army Corps of Engineers through a 
Cooperation Agreement with SFWMD to develop a Basin B Water Quality 
Clean Up Plan as an already federally authorized Other Project Element 
(OPE) of the Comprehensive Everglades Restoration Plan (CERP).
    Implementation of a detailed water quality monitoring program to 
identify ``hot spots'' within Basin B for potential individual site 
specific clean up.
    Construction of a $350,000 filter marsh to provide treatment to a 
major ``hot spot'' is set to commence this summer. Construction of a 
$1,000,000 Wetlands Treatment Park near another ``hot spot'' is due to 
be constructed late summer, early fall.
    As part of its Basin B Water Quality Clean Up Initiative, the 
Village of Wellington assembled a ``Surface Water Action Team'' (SWAT) 
comprised of key personnel and expert consultants. The SWAT Team, while 
continuing to work on many of the above initiatives, is presently 
working on a Phase III BMP Ordinance, along with an updated Cooperative 
Agreement with SFWMD.
    The ongoing water quality monitoring program has indicated a fairly 
significant decrease in average phosphorus concentrations since 1999. 
In 1999, the average Basin B phosphorous concentration discharged to 
the Loxahatchee Refuge was 189 parts per billion (ppb). In 2002, the 
average concentration has dropped to 88 ppb, which is a 53.4 percent 
decrease in phosphorus levels. In 2003 the average concentration had 
dropped to approximately 70 ppb. Although inconclusive, it is likely 
that the implementation of the BMP Ordinance played a part in this 
decrease in phosphorus concentrations.
    To date, the Village of Wellington has made a considerable 
financial investment (up to $3 million), not including internal staff 
hours, and is set to spend another $4.5 million this year in an effort 
to meet the standards set by the Everglades Forever Act requirements.

                             FUNDING NEEDS

    For fiscal year 2006, the Village of Wellington, Florida is seeking 
$2.7 million from the Environmental Protection Agency through the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies.
    Thank you for your consideration of our request.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2006 appropriations. The Nature Conservancy is an 
international, non-profit organization dedicated to the conservation of 
biological diversity. Our mission is to preserve the plants, animals 
and natural communities that represent the diversity of life on Earth 
by protecting the lands and waters they need to survive. The 
Conservancy has more than 1 million individual members and 1,900 
corporate associates. We have programs in all 50 states and in 27 
foreign countries. We have protected more than 15 million acres in the 
United States and Canada and more than 117 million acres with local 
partner organizations globally. The Conservancy owns and manages 1,400 
preserves throughout the United States--the largest private system of 
nature sanctuaries in the world. Sound science and strong partnerships 
with public and private landowners to achieve tangible and lasting 
results characterize our conservation programs.

                      STEWARDSHIP OF PUBLIC LANDS

    The nation's federal lands require enhanced stewardship funding. 
Many of our ecosystems are extremely degraded, particularly by invasive 
species and poor fire management, and require substantial investments 
to restore proper ecosystem function.

National Fire Plan
    In past years, inadequate wildfire suppression funding has required 
agencies to transfer funds from other key resource programs to cover 
suppression costs. We commend the Subcommittee for providing emergency 
fire suppression funding in fiscal year 2005 and we urge Congress to do 
the same in fiscal year 2006. We also urge Congress to find a long-term 
solution to the suppression funding problem, including cost containment 
measures and increased emphasis on fire management planning and 
wildland fire use.
    We support the increase in the President's budget for BLM and USFS 
Hazardous Fuels Reduction to $492 million. We recommend that $100 
million be directed to hazardous fuels reduction projects supported by 
local communities and consistent with long-term, ecologically-based, 
landscape-scale plans (within and beyond the wildland urban interface) 
with scientifically adequate monitoring protocols. We also support the 
President's proposal for a $5 million grant program for biomass removal 
on public lands, especially for projects that relate to hazardous fuels 
reduction.
    Long-term restoration activities are critical to ensuring that 
unnaturally severe fires are not followed by invasive species and other 
ecologically destructive processes. Congress should provide $15 million 
to the U.S. Forest Service for Rehabilitation and Restoration, and 
should ensure that funding from other sources is sufficient to provide 
effective long-term restoration.
    We support the increase in the President's budget for the Forest 
Inventory Analysis (FIA) to $68.7 million. The FIA is a critical 
program for developing baselines for long-term monitoring of ecosystem 
condition and for development of LANDFIRE data.

Forest Health Management
    America's forests are under siege by numerous exotic insects and 
diseases, and the pace of introductions appears to be increasing. The 
Conservancy urges the Senate to enhance the Forest Service's crucial 
role in containing or eradicating these devastating organisms and 
minimizing their impacts which can cost hundreds of billions of dollars 
if they are not contained. We recommend that the Forest Health 
Management program (including National Fire Plan funding) be maintained 
at the fiscal year 2005 level of $126 million.

State and Private Forestry
    We strongly support funding for programs that provide incentives 
for forest stewardship on state and private lands, and critical 
technical and financial assistance to communities and landowners to 
improve forestry practices for conservation. We support funding the
    President's request, $37.1 million, for the Forest Stewardship 
program and funding for demonstration projects under the Healthy Forest 
Reserve title (Title V) of the Healthy Forests Restoration Act.

Invasive Species
    Next to habitat loss, invasion by non-native species is the most 
pervasive threat to native biodiversity on public land. The Conservancy 
supports funding at the President's request, or greater, for the 
Interdepartmental National Invasive Species Crosscut Budget. It is 
important to coordinate Federal agency actions to achieve prevention, 
early detection, rapid response, control and management and restoration 
of invasive species problems. We also support enhanced funding for 
three areas identified by DOI as fiscal year 2006 priorities: leafy 
spurge on the Great Plains, tamarisk in the Southwest and invasive 
plant control in Florida. We also support continuation of the highly 
successful program of spartina eradication in Willapa Bay and request 
$700,000 in refuge operations for Willapa National Wildlife Refuge and 
$700,000 in targeted Partners for Fish and Wildlife funds for this 
purpose.

                            LAND ACQUISITION

Land and Water Conservation Fund
    We strongly support continued federal acquisition of high-priority 
biologically important land and urge the Congress to provide funding 
for the Land and Water Conservation Fund (LWCF) at a far more robust 
level than the President's request. The Conservancy specifically 
proposes funding of 31 biologically rich land acquisition projects 
totaling $80.25 million. Priorities include multi-year projects to 
protect Montana's Blackfoot Valley and acquisition of key inholdings at 
Cache River NWR, Pinnacles National Monument, St. Marks NWR, and 
Chattahoochee NF. We appreciate the Chairman's strong support for 
community supported acquisitions in the Blackfoot Valley. Several 
projects, including the Northern Tallgrass Prairie NWR and BLM's South 
Fork Snake River, utilize conservation easements to achieve important 
conservation objectives while maintaining the integrity of working 
landscapes. We also urge the Subcommittee to restore funding for the 
state-side of LWCF.

Forest Legacy
    This program is an increasingly popular and successful model of a 
non-regulatory conservation approach based on partnerships between 
federal and state governments and private landowners. The huge 
potential of this program to achieve conservation goals while 
maintaining sustainable use of private lands requires a significant 
funding increase. We strongly support a $100 million appropriation for 
this program, including such priority projects as the Kamehameha School 
Lands in Michigan., Walls of Jericho in Tennessee, Nevada Creek-
Blackfoot in Montana and Annaly Bay in the U.S. Virgin Islands.

          PAYMENTS IN LIEU OF TAXES AND REFUGE REVENUE SHARING

    The Payments in Lieu of Taxes and Refuge Revenue Sharing programs 
provide payments to counties where land has been taken off the local 
property tax roles and put into federal ownership. In some counties, 
protection of significant natural resources impacts the tax base that 
funds local government services, including schools and public safety. 
We urge the Committee to provide full funding for these programs and 
honor the federal government's commitment to impacted communities.

                         SCIENTIFIC INFORMATION

    Sound decisions on public and private land acquisition and 
management must be based on high-quality scientific information. We 
support an additional $500,000 above the President's request for the 
U.S. Geological Survey's National Biological Information Infrastructure 
to increase capacity for migratory bird, wildlife disease and invasive 
species information. We support the President's request for LANDSAT, a 
critically important investment for ecological monitoring in this 
country and globally and $250,000 for ecological systems mapping. 
Within the USGS Water Resources programs, a funding level of $2.5 
million for stream gages is required to maintain current levels of 
information.

                      ENDANGERED SPECIES PROGRAMS

    The Conservancy supports $100 million for the FWS's Cooperative 
Endangered Species Fund, an effective and flexible tool for building 
cooperative, voluntary partnerships. The requested increase reflects 
the importance and unmet public funding needs of collaborative 
conservation strategies to protect critically rare species on non-
federal land, and state and local acquisition of habitat necessary for 
the survival of listed and candidate species.
    The Conservancy urges significant increases for the FWS's ESA 
implementation programs. Funding increases would enhance the Service's 
ability to provide important incentive-based, non-regulatory programs 
that assist private landowners in protecting species, including the 
Candidate Conservation program. Additional funding for Listing would 
enable the Service to expand its evaluation of imperiled species for 
listing, a critical action that guarantees certain protections under 
the law, including the authority to purchase habitat. Increases for 
Consultation/Habitat Conservation Planning would permit the Service to 
respond to the dramatic increase in the use of HCPs. Similarly, 
increased investments in Recovery would permit the development, 
monitoring, and implementation of recovery plans and actions for a 
rapidly increasing number of listed species. Finally, we support $1.75 
million in planning funds to Southern California's Natural Community 
Conservation Planning program.

                    STATE AND TRIBAL WILDLIFE GRANTS

    The Conservancy strongly supports this program and recommends 
funding of $85 million. The development of state comprehensive wildlife 
conservation plans will set the foundation to direct future resources 
for state conservation objectives and encourage the states to make full 
use of the best existing scientific information, including natural 
heritage data.

                 COOPERATIVE CONSERVATION PARTNERSHIPS

    Private lands provide a portion of the habitat for at least two-
thirds of all federally listed species. The Administration's 
Cooperative Conservation Initiative supports innovative partnerships 
between private landowners, local communities, states and the federal 
government. We endorse the President's request of $40 million for the 
Landowner Incentive Program and $10 million for Private Stewardship 
Grants. We support the President's request of $14.9 million for the FWS 
Coastal Program. We also support the President's request of $44.8 
million for the BLM, FWS and NPS Challenge Cost Share programs. These 
programs leverage appropriated dollars through 1:1 matches with State 
and private partners to implement important restoration and protection 
projects. We support the proposed increase to $52.2 million for the 
Partners for Fish and Wildlife, including $7.5 million for the Upper 
Klamath River Basin Restoration Initiative. We also support earmarked 
funding for the High Plains Partnership.

                        PARTNERSHIP INITIATIVES

  --National Fish and Wildlife Foundation.--Federal support to NFWF 
        continues to yield a return of over two non-federal dollars for 
        every single taxpayer dollar. We recommend appropriations of 
        FWS ($9 million), BLM ($4 million) and Forest Service ($4 
        million).
  --North American Wetlands Conservation Fund and Joint Venture 
        program.--The Conservancy supports funding for NAWCA at the 
        President's request of $49.9 million or more. More than $1.6 
        billion in partner contributions has been raised to match $573 
        million in federal funds in order to save 20.6 million acres of 
        wetlands. The Conservancy supports an increase of funding to 
        $15.1 million for Joint Ventures.
  --Connecticut River Atlantic Salmon Commission (CRASC).--The 
        Conservancy supports a $2.1 million level of funding for the 
        CRASC.
  --Great Lakes Fish and Wildlife Restoration Act (GLFWRA).--The 
        Conservancy recommends $2 million in base funding and $2 
        million for grants for the GLFWRA.

           DEPARTMENT OF INTERIOR--OFFICE OF INSULAR AFFAIRS

    The Conservancy supports the President's request for an additional 
$1.2 million to support implementation of Local Action Strategies to 
address threats to coral reefs. These strategies are the product of 
collaborative efforts between federal agencies, states and territories, 
and local NGOs. We also support an increase in funding to $1 million 
for the Coral Reef Initiative.

                         INTERNATIONAL PROGRAMS

    The Conservancy, as part of an alliance of major international 
conservation groups, supports the International Conservation Budget, 
which calls for $10.5 million to the FWS' Multinational Species 
Conservation Funds. This reflects $2 million each for the African and 
Asian Elephants and the Great Ape fund, the same for the new Marine 
Turtle fund, and $2.5 million for the Rhinoceros/Tiger fund. We support 
$5 million for the Neotropical Migratory Bird Conservation Fund. We 
support $8 million for the Forest Service's International Programs.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Conservancy supports robust funding levels for select EPA 
programs, including $22.7 million for the Great Lakes National Program 
Office. This program funds and conducts projects to protect, maintain 
and restore the chemical, biological and physical integrity of the 
Great Lakes--the largest freshwater ecosystem on Earth.
    The Coastal Watersheds and National Estuaries Program should 
receive enhanced funding to ensure adequate support for the National 
Estuary Programs and the development and implementation of 
Comprehensive Conservation and Management Plans. This program also 
funds other activities benefiting coastal watersheds, including 
partnerships to abate threats to coastal habitats and recreational 
waters.
    We also support funding to increase the capacity of the Non-point 
Source Management Program (Section 319). This program, unlike Farm Bill 
programs, can be used to address non-point pollution from diverse 
sources such as urban runoff and leaking septic systems, not only 
pollution from agricultural sources.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the Interior, Environment and Related Agencies 
appropriations bill.
                                 ______
                                 
         Prepared Statement of the YMCA of Glendale, California

------------------------------------------------------------------------
                          Project                              Request
------------------------------------------------------------------------
YMCA of Glendale Camp Fox Wastewater Treatment Plant.......   $2,000,000
------------------------------------------------------------------------

    On behalf of the YMCA of Glendale, California, I want to thank the 
Subcommittee for the opportunity to present our request for funding for 
fiscal year 2006.

                      YMCA OF GLENDALE, CALIFORNIA

    The YMCA of Glendale was founded in 1922, born out of the 
resident's desire to enrich the quality of life. Overseen by its own 
members, who volunteer to serve on the Board of Directors, it is 
managed by other volunteers and paid staff. The YMCA has quietly 
provided answers to Glendale's changing needs. Today, its 7,000 
current, active members represent every section of our community. It 
serves thousands more people through outreach programs and its two 
camps on Catalina Island.
    The most important component of all YMCA programs is character 
development. There are four core values that build strong children--
caring, honesty, respect & responsibility. These values are the tools 
that help kids overcome the negative temptations of youth, like drugs, 
gangs & crime.
    The YMCA is a not-for-profit organization that is particularly 
relevant to today's society because it fills a void in the community. 
It is for everyone--people of all ages, religions, incomes and 
abilities. The YMCA builds community!
    The YMCA believes that people who cannot afford to pay full costs 
deserve the experience the Y offers as much as those who can. Donations 
allow the YMCA to provide membership and programs to people in 
financial hardship. As part of its effort to help people live a healthy 
lifestyle, the YMCA offers a wide variety of fitness programs including 
swimming, fitness classes, strength training, racquetball, 
consultations with fitness experts and much more. There are over 500 
children taking swimming lessons at the YMCA--every month, all year 
round. Another 300 children form youth basketball leagues, and over 250 
children take gymnastics classes every month of the year. Building 
confidence in children by developing their physical skills is one part 
of the YMCA's mission. Showing them how to make sound independent 
decisions and solve problems is another part. Two camps on Catalina 
Island provide a setting for this and serve over 8,000 children a year.

                 CAMP FOX WASTEWATER TREATMENT PROJECT

    Since 1924, Camp Fox has been owned and operated by the YMCA of 
Glendale. Located on Catalina Island, each year hundreds of youth 
explore the ocean and terrain of the island on a year-round basis. With 
a weekly capacity of 300 campers, groups have included YMCA family 
groups, church retreats, leadership programs and a full summer of 
weekly sessions for youth and teens. In addition, during the school 
year, Catalina Island Marine Institute (CIMI) conducts outdoor 
education programs at the camp for schools throughout Southern 
California. Camp Fox has a rich history of memories and life changing 
experiences for thousands who have stayed there over the years.

                       CURRENT FACILITY CHALLENGE

    Because the current septic system that handles the camp's sewage 
treatment needs is failing, the YMCA must install a wastewater 
treatment plant. As a result of this situation, since January 2004, the 
camp has been required to reduce its capacity by 50 percent. Many of 
the YMCA lease groups have left the camp to find other large capacity 
camps. This decrease in campers has put a tremendous financial strain 
on the operation, in addition to disappointing the many people desiring 
to visit the island. The decrease in numbers is outlined below:

------------------------------------------------------------------------
              Count                    2003         2004      Difference
------------------------------------------------------------------------
Campers..........................       14,495        8,200      (6,295)
Camper Days......................       40,096       22,442     (17,654)
------------------------------------------------------------------------

    Replacing this system is costly, with a complex scope of work. 
Removal of all old landfills at the camp is being required as well. The 
new system will be a disinfecting and dechlorinating process which will 
enhance the camp environment and the overall environment on Catalina 
Island. Because of the limited resources available to our non-profit 
organization, I am requesting your assistance in securing funds for 
this project through the programs of the Environmental Protection 
Agency. Specifically, we are seeking $2 million through EPA's State and 
Tribal Assistance Grants Program.
    Again, I thank the Subcommittee for the opportunity to present this 
testimony and for your consideration of this request.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairman and Members of the Subcommittee: Thank you for this 
opportunity to provide the American Geological Institute's perspective 
on fiscal year 2006 appropriations for geoscience programs within the 
subcommittee's jurisdiction. The president's budget requests vital and 
overdue funding for natural hazards and mapping which AGI greatly 
appreciates and fully supports. The administration seeks significant 
cuts in the U.S. Geological Survey (USGS) mineral resources and water 
programs. The Mineral Resources Program would receive a 53 percent cut, 
leaving the program with only $25 million in fiscal year 2006. If 
enacted, these reductions would hamper the Survey's ability to carry 
out its important missions to ensure adequate natural resources, 
monitor environmental conditions and provide assessments for economic 
development, safety and national security. Specifically, we ask the 
subcommittee to restore funds to the USGS Mineral Resources Program and 
the Water Resources Research Institutes.
    For the Environmental Protection Agency (EPA), a new responsibility 
of this subcommittee, the proposed fiscal year 2006 is $7.6 billion, a 
5.6 percent decrease from last year with significant cuts for state 
water programs. AGI supports full funding for water programs in EPA and 
USGS, given the importance of clean and readily available water for our 
citizens, industries, local to federal government agencies and for the 
sustainability of a healthy environment.
    Geoscience activities are also found in a number of other agencies 
within the subcommittee's jurisdiction. We ask the subcommittee to 
support the well-informed, yet fiscally responsible increases in the 
administration's budget proposal for the Minerals Management Services 
(MMS) the National Park Service Geologic Resources Division, and the 
U.S. Forest Service Minerals and Geology Management Program. MMS 
manages natural gas, oil and other mineral resources on the outer 
continental shelf and disburses more than $5 billion per year in 
revenues from federal offshore and onshore mineral leases. Geoscience 
programs within the land management agencies provide a scientific basis 
for land-use decisions, a role that they share with the USGS.
    AGI is a nonprofit federation of 42 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists who work in industry, 
academia and government. The institute serves as a voice for shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role that the geosciences play in society's use of resources and 
interaction with the environment.

                         U.S. GEOLOGICAL SURVEY

    For the fourth year in a row, the USGS faces cuts in the 
administration's request. AGI thanks Congress and members of this new 
subcommittee for its past record of restoring critical funds and 
recognizing the Survey's essential value to the nation.
    AGI is a charter member of the USGS Coalition, an alliance of 
nearly 70 organizations united by a commitment to the continued 
vitality of the unique combination of biological, geological, 
hydrological and mapping programs of the U.S. Geological Survey. The 
Coalition supports increased federal investment in USGS programs that 
underpin responsible natural resource stewardship, improve resilience 
to natural and human-induced hazards, and contribute to the long-term 
health, security and prosperity of the nation.
    Virtually every American citizen and every federal, state, and 
local agency benefits either directly or indirectly from USGS products 
and services. As was made clear by the National Research Council report 
Future Roles and Opportunities for the U.S. Geological Survey, the 
USGS's value to the nation goes well beyond the Department of the 
Interior's stewardship mission for public lands. USGS information and 
expertise address a wide range of important problems facing this 
nation: earthquakes and floods, global environmental change, water 
availability, waste disposal, and availability of energy and mineral 
resources. The Survey serves the nation, through specific results that 
can be applied elsewhere to broad assessments used for national 
planning. At the same time, AGI recognizes that the Survey does have a 
responsibility to provide scientific support for its sister land 
management agencies at Interior, an important mission that needs to be 
well executed if land management decisions are to be made with the best 
available scientific information. It is imperative that both these 
missions be recognized and valued within the Department and the White 
House. AGI asks the subcommittee to continue its efforts to help the 
administration better understand the Survey's value to the nation as a 
whole.
    Mineral Resources Program.--This highly regarded research program 
is the nation's premier credible source for regional, national and 
global mineral resource and mineral environmental assessments, 
statistics and research critical for sound economic, mineral-supply, 
land-use and environmental analysis, planning and decision-making. AGI 
urges the subcommittee to reject the administration's requested cuts to 
this program and to fund it at the fiscal year 2005 appropriated level 
of $54 million. The 53 percent cut, leaving the program with only $25 
million in fiscal year 2006 would decimate the program. It would cost 
at least 240 full time positions and eliminate the collection of 
nation-wide basic geologic and mineral deposit data, the 
internationally coordinated global mineral resource assessment, and 
many mineral commodity reports. The essence of the program would be 
jeopardized at a time when mineral products account for $418 billion of 
the U.S. economy and are a growing and valuable commodity.
    The Mineral Resources Program (MRP) has 6 divisions with offices 
across the United States working on a broad range of initiatives to 
secure the nation's economic base and environmental welfare. Each 
month, the Minerals Information Services of the MRP responds to 2,000 
telephone inquiries and more than 90,000 email or facsimile inquiries 
from the federal government, state agencies, domestic and foreign 
agencies, foreign governments and the general public. Cutting-edge 
research by MRP scientists investigates the role of microbes in the 
geochemical cycles of arsenic, mercury, lead and zinc to understand the 
transport and accumulation of health-threatening toxins related to 
these elements and to distinguish their natural or anthropogenic 
sources. An MRP study analyzed the occurrence and distribution of 
asbestos-bearing vermiculite deposits in the United States, in response 
to the health problems created by Libby Mine's asbestos-bearing 
vermiculite deposit in Montana. MRP scientists also investigated and 
prepared a report on the asbestos-bearing debris in the aftermath of 
the World Trade Center disaster. An MRP report on the diatomite mining 
industry concluded that the U.S. industry is mature and stable, 
accounting for at least 50 percent of all diatomite exported in 2001, 
but may be adversely affected by overproduction in other countries now. 
The Global Mineral Resource Assessment Project of the MRP provides 
unbiased and timely information about the current and future 
availability of mineral resources around the world, which is needed to 
understand and anticipate economic, health, environmental and political 
factors that will affect how these resources are used in this 
increasingly interconnected world.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other federal, state and 
local government entities, foreign governments, private companies and 
the general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land use decisions posed by industry, government and private land 
owners. We urge the subcommittee to restore the Mineral Resources 
Program to its fiscal year 2005 level of $54 million so that it may 
perform its core missions effectively and efficiently.
    National Cooperative Geologic Mapping Program.--AGI is encouraged 
by the administration's requested 1 percent increase for the National 
Cooperative Geologic Mapping Program and values Congress' past support 
for much larger increases. This important partnership between the USGS, 
state geological surveys, and universities provides the nation with 
fundamental data for addressing natural hazard mitigation, 
environmental remediation, land-use planning, and resource development. 
The program was authorized (Public Law 106-148) to grow by about 10 
percent to 20 percent per year from a starting level of $28 million in 
1999 to $64 million in 2005. The program received $25.2 million in 2005 
and AGI would encourage a 10 percent increase for 2006 because the 
program provides a timely basis for assessing water availability and 
quality, risks from hazards and other major land and resource-use 
issues that are of increasing prominence in many states.
    Natural Hazards.--A key role for the USGS is providing the 
research, monitoring, and assessment that are critically needed to 
better prepare for and respond to natural hazards. The tragic 
earthquake and tsunami in the Indian Ocean remind us of the need for 
preparation, education, mitigation and rapid response to natural 
hazards. Last year 27 major disasters were declared because of 
earthquakes, landslides, hurricanes, fires and floods. In addition, 
Mount St. Helens began erupting again in 2004 and continues to be 
active in 2005 with a steam and ash plume eruption reaching 36,000 feet 
in altitude on March 8. AGI strongly supports the administration's 
request for increased funding for Earthquake, Volcano and Landslide 
Hazards and appreciates Congress' past support for these programs. With 
great forethought, the Earthquake Hazards Reduction Authorization Act 
of 1999 called for a significant federal investment in expansion and 
modernization of existing seismic networks and for the development of 
the Advanced National Seismic System (ANSS)--a nationwide network of 
shaking measurement systems focused on urban areas. ANSS can provide 
real-time earthquake information to emergency responders as well as 
building and ground shaking data for engineers and scientists seeking 
to understand earthquake processes. ANSS was funded at about 10 percent 
of its authorized level during its first 3 years and received about $16 
million. The law calls for 7,000 instruments to be deployed. Currently, 
62 are active. The National Earthquake Hazards Reduction Program 
(NEHRP) was reauthorized in October 2004 and AGI supports the 
appropriation of full funding for this vital program. AGI strongly 
supports the proposed increase of $5.4 million for fiscal year 2006 for 
earthquake warning systems development related to the Tsunami Warning 
Network enhancements. We hope that all of these under funded systems 
will receive additional support to meet their timely goals of better 
protection and mitigation of earthquake hazards long before we need to 
react.
    Water Programs.--The president's request calls for the termination 
of the Water Resources Research Institutes. AGI strongly encourages the 
subcommittee to oppose these reductions and to fully support this 
program at its small, but effective fiscal year 2005 level of $6.4 
million. AGI is pleased that the administration has requested full 
funding for the National Water Quality Assessment and National 
Streamflow Information programs, both of which make important 
contributions to the nation.
    Homeland Security.--Another troubling aspect of the president's 
request is the lack of funding for the USGS activities in support of 
homeland security and the war on terrorism overseas. All four 
disciplines within the Survey have made and continue to make 
significant contributions to these efforts, but the fiscal year 2006 
request does not provide any direct funding. Instead, those costs must 
be absorbed in addition to the proposed cuts. AGI encourages the 
subcommittee to recognize the Survey's important role in homeland 
security and ensure adequate support for its newfound responsibilities.

                        SMITHSONIAN INSTITUTION

    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to build up Smithsonian research with steady 
increases that are a tiny fraction of the overall budget, but would 
dramatically improve the facilities and their benefit to the country.

                         NATIONAL PARK SERVICE

    The national parks are very important to the geoscience community 
as unique national treasures that showcase the geologic splendor of our 
country and offer unparalleled opportunities for both geoscientific 
research and education of our fellow citizens. The National Park 
Services's Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI would like to see additional 
support for geological staff positions to adequately address the 
treasured geologic resources in the national parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee.

                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) requests that 
Congress provide the United States Geological Survey (USGS) with at 
least $1 billion in fiscal year 2006. This funding level would restore 
administration proposed cuts to important science programs, provide a 
modest but much needed inflation adjustment, and allow implementation 
of important science and information dissemination initiatives. This 
funding level would also help USGS address the cost of maintaining 
research facilities and better address impending workforce issues.
    The USGS provides independent data, information, research support 
and assessments needed by public and private sector decision-makers. 
The Survey's unique combination of biological, geographical, geological 
and hydrological research programs enable USGS scientists to utilize 
cutting-edge interdisciplinary research techniques to answer important 
questions.
    USGS scientists do not work in isolation. Through the Survey's 
nearly 400 offices located in every state and partnerships with over 
2,000 federal, state, local, tribal, and private organizations, the 
USGS has built the capacity to leverage additional research expertise. 
For example, through the Cooperative Research Units program USGS 
scientists are stationed on university campuses.
    This proximity to academic researchers helps bring additional 
intellectual and technical resources to bear on the biological, 
ecological, and natural resource questions USGS seeks to understand. 
The value of Cooperative Research Units extends beyond their immediate 
research productivity, however. Cooperative Research Units are a vital 
component of our national education and training infrastructure. These 
research units enable future natural resource professionals to gain the 
skills and experience government agencies need. Furthermore, 
Cooperative Research Units are one of USGS' mechanisms for providing 
data and technical assistance to local, state, and national decision-
makers.
    Natural resource managers require reliable, relevant, and timely 
information. The Biological Informatics Program develops and applies 
innovative technologies and practices to the management of biological 
data, information, and knowledge resulting from research, thereby 
increasing the value of that research to scientists, planners, 
decision-makers, educators, students, and the public. Increased funding 
for the USGS would enable the Biological Informatics Program to 
continue on-going activities and begin to implement initiatives that 
the resource management and research communities have identified as 
national priorities.
    USGS biological research programs gather important data and 
information that academic, private sector, or other government 
scientists do not or can not collect. For instance, a clear national 
priority is the prevention and mitigation of future losses resulting 
from non-native species invading new environments. USGS research is 
helping guide our understanding of how invasive species, such as the 
zebra mussel, snakehead fish, or tamarisk, colonize new environments. 
Decision-makers, whether working for the National Park Service, a state 
parks department, or a hydroelectric utility, utilize USGS science to 
develop action plans for combating invasive species.
    Infrastructure is vital to science. Increasingly, coordinated 
networks of databases and data gathering instruments are required to 
answer the questions that public policymakers and scientists are 
asking. For example, biologists may use real-time data from the USGS 
streamgage network to determine how quickly a pollutant travels through 
a watershed, impacts downstream fisheries, or enters a community's 
drinking water supply.
    USGS biologists conduct impartial research that makes it possible 
to assess the vitality of waterfowl, songbirds, large mammals, 
terrestrial plants, amphibians, and their habitats. These data 
subsequently inform state and federal agency conservation planning and 
management. As an example, the USGS bird-banding program allows 
scientists to better understand bird populations, habitat requirements, 
and migration routes. An understanding of these matters is necessary to 
inform the development of hunting regulations.
    Within the Biological Research and Monitoring account, the budget 
request proposes several important funding increases. For instance, the 
budget request includes small increases for ecological systems mapping, 
the Great Lakes Deepwater Fisheries Program, Science on Interior's 
Landscape, support for biological and geological research for better 
decision making in the Glen Canyon Dam Adaptive Management Program, and 
the development of innovative control methodologies for invasive 
plants.
    Unfortunately, the budget request calls for cuts of just over $4.0 
million in the Biological Research and Monitoring account. These cuts 
would end research on the Mark Twain National Forest, pallid sturgeon, 
diamondback terrapins, the grizzly bear population in Montana, the 
ground-water supply at Leetown Science Center, fishery genetics 
research in the Northeast and Mid-Atlantic regions, manatees, the 
Delaware River Basin, and a portion of a general program increase. We 
encourage the committee to work to restore these cuts.
    The administration has also requested potentially damaging general 
funding cuts. Included in this category is a $420,000 cut from the USGS 
vehicle fleet and reduced travel and transportation costs. USGS 
biological research requires that scientists be able to travel to field 
research sites and scientific meetings. Thus, we request that the 
committee carefully review this proposed cut to ensure adequate funding 
is available to support ongoing research activities. Additionally, the 
proposed budget would eliminate the Nebraska Cooperative Research Unit. 
At least $395,000 should be appropriated to maintain this research 
unit. However, we encourage the committee to also work to provide 
additional funding to support the overall Cooperative Research Units 
program.
    In the fiscal year 2005 appropriation, Congress funded 
``uncontrollable costs,'' such as salary and office space rental cost 
increases. The administration should be commended for accounting for 
these costs in the fiscal year 2006 budget request. We encourage the 
committee to once again work to fully fund these expenses. Without full 
funding of these expenses, USGS science programs would likely be forced 
to reprogram funds that would otherwise support science.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
   Prepared Statement of the Kennesaw Mountain Historical Association

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $2.21 million 
appropriation from the Land and Water Conservation Fund in fiscal year 
2006 to begin acquisition of a prime piece of property at Kennesaw 
Mountain National Battlefield Park.
    The Kennesaw Mountain Historical Association is a nonprofit 
cooperating association working in partnership with the National Park 
Service. Our organization is dedicated to enhancing the public's 
understanding and appreciation of Kennesaw Mountain National 
Battlefield Park. The association operates the visitor center bookstore 
as well as provides staff at the visitor center front desk. All 
proceeds from items sold in the store and from memberships directly 
benefit the park. Our support helps provide lectures, seminars, 
historical and environmental tours, educational materials, and 
interpretive programs.
    Kennesaw Mountain National Battlefield Park was established to 
commemorate the 1864 Atlanta campaign. On June 19, 1864, the Union 
troops of General William Sherman reached Kennesaw Mountain on their 
march from Chattanooga, Tennessee to Atlanta, Georgia. A series of 
attacks ensued as Confederate soldiers, led by General Joseph Johnston, 
attempted to stave off the Union brigades. In the end, Sherman returned 
to his flanking strategy and the Southerners abandoned their Kennesaw 
lines. Nearly 4,000 soldiers lost their lives in the battle at 
Kennesaw.
    An opportunity exists over the next two years to conserve the 
Hensley property, a 45-acre inholding of the park. This prized land 
contains earthen fortifications used by Union Infantry during the siege 
of Kennesaw Mountain and Marietta. The earthworks on the Hensley 
property are an important continuation of those in the park. They are 
part of the federal infantry line, which helped protect the 24-gun 
battery assembled by General Sherman to drive the Confederates from 
their mountain citadel. This tract is a combination of fields, forest, 
and lake, and would significantly enhance the historic value of the 
park. Over the next ten years, the park is expected to improve the tour 
route, add more interpretive signs, and add the 24-gun battery as a 
tour stop.
    The preservation of the Hensley property would protect one of the 
few remaining significant tracts of land in the area. Presently zoned 
for residential and agricultural uses, this land faces the imminent 
threat of development as growth in this area is occurring rapidly. The 
Hensley property is located in west Cobb County, which for a long time 
consisted solely of farmland, and where Kennesaw Mountain National 
Battlefield Park served as a major buffer from burgeoning commercial 
and residential development from the east. In past years, this buffer 
has been overwhelmed by growth from the east and west as a result of 
its close proximity to Atlanta.
    In an area where large tracts of land are disappearing, acquisition 
of this unique inholding is crucial to preserving the cultural history 
of Kennesaw Mountain and its Civil War legacy.
    Thank you for the opportunity to present this request.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $1.0 billion for the U.S. Geological Survey 
(USGS) in fiscal year 2006, an increase of 7.1 percent over the fiscal 
year 2005 enacted level. For the U.S. Environmental Protection Agency 
(EPA), NCSE urges Congress to appropriate at least $790 million for the 
Science and Technology account, including at least $100 million for the 
Science to Achieve Results (STAR) research grants program and $10 
million for the STAR graduate fellowship program, as well as $10 
million for the Office ofEnvironmental Education.
    As a result of the committee's recent reorganization, the Senate 
Appropriations Subcommittee on Interior and Related Agencies now has 
broader jurisdiction over environmental research and education. NCSE 
commends the subcommittee for its past bipartisan leadership in support 
of science to improve environmental decisionmaking. We ask for your 
continued leadership in addressing pressing national challenges by 
appropriating strong and growing funding for environmental research and 
education at the USGS, EPA, and other agencies under the subcommittee's 
expanded jurisdiction.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.

                         U.S. GEOLOGICAL SURVEY

    The vital importance of the USGS in protecting public safety was 
highlighted by the tragic loss of life caused by the tsunami that was 
triggered by a great earthquake beneath the Indian Ocean on December 
26, 2004. Investments in the USGS pay enormous dividends by reducing 
risks from earthquakes, volcanic eruptions, floods, landslides, and 
other natural hazards.
    As a founding member and co-chair of the USGS Coalition, NCSE joins 
with 68 other organizations in recommending an appropriation of $1.0 
billion for the U.S. Geological Survey in fiscal year 2006, an increase 
of 7.1 percent above the fiscal year 2005 enacted level. This increase 
would enable the USGS to restore the science cuts proposed in the 
budget request, accelerate the deployment of critical projects (e.g., 
Advanced National Seismic System and the National Map), and launch new 
science initiatives that would begin to reverse the cumulative effects 
of the long-term funding shortfall that has left the USGS budget 
stagnant for the past decade.
    The fiscal year 2006 budget request would cut funding for the USGS 
by $1.9 million or 0.2 percent to $933.5 million. The budget request 
would offset $36.7 million of cuts in existing program activities with 
$33.4 million in new and expanded program funding. Two large program 
cuts are of special concern to NCSE. The budget request would cut $28.7 
million from the Mineral Resources program, a devastating 53 percent 
decrease in funding. The USGS budget request would also eliminate the 
entire $6.4 million budget for the Water Resources Research Institutes, 
which are located in all 50 states.
    The USGS Mineral Resources program is an essential source of 
objective guidance and unbiased research on our mineral resources that 
helps guide economic development of natural resources and protection of 
the environment. This guidance and research is important to reduce the 
environmental impacts of mining and to maintain the growing value of 
processed materials from mineral resources that accounted for $418 
billion in the U.S. economy in 2004, an increase of 13 percent over 
2003. The proposed cuts in the Mineral Resources program would also 
terminate multidisciplinary research that has important implications 
for public health and environmental protection, such as studies on 
mercury, arsenic and other inorganic toxins.
    The Water Resources Research Institutes have been successful in 
developing cooperative programs that leverage federal investments with 
funds from other sources. Last year, the House Appropriations 
Subcommittee on Interior and Related Agencies said, ``The 
Administration has placed a high priority on cooperative programs that 
leverage funds from state and local governments as well as private 
entities. The committee believes that bureaus that are successful in 
implementing these policies should be rewarded and not penalized.''
    The proposed budget cuts would adversely affect the ability of the 
USGS to achieve its mission. We encourage Congress to restore these 
cuts, but this funding should not come at the expense of other high 
priority programs elsewhere in the USGS budget.
    The USGS budget request would add $33.4 million in new and expanded 
program funding, including $5.4 million for facilities and operations 
to provide more robust detection and notification of earthquakes that 
could generate a dangerous tsunami. The USGS effort will complement 
NOAA's effort to enhance and expand the tsunami warning system to 
detect any tsunami that might strike anywhere along the U.S. coast. The 
budget request would also provide an increase of $19.5 million for land 
remote sensing activities that support a broad array of economic, 
agricultural and environmental uses. This funding would allow the USGS 
to continue operation of the damaged Landsat 7 satellite and work with 
NASA and NOAA to begin building a ground-based system for a Landsat 
follow-on mission. The USGS budget request would provide small 
increases to improve volcanic monitoring, expand pilot studies to 
assess ground-water depletion in the western United States, strengthen 
ecosystem studies in the Puget Sound, and address other important 
issues. These initiatives deserve the support of Congress.
    The USGS budget request would provide $17.2 million to fully fund 
increases in ``fixed costs,'' such as salaries and rent. In past years, 
increases in fixed costs were partially ``absorbed'' by individual 
programs. Cumulatively, this practice has had a disproportionate impact 
on core USGS programs in biology, geology, hydrology, and mapping, 
which cannot absorb cuts without affecting scientific research and 
monitoring activities. Without full funding of fixed cost increases, 
the USGS may be forced to further curtail ongoing activities, hindering 
or preventing the delivery of data needed by natural resource managers 
and emergency planners. This would increase our vulnerability to 
natural disasters and increase the costs of recovery.
    In addition to restoring the proposed program cuts, we encourage 
Congress to provide additional increases that would enable the USGS to 
meet the tremendous need for science in support of decisionmaking. More 
investment is needed to strengthen USGS partnerships, improve 
monitoring networks, produce high-quality digital geospatial data and 
deliver the best possible science to address societally important 
problems. The USGS has a national mission that encompasses the homes of 
all citizens through natural hazards monitoring, drinking water 
studies, biological and geological resource assessments, and other 
activities.
    During the past ten years, total federal spending for non-defense 
R&D has risen by 64 percent in constant dollars. By contrast, R&D 
funding for the USGS has remained nearly flat over the past decade 
after adjusting for inflation. Even this flat funding for the USGS 
reflects congressional restoration of proposed budget cuts.
    We encourage Congress to provide the USGS with a budget that will 
allow for the modest growth necessary to address emerging needs for 
science. After years of stagnant funding and absorption of 
uncontrollable cost increases, the USGS has a large and growing backlog 
of monitoring and science needs. The National Council for Science and 
the Environment urges Congress to appropriate $1.0 billion for the USGS 
in fiscal year 2006. This investment will help the USGS improve 
monitoring networks, strengthen partnerships, produce high-quality 
data, and deliver impartial science that serves the needs of the 
nation.

                    ENVIRONMENTAL PROTECTION AGENCY

    The National Council for Science and the Environment urges Congress 
to appropriate a minimum of $790 million for EPA's Science and 
Technology account, including at least $100 million for EPA's Science 
to Achieve Results (STAR) research grants program and $10 million for 
EPA's STAR graduate fellowship program. NCSE also urges Congress to 
restore full funding for the Office of Environmental Education at a 
level of at least $10 million. In order to fulfill its mission, EPA 
needs increased investments in both its intramural and extramural 
research programs.
    The fiscal year 2006 budget request for the STAR programs is $63.3 
million, which is 39.5 percent below the fiscal year 2004 request of 
$104.7 million. The budget for the research grants program has been on 
a steady decline despite extremely positive reviews from the National 
Academy of Sciences. The budget for the graduate fellowships has 
oscillated between $5 million and $10 million in recent budget cycles. 
These programs deserve strong and stable funding.
    Last year, Rep. Vernon Ehlers, Chairman of the House Science 
Subcommittee on Environment, Technology and Standards, convened a 
hearing to examine the proposed cuts to EPA's STAR programs. He 
concluded, ``I have not heard a convincing reason today for why the 
STAR program was cut so dramatically. By all accounts, it is a well-
run, competitive, peer reviewed program that produces high quality 
research. These proposed reductions should not be allowed to take 
effect.'' We believe the same is true today. NCSE recommends a minimum 
appropriation of $100 million for the EPA STAR research grants program 
in fiscal year 2006, the same funding level proposed in the President's 
fiscal year 2004 budget request.
    Deep budget cuts to the EPA STAR program have been proposed less 
than two years after the National Academies issued a laudatory report, 
The Measure of STAR, which concludes that the program supports 
excellent science that is directly relevant to the agency's mission. 
According to the report, the STAR program has ``yielded significant new 
findings and knowledge critical for regulatory decision making.'' The 
report says, ``The program has established and maintains a high degree 
of scientific excellence.'' It also concludes, ``The STAR program funds 
important research that is not conducted or funded by other agencies. 
The STAR program has also made commendable efforts to leverage funds 
through establishment of research partnerships with other agencies and 
organizations.''
    The EPA STAR research program compares favorably with programs at 
other science agencies. According to the National Academies report, 
``The STAR program has developed a grant-award process that compares 
favorably with and in some ways exceeds that in place at other agencies 
that have extramural research programs, such as the National Science 
Foundation and the National Institute of Environmental Health 
Sciences.''
    The STAR research grants program expands the scientific expertise 
available to EPA by awarding competitive grants to universities and 
independent institutions, to investigate scientific questions of 
particular relevance to the agency's mission. The National Academies 
report says, ``The STAR program should continue to be an important part 
of EPA's research program.''
    NCSE urges Congress to appropriate at least $10 million for the 
STAR graduate fellowship program in fiscal year 2006. This is the only 
federal program aimed specifically at students pursuing advanced 
degrees in environmental sciences. According to the National Academies 
report, ``The STAR fellowship program is a valuable mechanism for 
enabling a continuing supply of graduate students in environmental 
sciences and engineering to help build a stronger scientific foundation 
for the nation's environmental research and management efforts.'' The 
STAR fellowship program is highly competitive, with only 7 percent of 
applicants being awarded fellowships. This level of funding is 
insufficient to allow all students whose applications are rated as 
excellent to receive fellowships.
    The President's budget request has proposed deep cuts in the STAR 
graduate fellowship program in recent years. The budget request would 
have cut funding for the STAR graduate fellowship program by 50 percent 
in fiscal year 2004 and by 100 percent in fiscal year 2003. Congress 
restored full funding for the EPA STAR graduate fellowship program in 
both years. NCSE encourages Congress to restore full funding for the 
program again in fiscal year 2006.
    The fiscal year 2006 budget request proposes no funding for the EPA 
Office of Environmental Education. NCSE strongly encourages Congress to 
restore full funding of at least $10 million to support the 
congressionally mandated programs administered by this office. These 
programs provide national leadership for environmental education at the 
local, state, national and international levels, encourage careers 
related to the environment, and leverage non-federal investment in 
environmental education and training programs.
                                 ______
                                 
  Prepared Statement of the National Federation of Federal Employees 
                           (NFFE) Local 1957

    I am writing on behalf of the National Federation of Federal 
Employees (NFFE) Local 1957, the bargaining unit for the Minerals 
Information Team (MIT), Geologic Division, U.S. Geological Survey 
(USGS), Reston, VA. We are concerned that the Administration's proposed 
budget for 2006, which includes a $2 million reduction that eliminates 
MIT's core International Information function (collecting, reporting, 
and analyzing data on the foreign supply of minerals needed by the U.S. 
economy), will severely affect the ability of the members of our 
bargaining unit to provide critical information on the nation's mineral 
supply. MIT's mission is to collect, analyze, and disseminate 
information on the domestic and international supply and domestic 
consumption of minerals and materials essential to the U.S. economy and 
its national security. Nonfuel mineral materials processed in the 
United States totaled more than $400 billion in 2004. MIT collects and 
disseminates data on more than 100 mineral materials originating from 
more than 180 countries. The U.S. import dependence for most strategic 
and critical nonfuel minerals exceeds 75 percent, which is greater than 
the country's dependence on foreign oil.
    In 2004, the House Appropriations Committee in its markup 
recognized the contribution of the Minerals Resources Program when it 
wrote that it ``strongly disagrees with the proposed reduction in the 
(U.S. Geological) Survey's mineral resources program. Minerals and 
mineral products are important to the U.S. economy . . .'' Our 
bargaining unit could not agree more with that position and we urge 
Congress to once again retain the international data collection 
function of MIT to enable the NFFE bargaining unit members to maintain 
their capabilities to serve the national interest by providing 
Congressionally mandated information critical to the nation's mineral 
supply.
    MIT was transferred to the U.S. Geological Survey (USGS) in 1996 
under a Joint House-Senate Conference Amendment that provided for the 
minerals information activities, formerly conducted by the U.S. Bureau 
of Mines, to continue within the USGS. The Defense Production Act of 
1950, as amended (1980 & 1992), delegates significant authority to the 
Secretary of the Interior relating to the assurance of an adequate 
supply of mineral materials necessary for the national defense, with 
the specific responsibility for analyses of domestic and foreign 
supplies.
    As the economies of China, India, and other developing countries 
continue to grow, the increasing global demand for mineral resources 
will affect the U.S. economy's ability to have ample affordable mineral 
resources to meet its needs and will require international information 
regarding the production and consumption of minerals. Without data on 
international supply, there would be a critical information gap 
regarding the U.S. mineral supply. Elimination of our international 
function through a 13 percent ($2 million) budget reduction would 
severely limit our ability to fulfill our obligations under the USGS's 
Congressionally mandated mission to supply information on the nation's 
supply of nonfuel minerals.
    Information and analyses produced by the Minerals Information Team 
are widely used and relied upon by our Government and private sector. 
The Minerals Information Team produces more than 500 publications per 
year covering most nonfuel minerals, including the Mineral Commodity 
Summaries for the Congressional Offices. Our web site provides 
approximately 1.4 million publication downloads per year and nearly the 
same number of hits. The U.S. Departments of Commerce, Defense, 
Treasury, and State, as well as the Central Intelligence Agency, the 
Federal Reserve Board, the Overseas Private Investment Corporation, the 
International Trade Commission, and the Office of the U.S. Trade 
Representative have increasingly relied on the USGS-MIT specialists for 
global minerals-related policy analysis, as have domestic agencies, 
including the U.S. Bureau of Land Management, the Minerals Management 
Service, the National Park Service, and the U.S. Forest Service. MIT 
data are cited in Securities and Exchange Commission filings by mining 
companies requiring an authoritative, impartial source for statements 
of world resources, capacities, production and consumption.
    We sincerely appreciate your consideration of this issue that 
affects the interests of both the Nation and the members of NFFE local 
1957.

                             SUMMARY POINTS

  --The proposed Administration budget for 2006 stipulates a $2 million 
        reduction in the MIT budget that eliminates the core 
        International Information function.
  --The Defense Production Act of 1950, as amended (1980 & 1992), 
        delegates significant authority to the Secretary of the 
        Interior relating to the assurance of an adequate supply of 
        mineral materials necessary for the national defense, with the 
        specific responsibility for analyses of domestic and foreign 
        supplies.
  --The U.S. import dependence for most strategic and critical nonfuel 
        minerals exceeds 75 percent, which is greater than the 
        country's dependence on foreign oil.
  --Elimination of the International Information function would limit 
        the bargaining unit's ability to fulfill its mission and would 
        contradict the USGS's Congressionally mandated mission to 
        supply information on the nation's supply of nonfuel minerals.
  --Without data on international supply, there would be a critical 
        information gap regarding the U.S. mineral supply.
  --NFFE local 1957 urges Congress to retain the international data 
        collection function of MIT which would enable our bargaining 
        unit members to maintain their capabilities to serve the 
        national interest by providing Congressionally mandated 
        information on the nation's mineral supply.
   NFFE Local 1957 Briefing on the USGS Minerals Information Team & 
                       Mineral Resources Program

                  USGS MINERALS INFORMATION TEAM (MIT)

    The Administration's proposed $2 million cut to MIT's current 
funding level would eliminate MIT's international data collection 
function and severely compromise the USGS' ability to meet its mission 
as mandated by Congress.
  --MIT's international information function would be eliminated, 
        greatly limiting the MIT bargaining unit's ability to meet its 
        core mission--to collect, report, and analyze data on the 
        supply of minerals critical to the Nation's economic and 
        national defense needs.
  --The USGS, therefore, could not fulfill its Congressional mandate to 
        assure there is an adequate and dependable supply of mineral 
        materials necessary for national defense, as established by The 
        Defense Production Act of 1950, as amended (1980 & 1992).
    Because of the global nature of the minerals industry, mineral 
commodity assessments require international information.
  --The Administration's budget proposal comes at a time of increased 
        globalization and demand for minerals. The economies of China, 
        India, and other developing countries continue to grow, which 
        creates an ever increasing global demand for mineral resources. 
        This will affect the U.S. economy's ability to have ample 
        affordable mineral resources to meet its needs and will require 
        international information regarding the production and 
        consumption of minerals.
  --The U.S. import dependence for most strategic and critical nonfuel 
        minerals exceeds 75 percent, which is greater than the 
        country's dependence for oil. In 2004, MIT found that U.S. 
        companies relied more than 50 percent on imports to meet their 
        needs for 42 of 81 minerals (USGS Mineral Commodity Summaries 
        2005). Of those, the import reliance was 100 percent for 17 
        minerals and at least 80 percent for another 11.
  --Helping assure the country has ample mineral resources to meet its 
        needs simply cannot be done with disregard to international 
        factors that affect the supply and demand of those resources.
    MIT's budget should be permanently set as a separate line item, and 
the budget increased to $20 million.
  --Repeated attempts by the Administration to reduce MIT funding over 
        the last several years raise the question of the group's long-
        term viability under the current budget structure.
      --In 2002, Congress rejected a similar proposed $2 million 
            reduction in MIT's budget.
      --Since then, Congress has continued to reject proposed cuts to 
            MIT funding.
  --Since 1998, MIT's budget of about $16 million has fallen about 5 
        percent, which represents more than a 20 percent decrease when 
        accounting for salary cost of living adjustments and other 
        inflationary costs. Such a severely constrained budget 
        challenges the group's ability to retain its expertise, attract 
        new hires for succession planning, and perform at the highest 
        levels.
  --NFFE urges Congress to increase MIT funding to $20 million, which 
        is equivalent in today's dollars to MIT's funding within USGS 
        in 1998. This represents only about 0.0045 percent of the non-
        defense discretionary budget of $445 billion as estimated by 
        the Congressional Budget Office in January 2004, and would 
        afford MIT the means to better meet its mission. As the 
        nation's only source of comprehensive and unbiased mineral 
        commodity data, MIT should be retained and enhanced.
  --At a minimum, MIT's international function should be retained and, 
        accordingly, MIT's budget should be restored by $2 million so 
        that the MIT bargaining unit can meet its core mission 
        functions.

                    MINERAL RESOURCES PROGRAM (MRP)

    The NFFE is concerned that the proposed budget reduction for the 
MRP overall could adversely impact the MIT collective bargaining unit 
through the Reduction in Force process and elimination of valuable 
information MIT requires in the analyses of global mineral supply. 
Accordingly, we have several points we would like to make regarding MRP 
funding that affect the MIT bargaining unit's ability to carry out its 
mission.
    The proposed $28.7 million reduction in the MRP that assumes 
nonfuel mineral resource assessments are somehow of lesser priority to 
the Nation's economy and security than those of fuel minerals is 
puzzling and diminishes the mission of the MIT bargaining unit.
  --Nonfuel mineral mining and use significantly impacts the U.S. 
        economy. Of the total $21 trillion in sales by U.S. industries 
        in 2004, preliminary USGS estimates show processed mineral 
        materials contributed about $5.2 trillion. The value of U.S. 
        raw nonfuel mineral mine production alone is estimated at about 
        $47 billion.
  --According to the U.S. Department of Commerce, major industries 
        consuming processed mineral materials added more than $1.7 
        trillion to the total U.S. GDP in 2003.
  --Without nonfuel minerals, the Nation's infrastructure (including 
        that of the energy sector) could not be built or maintained, 
        nor its borders and quality of life for its peoples protected.
    The assertion that expertise exists at various universities and 
state geological surveys to continue minerals work that would be 
brought to an end by the proposed budget reduction is optimistic, would 
deprive the MIT bargaining unit of needed expertise, and would not 
include work that is inherently a Federal government function.
  --While it is true that universities and state geological surveys 
        have expertise in minerals deposits, without a firm Federal 
        commitment and participation, these groups and other 
        organizations would not be able to meet the many public and 
        private needs for minerals-related information and expertise.
    --For example, 14 of 27 university mining engineering programs in 
            the United States have closed since 1985, including those 
            at New Mexico Institute of Mining & Technology, University 
            of California-Berkeley, and the University of Idaho. Of the 
            13 remaining, only 3 have more than 8 faculty members. 
            Economic geology programs have a similar pattern though 
            they typically consist of only one faculty member.
    --Recognizing the need for Federal funding of mineral-resource and 
            related research, the National Research Council recommended 
            the USGS fund an external grants program for minerals-
            related research at universities in 1996 and again in 2004. 
            In response to these reports and strong interest from the 
            minerals community, the USGS MRP created an external grants 
            program using internal funds in fiscal year 2004. 
            Ironically, this program would be eliminated by the 
            proposed fiscal year 2006 budget.
  --Of great concern to us is the Country's trend towards losing more 
        of its ability to assess mineral resources and the factors that 
        affect them as evidenced by dwindling university programs, 
        student enrollment, and number of faculty, as well as 
        decreasing Federal funding through the closure of the U.S. 
        Bureau of Mines in 1996 and flat MRP funding levels since then. 
        This would be further compounded by the loss of 240 MRP 
        positions, including 20 in MIT, which would result from the 
        proposed fiscal year 2006 budget cut. Like most of the minerals 
        on which the country relies, the Nation is at risk of becoming 
        import reliant on people with mineral expertise!
    The proposed $28 million reduction in the MRP calling for a focus 
only ``on those needs that are inherently Federal'' would make it 
unduly difficult for MIT to carry out its mission. The MIT and MRP 
missions are ``inherently Federal'' as described on page I-8 of the 
Department of Interior's justification document:

    ``The Federal role in conducting science to understand geologic 
hazards, resources [emphasis added], and processes derives from the 
U.S. Government's responsibilities to protect the lives and property of 
its citizens, to support continued economic growth and competitiveness 
. . .''

  --MRP's core responsibility is to provide unbiased, scientifically 
        sound resource assessments about the availability and quantity 
        of the Nation's mineral resources, including the economic and 
        environmental effects of resource extraction and use. As with 
        energy mineral resources, the United States continues to rely 
        ever increasingly on foreign sources to meet its needs. In 
        trying to focus mineral resources assessments only on domestic 
        sources and then those only on Federal lands would surely 
        constitute an abrogation of Federal responsibility by putting 
        the Nation at great economic and security risk.
  --Further, because the information used in the numerous MIT reports 
        is often proprietary, only the Federal government can fulfill 
        the role of a trusted third party. Companies and many foreign 
        governments would be greatly disinclined to provide proprietary 
        information to non-government entities.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, I am James Moncur, President of the National 
Institutes for Water Resources and Director of the Hawaii Water 
Resources Research Center at the University of Hawaii. My statement 
requests the Subcommittee to provide $8.775 million to the U.S. 
Geological Survey for the state Water Resources Research Institutes 
program.
    First, I want to thank you and this Subcommittee for the strong 
support you have given to this program in past years. You have 
recognized the great value in having federal, state, and local 
government agencies cooperating with a network of universities to 
produce new knowledge about water resources as well as train a new 
generation of talented and educated water professionals.
    I want to acknowledge the leading role you and your colleagues have 
played to ensure that the U.S. Geological Survey continues to provide 
the science needed to manage the nation's natural resources. The water 
institute directors who are represented by NIWR recognize that the 
Survey is the nation's preeminent natural resources science 
organization and that it is faced with growing scientific demands to 
support responsible stewardship of our natural resources.
    The Water Resources Research Institutes program was first 
authorized by the Water Resources Research Act of 1964. In establishing 
and supporting this federal-state-academic partnership, Congress 
recognized the great success of the state water resources research 
institutes in providing sound science and well educated professionals 
to the nation's water management programs, and doing so in a highly 
efficient manner.

                                REQUEST

    The National Institutes for Water Resources respectfully request 
the addition of $8.775 million to the U.S. Geological Survey's fiscal 
year 2006 budget for the state Water Resources Research Institutes 
program. This recommendation is based on the following components:
  --$7 million in grants for the 54 institutes as authorized by Section 
        104(b) of the Water Resources Research Act;
  --$1.5 million to support the national competitive grants program 
        authorized by Section 104(g) of the Act; and
  --$275,000 for program administration at USGS.
    These amounts would provide each institute $125,000 under Section 
104(b), to support state-based competitions for research and graduate 
education at the institutes, located at land-grant universities in each 
state, three territories and in Washington, D.C. For fiscal year 2005, 
this grant was $92,412. It would also provide for an increase from 
about $1 million to $1.5 million for the national competitive grants 
program under Section 104(g). Competition for the 104(g) awards is 
extremely vigorous: in 2004, for example, 45 proposals were submitted 
to the 104(g) program, requesting a total of $6.8 million; only 8 were 
funded.

                             JUSTIFICATION

    Since their creation by Congress in 1964, the state water resources 
research institutes have established a remarkable infrastructure of 
physical and human capital for studying water resource problems. The 
institutes link scientists and scholars from a wide array of 
disciplines, institutions and agencies to focus on the diverse 
characteristics and effects of water and related resources. The network 
composed of these institutes serves an invaluable function in sharing 
knowledge across state lines and addressing problems created by the 
insistence of rivers, aquifers, floods and droughts on ignoring the 
boundaries of our states.
    Unfortunately, few of these problems are anywhere near completely 
and finally ``solved'' and new issues continue to arise. Several areas 
are rapidly approaching or have passed the sustainable limits of 
groundwater withdrawals. Control of non-point source pollutants is a 
vast undertaking, far from complete despite several years of earnest 
effort. Contention over river flows has spread from the dry West to 
some of the relatively wet eastern states. Floods, forest fires, 
homeland security and newly discovered chemical contaminants all remain 
challenging issues. Water will be an increasingly scarce resource of 
the 21st century and is thought by many to be a likely cause of 
regional conflicts and war.
    The importance of these problems varies from region to region. In 
my own home state of Hawaii, for example, rapid population growth and a 
fading sugar-plantation legacy have generated immense changes in water 
use. These changes have forced a thorough re-examination of the 
management of aquifers from which most of our water is drawn and have 
sparked new interest in wastewater reuse, desalination and 
conservation. In other areas of country, pressures on water supplies of 
the Rio Grand Basin, acid rain in New England, water storage in 
Nebraska sand dunes, flooding and drought in several states, and 
regional water planning in the New York City watershed exemplify the 
diversity of problems approached by the institutes. This list 
illustrates the need for a network of research centers to look after 
problems in their own backyards as well as to collaborate with one 
another on problems of regional and national scope.
    Here are some examples of the institutes' work in the past year:
  --The California Institute developed methods of estimating historical 
        populations of salmon, and thus to judge the success of habitat 
        restoration efforts.
  --The New Mexico Institute provided technical assistance to the U.S. 
        Bureau of Reclamation and Sandia National laboratories in a 
        large-scale desalination research facility.
  --The Virginia Institute coordinates a multi-institute, 
        interdisciplinary academic advisory committee for the Virginia 
        Department of Environmental Quality.
  --The New York Institute developed the ``multiple barrier'' approach 
        to manage non-point source pollutants in the New York City 
        Watershed.
  --The Montana Institute, working with the U.S. Fish & Wildlife 
        Service, has formulated strategies to control outbreaks of 
        bacterial coldwater disease in fish hatcheries.
  --The Wisconsin Institute produced a computer program to design and 
        evaluate stormwater bioretention facilities intended to enhance 
        urban groundwater recharge.
  --The Michigan Institute, with the National Park Service, has 
        developed a web site to make monitoring data and other 
        ecological information available to Park Service managers.
    These examples attest to the practicality and applicability of 
research performed by the institutes. To ensure the usefulness of 
supported research, each institute has a technical advisory committee, 
made up of representatives from university faculty, local, state and 
federal agencies and the private sector. These panels identify the most 
pressing water problems facing their states, establish priorities and 
help with local reviews of proposals.
    The National Institutes for Water Resources, in collaboration with 
the USGS, has developed a highly effective and efficient online system 
for collecting data, reporting results, and reviewing competitive 
research proposals. The system accepts early drafts of proposals and 
allows local administrators to choose which to support. It then 
identifies experts from across the country to provide peer reviews, 
which they report online. This system is now serving as a model for 
management of other sponsored research by federal agencies. Planning is 
under way to extend the system's scope in several dimensions.
    Each year the Institute Program produces about 1,000 technical 
publications dealing with water resources. Roughly one-fourth of these 
are in refereed scientific journals. In fiscal year 2004, the 
Institutes conducted more than 160 conferences, seminars and workshops 
with more than 18,000 participants. Thirty-one institutes publish 
newsletters detailing research projects and reporting on water events, 
with total circulation of about 60,000. Nearly every institute 
maintains a website to further enhance dissemination of research 
results.
    Beyond research and service, the Institutes also make an important 
contribution to education and training. In fiscal year 2004, 1,449 
students (511 undergraduates, 596 master's, 297 Ph.D.s and 45 post-
docs) were supported by Institute projects. These projects allowed 
invaluable hands-on application of classroom instruction for students 
from agriculture, engineering, economics, geology, geography and many 
other areas. Often, students have developed theses or dissertations and 
even found post-graduation employment as a direct result of their 
Institute-supported work. Encouragement of education in water-related 
areas is increasingly important as the baby-boom cohort--as important 
to staffing in water resources areas as in other sectors of the 
economy--ages and retires in the next decade.
    As a whole, the federal appropriation has fostered a network of 
truly national scope from a collection of individual researchers in 
universities and water professionals in government and the private 
sector. The Institutes provide the driving force for collaboration 
between disciplines and between university faculty, government and 
private sector personnel. Without federal support, these extensive 
network benefits would wither away.
    This Subcommittee had the foresight to initiate an examination of 
water resources research funded in this country. In June 2004, the 
National Research Council released a report surveying federal 
government investment in water research (Confronting the Nation's Water 
Problems: The Role of Research, National Research Council, 2004). This 
report identified a number of problems, including a lack of research 
coordination between federal agencies, leading to some duplication and 
some gaps. The mission-driven federal agencies, for example, have 
tended to overlook research in institutional, economic and legal areas, 
as compared to the physical and engineering sciences. The report notes 
that ``the Water Resources Research Institute system . . . provides an 
existing, well-organized mechanism for articulating state-based 
research needs and for bringing together water managers, stakeholders 
across a wide cross section of the public, and researchers and academic 
institutions throughout each state.'' The NRC suggests expanded roles 
for the Institutes in collecting information on research priorities 
from local and state agencies, for consideration by federal policy 
makers, and in disseminating results of federal research. These 
activities arise directly from existing functions of the Institutes. In 
response, the Institutes are preparing a strategic plan expanding on 
these suggestions, including a pilot study of research priorities.
    Last year the USGS Director appointed a panel to undertake the 
five-year evaluation of the Institutes Program in accordance with the 
Section 104(e) of Water Resources Research Act, Among its conclusions, 
the panel found that--
  --the Institute Program, with its federal-state matching requirement, 
        is an important and significant part of the nation's water 
        resources research infrastructure.
  --the program garners significant funding leverage for the modest 
        federal appropriation that supports it.
  --the program also does well in attracting young scientists to the 
        water resources fields.
  --the program also embodies an effective information clearing house 
        and fosters significant opportunities for multidisciplinary 
        research on all aspects pf water resources research and water 
        management.
    Federal funds invested in the Institutes Program have a remarkably 
high payoff. Each dollar of the 104(b) grant ($92,412 per institute in 
fiscal year 2005) requires $2 matching funds from other sources. The 
grants directly supported 227 projects nationwide, and led the way to 
an additional 931 projects funded from other sources. Altogether, the 
Institutes generated an additional $16.30 in other funding for each 
dollar provided by the federal appropriation. Of this, $8.40 came from 
other federal sources and $7.90 from local and state governments, 
universities, private firms, foundations and other non-federal sources. 
It is crucial to realize that much of this extra $16 could not have 
been generated without the leverage provided by the Congressional 
appropriation. In the process, the grants serve as a catalyst for 
universities to invest in and maintain capacities to galvanize faculty, 
laboratories and equipment and to stimulate student interest in water 
resource issues.
    The 1960s appropriations provided $100,000 per year to each 
institute--about $600,000 in today's dollars. By fiscal year 2005, this 
had declined to $92,412 per institute. Research needs for this money 
have not, unfortunately, diminished apace.
    The U.S. Geological Survey Water Resources Research Institutes 
program generates a high return to the people of the United States by 
applying sound scientific methods in support of sound water policy and 
management. The National Institutes for Water Resources urges this 
Subcommittee to provide $8.775 million for fiscal year 2006.
    Finally, the National Institutes for Water Resources is a member of 
the USGS Coalition. NIWR strongly concurs in the Coalition's 
recommendation that Congress increase the budget of the U.S. Geological 
Survey to $1 billion in fiscal year 2006, an increase of 7.1 percent 
above the fiscal year 2005 enacted level. The increase, which is 
necessary for the Survey to continue providing critical information to 
decision makers at all levels of government, would enable the USGS to 
restore the science cuts proposed in the budget request, provide full 
funding for ``uncontrollable'' costs, and undertake a few exciting new 
science initiatives that would begin to reverse the cumulative effects 
of the long-term funding short fall.
    Thank you very much for the opportunity to present these views.
                                 ______
                                 
     Prepared Statement of the Public Service Company of New Mexico

    I am requesting your support and assistance in insuring continued 
funding for the Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program. These 
ongoing cooperative programs have the dual objectives of recovering 
four species of endangered fish while water use continues and water 
development proceeds in compliance with the Endangered Species Act of 
1973, state law, and interstate compacts. Partners in the two programs 
are the States of New Mexico, Colorado, Utah, and Wyoming, Indian 
tribes, federal agencies and water, power, and environmental interests. 
I respectfully request support and action by the Subcommittee that will 
provide the following:
    1. An increase of $691,000 in the fiscal year 2006 Recovery Element 
budget (Resource Management Appropriation; Ecological Services 
Activity, Endangered Species Subactivity; Recovery Element) allocated 
to ``Colorado River fish recovery project'' to allow U.S. Fish and 
Wildlife Service (FWS) Region 6 to meet its funding commitment to the 
Upper Colorado River Endangered Fish Recovery Program. This is the 
level of funding appropriated in fiscal years 2003, 2004, and 2005 for 
this program. These funds are needed for FWS direct participation in 
managing and implementing the Upper Colorado Program's actions, 
monitoring achievement of recovery goals, managing data associated with 
fish population abundance and sampling, evaluating stocking, and 
monitoring fish and habitat response to recovery actions.
    2. The appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2006.
    3. An increase of $211,000 in the ``Resource Management 
Appropriation; Ecological Services Activity; Endangered Species 
Subactivity; Recovery Element'' budget allocated to the ``San Juan 
River Recovery Implementation Program''. These funds are needed to 
support the FWS Recovery Program Coordinator and staff who are 
responsible for program management and support of all Recovery Program 
activities.
    The enactment of Public Law 106-392, as amended by Public Law 107-
375, authorized the Federal Government to provide up to $46 million of 
cost sharing for these two ongoing recovery programs' remaining capital 
construction projects. Raising and stocking of the endangered fish 
produced at program hatchery facilities, restoring flood plain habitat 
and fish passage, regulating and supplying instream habitat flows, 
installing diversion canal screens and controlling nonnative fish 
populations are key components of the programs' ongoing capital 
construction projects. Subsection 3(c) of Public Law 106-392 authorizes 
the Secretary of the Interior to accept up to $17 million of 
contributed funds from Colorado, Wyoming, Utah and New Mexico, and to 
expend such contributed funds as if appropriated for these projects; 
and provides for an additional $17 million to be contributed from 
revenues derived from the sale of Colorado River Storage Project (CRSP) 
hydroelectric power. This substantial non-federal cost-sharing funding 
demonstrates the strong commitment and effective partnerships embodied 
in both of these successful programs. The requested federal 
appropriations are critically important to these efforts moving 
forward.
    The support of your Subcommittee in past years is greatly 
appreciated--and has been a major factor in the success of these multi-
state, multi-agency programs as they have progressed forward towards 
delisting the endangered fish species in the Upper Colorado and San 
Juan River Basins while necessary water use and development activities 
are occurring. I request the Subcommittee's assistance to ensure that 
the FWS is provided with adequate funding for these vitally important 
programs.
                                 ______
                                 
     Prepared Statement of the American Society of Civil Engineers

                  THE ENVIRONMENTAL PROTECTION AGENCY

    The American Society of Civil Engineers (ASCE) \1\ requests an 
annual appropriation of $1.5 billion from the federal general fund for 
the Clean Water State Revolving Loan Fund (SRF) program and $1 billion 
for the Safe Drinking Water SRF. The nation's wastewater treatment 
infrastructure and drinking water systems received a grade of D--from 
ASCE on our 2005 Report Card for America's Infrastructure released on 
March 9, 2005.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents 137,000 civil engineers 
in private practice, government, industry and academia who are 
dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a non-profit educational and professional society 
organized under Part 1.501(c)(3) of the Internal Revenue Code.
---------------------------------------------------------------------------
    The Federal Government has directly invested more than $72 billion 
in the construction of publicly owned sewage treatment works (POTWs) 
and their related facilities since passage of the Clean Water Act in 
1972. Nevertheless, the physical condition of many of the nation's 
16,000 wastewater treatment systems is poor due to a lack of investment 
in plant, equipment, and other capital improvements over the years.
    Numerous wastewater systems have reached the end of their useful 
design life. Older systems are plagued by chronic overflows during 
major rain storms and heavy snowmelt and, intentionally or not, are 
bringing about the discharge of raw sewage into U.S. surface waters. 
The U.S. Environmental Protection Agency (EPA) estimated in August 2004 
that the volume of combined sewer overflows (CSOs) discharged 
nationwide is 850 billion gallons a year. Sanitary sewer overflows 
(SSOs), caused by blocked or broken pipes, trigger the release of as 
much as 10 billion gallons of raw sewage yearly, according to the EPA.
    Federal funding under the Clean Water Act State Revolving Loan Fund 
(SRF) program has remained flat for the last decade. With one 
exception, Congress appropriated between $1.2 billion and $1.35 billion 
from 1995 to 2004.\2\ But in fiscal year 2005 Congress cut wastewater 
SRF funding for the first time in 8 years, reducing the total 
investment to $1.1 billion. The Bush administration has proposed 
further cuts for fiscal year 2006, with a budget submittal calling for 
an appropriation of only $730 million, a reduction of 33 percent from 
the fiscal year 2005 enacted level.
---------------------------------------------------------------------------
    \2\ The appropriation for state SRF programs was reduced to $625 
million in fiscal year 1997.
---------------------------------------------------------------------------
    Federal assistance has not kept pace with the needs. Yet virtually 
every authority agrees that funding needs remain very high: the United 
States must invest an additional $181 billion for all types of sewage 
treatment projects eligible for funding under the Act, according to the 
most recent Needs Survey estimate by the EPA and the states, completed 
in August 2003.
    In September 2002, EPA released a detailed Gap Analysis, which 
assessed the difference between current spending for wastewater 
infrastructure and total funding needs. The EPA Gap Analysis estimated 
that, over the next two decades, the United States needs to spend 
nearly $390 billion to replace existing wastewater infrastructure 
systems and to build new ones. (The total includes money for some 
projects not currently eligible for federal funds, such as system 
replacement, which are not reflected in the EPA-state Needs Survey).
    According to the Gap Analysis, if there is no increase in 
investment, there will be about a $6 billion gap between current annual 
capital expenditures for wastewater treatment ($13 billion annually) 
and projected spending needs. The study also estimated that, if 
wastewater spending increases by only 3 percent a year, the gap would 
shrink by nearly 90 percent (to about $1 billion annually).
    The Congressional Budget Office (CBO) released its own gap analysis 
in 2002 in which it determined that the gap for wastewater ranges, 
depending on various financial and accounting variables, from $23 
billion to $37 billion annually.\3\
---------------------------------------------------------------------------
    \3\ None of the estimates cited includes the costs of operation and 
maintenance (O&M), costs that are borne entirely by the local utilities 
and are not eligible for federal funding. The 2002 Gap Analysis, for 
example, put the total O&M costs at $161 billion for the 20-year study 
period.
---------------------------------------------------------------------------
  --We support annual appropriations of $1.5 billion from the federal 
        general fund for the Clean Water State Revolving Loan Fund 
        (SRF) program.
  --In addition, we support the establishment of a federal capital 
        budget to create a mechanism to help reduce the constant 
        conflict between short-term and long-term needs. The current 
        federal budget process does not differentiate between 
        expenditures for current consumption and long-term investment. 
        This causes major inefficiencies in the planning, design and 
        construction process for long-term investments. A capital 
        budget system would help increase public awareness of the 
        problems and needs facing this country's physical 
        infrastructure and help Congress focus on programs devoted to 
        long-term growth and productivity.
    In addition, the nation's 54,000 drinking water systems face 
staggering public investment needs over the next 20 years. Although 
America spends billions on infrastructure each year, drinking water 
faces an annual shortfall of at least $11 billion to replace aging 
facilities that are near the end of their useful life and to comply 
with existing and future federal water regulations. The shortfall does 
not account for any growth in the demand for drinking water over the 
next 20 years.
    In 2001, the EPA released a national survey of drinking water 
infrastructure needs. The survey results concluded that approximately 
$151 billion would be needed over 20 years to repair, replace, and 
upgrade the nation's 55,000 community drinking water systems to protect 
public health.
    A year later, the agency published The Clean Water and Drinking 
Water Infrastructure Gap Analysis, which identified potential funding 
gaps between projected needs and spending from 2000 through 2019. This 
analysis estimated a potential 20-year funding gap for drinking water 
capital, and operations and maintenance, ranging from $45 billion to 
$263 billion, depending on spending levels. Capital needs alone were 
pegged at $161 billion, a $10 billion increase from the 2001 
estimate.\4\
---------------------------------------------------------------------------
    \4\ Operation and maintenance (O&M) costs are paid for by the local 
water utilities, not the federal government.
---------------------------------------------------------------------------
    The CBO concluded in 2003 that ``current funding from all levels of 
government and current revenues generated from ratepayers will not be 
sufficient to meet the nation's future demand for water 
infrastructure.'' The CBO estimated the nation's needs for drinking 
water investments at between $10 billion and $20 billion over the next 
20 years.\5\
---------------------------------------------------------------------------
    \5\ The CBO approximation does not include the $178 billion to $331 
billion in anticipated pipe replacement costs over the same 20-year 
period.
---------------------------------------------------------------------------
    Federal assistance has not kept pace with demand. Since fiscal year 
1997, Congress has appropriated only between $700 million and $850 
million annually for the Safe Drinking Water Act State Revolving Loan 
Fund (SRF) program, enacted in 1987. The enacted funding level for 
fiscal year 2005 was $850 million, less than 10 percent of the total 
national requirements. The Bush Administration has proposed an 
appropriation of $850 million for fiscal year 2006.
  --ASCE supports a minimum annual appropriation of $1 billion from the 
        federal general fund for the Safe Drinking Water State 
        Revolving Loan Fund (SRF) program.
  --ASCE supports the establishment of a federal capital budget to 
        create a mechanism to help reduce the constant conflict between 
        short-term and long-term needs. The current federal budget 
        process does not differentiate between expenditures for current 
        consumption and long-term investment. This causes major 
        inefficiencies in the planning, design and construction process 
        for long-term investments.

                  THE UNITED STATES GEOLOGICAL SURVEY

    ASCE requests that Congress increase the fiscal year 2006 budget of 
the U.S. Geological Survey to $1 billion, a slight increase from the 
$933 million proposed by the president.
    The USGS plays a critical role in protecting the public from 
natural hazards such as floods and earthquakes, in assessing water 
quality, in providing emergency responders with geospatial data to 
improve homeland security, in analyzing the strategic and economic 
implications of mineral supply and demand, and in providing the science 
needed to manage our natural resources and combat invasive species that 
can threaten agriculture and public health. The USGS is working in 
every state and has nearly 400 offices across the country. To aid in 
its interdisciplinary investigations, the USGS works with more than 
2,000 federal, state, local, tribal and private organizations.
    During the past 10 years, total federal spending for non-defense 
research and development has risen by 64 percent from $45 billion to 
$74 billion in constant dollars. By contrast, funding for the USGS has 
been nearly flat. Even this flat funding for the USGS reflects 
congressional restoration of proposed budget cuts.
    The USGS plays a lead role in reducing the impacts of natural 
hazards. It operates seismic networks and conducts seismic hazard 
analyses that are used to formulate earthquake probabilities and to 
establish building codes across the nation. The USGS monitors volcanoes 
and provides warnings about impending eruptions. It operates a stream 
gage system that enables the National Weather Service to issue flood 
warnings.
    The USGS also plays a vital role in bioinformatics and managing 
natural resources that are essential to our economy, security, and 
environment. The USGS provides knowledge and data that support water, 
energy and mineral resource management as well as wildlife and 
ecosystem management. The USGS provides science needed to combat 
invasive species and wildlife diseases that can cause billions of 
dollars in agricultural losses and threaten public health.
    ASCE recommends that Congress increase the budget of the U.S. 
Geological Survey to $1 billion in fiscal year 2006, an increase of 7.1 
percent above the fiscal year 2005 enacted level. The increase would 
enable the USGS to restore the science cuts proposed in the budget 
request, accelerate the timetable for deployment of critical projects 
(e.g., Advanced National Seismic System and the National Map), and 
launch new science initiatives that would begin to reverse the 
cumulative effects of the long-term funding shortfall.
    The fiscal year 2006 budget request would cut funding for the USGS 
by $1.9 million or 0.2 percent to $933.5 million. The budget request 
would offset $36.7 million of cuts in existing program activities with 
$33.4 million in new and expanded program funding.
    In October 2004, the president signed Public Law 108-360, which 
reauthorized the National Earthquake Hazards Reduction Program (NEHRP) 
for 5 years. As the representatives of the profession most responsible 
for mitigating the effects of earthquakes, ASCE knows the benefits this 
program holds for the nation. For the past 25 years NEHRP has provided 
the resources and leadership that have led to significant advances in 
understanding the risk earthquakes pose and the best ways to counter 
them. The reauthorization represents an opportunity to make greater 
improvements in the nation's efforts to mitigate the effects of 
earthquakes. ASCE acknowledges the President's request of $51.3 million 
for NEHRP functions at USGS, an increase of $4.4 million. To realize 
the potential, however, in lives saved and property damage minimized, 
more in needed.
    ASCE requests that funding at the authorized level of $84.4 million 
be appropriated for the NEHRP functions at the USGS.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1 billion in fiscal year 2006.
    The USGS plays a crucial role in protecting the public from natural 
hazards such as floods and earthquakes, assessing water quality, 
providing emergency responders with geospatial data to improve homeland 
security, analyzing the strategic and economic implications of mineral 
supply and demand, and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in every state and 
has nearly 400 offices across the country. To aid in its 
interdisciplinary investigations, the USGS works with over 2,000 
federal, state, local, tribal, and private organizations.
    The USGS Coalition is an alliance of nearly 70 organizations united 
by a commitment to the continued vitality of the unique combination of 
biological, geographical, geological, and hydrological programs of the 
United States Geological Survey. The USGS Coalition supports increased 
federal investment in USGS programs that underpin responsible natural 
resource stewardship, improve resilience to natural and human-induced 
hazards, and contribute to the long-term health, security and 
prosperity of the nation.

                           FUNDING SHORTFALL

    During the past 10 years, total federal spending for non-defense 
research and development has risen by 64 percent from $45 billion to 
$74 billion in constant dollars. By contrast, funding for the USGS has 
been nearly flat, as shown in the accompanying chart (Figure 1). Even 
this flat funding for the USGS reflects congressional restoration of 
proposed budget cuts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The need for USGS science in support of decisionmaking has never 
been greater. During the past year, natural hazards have adversely 
affected many communities across the country, including landslides in 
California, hurricanes in Florida, as well as droughts, floods, and 
forest fires in many parts of the country. In addition, the recent 
activity at Mount St. Helens volcano deserves close monitoring for any 
potential danger its continued eruption may pose to communities, air 
quality and air traffic. After the devastating earthquake and tsunami 
in the Indian Ocean, people around the globe have a greater 
appreciation of the need to improve environmental monitoring, 
forecasting, and warning systems that can prevent natural hazards from 
becoming natural disasters.
    The USGS plays a lead role in reducing the impacts of natural 
hazards. It operates seismic networks and conducts seismic hazard 
analyses that are used to formulate earthquake probabilities and to 
establish building codes across the nation. The USGS monitors volcanoes 
and provides warnings about impending eruptions. It operates a stream 
gage system that enables the National Weather Service to issue flood 
warnings.
    Equally as important as natural hazards, the USGS plays a vital 
role in bioinformatics and managing natural resources that are 
essential to our economy, security, and environment. The USGS provides 
knowledge and data that support water, energy and mineral resource 
management as well as wildlife and ecosystem management. The USGS 
provides science needed to combat invasive species (e.g., snakehead 
fish, zebra mussels and tamarisk) and wildlife diseases (e.g., Chronic 
Wasting Disease) that can cause billions of dollars in agricultural 
losses and threaten public health.
    Greater investment in the USGS is required to meet the tremendous 
needs of the future. That investment should be used to strengthen USGS 
partnerships, improve monitoring networks, produce high-quality digital 
geospatial data and deliver the best possible science to address 
societal problems and inform decisionmakers.
    The USGS Coalition is grateful to Congress for its leadership in 
restoring past budget cuts and strengthening the U.S. Geological 
Survey. The House Appropriations Committee has expressed the importance 
of funding USGS science programs in the base budget. Likewise, the 
Senate Appropriations Committee report accompanying last year's 
spending bill says, ``The strength of the Survey's existing efforts in 
many program areas is deserving of additional support. The Committee 
urges that future budget requests place a stronger emphasis on the 
Survey's core programs, which have proven value and strong public 
support.''

                          USGS BUDGET REQUEST

    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1 billion in fiscal year 2006, an increase 
of 7.1 percent above the fiscal year 2005 enacted level, which is 
necessary for the agency to continue providing critical information to 
the public and to decisionmakers at all levels of government. The 
increase recommended by the USGS Coalition would enable the USGS to 
restore the science cuts proposed in the budget request, accelerate the 
timetable for deployment of critical projects (e.g., Advanced National 
Seismic System and the National Map), and launch new science 
initiatives that would begin to reverse the cumulative effects of the 
long-term funding short fall discussed above (Figure 1).
    The fiscal year 2006 budget request would cut funding for the USGS 
by $1.9 million or 0.2 percent to $933.5 million. The budget request 
would offset $36.7 million of cuts in existing program activities with 
$33.4 million in new and expanded program funding. Two large program 
cuts are of special concern to the USGS Coalition. The budget request 
would cut $28.7 million from the Mineral Resources program, a 53 
percent decrease in funding that would decimate the program. The USGS 
budget request would also eliminate the entire $6.4 million budget for 
the Water Resources Research Institutes, which are located in all 50 
states.
    The USGS Mineral Resources program is an essential source of 
objective guidance and unbiased research on our mineral resources. This 
guidance and research is important to reduce the environmental impacts 
of mining and to maintain the growing value of processed materials from 
mineral resources that accounted for $418 billion in the U.S. economy 
in 2004, an increase of 13 percent over 2003. The proposed cuts in the 
Minerals program would also terminate multidisciplinary research that 
has important implications for public health and environmental 
protection, such as studies on mercury, arsenic and other inorganic 
toxins.
    The Water Resources Research Institutes have been successful in 
developing cooperative programs that leverage federal investments with 
funds from other sources. Last year, the House Appropriations 
Subcommittee on Interior and Related Agencies said, ``The 
Administration has placed a high priority on cooperative programs that 
leverage funds from State and local governments as well as private 
entities. The Committee believes that Bureaus that are successful in 
implementing these policies should be rewarded and not penalized.''
    The proposed budget cuts would adversely affect the ability of the 
USGS to achieve its mission. We encourage Congress to restore these 
cuts, but this funding should not come at the expense of other high 
priority programs elsewhere in the USGS budget.
    The USGS budget request would add $33.4 million in new and expanded 
program funding, including $5.4 million for facilities and operations 
to provide more robust detection and notification of earthquakes that 
could generate a dangerous tsunami. The USGS effort will be conducted 
in conjunction with NOAA's effort to enhance and expand the tsunami 
warning system to detect any tsunami that might strike anywhere along 
the U.S. coastal region. The budget request would also provide an 
increase of $19.5 million for land remote sensing activities that 
support a broad array of economic, agricultural and environmental 
issues. This funding would allow the USGS to continue operation of the 
damaged Landsat 7 satellite and work with NASA and NOAA to begin 
building a ground-based system for a Landsat follow-on mission. The 
USGS budget request would provide small increases to improve volcanic 
monitoring, expand water availability pilot studies to assess ground-
water depletion in the western United States, strengthen ecosystem 
studies in Puget Sound, and address a wide range of other issues. These 
initiatives deserve the support of Congress.
    The USGS budget request contains $17.2 million to provide full 
funding for increases in ``fixed costs,'' such as salaries and rent. In 
past years, increases in fixed costs were partially ``absorbed'' by 
individual programs. Cumulatively, this practice has had a 
disproportionate impact on core USGS programs in biology, geology, 
hydrology, and mapping, which cannot absorb cuts without affecting 
scientific research and monitoring activities. Without full funding of 
fixed cost increases, the USGS may be forced to curtail ongoing 
activities, hindering or preventing the delivery of data needed by 
natural resource managers and emergency planners. This would increase 
our vulnerability to natural disasters and increase the costs of 
recovery.
    In addition to restoring the proposed program cuts, we encourage 
Congress to consider additional increases that would enable the USGS to 
meet the tremendous need for science in support of public policy 
decisionmaking. More investment is needed to strengthen USGS 
partnerships, improve monitoring networks, produce high-quality digital 
geospatial data and deliver the best possible science to address 
societally important problems. The USGS has a national mission that 
encompasses the homes of all citizens through natural hazards 
monitoring, drinking water studies, biological and geological resource 
assessments, and other activities.
    Thank you for your thoughtful consideration of our request.
                                 ______
                                 

                           CULTURAL AGENCIES

              Prepared Statement of Americans for the Arts

    Americans for the Arts is pleased to submit written testimony 
requesting that fiscal year 2006 funding for the National Endowment for 
the Arts (NEA) be restored to $170 million, and that funds not be 
diverted from its Challenge America program. The requested funding 
would:
  --restore the NEA's ability to perform its core mission of supporting 
        the creation, preservation and presentation of the arts in 
        America;
  --strengthen the Challenge America program, which uses the arts to 
        enhance America's communities through improved access to the 
        arts for all Americans;
  --expand special programs and initiatives; and
  --cover increased administrative and grantmaking costs.
    We would like to focus on four main areas: the role of local arts 
agencies; government funding for the arts at the federal, state and 
local levels; the Challenge America program; and a new updated report, 
Creative Industries, which documents the reach of the arts industry 
across the entire nation.
    Local arts agencies are Americans for the Arts' key constituency, 
and advancing full and affordable access to the arts remains at the 
heart of our mission. Local arts agencies meet community needs by using 
the arts to address social, educational, and economic development 
issues as well as to promote individual creativity and appreciation. 
They make grants, provide services to artists and arts organizations, 
and present arts programming to the public. Typically, local arts 
agencies lead community cultural planning--a community-inclusive 
process of assessing local cultural needs and mapping a plan of 
implementation. NEA leadership has played a pivotal role in creating 
and sustaining local arts agencies, which have grown in number from 500 
in 1965, when the NEA was established, to 4,000 today. Three-quarters 
of all existing local arts agencies are private non-profit 
organizations, while the remainder are public agencies.
    As grantees of the NEA, local arts agencies are stewards of federal 
funds, which are instrumental in leveraging local government funds and 
private resources. They are vital to thousands of local arts projects 
that nurture the artistic excellence of local artists while creating 
jobs and fostering critical local, state and federal tax revenue. 
Federal funds are more important than ever: although local arts agency 
budgets saw steady growth for nearly a decade, changing economic 
conditions recently sparked declines in funding for these agencies. 
Unfortunately, however, the NEA has not recovered from the cuts of mid-
1990's, when it lost 40 percent of its budget. The full picture of 
federal, state and local funding is illustrated in the following chart:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               LOCAL ARTS AGENCIES AND CHALLENGE AMERICA

    NEA is making a determined effort to bring the arts to all 
Americans through the Challenge America program. The program's broad-
based goals are to connect families and communities more closely to the 
arts, to provide access to the arts in underserved areas, and to reach 
communities not previously served by the NEA.
    Since its initial funding, Challenge America has reached hundreds 
of rural communities and inner-city neighborhoods with limited arts 
resources. Using these grants, LAA's have partnered with other 
organizations to tackle projects from developing economic cultural 
tourism plans and restoring historic structures to addressing 
educational needs. Thus, these grants help build local, sustainable 
arts infrastructure. In large part through Challenge America, NEA 
directly funded projects in 99 percent of all Congressional districts 
in fiscal year 2004, up from 75 percent previously.
    Examples of recent Challenge America grants include:
Arts and Culture Commission of Contra Costa County, Martinez, CA
    To support developing and maintaining various communications tools 
that promote the arts and to enhance outreach to underserved 
communities in the county.

City of Delta, Delta, CO
    To support the Council Tree Pow Wow & Cultural Festival, presenting 
American Indian dancing, singing, drumming, and visual arts by local 
artisans. This is a joint project of the three Ute tribes, who had not 
worked together on any project since leaving their historic Delta 
homeland over 100 years ago.

Billings Cultural Partners, Billings, MT
    To support the creation and implementation of Westfest, positioning 
Billings as a cultural destination that will couple cultural events and 
attractions with services. Nineteen organizations are participating in 
this collaborative effort, including Yellowstone County, the Downtown 
Billings Association, and the city's arts and cultural institutions.

Salt Lake Arts Council Foundation, Salt Lake City, UT
    To support Living Traditions: A Celebration of Salt Lake's Folk and 
Ethnic Arts. The three-day festival is expected to have an audience of 
up to 40,000.
    Unfortunately, the President's budget request for NEA is for level 
funding. Furthermore, it would cut Challenge America by about $6 
million, while expanding the new American Masterpieces initiative. We 
appeal to the Subcommittee to preserve existing programs of proven 
effectiveness before expanding new initiatives.

   CREATIVE INDUSTRIES AND JOBS ARE IN EVERY STATE AND CONGRESSIONAL 
                                DISTRICT

    Finally, we wish to bring to the Subcommittee's attention a new 
report conducted by Americans for the Arts, ``Creative Industries'', 
which provides a new, research-based approach to understanding the 
scope of the arts, and demonstrates the need to cultivate our nation's 
innovative workforce.
    The creative industries are composed of businesses that are 
involved with the creation and distribution of the arts, ranging from 
nonprofit museums, symphonies, and theaters to for-profit film, 
architecture, and advertising companies. When the non-profit and for-
profit sectors are studied together, a clear picture emerges of the 
contributions of the creative industries to local economies. Indeed, 
they form a bridge to all corners of the new ``information economy'', 
the fastest growing sector of the U.S. economy.
    Based on data provided by Dun & Bradstreet, the report shows that 
as of 2005, there are 578,487 arts businesses in the United States, 
employing 2,965,893 people. These figures represent 4.4 percent of all 
businesses and 2.2 percent of U.S. employment.
    Using sophisticated mapping technology, the report reveals the 
extraordinary presence of the creative industries, showing that they 
are a significant portion of every congressional district's economic 
output.
    By way of illustration, in the states just of Members of this 
Subcommittee alone, there are 155,778 businesses and 768,157 jobs in 
the Creative Industries. Here are the details:

------------------------------------------------------------------------
                                                 Employees    Businesses
------------------------------------------------------------------------
Alaska........................................        5,368        1,368
California....................................      493,650       92,341
Colorado......................................       55,077       13,051
Idaho.........................................       10,583        2,867
Maryland......................................       46,536       10,742
Mississippi...................................       11,708        2,778
Montana.......................................        8,752        2,170
Nevada........................................       20,594        4,609
New Hampshire.................................       10,599        3,166
New Mexico....................................       15,175        4,129
North Dakota..................................        5,430        1,085
Utah..........................................       23,290        5,045
Vermont.......................................        8,679        1,849
West Virginia.................................        8,432        1,682
Wisconsin.....................................       44,284        8,896
------------------------------------------------------------------------

    Public funding for the arts and for arts education helps to create 
and sustain an environment in which these businesses flourish.

                               CONCLUSION

    Local arts agencies are key players in improving community life, 
from offering in-school and after-school educational programs for 
children to working with local law enforcement to reduce crime. 
Similarly, local arts agencies are strengthening our communities' 
economies every day by increasing tourism, urban renewal, and 
attracting new businesses, all while contributing vital dollars in 
local, state and federal tax revenue. We urge this subcommittee to make 
a commitment to supporting education and community building projects 
through local arts agencies by restoring funding for the National 
Endowment for the Arts to $170 million, and by ensuring that funding is 
not diverted from Challenge America.
                                 ______
                                 
      Prepared Statement of the American Symphony Orchestra League

    On behalf of America's orchestras, the American Symphony Orchestra 
League urges the subcommittee to approve fiscal year 2006 funding for 
the National Endowment for the Arts (NEA) at a level of $170 million. 
The NEA is still recovering from deep cuts to its budget in the mid-
nineties. The current level of funding for the NEA, $121.3 million, is 
well below its peak funding of $176 million in 1992. An increased 
appropriation would expand the NEA's ability to serve the American 
public through: grants supporting and promoting the creation, 
preservation, and presentation of the arts in America; support for the 
Challenge America initiative to improve access to the arts for all 
Americans; and funding of the national initiative, American 
Masterpieces: Three Centuries of Artistic Genius.
    The American Symphony Orchestra League is the national service 
organization for more than 900 symphony, chamber, youth, and collegiate 
orchestras, with budgets ranging from less than $25,000 to more than 
$25 million. Together with the NEA, we share a common goal of 
strengthening orchestras as organizations and promoting the value of 
the music they perform.
    The resolve of American orchestras to reach all segments of their 
communities is strong. Composer residencies at orchestras are on the 
rise. The number of education staffers at American orchestras has grown 
at least tenfold in the last 25 years. Orchestras are working to 
increase the representation of their diverse communities both on stage 
and in the audience.
    All of these efforts come at a cost that cannot be covered by 
ticket sales alone. The grants awarded to orchestras by the NEA, and 
support provided to orchestras through NEA funds administered by state 
arts agencies, provide critical support for projects that increase 
access to music in communities nationwide. NEA funding both directly 
supports local projects and also spurs critical giving from other 
sources like private foundations, corporations, and individual 
contributors. Given the current economic strain on all funding sources, 
the NEA's commitment is especially meaningful.
    A few quick facts about the state of American orchestras:
  --Supported by a network of musicians, volunteers, administrators, 
        and community leaders, America's adult, youth, and college 
        orchestras total more than 1,800 and exist in every state and 
        territory, in cities and rural areas alike. They engage more 
        than 76,000 instrumentalists, employ (with and without pay) 
        more than 11,000 administrative staff, and attract more than 
        250,000 volunteers and trustees.
  --American orchestras have never been in greater demand. In the 
        course of a season, orchestras perform nearly 30,000 concerts 
        to total audiences nearing 30 million. Current attendance at 
        concerts is higher than a decade ago.
  --Orchestras are amazingly resilient, though their economic structure 
        is delicately balanced. They are strongly supported by their 
        communities and musicians. During the last recessionary period, 
        eight orchestras ceased operations. Today, in each of those 
        eight communities, a new or restructured orchestra of 
        comparable scale has emerged.

NEA GRANTS SUPPORT THE CREATION, PRESENTATION, AND PRESERVATION OF THE 
                                  ARTS

    The NEA is a critical component in the network of public, private, 
corporate, and philanthropic support that makes the work of America's 
orchestras possible. Orchestras and the communities they serve benefit 
from NEA support through direct grants to organizations, support for 
national initiatives, and distribution of NEA funds through state arts 
agencies. In the most recently completed grant year, fiscal year 2004, 
the NEA's Grants to Organizations included 97 grants to orchestras and 
the communities they serve, supporting arts education for children and 
adults, expanding public access to performances, preserving great 
classical works, and fostering the creative endeavors of contemporary 
classical musicians, composers, and conductors.
  --An NEA Leadership Initiative award to Meet The Composer supports 
        the Music Alive residency program, which connects composers 
        with a wide range of orchestras and local communities, and 
        draws on the creative strengths of composers as artistic 
        collaborators, teachers, and new-music advocates. Composers 
        guide their host orchestras' presentation of new music and 
        assist in the performance of their own works, and the community 
        in education and outreach activities. NEA support provides 
        direct resources for the Music Alive program, serves as a 
        catalyst for further funding, and elevates the visibility of 
        the program as a potential national model.
  --A grant to the Canton Symphony Orchestra supports their Community 
        Heritage Celebration, in honor of Canton's Bicentennial. A new 
        work by composer Eric Gould, based on the history and diversity 
        of the city's neighborhoods, will be created with the 
        involvement of school students and other community members and 
        presented to the public free of charge. The performance, 
        scheduled for April 30, features students from Canton City 
        Middle Schools.
  --NEA funding for the Fairbanks Symphony supported a tour of 35-40 
        core members of the orchestra. The tour brought orchestral 
        music to underserved areas of Alaska, including Salcha, 
        Glennallen, Valdez, Ft. Greeley Army Base and Eielson Air Force 
        Base. The orchestra collaborated with local arts organizations, 
        military base command, and area schools to present workshops 
        and performances at elementary schools and in community 
        concerts.
    For each project funded by the NEA, there are many other worthy 
initiatives that go unrecognized by federal support due to lack of 
adequate funding. We ask you to expand the NEA's ability to perform its 
core mission through an increase to support and promote the creation, 
preservation, and presentation of the arts in America.

              CHALLENGE AMERICA: REACHING EVERY COMMUNITY

    For any individual, participating in the arts can be a 
transformative event--provoking powerful emotions, illuminating a new 
perspective on the ordinary, and elevating the senses. Likewise, the 
arts can transform communities--instilling civic pride, improving 
education, and spurring economic growth. To be truly national in its 
scope, the NEA recognizes that every American should have access to the 
transformative power of an arts-rich community. In fiscal year 2004, 
the NEA made 54 awards to orchestras in areas previously underserved by 
the NEA, through the initiative Challenge America: Reaching Every 
Community.
  --The Wheeling Symphony Orchestra received an NEA grant to provide an 
        artist-in-residence program for at-risk youth called ``Voices 
        and Music.'' The program is led by artist Scott Reed, a 
        professional musician and educator, reaching children in grades 
        K-8 from Wheeling's economically-challenged urban core. 
        ``Voices and Music'' aims to build self-confidence through 
        participation in the arts. A school administrator described the 
        impact of the program on an extremely introverted young 
        student, ``After a semester with his own recorder, he was 
        offering performances to anyone who would listen.'' The 
        orchestra is committed to providing the program year after 
        year, offering local children the opportunity to grow in their 
        skills and ensuring deep partnerships within the community.
  --NEA funding for the Chattanooga Symphony and Opera supported a 
        project inviting high school students to create a musical and 
        visual response to Mussorgsky's Pictures at an Exhibition. The 
        project met the goal of reaching new audiences by both 
        involving the student-artists and attracting an audience of 
        their curious peers, eager to see the resulting multi-media 
        performance.
  --In fiscal year 2004, the Williamsport Symphony Orchestra received 
        its first NEA grant, funding a concert performance in a 
        neighboring community. In addition to the anticipated 
        engagement with new audiences, the grant has substantially 
        elevated public recognition of the orchestra. The NEA grant was 
        announced as the orchestra worked to complete its endowment 
        campaign. The orchestra credits its ultimate fundraising 
        success to the power of the NEA grant to leverage additional 
        financial contributions from private individuals who hold the 
        orchestra in new esteem.
    All three of the grants to orchestras described above exhibit the 
hallmarks of the Challenge America program: reaching new audiences, 
attracting additional financial support, and creating meaningful 
partnerships with local community organizations.

       AMERICAN MASTERPIECES: THREE CENTURIES OF ARTISTIC GENIUS

    The NEA plans to further strengthen public access to excellence in 
the arts through a program titled American Masterpieces: Three 
Centuries of Artistic Genius. This multi-year program will direct new 
resources in three areas:
  --Touring programs by major and mid-sized arts organizations, 
        presenting acknowledged masterpieces to new audiences.
  --Local presentations of American art forms, including works of 
        American music.
  --Arts education efforts that will combine in-school programs with 
        the touring and local presentation of artistic masterpieces.
    Currently in its first year, the American Masterpieces project 
supports tours of visual arts exhibitions to underserved communities. 
In fiscal year 2006, American Masterpieces plans to expand touring 
programs to include dance, chorus, and musical theater, and will focus 
on providing substantial educational opportunities for students and 
teachers. Orchestras are poised to participate in the American 
Masterpieces project, and look forward to this opportunity to increase 
public access and appreciation for America's treasured composers and 
newest artistic voices. While the NEA is committed to expanding public 
access to the arts, it is steadfast in its support for a quality 
artistic product. Just as standards of artistic excellence are the 
primary criterion for NEA grant decisions, artistic excellence 
continues to guide the day-to-day operations and missions of American 
orchestras.
    The Endowment's unique ability to provide a national forum to 
promote excellence, both through high standards for artistic products 
and the highest expectation of accessibility, remains one of the 
strongest arguments for a federal role in support of the arts. We ask 
you to support creativity and access to the arts by approving an 
increase in funding for the National Endowment for the Arts.
                                 ______
                                 
        Prepared Statement of the National Coalition for History

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
seventy-plus members of the National Coalition for History--a 
confederation of history and archival organizations that care deeply 
about the programs and activities of the National Endowment for the 
Humanities (NEH)--we are pleased to submit the following brief 
testimony for the record regarding the proposed fiscal year 2006 budget 
for the NEH.
    While we understand that these are fiscally challenging times, we 
respectfully urge the committee to support a funding level of $153.1 
million for the National Endowment for the Humanities in fiscal year 
2006. This represents only a modest increase of $15 million above the 
fiscal year 2005 level appropriated by Congress and the President's 
fiscal year 2006 request. We believe that this funding at this level 
will strengthen core programs that have experienced cuts in past years. 
Such a funding level also will further the reach of the NEH's important 
history-based initiative that is of particular importance to the 
history and archive communities--``We the People.''
    It is our belief that the flat-funding level recommendations of 
$138.1 million for the NEH as proposed by the President will not allow 
the agency to maintain the current reach of its programs. Because of 
factors such as inflation and mandated administrative costs, ``level 
funding,'' in reality, translates into a cut for the agency. Though we 
recognize that Congress faces unusually difficult fiscal choices this 
year, the programs and activities of the NEH are of such importance to 
our nation--especially to our young people--that we urge you to support 
a modest funding increase of $15 million.
    History is at the core of many of the NEH's important programs. 
Recently, NEH Chairman Bruce Cole emphasized this when he spoke of the 
need for a national investment in teaching and learning in the 
humanities. He stated, ``Knowledge of our history is not a luxury, it's 
a necessity; Democracy is not self-sustaining; it needs to be learned 
and passed down from generation to generation.'' This is the heart of 
the mission of the NEH, and it is as important today as ever. As the 
American nation struggles abroad in an effort to bring a greater 
appreciation to the principles of democracy, programs like the ``We the 
People'' initiative do much to education our nation's youth of the 
importance of and understanding of American history, culture, and 
civics. The program deserves to be supported and expanded.
    While we remain strongly supportive of the ``We the People'' 
program that was launched by President Bush several years back in an 
effort to counter the growing trend of ignorance of American history by 
our populace, we note that the White House target of spending $100 
million for this important program over a three year period has not 
been realized. Nevertheless, some 300 projects have received funding 
through the program, and largely, they have been effective.
    But there are also other equally important history, research, and 
archive-related programs that also deserve funding and support. This 
year, since the Administration has recommended zero funding for the 
National Historical Publications and Records Commission (the grant-
making arm of the National Archives and Records Administration that 
supports the preservation and publication of our documentary heritage) 
increasing NEH support for scholarly edition projects that are 
currently being funded out of the Research division are all that more 
important.
    Mr. Chairman, there also is a critical need to restore and broaden 
the reach of the NEH core programs so that not just American history 
receives emphasis but world and comparative history as well. That goal 
can partially be met by restoring funding to NEH core programs 
including scholarly research, preservation access, education, challenge 
grants, public programs and for the all important activities that 
emerge out of the federal-state partnership where as our colleagues 
affiliated with the 56 state humanities councils been doing such good 
work with very limited funding from the NEH.
    We appreciate the past support of this committee and its members 
have provided on behalf of our nation's historical, cultural and 
intellectual heritage that are realized through the programmatic 
activities of the National Endowment for the Humanities.
    Thank You.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Humanities Alliance and its members, we are pleased to submit 
written testimony for the record in support of the National Endowment 
for the Humanities (NEH). The National Humanities Alliance respectfully 
urges Congress to support funding of $153.1 million for fiscal year 
2006 for the National Endowment for the Humanities, an increase of $15 
million above the fiscal year 2005 level and the President's request. 
This funding will strengthen the NEH core programs and further the 
reach of the NEH's highly successful We the People initiative.
    The National Humanities Alliance is a coalition of more than 80 
national, state, and local nonprofit organizations, including scholarly 
and professional associations; higher education associations; 
organizations of museums, libraries, historical societies, and state 
humanities councils; university-based and independent humanities 
research centers. The Alliance was founded in 1981 to advance the cause 
of the humanities by promoting the common interests of its members with 
regard to national policy and legislation affecting scholarly research 
and public understanding of the humanities.

                           FUNDING BACKGROUND

    While we are pleased that the President's budget request continues 
funding for the NEH We the People program, we are disappointed that the 
administration has recommended flat funding for this initiative and for 
the NEH core programs at the fiscal year 2005 level of $138.1 million. 
Level funding will not allow the agency to maintain the current reach 
of its programs.
    We recognize that Congress faces unusually difficult choices this 
year, and are asking the committee to recommend a modest funding 
increase for the agency of $15 million. While this sum does not nearly 
meet the many needs for which the agency was created, it would make an 
impact, and help ensure the long-term effectiveness of this agency that 
is critical to the civic life of our democracy. We are especially 
concerned about the long-term impact of inflation and other pressures 
on the agency's ability to carry out the mandate for which it was 
established. The funding table below illustrates the decline, both in 
nominal and constant dollars, in the agency's spending levels.

                                   NEH APPROPRIATIONS, FISCAL YEARS 1970-2005
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year
                                         -----------------------------------------------------------------------
                                           1970    1975    1980    1985    1990    1995    2000    2004    2005
----------------------------------------------------------------------------------------------------------------
Nominal Value...........................     8.9    79.1   150.1   139.5   156.9   172.0   115.3   135.3   138.1
Constant Value (2004)...................    43.1   277.9   344.1   244.9   226.8   213.2   126.4   135.3   134.5
----------------------------------------------------------------------------------------------------------------
Note.--``Nominal'' values are the amounts appropriated by Congress. ``Constant'' values (expressed in 2004
  dollars) are adjusted for inflation according to the annual CPI-U data. The estimated inflation rate for 2005
  is assumed to be the same as in 2004.

    The National Endowment for the Humanities was established forty 
years ago as an independent grant-making agency of the federal 
government to support research, education, and public programs in the 
humanities. As the founding legislation of the NEH says, ``Democracy 
Demands Wisdom.'' In a recent public address, NEH Chairman Bruce Cole 
echoed these statements when he spoke eloquently of the need for a 
national investment in teaching and learning in the humanities. 
``Knowledge of our history is not a luxury, it's a necessity . . . 
Democracy is not self-sustaining; it needs to be learned and passed 
down from generation to generation. We have to know our great founding 
principals, how our institutions came into being, how they work, what 
our rights and responsibilities are.'' \1\ An appreciation of the 
relationship of the humanities to democracy was a key factor in the 
establishment of the NEH forty years ago and remains so today. In 2005, 
NEH is operating at less than half of its demonstrated capacity of even 
30 years ago; yet at no time has the work of NEH been more critical to 
the survival of our democracy, the global competitiveness of our 
workforce, and our national security.
---------------------------------------------------------------------------
    \1\ Bruce Cole, National Press Club, November 16, 2004.
---------------------------------------------------------------------------
    There is great need and demand for the leadership and support 
provided by the NEH. In fiscal year 2004, the NEH reviewed 4,921 grant 
proposals (requesting a total of $363.0 million in federal funds). The 
NEH Council recommended the approval of 1,090 applications. Due to 
funding constraints, only 22 percent of the requests were funded in the 
past fiscal year.

                             WE THE PEOPLE

    Increased funding for the NEH will go a long way to extend the 
reach of the NEH We the People initiative to advance understanding of 
American history, culture, and civics. The program was launched by 
President Bush in response to numerous polls and surveys over the past 
decade, which indicate that many Americans lack even a basic knowledge 
about their nation's history. In a White House Rose Garden Ceremony in 
September 2002, President Bush described the need for the expanded NEH 
program: ``Our Founders believed that the study of history and 
citizenship should be at the core of every American's education. Yet 
today, our children have large and disturbing gaps in their knowledge 
of history . . . Ignorance of American history and civics weakens our 
sense of citizenship.''
    The White House initially pledged $100 million for We the People 
over three years, and we are pleased that it has now waived the three-
year limit to allow it to be continuing program. While only now 
entering its third year of funding, the initiative has already been 
highly successful. To date, more than 300 projects have received 
funding through the program, working through each of the core program 
divisions of the NEH. The initiative consists of projects sponsored 
directly by NEH, and grants made through the agency's other program 
divisions. A critical aspect of the We the People initiative is that 
because it works through the NEH core programs, it can broaden the 
reach of these divisions by freeing funds for other highly-rated 
projects. More detail on the NEH core programs, and examples of We the 
People projects supported through them, is provided below.
    We the People has drawn scholars, teachers, filmmakers, museum 
professionals, librarians, and others engaged in humanities work to 
develop projects on the most significant events and themes in American 
history and culture. It has provided significant new resources to each 
of the state humanities councils, and is truly reaching communities 
nationwide.

                           NEH CORE PROGRAMS

    While the We the People special initiative is presently the most 
visible NEH initiative, the core programs of the Endowment, which have 
developed over the last four decades, are the backbone of federal 
involvement in the humanities. Unfortunately, in recent years, funding 
for the NEH core programs has declined in moderate but real terms. 
Additional funds are needed to sustain the long-term grant-making 
ability of the agency in the following areas:
    Research.--Scholarly research is the engine that provides content 
and structure for all other humanities activities. Research grants 
facilitate basic research and original scholarship in all fields of the 
humanities, including languages, linguistics, literature, history, law, 
philosophy, archaeology, comparative religion, ethics, and art history. 
Fellowships and grants awarded by the research division are among the 
most coveted by American scholars. Projects supported by NEH 
fellowships and summer stipends for college and university teachers, 
and independent scholars have, over the years, produced more than 6,000 
books including eleven Pulitzer Prize winners. Collaborative Research 
grants support original scholarship conducted by teams of researchers. 
Scholarly Editions grants support the preparation of texts and 
documents that are currently inaccessible or available in inadequate 
editions. Projects involve significant literary, philosophical, and 
historical materials and translations.
    Education.--Education is, of course, at the center of the NEH 
mission. Education grants strengthen teaching and learning in schools, 
colleges, and universities through teacher training institutes and 
seminars, through curriculum development, and through online tools for 
teachers, parents, and students. A We the People initiative managed 
through this division is the new NEH teacher training/professional 
development program called ``Landmarks of American History,'' which 
offers a series of workshops for K-12 and community college teachers at 
important historical sites across the United States. Upcoming workshop 
sites for 2005 include the Kituah Cherokee Landmark near Cherokee, 
North Carolina; Mount Vernon in Arlington, Virginia; the Alamo, in San 
Antonio, TX; and Civil Rights Landmarks in Birmingham, Montgomery, 
Selma, and Tuskegee, AL.
    Preservation.--Through the Preservation and Access Division NEH 
makes grants to preserve unique historical, cultural and intellectual 
materials; for collection development and catalogs; and for 
encyclopedias and other projects. An exciting new project made possible 
through We the People is the National Digital Newspaper Program (NDNP), 
a multi-year partnership between the NEH and the Library of Congress to 
convert microfilm of historically significant U.S. newspapers published 
between 1836 and 1922 into fully searchable digital files. More than 30 
million pages of newspapers will be made accessible online to students, 
teachers, parents, scholars, historians. The Preservation division is 
also making significant contributions to understanding and preservation 
of world cultures. In 2003, the NEH announced a special initiative, 
``Recovering Iraq's Past,'' to support projects that preserve and 
document cultural resources in Iraq's archives, libraries and museums. 
Awards in 2004 included a digital library of cuneiform tables 
documenting Mesopotamian civilization from 3300 B.C. to 100 A.D.
    Public Programs.--It is through NEH-funded public humanities 
programming that the endowment works most directly with the American 
public. From traveling exhibits in local museums and libraries to film, 
television and radio productions, NEH public programs reach literally 
millions of citizens in communities throughout the U.S. Recent projects 
include the Emmy-award winning documentary Benjamin Franklin; The 
Legacy of Genghis Khan: Courtly Art and Culture in Western Asia, a 
traveling museum exhibit which recently won the Alfred Barr Award for 
Museum Scholarship from the College Art Association; and a series of 
bilingual reading and discussion programs called Family Portraits, 
which drew readers to over 150 libraries in eight western states, as 
well as New York and Florida. ``America's Historic Places'' is a We the 
People initiative that encourages the use of historic sites to address 
themes and issues central to our nation's history.
    Federal State Partnership.--The network of 56 state humanities 
councils has proven to be very effective in delivering humanities 
programming to small towns and rural areas that might not otherwise 
have access to such programs. Funding for We the People will continue 
to provide significant new resources to state humanities councils, in 
recognition of the unique role councils play in carrying out these 
programs at the local level. Through this initiative, councils have 
developed unique teacher workshops, lectures, reading and discussion 
programs, exhibitions and public meetings that help local citizens 
appreciate the events, people and institutions that define the history 
of their communities and nation. For example, in anticipation of the 
400th anniversary of Virginia in 2007, the Virginia Foundation for the 
Humanities has just awarded a consultation and planning grant to the 
Virginia Council on Indians to help establish a Virginia Indian 
Heritage Trail and to create a database on publicly-accessible 
collections and sites where Virginia Indian history and culture are 
interpreted.
    Challenge Grants.--Challenge Grants strengthen the institutional 
base of the humanities by stimulating and matching nonfederal 
contributions to humanities projects, including such hard-to-fund areas 
as endowment, renovations, and collections development. First-time 
recipients of a challenge grant must match every federal dollar with 
three nonfederal dollars, and recipients of subsequent awards must 
raise four nonfederal dollars for every dollar.
    Most programs of the humanities endowment award matching grants, 
which entail on offer of NEH funding that is conditioned on an 
equivalent amount of fund-raising by the recipient. Since the 
establishment of NEH in 1965 through fiscal year 2004, Endowment 
matching funds have stimulated $384 million in third-party donations, 
and NEH Challenge Grants have leveraged another $1.46 billion in 
institutional support. A small investment in the American people 
through NEH goes a long way.
    Thank you for your consideration of our request. We appreciate the 
support of this committee for our nation's cultural and intellectual 
resources through the National Endowment for the Humanities.
                                 ______
                                 

                       DEPARTMENT OF AGRICULTURE

    Prepared Statement of the American Forest and Paper Association

    The American Forest and Paper Association \1\ (AF&PA) supports 
sustainable forest management on all forest lands. Policies governing 
our federal forestlands must consist of active management, progress on 
long-term forest health, and local level decision-making. The following 
recommendations concern fiscal year 2006 appropriations for the U.S. 
Forest Service. Restoring the health of our national forests through 
active management is AF&PA's number one priority for the Forest Service 
fiscal year 2006 budget.
---------------------------------------------------------------------------
    \1\ AF&PA is the national trade association of the forest, paper 
and wood products industry. AF&PA represents more than 200 companies 
and related associations that engage in or represent the manufacture of 
pulp, paper, paperboard and wood products. The forest products industry 
accounts for approximately 7 percent of total U.S. manufacturing 
output, employs 1.3 million people, and ranks among the top ten 
manufacturing employers in 42 states.
---------------------------------------------------------------------------
                 ACTIVE MANAGEMENT OF NATIONAL FORESTS

    Millions of acres of federal forests across the country are 
threatened with catastrophic wildfire and insect and disease 
infestation, posing serious risks to adjacent private forestlands, 
communities, and wildlife habitat. The President's Healthy Forests 
Initiative (HFI) and the Healthy Forests Restoration Act (HFRA) of 2003 
were tremendous steps forward in addressing this crisis, providing 
tools to our federal land management agencies to get more accomplished 
on the ground.
    The fiscal year 2006 budget needs to provide resources to our 
national forests to restore forest health through active management. 
Forest Service data indicate that annual growth of trees on the 
national forests currently exceeds annual harvest by five-fold, meaning 
that overstocked forests are becoming even more overstocked and even 
more at risk from fires and insect epidemics. The National Forest 
System budget as a proportion of the total Forest Service budget has 
shrunk significantly over the last 15 years, limiting the resources 
that can be devoted to addressing this crisis.
    AF&PA supports an increase of $30 million above the President's 
request for the National Forest System program, targeted to the Forest 
Products line item and other budget line items that support forest 
health and produce fiber.
    Forest Products.--AF&PA recommends increasing the total volume sold 
to 3.0 billion board feet, which can be achieved through additional 
funding and a reduction in unit costs. Timber sales and stewardship 
projects are important tools to achieve forest health and hazardous 
fuels reduction objectives, and to retain forest industry 
infrastructure. AF&PA believes that a reduction in unit costs through 
the greater use of Healthy Forests Initiative efficiencies is not only 
possible, but a critical step in actively managing more acres and 
providing additional timber sale volume.
    The need to maintain industry infrastructure (e.g., mills) is a 
critical component to achieving national forest objectives, with the 
loss of infrastructure already resulting in direct impact on forest 
health in many areas. A reliable and consistent supply of national 
forest timber is critical to the stability of this infrastructure.
    AF&PA supports the Forest Service's plan to change the 
accomplishment metric for the timber sale program from volume offered 
to volume sold. The Forest Service has indicated that regions will be 
operating under that metric in fiscal year 2006. This change will help 
to ensure a useful measure of outputs under the timber sale program and 
to emphasize accountability within the program.
    Hazardous Fuels Reduction.--Treating hazardous fuels within the 
wildland-urban interface and across the landscape is essential to 
preventing catastrophic wildfires and insect and disease outbreaks and 
protecting resource values and species habitat. There are significant 
treatment needs in all areas of the country and in all three condition 
classes. We urge emphasis of these activities in areas with existing 
forest industry infrastructure in order to reduce costs. In addition, 
we encourage greater emphasis on mechanical thinning to reduce 
hazardous fuels, which provides ecological benefits and the opportunity 
to capture the economic value of fiber removed.
    AF&PA supports the President's proposal to move the funding for the 
Hazardous Fuels program to the National Forest System. The movement of 
this budget to NFS would allow better integration of these activities 
with other vegetation management activities happening on the ground. We 
encourage continued collaboration between the Forest Service and the 
State Foresters in accomplishing this work.
    Vegetation and Watershed Management.--This program directly 
improves forest health by restoring watersheds, reducing soil erosion, 
and producing clean air and water through such activities as 
reforestation and timber stand improvement treatments. There is a 
critical need to address the significant reforestation backlog, which 
has increased sharply as a result of wildfires.
    Wildlife and Fisheries Habitat Management.--Managing species' 
habitat contributes to healthy and diverse populations and ecosystems. 
The drawdown in the Knutson-Vandenberg (KV) fund to pay for wildfire 
suppression costs has a major impact on this program. Failure to 
completely repay the KV Fund diminishes implementation of much-needed 
wildlife habitat, reforestation, timber stand improvement, and other 
conservation projects. In some regions, this adversely impacts non-
essential KV projects, such as fish and wildlife programs that are 
already underfunded.

                   RESEARCH TO SUPPORT FOREST HEALTH

    Targeted research is needed to support forest health, both through 
a greater understanding of the status of our nation's forests and 
through the development of processes that enable economic utilization 
of fiber removed. Research helps find innovative ways to promote and 
enhance forest sustainability and provides scientifically sound data 
that benefits both public and private forests. Forest Service research 
investments in enhancing forest productivity, addressing the threats of 
insect and disease, quantifying carbon sequestration, and understanding 
forest management decisions on wildlife, water quality, biodiversity, 
landscapes and habitats, all contribute to efforts to achieve and 
maintain healthy forests.
    Forest Inventory and Analysis (FIA).--AF&PA supports the 
President's fiscal year 2006 budget request of $73.4 million, which 
represents full funding for the program. The FIA program is the most 
comprehensive data collection and analysis program to assess the 
sustainability and health of the nation's forest resources. We believe 
that, with full funding, the Forest Service has an obligation to 
achieve its stated goals to cover 100 percent of U.S. forest lands, 
fully implement the annual inventory, expedite data availability and 
analysis, improve working relationships with the states, and modernize 
FIA management systems.
    Forest Products Utilization and Process.--AF&PA recommends a 
funding level of $19.6 million for this program. The Forest Products 
Lab and experiment stations conduct important research on the efficient 
and effective use of wood fiber, directly addressing the forest health 
problem through exploration of small diameter wood use and bioenergy 
production. Unfortunately, funding for this research has not kept pace 
with research needs. Support is needed for the core functions of the 
research stations and for the construction and operation of a Building 
Durability Test Facility at the Forest Products Lab to address mold and 
moisture issues. Funding is also needed for the Coalition for Advanced 
Housing Research for research on damage mitigation from natural 
disasters like floods, earthquakes and hurricanes.

                               CONCLUSION

    AF&PA appreciates the chance to provide the Subcommittee with 
testimony regarding fiscal year 2006 appropriations for the Forest 
Service. If implemented, the funding levels proposed for the programs 
listed above will help promote sustainable management and forest health 
on our nation's public and private lands.
                                 ______
                                 
          Prepared Statement of the Appalachian Mountain Club

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
our 90,000 members throughout the northeastern United States, the 
Appalachian Mountain Club (AMC) appreciates the opportunity to present 
this testimony in strong support of the highest possible funding levels 
for conservation programs in the fiscal year 2006 Interior, 
Environment, and Related Agencies Appropriations bill, and specifically 
support ten Forest Legacy Program projects at $29.9 million, and three 
Land & Water Conservation Fund projects at $7.55 million, and four 
Highlands Conservation Act projects totaling $9.75 million. Within the 
Forest Legacy Program request, the AMC especially appreciates the 
opportunity to testify in support of a $5 million appropriation to the 
State of Maine from the Forest Legacy Program for the Katahdin Iron 
Works (KIW) project. As you know, this funding has been proposed in the 
President's fiscal year 2006 budget, and the KIW project is ranked 4th 
on the President's Forest Legacy project list.
    The AMC is the nation's oldest recreation and conservation 
organization. Founded in 1876, our mission is to promote the 
protection, enjoyment, and wise use of the mountains, rivers and trails 
of the Appalachian region. With 12 chapters and 90,000 members from 
Maine to Washington, DC, AMC is proud of our long tradition of 
stewardship and engagement in the outdoors.
    The funding proposed for the KIW project will allow the state of 
Maine to purchase a conservation easement over 37,000 acres of 
critically located land about nine miles east of Greenville. The 
property is bisected by the Appalachian Trail and includes land around 
Gulf Hagas, the Barren/Chairback Mountain Range, a significant stretch 
of the Class A West Branch of the Pleasant River, and many other 
important ecological and recreational features. AMC, with assistance 
from the Trust for Public Land, purchased this property in December 
2003 from International Paper. If sold on the open market, the KIW 
property would have been a prime target for recreational home 
development, or private ``kingdom lots'', that would permanently alter 
a critical landscape in Maine.
    The AMC is extremely pleased to have the opportunity to work 
closely with local communities in the region, such as Greenville and 
Brownville, as they plan for continued community vitality and economic 
diversity. This project has garnered significant local support because 
it not only protects the spectacular landscape that makes the area so 
special, but it also creates new recreational opportunities for the 
public and secures the future of this property as a working forest.
    In particular, we are excited that this project will:
  --Create a model certified working forest;
  --Protect key landscape features such as ridgelines, great ponds, and 
        the headwaters of the Class A West Branch of the Pleasant 
        River;
  --Significantly enhance and manage recreational opportunities on land 
        and water;
  --Further develop the economic foundations of the neighboring 
        communities;
  --Assure public access;
  --Create meaningful environmental education opportunities; and
  --Help to stabilize the land base in a region experiencing a volatile 
        real estate market.
    These goals--providing for conservation, sustainable forestry, and 
recreation in our North Woods that engages both residents and visitors 
alike--strike a balance between ecological protection and contribution 
to the local and regional economy from the land.
    The Land for Maine's Future Board has already approved a grant of 
$1 million to go towards this project and expects to allocate 
additional funds when a new statewide bond is approved. In addition, 
AMC is undertaking substantial fundraising efforts--with a goal of $25 
million--to support both the easement acquisition as well as ensure 
long-term stewardship and recreational development on the property.
    We appreciate your continued support for common sense, community-
based Forest Legacy Program projects, and believe the KIW project is a 
model for programmatic success. We hope that you will provide $5 
million to ensure the success of this effort in the fiscal year 2006 
Interior appropriations bill.
    On funding for other projects across the region, and on overall 
funding levels for critical land protection programs such as Forest 
Legacy and the Land & Water Conservation Fund, the AMC echoes the 
testimony of Mr. Jad Daley of the Eastern Forest Partnership which 
underscores the importance of the Forest Legacy Program and the Land & 
Water Conservation Fund to the eastern region as a whole.
    In fiscal year 2006, the AMC supports funding requests for the 
following Forest Legacy projects in our region:

------------------------------------------------------------------------
State                       Project                           Amount
------------------------------------------------------------------------
   ME Katahdin Ironworks                                    $5,000,000
   ME Machias River Project--Phase II                        3,000,000
   NH Rossview Farm                                          2,000,000
   NH Willard Pond/Robb Reservoir                            2,500,000
   VT Orange County Headwaters                               1,500,000
   VT Green Mountain Wildlife Corridor                       1,000,000
   NY IP Lands (Adirondack Working Forest Easement)          5,000,000
   MA Quabbin Corridor Connection                            3,700,000
   CT Skiff Mountain                                         2,300,000
   NJ Sparta Mountain South                                  3,900,000
                                                       -----------------
            Total fiscal year 2006 AMC Forest Legacy        29,900,000
             Requests
------------------------------------------------------------------------

    The Land & Water Conservation Fund will provide critical protection 
to the Lake Umbagog National Wildlife Refuge in New Hampshire, the 
Green Mountain National Forest in Vermont, and to the Silvio O. Conte 
National Wildlife Refuge for projects throughout the Conte's four-state 
region of New Hampshire, Vermont, Massachusetts, and Connecticut. The 
Silvio O. Conte Refuge ranks fourth in the Land Acquisition Priority 
System (LAPS) in part because the USFS projects the Connecticut River 
watershed to be among the top 20 growth areas in the nation in coming 
decades. A multi-state approach to conserving the most critical parts 
of the watershed, with local support, is vital to ensuring the many 
values that the Connecticut River and its watershed support in the New 
England states.
    In fiscal year 2006, the AMC supports the following LWCF projects 
in our region:

------------------------------------------------------------------------
State                       Project                           Amount
------------------------------------------------------------------------
   NH Lake Umbagog National Wildlife Refuge                   $750,000
   VT Green Mountain National Forest                         3,500,000
  NH, Silvio O. Conte National Wildlife Refuge               3,300,000
  VT,
  MA,
   CT
                                                       -----------------
            Total LWCF Projects Supported by AMC             7,550,000
------------------------------------------------------------------------

    While the Forest Legacy Program and the Land & Water Conservation 
Fund have well established track records, the AMC hopes that the 
Subcommittee will begin to fund the Highlands Conservation Act in order 
to realize the intent of Congress to support critical land protection 
efforts in the Highlands Region of the mid-Atlantic. Current projects 
in Pennsylvania, New Jersey, and New York share strong local support, 
commitments for matching funding from State and private sources, and 
will protect important water supplies for public water sources in the 
three states. The Arrow Park project in New York will protect the last 
significant property buffering Sterling Forest State Park from 
residential and commercial development in the Town of Monroe.
    In fiscal year 2006, the Appalachian Mountain Club supports funding 
requests for the following Highlands Conservation Act projects:

------------------------------------------------------------------------
State                       Project                           Amount
------------------------------------------------------------------------
   NY Arrow Park                                            $3,070,000
   NJ Wyanokie Highlands                                     3,850,000
   PA Birdsboro Waters                                       1,250,000
   PA Oley Hills$1,400,000
                                                       -----------------
            Total AMC Highlands Conservation Act             9,570,000
             Requests
------------------------------------------------------------------------

    In addition to the critical land conservation projects from the KIW 
project in Maine to the Sparta Mountain South project in New Jersey, 
the AMC respectfully urges the Subcommittee to ensure the viability of 
programs that support outdoor recreation in the America.
    One of the most important programs supporting human-powered 
recreation is the National Park Service's Rivers, Trails, and 
Conservation Assistance program. This program provides vital support to 
the nation's recreational trails and waterways and planning assistance 
for communities. The AMC echoes the testimony of the Rivers and Trails 
Coalition, of which we are a member, supporting funding at the level of 
$9.7 million for the NPS' RTCA program.
    Another critical program that provides beneficial services to 
millions of hikers and outdoor recreators across the nation is the 
Capital Improvement and Maintenance for Trails line in the U.S. Forest 
Service's budget. $80 million is needed to ensure that the USFS has the 
ability to perform needed maintenance on trails throughout our National 
Forest System in places like the White Mountain National Forest, the 
Monongahela National Forest, and the many other places our members 
enjoy quiet recreation.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
   Prepared Statement of the Appalachian Trail Conference Land Trust

    Mr. Chairman and Honorable Members of the Committee: The 
Appalachian Trail Conference Land Trust (``ATC'') is thankful for the 
opportunity to present this testimony in support of a $2.3 million 
appropriation to the State of Connecticut from the Forest Legacy 
Program for the Skiff Mountain project.
    The mission of the ATCLT is to seek and protect the Trail 
Experience by preserving features in the surrounding environment that 
are important to the Trail and the Trail Experience. The Trail 
Experience is defined by the sum of opportunities that are available 
for hikers on the Appalachian Trail, unfettered and unimpeded by 
competing sights or sounds, and in as direct and intimate a manner as 
possible. Integral to this experience are the opportunities for 
observation, contemplation, enjoyment and exploration of the natural 
world; a sense of remoteness and detachment from civilization; 
opportunity to experience solitude, freedom, personal accomplishment, 
self-reliance and self-discovery; a sense of being on a height of land; 
a feeling of being part of and subordinate to the natural environment; 
and opportunity for travel on foot, including opportunities for long 
distance hiking. The strategy for accomplishing the mission is as 
follows:
    Conservation of land.--Identify and map the area of interest 
encompassing the features important to the Trail Experience; identify 
logical areas and rank them in order of priority; identify property 
ownership within high priority areas and rank them in order of priority 
within the area; initiate landowner contact starting with the highest 
priority areas and tracts; and plan and execute conservation deals 
where owners are willing to work with us.
    Building the support network.--Identify and get to know the 
conservation partners in the region; identify the potential funding 
sources in the region; identify and communicate with community leaders 
and land-use planners; participate in coalitions advancing our goals; 
and identify and work with conservation buyers.
    The Housatonic River watershed and Connecticut Highlands have been 
identified as two of the high priority areas for the Connecticut 
Section of the Appalachian Trail Conference Land Trust.
    ATCLT serves the towns of Sherman, Kent, Sharon, Cornwall, Falls 
Village and Salisbury. Lands owned by ATCLT are open to the public for 
passive recreation. Skiff Mountain is adjacent to the Appalachian Trail 
and forms the scenic backdrop for the most picturesque and accessible 
part of the trail in Connecticut as it skirts along the Housatonic 
River for almost seven miles.
    The Land Trust is a program of the non-profit Appalachian Trail 
Conference (ATC). ATC hosts this land trust which is stepping up to 
protect additional land from willing sellers to augment the existing 
Trail corridor now that the National Park Service is winding down its 
acquisition program. The Land Trust holds approximately 304 acres which 
are passively managed for open space protection purposes.
    By way of background, the Park Service works cooperatively with the 
ATC on most day to day management activities through a ``delegation 
agreement'' that officially transfers management responsibility to the 
ATC. ATC, in turn, has delegated these responsibilities to 30 Trail-
maintaining clubs, with each one maintaining a designated section of 
Trail. The maintenance and management of the 55 miles of Trail and 
corridor lands in Connecticut are the responsibility of the Appalachian 
Mountain Club's (AMC) Connecticut Chapter, as implemented by its 
Volunteer Trails Committee. The ATC Land Trust's activities in 
Connecticut are carried out by the undersigned as the volunteer 
Connecticut Coordinator and member of the Connecticut AMC's Trails 
Committee.
    The Appalachian Trail was designated a national millennium trail in 
2000 and honored by the American Institute of Certified Planners and 
others as a ``national planning landmark.''
    Both the Federal Government and the State of Connecticut have 
clearly delineated policies supporting the protection of the 
Appalachian National Scenic Trail Corridor. These policies would be 
furthered by this conveyance. Congress pass the National Trails System 
Act in 1968, Public Law 9-543 (82 Stat. 919), as amended by Public Law 
95-248 (92 Stat. 159), designating the Appalachian National Scenic 
Trail as part of a national system of trails in order to provide for 
the ever-increasing outdoor recreational needs of an expanding 
population and in order to promote public access to, and appreciation 
for the outdoor areas of the nation, and to provide for the 
conservation and enjoyment of the nationally significant scenic, 
historical, natural and cultural qualities of the Trails in the System, 
including the Appalachian Trail.
    In 1971, by Public Act 638 (C.G.S. Section 23-66), the Connecticut 
General Assembly declared it to be ``the policy of the State of 
Connecticut that the Connecticut portion of the Appalachian National 
Scenic Trail be preserved in its natural character as proposed by 
Public Law 90-543, October 2, 1968.''
    Tens of thousands of hikers use the Appalachian Trail in 
Connecticut each year. The state has identified the Connecticut portion 
of the Highlands as a critical focus area under its Forest Legacy 
Program. Right now there are eight separate parcels of land in this 
focus area that are available for protection in fiscal year 2006. These 
parcels total approximately 937 acres of Skiff Mountain Forest in 
northwestern Connecticut. They form a network of forested properties in 
Litchfield County straddling the Kent-Sharon town line, an area under 
tremendous large-lot development pressures. Located among 6,000 acres 
of existing conservation lands, and immediately adjacent to the 
federally protected and world-renowned Appalachian National Scenic 
Trail, the Skiff Mountain property has been identified by the state as 
its top priority for Forest Legacy funding this year.
    In fiscal year 2006, $2.3 million is needed from the Forest Legacy 
program to help preserve nearly 937 acres of Skiff Mountain, and keep 
intact this conservation corridor of the Housatonic River Watershed and 
four-state Highlands region. These funds will be matched by local 
funding and land value donation. We hope that you will provide $2.3 
million to ensure the success of this effort in the fiscal year 2006 
Interior appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
    Prepared Statement of Friends of the Boundary Waters Wilderness

    Thank you very much for the opportunity to testify on behalf of the 
Friends of the Boundary Waters Wilderness (Friends) in support of a $2 
million allocation from the Land and Water Conservation Fund (LWCF) for 
the acquisition of Long Island on Burntside Lake in Superior National 
Forest. It is my understanding that this is a priority acquisition for 
the Forest Service locally and regionally.
    The Friends' mission is to ``protect, preserve and restore the 
wilderness character of the Boundary Waters Canoe Area Wilderness 
(BWCAW) and the Quetico-Superior Ecosystem.''
    To this end, I am writing to urge you to help protect Long Island, 
the largest undeveloped island on Burntside Lake, which has two key 
entry points into the BWCAW, five campsites, and six public canoe 
launching points.
    Burntside Lake supports lake trout and is one of the few lakes in 
Minnesota that supports a natural cold water fishery. The lake is 
renowned for its big lake trout and walleye and also supports one of 
the largest populations of loons in the state. Burntside is also the 
start of an 11-mile canoe route called Burntside-Dead River-Twin Lakes-
Everett, which is outside the BWCAW yet within the National Forest 
boundaries.
    Long Island boasts one mile of undeveloped lakeshore, including a 
beautiful sand beach. Because there are a limited number of public 
beaches within the forest boundaries, Long Island's beach provides a 
unique recreational opportunity. The island is home to nesting osprey, 
blue heron and nesting loons, and is potential habitat for rare and 
sensitive species. The 64-acre Burntside Islands Scientific and Natural 
Area (SNA), which features two virtually undisturbed islands, is 
located immediately southwest of Long Island. These two forested 
bedrock islands are home to Great Lakes old-growth pine forests that 
are extremely rare outside of the BWCAW.
    Public acquisition of the Long Island property will ensure that our 
beloved north wood's sounds and images, such as ``the mournful cry of 
the common loon, the mysterious drumming of a male ruffed grouse, the 
soft carpet of feathermosses beneath a jack pine, and the ancient red 
and white pines that keep their lonely vigil over the very waterways 
that were home to countless generations of Native Americans, . . .'' 
will be protected in perpetuity.
    An appropriation of $2 million from the Land and Water Conservation 
Fund in fiscal year 2006 will secure the acquisition of Long Island by 
the Superior National Forest, protect its critical natural resources 
for the public, and maintain the integrity of the great north woods. I 
thank you for your support.
                                 ______
                                 
          Prepared Statement of the Eastern Forest Partnership

    On behalf of the Eastern Forest Partnership and our member groups 
representing in total more than 170 citizens' groups from Mississippi 
to Maine, I would like to offer testimony on behalf of the strongest 
possible mark for conservation funding programs in the fiscal year 2006 
Interior, Environment and Related Agencies Appropriations bill, 
including $80 million for the U.S. Forest Service's Forest Legacy 
program with $50.155 million allocated for eastern projects (see list 
below), and $64.586 million for eastern projects funded through the 
Department of Interior's Federal Land & Water Conservation Fund (see 
list below). Despite current fiscal challenges, eastern forest 
conservation is a vital investment to ensure clean air and water, a 
sustainable supply of timber products, and opportunities to enjoy 
wildlife and outdoor recreation for the sixty percent of the U.S. 
population that lives within a day's drive of the eastern forests.
    Conservation funding shortfalls in recent years have deprived some 
Forest Legacy projects like the Walls of Jericho the full amount of 
needed funding, and kept these under-funded projects in the already 
full pipeline for another year. In other instances, important Forest 
Legacy projects like Pennsylvania's Birdsboro Waters have been 
eliminated in conference despite being included in the House, Senate, 
and administration lists. Last year's appropriated amount covered just 
over 20 percent of national Legacy requests.
    For the Federal Land & Water Conservation Fund (LWCF), the 
reduction to just over 33 percent of its authorized level continues to 
hamper Federal agency land acquisition in the East, most notably for 
national forest and national wildlife refuge enhancement. The Region 8 
list of national forest acquisitions, in particular, is annually full 
of time-sensitive opportunities that are being lost as funding does not 
come through. Eastern refuges are also in dire need of acquisition 
dollars: the Silvio Conte National Wildlife Refuge ranks fourth in the 
Land Acquisition Priority System (LAPS), in part because the 
Connecticut River watershed is projected by the U.S. Forest Service as 
one of the top twenty in the nation for future development.

  FISCAL YEAR 2006 FOREST LEGACY PROGRAM NEEDS IN THE EASTERN FORESTS

    For the upcoming fiscal year, there is a compelling list of Forest 
Legacy projects that would greatly advance eastern forest conservation. 
Some of these projects, like Walls of Jericho and Machias River, Phase 
II, would complete projects were either partially funded last year or 
broken into multiple phases. Others, like the Katahdin Ironworks 
project in the Northern Forest, the History of Forestry project in 
Pennsylvania, and the Campbell Creek Watershed in North Carolina, are 
new priorities that would protect national treasures.
    We believe that, at a minimum, Congress should fund the Forest 
Legacy program at the $80 million level advocated in the President's 
budget. However, even this level of funding could result in lost 
opportunities to conserve critical eastern forests, such as the North 
Fork Corridor Forest Legacy project in Virginia. Prior to fiscal year 
2005, Forest Legacy had enjoyed slow but steady growth in funding 
thanks to bipartisan support for the program. Funding Forest Legacy at 
$80 million in fiscal year 2006 would continue the growth of this 
popular program to better meet the needs in the East and throughout the 
nation to prevent the conversion of forestlands and the resulting loss 
of traditional forest values.
    In fiscal year 2006, the Eastern Forest Partnership supports 
funding requests for the following Forest Legacy projects in the 
eastern forests. (All projects and amounts below, listed alphabetically 
and not in order of priority, are included in and consistent with the 
President's budget except for those in italics, which recommend a 
suggested project addition or increase in funding.)

------------------------------------------------------------------------
State                       Project                           Amount
------------------------------------------------------------------------
   CTSkiff Mountain                                         $2,300,000
   DEGreen Horizons                                          3,000,000
   GAAltamaha River Corridor                                 3,000,000
   KYKnobs State Forest and Wildlife Management Area         1,750,000
   MAQuabbin Corridor Connection                             3,700,000
   MDBroad Creek                                             1,500,000
   MEKatahdin Ironworks                                      5,000,000
   MEMachias River Project--Phase II                         2,500,000
   NCCampbell Creek Watershed                                1,800,000
   NHRossview                                                2,600,000
   NHWillard Pond                                              550,000
   NJSparta Mountain South                                   3,900,000
   NYAdirondack Working Forest Easement                      5,000,000
   NYSurprise Lake                                           1,000,000
   PAHistory of Forestry                                     2,800,000
   RIBugnet Tract                                              600,000
   TNWalls of Jericho                                        2,600,000
   VANew River Corridor                                        230,000
   VANorth Fork Corridor                                     1,500,000
   VTGreen Mountain Wildlife Corridor                        1,052,000
   VTOrange County Headwaters                                1,098,000
   VTEnosburg-Adams Pond                                       875,000
   WVPotomac River Hills                                     1,800,000
                                                       -----------------
           Total fiscal year 2006 Eastern Forest            50,155,000
            Legacy Requests
------------------------------------------------------------------------

       FISCAL YEAR 2006 LWCF PROGRAM NEEDS IN THE EASTERN FORESTS

    There are also many Federal Land and Water Conservation Fund 
projects of critical need. A number of these projects, including 
funding for the Silvio Conte National Wildlife Refuge and the Jefferson 
National Forest, represent significant omissions from the President's 
budget. Eastern Federal land units are too often compromised by in-
holdings that undermine the conservation values of these Federal lands. 
With the rapid rate of rural land conversion to development across the 
East--an area larger than New Hampshire is now lost every five years 
according to the U.S. Geological Survey's Natural Resources Inventory--
opportunities to consolidate these Federal holdings are dwindling. 
Increased LWCF allocations beyond the President's would be invaluable 
to fill out existing Federal land units in the eastern forests. The 
steep decline in Federal LWCF dollars in recent years has hampered the 
efforts of eastern land managers to buffer key resource areas from 
sprawling development pressures.
    The following quote from recent U.S. Forest Service testimony 
regarding acquisition needs in Alabama captures the challenges faced by 
Federal land managers from encroaching development and their need for 
increased acquisition dollars:

``National Forest lands comprise the largest blocks of land in the 
State for management of endangered species, endangered species habitat, 
protection of water quality and opportunities for the public for 
recreation and hunting. If the United States does not acquire private 
properties within the Forest boundaries as they become available, many 
will be developed for residential or commercial purposes to the 
detriment of watersheds, protected species habitat and public 
recreational needs.''

    It is also worth noting that the Land and Water Conservation Fund 
Act of 1964 (16 U.S.C.A. Sections 460l-4--460l-11) recognized special 
needs for U.S. Forest Service acquisition dollars in the eastern 
states:

``Provided further, That except for areas specifically authorized by 
Act of Congress, not more than 15 per centum of the acreage added to 
the National Forest System pursuant to this section shall be west of 
the 100th meridian.'' (16 U.S.C.A. 460l-9(a)(1))

    In fiscal year 2006, the Eastern Forest Partnership supports 
funding requests for the following LWCF projects in the eastern 
forests. (Projects are listed alphabetically and not in order of 
priority.)

                        [In millions of dollars]
------------------------------------------------------------------------
                           Project                               Amount
------------------------------------------------------------------------
Projects included in the President's budget (italics indicate
 increase above President's request):
    Cache River NWR [AR].....................................       .809
    Arkansas Forests [AR]....................................      1.539
    Carter G. Woodson Home NHS [DC]..........................      1.600
    Georgia Mountains [GA]...................................      4.500
    Illinois Disappearing Habitat [IL].......................      1.000
    Hoosier Unique Areas [IN]................................      1.500
    Daniel Boone NF [KY].....................................      5.463
    Lake Umbagog NWR [NH]....................................       .750
    Wayne Selected Lands [OH]................................      1.000
    Flight 93 Memorial [PA]..................................      4.200
    Francis Marion/Sumter NF's [SC]..........................      7.500
    Eastern Shore NWR [VA]...................................      1.750
    Prince William Forest Park [VA]..........................      1.175
Projects not included in the President's budget:
    Silvio Conte NWR (multi-state)...........................      3.300
    Alabama National Forests [AL]............................      2.300
    Cahaba River NWR [AL]....................................      1.000
    Florida National Scenic Trail [FL].......................      3.000
    Suwannee Wildlife Corridor/Pinhook Swamp [FL]............      3.000
    Chattooga Wild & Scenic River [GA, NC, SC]...............      2.500
    Cumberland Gap NHP-Fern Lake Watershed [KY/TN]...........      3.000
    Delta NF [MS]............................................      2.300
    Uwharrie NF [NC].........................................       .500
    Great Swamp NWR [NJ].....................................      1.000
    Tennessee Mountains [TN].................................      3.000
    Obed Wild and Scenic River [TN]..........................      1.500
    Jefferson NF-Black Lick, Rumley Branch [VA]..............      1.900
    Green Mountain NF-Broad Brook and others [VT]............      3.500
                                                              ----------
      Total fiscal year 2006 LWCF Request for Eastern Forests     64.586
------------------------------------------------------------------------

    It is worth noting that the state LWCF program, for which funding 
was entirely eliminated in the President's budget, is also an important 
source of funding for eastern forest conservation, and is often used to 
fund complementary state park and recreation projects that leverage the 
conservation value of Federal lands and areas conserved using Forest 
Legacy funding. Continued allocations for the state LWCF program would 
be very positive for eastern forests and synergistic with the other 
funding that we have requested.
    The Forest Legacy and Federal LWCF projects listed in this 
testimony represent the best that the eastern forests have to offer, 
but are just a sliver of the total range of important and ready 
projects across the region that would conserve important public 
resources. We would be grateful for your consideration of this 
testimony as you go through the appropriations process.
                                 ______
                                 
           Letter From the Grand County, Utah Council Members
                              Grand County Council Members,
                                Grand County, Utah, April 25, 2005.
Hon. Conrad Burns, Chairman,
Hon. Byron L. Dorgan, Ranking,
Senate Appropriations Subcommittee on Interior and Related Agencies, 
        U.S. Senate, Washington, DC.
    Dear Sirs: I am writing this letter on behalf of the Grand County 
Council expressing our support of our local Bureau of Land Management 
Moab Field Office's application for 2006 Land Water Conservation Funds 
in the amount of $1.2 million.
    The money would allow the BLM to purchase 14 acres of private lands 
in the Colorado River Special Recreation Management Area (SRMA) for 
expansion of BLM's Westwater Ranger Station. This expansion would allow 
the BLM to add additional parking, campsites and a leach field for 
wastewater.
    The money would also be used to purchase a conversation easement of 
530 acres of riverfront property located downstream of the Westwater 
Ranger Station. This easement would prevent development in a habitat 
for nesting bald eagles, four endangered fish species and for 
enhancement of wetland properties.
    We strongly support this application and ask that you do all that 
you can to lobby for the Colorado River SRMA project on behalf of the 
BLM office in Grand County.
    Thank you for consideration of this request.
            Sincerely,
                                   Jerry McNeely, Chairman,
                                              Grand County Council.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    Mr. Chairman and Honorable Members of the Committee: Thank you for 
the opportunity to present this testimony in support of a $2 million 
appropriation from the Land and Water Conservation Fund for critical 
land protection in the Minnesota National Forests. The top priority for 
the Minnesota Forests is the acquisition of undeveloped Long Island on 
Burntside Lake in the Superior National Forest. The Izaak Walton League 
of America supports this request.
    I have visited and canoed on Burntside Lake many times, and can 
speak from personal experience of Burntside's value, and the 
increasingly difficult opportunity of preserving publicly-owned, 
undeveloped islands on this popular lake. Though I have not visited 
Long Island itself, since it has been in private ownership, I have seen 
it many times and know of its value if it were to become a publicly-
owned, undeveloped island.
    Burntside Lake is located about three miles northwest of the city 
of Ely in northeastern Minnesota. The entire 7,100-acre lake is located 
within the boundaries of Superior National Forest. The lake is an 
important recreational area, with two entry points into the Boundary 
Waters Canoe Area Wilderness (BWCAW), the nation's most heavily visited 
unit of the National Wilderness Preservation System. Burntside also has 
five public, primitive campsites and six public boat and canoe 
launching points. The lake is also the start of an 11-mile canoe route 
called Burntside-Dead River-Twin Lakes-Everett, which is outside the 
BWCAW yet within the National Forest boundaries. The deep lake (126 
feet deep) supports lake trout and is one of the few lakes in Minnesota 
outside of the BWCAW that supports a natural cold-water fishery. The 
lake is renowned for its big lake trout and walleye and also supports 
one of the largest populations of loons (Gavia immer) in the state.
    Burntside Lake also holds significant historic and cultural value. 
The historic Burntside Lodge, for example, built in 1913, is located on 
the lake and is on the National Historic Registry. Even more 
importantly, however, Burntside Lake is also the location of writer and 
conservationist Sigurd Olson's famous Listening Point, a forested 
shoreline point and a rustic cabin. Listening Point was a place of 
inspiration for Sig, his wilderness advocacy, and his many books 
(including one entitled Listening Point). Long Island is situated 
directly across from Sig's Listening Point, a place I have visited many 
times. The view from Listening Point includes Long Island, a view that 
inspired Sig during his lifetime and the many visitors who still come 
to visit the point.
    The Izaak Walton League believes that Long Island would be an 
outstanding addition to the Superior National Forest, bringing one mile 
of undeveloped lakeshore into public ownership. The island has a 
beautiful sand beach along that lakeshore, which would be utilized by 
the public for recreation. The island is home to nesting osprey, great 
blue herons, and common loons. The 64-acre Burntside Islands Scientific 
and Natural Area (SNA), owned by the State of Minnesota, features two 
virtually undisturbed islands and is located immediately southwest of 
Long Island. These two forested bedrock islands are home to old-growth 
Great Lakes pine forests that are extremely rare outside of the BWCAW. 
Public acquisition of the Long Island property will bring to public 
ownership an outstanding treasure that will be protected in perpetuity.
    The League supports an appropriation of $2 million from the Land 
and Water Conservation Fund in fiscal year 2006 to secure the 
acquisition of Long Island, protect its critical natural resources for 
the public, and maintain the integrity of the great northwoods 
experience provided for by the Superior National Forest.
    Thank you for the chance to submit this request.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters

                              INTRODUCTION

    The National Association of State Foresters (NASF) is pleased to 
provide testimony on the U.S. Forest Service (USFS) $4.88 billion 
budget request for fiscal year 2006. Representing the directors of 
state forestry agencies from the states, eight U.S. territories, and 
the District of Columbia, our testimony centers around those program 
areas most relevant to the long term forestry operations of our 
constituents. State and Private Forestry programs multiply the public 
benefits of federal funding by leveraging in-kind contributions through 
cost-share programs and matching funds from states. Wildland Fire 
Management supports essential State and Private Forestry and federal 
programs that address wildland fire.
    We commend the President's commitment to the Forest Stewardship 
Program and the Forest Inventory and Analysis (FIA) program in the USFS 
budget for fiscal year 2006. Our recommendations include restoring 
funding to our top three priorities (State Fire Assistance, Cooperative 
Forest Health Management, and Urban and Community Forestry) and 
discussing other opportunities for Congress to further the advancement 
of sustainable management on both public and private forestland 
nationwide.

                  STATE AND PRIVATE FORESTRY PROGRAMS

State Fire Assistance (SFA)
    State Fire Assistance (SFA) provides much-needed financial and 
technical assistance to states for wildland fire management. It helps 
to ensure preparedness of state and local resources who serve as the 
first line of defense for their forests and communities. These fire 
fighting resources function as both ``first responders'' for local 
situations and as ``ready reserves'' for large federally managed 
catastrophic fires. Further, SFA is the only program that currently 
provides funding for fuel reduction work on non-federal lands. It is 
also one of the few programs that helps communities develop Community 
Wildfire Protection Plans, which are an important component of the 
Healthy Forests Restoration Act.
    SFA provides the flexibility to meet different state needs, which 
may include firefighting preparedness, firefighter training, fire 
suppression, and hazardous fuel reduction, Community Wildfire 
Protection Plans, as well as prevention activities. SFA is funded under 
both Cooperative Fire Protection (State and Private Forestry) and 
Wildland Fire Management in the Forest Service budget. All SFA funds 
under Cooperative Fire Protection are used to help states increase 
preparedness at the local level through training, coordination, and 
providing communications equipment to local firefighters. Funding under 
Wildland Fire Management is used for both preparedness and hazard 
mitigation. Reducing these funds would seriously hamper the states' 
ability to treat hazardous fuels on private lands and to work with 
communities to complete Community Wildfire Protection Plans.
    NASF recommends continued level funding for State Fire Assistance 
at $33 million under Cooperative Fire Protection and $40 million under 
Wildland Fire Management. Funding these line items at last year's level 
provides continued protection for local communities from catastrophic 
wildland fire, many of which originate on federal lands.

Cooperative Forest Health Management
    The Cooperative Forest Health Management program provides funding 
assistance to address Forest Health issues on non-federal forestland. 
Cooperative Forest Health Management concerns include prevention, 
detection, and suppression of damaging insects, diseases, and plants. 
Every year, the American public loses billions of dollars to invasive 
species, insects, and disease detection and control. The Cooperative 
Forest Health Management program assists in the development and 
application of new technologies that mitigate these forest health 
concerns and reduce public expenses. These funds, from both State and 
Private Forestry (S&PF) and Wildland Fire Management, are critical to 
the maintenance of healthy sustainable forests. Forest pests know no 
land ownership boundaries and often move to and from federal lands.
    NASF recommends funding S&PF Cooperative Forest Health Management 
at the fiscal year 2005 level of $48 million to provide the tools 
needed to address forest health issues across the many non-federal 
forest types and ownerships in the United States.
    NASF also recommends $10 million to continue level support for 
Cooperative Forest Health Management under Wildland Fire Management to 
address forest health problems that increase the risk of catastrophic 
wildland fire. Cooperative Forest Health Management funds help states 
achieve the goals of the Healthy Forests Initiative by restoring 
healthy forests across ownership types.

Urban and Community Forestry
    The Urban and Community Forestry program provides technical and 
financial assistance to promote the stewardship of urban and community 
trees and forest resources. The program leverages existing local 
efforts that help urban areas and rural communities manage, maintain, 
and improve their tree cover and green spaces. Such efforts emphasize 
the vital connection between human and natural environments, and create 
social and aesthetic benefits.
    NASF is working with the Forest Service to develop a new allocation 
formula to distribute funding among the states and territories. This 
new formula will more closely align state funding allocation with 
program goals and objectives.
    NASF recommends funding the Urban and Community Forestry program at 
the fiscal year 2005 level of $32 million to enhance the quality of 
life for communities in urban and rural areas.

Forest Stewardship Program
    The Forest Stewardship Program continues to serve as the primary 
program for promoting sustainable forest management on family forest 
lands. From 1991 to 2002, the Forest Stewardship program turned out 
more than 217,000 Stewardship Plans covering more than 25 million 
acres. These management plans help landowners to sustainably manage 
their forestland for the benefit of all. NASF encourages efforts to 
better target the delivery of the Forest Stewardship Program in order 
to focus on priority resources concerns. NASF supports the President's 
proposed funding of $37.1 million in fiscal year 2006 for the Forest 
Stewardship Program.

Forest Inventory and Analysis (FIA)
    The Forest Inventory and Analysis program provides crucial forest 
information to policy makers and land managers, enabling them to make 
informed forestry-related decisions. FIA data provides users with 
relevant information on the condition, extent, use, and health of 
forests across ownership. Increasing funding for this program will 
enable this important work to continue, while improving the quality of 
information being provided. NASF supports the President's 
recommendation of providing $73.3 million for full funding of the FIA 
program. We recommend the funding increase be used to establish a full 
inventory cycle in each state, and to ensure timely annual reporting. 
Together with a well-funded research program, FIA will continue to 
provide essential inventory data for addressing long-term forest 
management needs.

Economic Action Program (EAP)
    The Economic Action Program is the only federal assistance program 
that targets forest-based economic development. With our current forest 
health threats across the country, EAP helps find local solutions to 
forest health problems while fostering economic sustainability in 
communities. State Foresters will continue to work with the Forest 
Service and rural communities to help them deliver a focused and 
results oriented forest-based economic development program.

                         OTHER FEDERAL PROGRAMS

Federal Wildland Fire Management
    NASF recommends continued funding of federal wildland fire 
management at the 10-year average. Funding is integral to rapid 
suppression of small fires before they grow into large and costly 
fires. The increasing costs of wildfires--due mainly to drought, fuel 
accumulation, and the rapid expansion of the wildland-urban interface--
makes adequate suppression funding critical. We support continued 
funding for preparedness, fire operations, and hazardous fuels 
treatment on federal land, including the $15 million provided under 
State and Private Forestry Appropriations that may be used on non-
Federal land to protect communities at risk from adjacent USFS lands 
where hazard reduction activities are planned.

DOI conservation grant programs
    NASF supports the Department of the Interior conservation grant 
programs for private landowners to manage their land for a variety of 
public benefits. Continued funding will ensure these programs remain 
viable.

                               CONCLUSION

    NASF seeks the Subcommittee's support for a Forest Service fiscal 
year 2006 budget that will ensure the continued delivery of a broad 
range of public benefits from privately owned forest lands. 
Collaboration among stakeholders across the landscape--federal, state, 
and local government agencies, private landowners, industry, and non-
profit organizations--is necessary to manage for the wide range of 
forest resources found on all ownerships and the values derived from 
those lands. Cooperative Forestry, State and Private Forestry (S&PF), 
and Wildland Fire Management provide these links. The federal share 
leverages private dollars and provides an important catalyst for 
collaboration in order to take the work far beyond the usual boundaries 
of federal land management.
    We realize that the Subcommittee will be faced with some difficult 
funding decisions this year and will have to make sacrifices and 
tradeoffs to some programs. NASF encourages you to keep our priorities 
in mind when making these decisions.
    Thank you for the opportunity to provide our testimony.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    Mr. Chairman, on behalf of the more than four million members and 
supporters of the National Wildlife Federation, thank you for the 
opportunity to express to your Subcommittee our funding recommendations 
for Interior Department and U.S. Forest Service programs in fiscal year 
2006. The purpose of our testimony is to recommend levels of funding 
for a few specific programs that are vital to our mission to educate, 
inspire and assist individuals and organizations of diverse cultures to 
conserve wildlife and other natural resources in order to achieve a 
peaceful, equitable and sustainable future. NWF requests a total of 
$1,296,387,000 in funding for our priority programs, or $260,547,000 in 
increases above the President's budget request.

                                U.S. FWS

State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grant program provides states and 
their partners a broad suite of conservation tools early enough to 
allow for meaningful and effective species conservation. The program 
strategically focuses resources on those species most in need of 
conservation, leverages state and private funding, and promotes 
scientific understanding of these species and their habitats. The 
Administration's request for $74 million is an increase in funding for 
this program from the 2005 enacted level, but is still $6 million less 
than the $80 million the President requested last year. This program's 
needs are much larger and growing, so we ask the Subcommittee to 
increase its support to $85 million, an increase of $11 million over 
the President's request. This is the nation's only program to keep 
species of every state common.

Endangered Species Program
    We are disappointed that the Endangered Species Program has not 
been funded at the level needed to carry out its purpose of preventing 
extinction and recovering our irreplaceable wildlife. While we note 
with appreciation the increases in funding for the Listing and 
Consultation programs, we are concerned that the President's budget 
proposal would cut total funding by over $3.1 million. The Species 
Recovery program would suffer the deepest cuts of more than $5.6 
million, while funding for Candidate Conservation faces the largest 
percentage reductions of over 10 percent. Overall, the President's 
budget allots only $140 million to ESA protections, and although this 
is an improvement over the fiscal year 2005 budget request, the needs 
of the FWS are much greater. We urge the Subcommittee to appropriate at 
least $212 million toward the Endangered Species Program (an increase 
of $72 million) for the following critical activities:
  --Listing Program.--The proposed $2 million increase in the Listing 
        and Critical Habitat account will not begin to cover the 
        backlog of species awaiting action on listings and critical 
        habitat designations. More than 250 candidate species have been 
        denied the ESA's safety net due to lack of resources, including 
        the Washington ground squirrel, sheath-tailed bat, gunnison 
        sage grouse, and the elfin woods warbler. Some of these have 
        been candidates for years and could become extinct while 
        waiting for ESA protection. To address this backlog, FWS needs 
        $30 million, or an $11.87 million increase in the Listing 
        account (FWS has estimated that it would take $30.6 million a 
        year for 5 years to clean up this backlog).
  --Recovery Program.--Under the President's budget this program would 
        be reduced by $5.63 million to 8 percent below the 2005 enacted 
        level, even though FWS has said that more than 200 currently 
        listed species are on the verge of extinction because not 
        enough funds are available for recovery activities. The cut 
        includes a $1.18 million decrease for wolf recovery in Montana, 
        Idaho, and Wyoming, undermining a great wildlife recovery 
        success stories. The President's budget also cuts almost $4 
        million in grants for Pacific and Atlantic salmon, as well as 
        $986,000 from the Platte and Upper Colorado River Recovery 
        Programs. Loss of this funding would erase benefits from past 
        investments, since these recovery programs are just now being 
        implemented. In order to develop and implement recovery plans 
        for all species needing them, FWS needs $110 million--or $46 
        million over the President's request.
  --Consultation Program.--Consultation received an increase of $1.35 
        million, which is not sufficient to meet the FWS's future needs 
        in this area. In order to ensure consultations are successfully 
        completed in a timely manner, we urge the Committee to increase 
        funding for consultation to $57.146 million, which is $7.66 
        million over the President's request.
  --Candidate Conservation.--Candidate species are plants and animals 
        for which listing is precluded due to lack of resources and 
        other higher priority listing activities. The President has 
        also proposed reducing the Candidate Conservation program by 
        approximately $1 million, despite the fact that efforts to 
        protect candidate species early are extremely cost-effective 
        and reduce the difficulty and expense of species recovery. We 
        request an increase to $14.808 million, which is $6.56 million 
        over the President's request.

Habitat Conservation
    While we appreciate the $7.5 million increase in funding for 
Habitat Conservation included in the Administration's request, NWF is 
extremely disappointed that the Administration's budget eliminates 
funding for the High Plains Partnership. This public-private 
partnership proactively conserves declining grassland habitats and 
species like the sage grouse, lesser prairie chickens, and black tailed 
prairie dogs while making private lands more economically viable, using 
land owner incentives and technical assistance. We ask the Subcommittee 
to reinstate full funding of $986,000 for the important and highly 
cost-effective High Plains Partnership Program.

National Wildlife Refuge System Operations and Maintenance
    The President's budget calls for a $12.87 million increase for the 
National Wildlife Refuge System Operations and Maintenance budget. 
While we appreciate the President's commitment to increasing funding 
for the Refuge System, we note with concern that when cost-of-living, 
energy, and increasing levels of visitor services and wildlife 
management requirements are taken into account, this increase would 
ultimately be an effective cut in refuge funding (and thus a decrease 
in refuge services). NWF supports the Cooperative Alliance for Refuge 
Enhancement (CARE) recommendation of a $16 million increase over the 
fiscal year 2005 level to a total of $397 million to approach a ``no-
net-loss'' position for the Refuge System, and avoid layoffs and 
reductions in services, maintain protections for wildlife and habitat, 
prevent backsliding on gains already made, and help reduce the $931 
million maintenance backlog and address critical operations needs in 
the National Wildlife Refuge System in coming years.

Multinational Species Conservation Funds and Wildlife Without Borders
    NWF is concerned to see that the President's budget reduces total 
funding for the Multinational Species Conservation Fund by $1.36 
million. For fiscal year 2006, we ask the Subcommittee to again support 
these successful programs by appropriating $2 million each for the 
African Elephant, Asian Elephant, Great Apes and Marine Turtle 
Conservation Funds, $2.5 million for the combined Rhinoceros and Tiger 
Conservation Funds, and $5 million for the Neotropical Migratory Bird 
Conservation Fund for a total of $15.5 million for these 6 funds, $7.2 
million above the President's request. We also suggest an increase of 
$1.5 million over the President's request for Wildlife Without Borders, 
for a total of $2.5 million. All of these highly successful programs 
enables the Department of Interior to promote conservation of 
threatened species in their natural habitats. Each of these programs is 
highly leveraged, bringing in several times as much funding from 
private and other public sources as the amounts appropriated. These 
funds will enable the Department of Interior to expand critical support 
for these threatened populations in their natural habitats. All of 
these proposed increases amount to a total of $8.7 million above the 
President's request.

Service Landowner Incentive Program
    NWF supports the President's increases in funding for the Landowner 
Incentive Program. We request that $6 million of the total $40 million 
budgeted for this program be allocated to strengthen the technical 
capacity of the State Natural Heritage Programs and NatureServe to 
provide the reliable scientific information required for effective 
conservation efforts.

           BLM NATIONAL LANDSCAPE CONSERVATION SYSTEM (NLCS)

    The NLCS is an American treasure that consists of 26 million acres 
of BLM's most spectacular lands. Since its creation in June 2000, 
however, the System has been chronically under-funded, and is in 
critical need of adequate resources just to meet the planning 
requirements and to manage the growing number of visitors for these new 
units. A shoestring budget means critical needs go unmet; illegal and 
irresponsible off-road vehicle traffic increases, invasive species 
spread, land acquisition opportunities slip away, and ancient artifacts 
are vandalized. We request an increase of $3.2 million in Operations, 
Maintenance, and Planning funding for the NLCS, for a total of $46.6 
million for resource protection, archeological inventories, and law 
enforcement capability. Additionally, we request an additional $2 
million in critical land acquisitions needs above the President's 
request.
    NLCS Operations request of $3.2 million above the President's 
request for the following projects:
  --Agua Fria National Monument, AZ: $300,000 for cultural resource 
        protection, visitor education and infrastructure needs.
  --Canyons of the Ancients National Monument, CO: $100,000 to prevent 
        looting and vandalism of cultural treasures.
  --Craters of the Moon National Monument, ID: $100,000 for invasive 
        species control.
  --Grand Canyon-Parashant National Monument, AZ: $350,000 for habitat 
        restoration, resource monitoring, cultural and historic site 
        research and protection.
  --Grand Staircase-Escalante National Monument, UT: $400,000 for 
        cultural and paleontological research and biological 
        monitoring.
  --Headwaters Forest Reserve, CA: $25,000 for wildlife survey analysis 
        and education.
  --Ironwood Forest National Monument, Las Cienegas National 
        Conservation Area and San Pedro Riparian Area, AZ: $150,000 for 
        increased law enforcement, field presence and visitor 
        education.
  --Pacific Crest Trail, CA: $150,000 for improved trail maintenance 
        and management.
  --Santa Rosa and San Jacinto Mountains National Monument, CA: 
        $500,000 for tamarisk removal, watershed assessment, and 
        visitor education.
  --Sonoran Desert National Monument, AZ: $385,000 for visitor 
        management, law enforcement and education.
  --Steens Mountain Cooperative Management and Protection Area, OR: 
        $60,000 for creation of a new Wilderness volunteer coordinator.
  --Upper Missouri River Breaks National Monument, MT: $300,000 for 
        ilaw enforcement.
  --Vermilion Cliffs National Monument, AZ: $400,000 for cultural 
        resource protection, invasive species control, visitor 
        education and environmental monitoring.
    NLCS Land Acquisition request of an additional $2 million above the 
President's request:
    We support the President's fiscal year 2006 request for Land and 
Water Conservation Fund projects for Canyons of the Ancients, Santa 
Rosa and San Jacinto Mountains, and Agua Fria National Monuments; El 
Malpais, and Colorado Canyons National Conservation Areas; and other 
NLCS units. In addition to those projects, we urge the Subcommittee to 
fund $600,000 for land acquisition along Ankle Creek in Steens Mountain 
Cooperative Management and Protection Area, Oregon; $700,000 to acquire 
Soda Mountain inholdings in Cascade-Siskiyou National Monument, Oregon; 
and $770,000 to acquire the Calf Creek parcel in Grand Staircase-
Escalante National Monument, Utah.

               U.S. FOREST SERVICE FOREST LEGACY PROGRAM

    NWF commends the Administration for requesting a $22 million 
increase for the Forest Legacy Program, but we note that this is 
actually $20 million less than the President requested in fiscal year 
2005. The needs of this program are much larger and growing, so we ask 
the Subcommittee to appropriate $100 million for the program, or an 
increase of $20 million. Forest Legacy protects environmentally 
important forests that are threatened with conversion to non-forest 
uses, while protecting local communities and their way of life. The 
program has been especially important in states where there are few 
federal land holdings and timber companies are in the process of 
consolidating and selling their lands.
    We also request that you to include $5 million for the U.S. Forest 
Service's North Florida Wildlife Corridor-Pinhook Land and Water 
Conservation Fund project. Located between the Osceola National Forest 
in Florida and the Okefenokee National Wildlife Refuge in Georgia this 
important corridor includes the headwaters of the Suwannee and St. 
Mary's rivers and provides habitat for a number of threatened and 
endangered species, as well an array of diverse birds and other 
wildlife. The North Florida Wildlife Corridor/Pinhook Swamp provides a 
critical biological and hydrological link between these two areas. It 
represents the final piece of a conservation strategy to create one of 
the largest contiguous protected natural areas in the United States. In 
fiscal year 2006, $5 million is needed to purchase 5,000 acres of lands 
that are critical to the project. Each year the pressures of 
encroaching development and increased human populations threaten the 
ultimate goal to create the largest wildlife corridor in the United 
States. We urge you to help protect this vital area while there is 
still time.

                 AND AND WATER CONSERVATION FUND (LWCF)

    The federal LWCF provides funding for the acquisition of valuable 
wildlife habitat by the federal land management agencies. The LWCF is 
an invaluable tool to help enhance wildlife habitat, preserve natural, 
cultural, and historic sites, restore declining native species, and 
halt the destruction and fragmentation of millions of acres of habitat 
occurring annually across the United States. NWF is concerned to see 
that the President's budget includes significant cuts to the LWCF. 
Massive cuts to the LWCF would be devastating to this highly effective 
program, responsible for preserving nationally beloved areas such as 
Redwoods National Park, Gettysburg Military Park, and the Appalachian 
Trail. In fiscal year 2001, Congress and the President agreed to fund 
the federal LWCF at $450 million, as part of the CCPII ($300 million 
above the President's request). We urge the Subcommittee to provide at 
least $200 million for federal LWCF.
    In addition, Stateside LWCF provides matching funds for state and 
local recreation and conservation programs. We are extremely 
disappointed to see that the Administration's budget cuts all funding 
for stateside LWCF. Eliminating this Fund would seriously impact 
locally sponsored recreation projects that provide opportunities for 
youth, seniors and the physically challenged. We ask the Subcommittee 
to restore $90 million for Stateside LWCF in keeping with the 
previously agreed-upon levels of funding for LCPII.
    Thank you for providing us with this opportunity to testify on the 
budget requests for the Interior Department and U.S. Forest Service.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals and members of the 
more than 240 refuge ``Friends'' group organizations throughout the 
United States, thank you for the opportunity to offer comments on the 
fiscal year 2006 Interior Appropriations bill.
    Specifically, we respectfully request that the Subcommittee support 
a $16 million increase in the operations and maintenance budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service (FWS), in the fiscal year 2006 budget. This request represents 
a ``no-net-loss'' approach to the Refuge System budget. We also ask the 
Subcommittee to: restore funding for the refuge Wildlife and Habitat 
and Visitor Services accounts; continue to support volunteer projects 
on and in connection with refuges, like the Cooperative Volunteer 
Invasives Monitoring Program, that utilizes Friends and volunteers to 
identify and eradicate invasive species; allocate $150,000 in the U.S. 
Geological Survey (USGS) budget to integrate Refuge System invasive 
species data with the USGS National Institute of Invasive Species 
Science (NIISS) database; protect refuges from threats under the 
auspices of right-of-way privileges; provide $85 million for the State 
and Tribal Wildlife Grants Program; and provide funding for land 
acquisition in the Refuge System through the Land and Water 
Conservation Fund.
    As you know, the National Wildlife Refuge System continues to be 
crippled by a $2 billion funding backlog that harms every refuge in the 
System. Specifically, funding shortfalls limit the ability of refuges 
to successfully conduct important biological programs and hire critical 
staff, while also hindering opportunities for the public to engage in 
compatible wildlife-dependent recreation.
    While significant strides were made to reduce the shortfall in 
connection with the 100th anniversary of the National Wildlife Refuge 
System--and we are grateful to the Subcommittee for its work in this 
regard--efforts must be made to prevent any backsliding on these past 
gains. The Cooperative Alliance for Refuge Enhancement (CARE), 21 
diverse conservation and sporting organizations, of which the NWRA is a 
member, has determined that it will be necessary to increase the annual 
Refuge System budget to $700 million simply to meet the System's top 
tier needs. Our groups, representing a national constituency numbering 
more than 5 million Americans, recognize the value of a healthy Refuge 
System to both the wildlife and habitats refuges were established to 
protect and the 40 million visitors that frequent these special places 
each year.
    The National Wildlife Refuge System budget must increase by 
approximately $16 million in fiscal year 2006 to achieve a ``no-net-
loss'' funding level. The $16 million increase accounts for cost-of-
living increases for FWS personnel, rising energy costs and other cost 
increases, while sustaining current levels of visitor services and 
wildlife management. This funding level will allow the Refuge System to 
avoid employee layoffs and reductions in services, maintain protections 
for wildlife and habitat, prevent backsliding on gains already made, 
and help to contain growth in the Refuge System backlog.
    The NWRA is concerned about cuts in the Administration's fiscal 
year 2006 budget proposal for the Wildlife and Habitat account. The 
cuts affect funding for essential staffing needs and represent 
approximately 10 FWS jobs.
    We are also concerned about cuts in the Administration's fiscal 
year 2006 budget proposal for the Refuge System's Visitor Services and 
Visitor Facility Enhancements programs. Visitor Services funding pays 
for many Friends group and volunteer programs that support refuges and 
provide the public with wildlife-dependent recreation opportunities. We 
urge the Subcommittee to restore this vital funding to prevent refuges 
from losing the ability to provide to the public the simplest and most 
cost-effective methods of outreach, education and orientation, made 
possible, in part, by the vibrant Refuge System volunteers.
    For fiscal year 2006, we also encourage the Subcommittee to 
continue its support for volunteer-based invasives detection and 
eradication activities by again appropriating $1 million for volunteer-
oriented invasives programs.
    The NWRA thanks the Subcommittee for its work in the fiscal year 
2003 and fiscal year 2005 budgets to promote the use of volunteers to 
address the growing threat of invasive species on and adjacent to our 
national wildlife refuges. More than 300 separate refuges have taken 
actions to control invasives, and the Refuge System has identified $150 
million of invasive species projected needs. By utilizing the strong 
volunteer support available to the Refuge System, we can significantly 
expand our ability to identify and record data on invasives in refuges, 
and implement control measures.
    The Cooperative Volunteer Invasives Monitoring Program (VIMP), 
currently underway at six pilot refuges (Hobe Sound (FL); National 
Bison Range (MT); Ottawa (OH); San Bernard (TX); San Pablo Bay (CA); 
and the Pondicherry unit of Silvio O. Conte (NH)), is showing 
tremendous results. The Program is a partnership among the NWRA, FWS, 
USGS and The Nature Conservancy that seeks to train refuge volunteers 
to identify invasives and collect extensive data using inexpensive but 
sophisticated global positioning system (GPS)/geographic information 
system (GIS) data-collection equipment. The data is entered into a 
centralized database and will augment incomplete information previously 
compiled by refuge staff.
    As a result of funding provided by this Subcommittee in fiscal year 
2005, the six original pilot refuges in the VIMP will begin invasive 
species control efforts, while at least six new sites will be added to 
the program. The balance of the fiscal year 2005 allocation will 
provide funding for a competitive grants program for cooperative 
invasives projects with refuge Friends and volunteers.
    Collection of this data aids the FWS in detecting early 
infestations of invasives on refuges, and helps to prioritize rapid 
response eradication activities. This technology is already proving 
successful and should continue to be expanded to a larger percentage of 
refuges in the coming years. The program provides a more complete 
picture of the scope and impact of invasives on fragile refuge habitats 
and helps the FWS develop stronger invasives management protocols. In 
addition, broader community awareness and involvement generated through 
this program serves to strengthen federal, state and private lands 
initiatives aimed at addressing this rapidly growing threat.
    The USGS National Institute of Invasive Species Science assists the 
FWS and other Department of the Interior agencies in invasive species 
monitoring and management efforts. In 2002, NIISS conducted a refuge-
wide survey of invasive species and created a web-based database to 
report this information. Expanding this database into one capable of 
combining existing disparate data on invasive species in the Refuge 
System would greatly advance efficiency and cost-effectiveness of early 
detection and control as well as help track the success of control 
efforts.
    We recommend that the Subcommittee allocate $150,000 in the USGS 
budget to integrate National Wildlife Refuge System invasive species 
data (such as the data created through the Cooperative Volunteer 
Invasives Monitoring Program, Invasive Plant Strike Teams and Refuge 
Lands GIS) with the NIISS database.
    The NWRA supports the Administration's request for funding to 
increase the number of rapid response strike teams to quickly respond 
to invasive species infestations. We ask the Subcommittee to include 
funding for the creation of two more strike teams for fiscal year 2006 
to effectively combat the spread of invasive species in wildlife 
refuges, while preserving funding for base programs.
    We would also like to express our appreciation to the Subcommittee 
for extending the Recreational Fee Demonstration Program for 10 years 
in fiscal year 2005. Our organization, members and affiliated Friends 
groups see first-hand the benefits this valuable program provides the 
Refuge System. We hope the 109th Congress will act to make this 
important program permanent.
    The NWRA also encourages the Subcommittee to include language 
prohibiting the use of funds by the Bureau of Land Management to use 
the recordable disclaimer regulations with regard to any lands within a 
designated National Wildlife Refuge System unit, national monument, 
wilderness study area, National Park Service unit, or lands within the 
National Wilderness Preservation System. As the Subcommittee is aware, 
issues such as rights-of-way claims in national wildlife refuges 
through the use of Revised Statute 2477 threaten wildlife habitat and 
visitor experiences at many refuges.
    We encourage the Subcommittee to fund the State and Tribal Wildlife 
Grants Program at $85 million. This important program gives states the 
needed funding to develop and implement comprehensive conservation 
plans to protect declining species and their habitats.
    The NWRA also encourages the Subcommittee to provide funding for 
land acquisition in the Refuge System through the Land and Water 
Conservation Fund. Specifically, we request the following:
  --$1.9 million for Balcones Canyonlands NWR (TX);
  --$2 million for Bear River Migratory Bird Refuge (UT);
  --$2.3 million for Big Muddy NWR (MO);
  --$500,000 for Chickasaw NWR (TN);
  --$300,000 for E.B. Forsythe NWR (NJ);
  --$510,000 for Great Swamp NWR (NJ);
  --$2.5 million for Laguna Atascosa NWR (TX);
  --$2.5 million for Lower Rio Grande Valley NWR (TX);
  --$1.6 million for Rachel Carson NWR (ME);
  --$2.5 million for Tensas NWR (LA); and
  --$2.15 million for Trustom Pond NWR (RI).
    In conclusion, the NWRA believes the National Wildlife Refuge 
System can meet its important conservation objectives only with strong 
and consistent funding leveraged by the valuable work of refuge 
volunteers. We extend our appreciation to the Subcommittee for its 
ongoing commitment to our National Wildlife Refuge System.
                                 ______
                                 
      Prepared Statement of the Native Plant Conservation Campaign

                               REGARDING

    Botany Programs of the Bureau of Land Management and the U.S. 
Forest Service, the Recovery Program of the U.S. Fish and Wildlife 
Service, Prevention and the Department of the Interior Programs for 
Control of Invasive Non-Native Species Infestations and the Native 
Plant Materials Development.
    The Native Plant Conservation Campaign (NPCC) is a nationwide 
network of native plant science and conservation organizations. The 
NPCC is a project of the Center for Biological Diversity and the 
California Native Plant Society. Our mission is to promote appreciation 
and conservation of native plant species and communities through 
collaboration, education, law, policy, land use and management. 
Currently the NPCC network includes 33 affiliate native plant 
societies, botanic gardens, museums, and arboreta, representing more 
than 60,000 scientists and laypersons nationwide. NPCC members rely on 
public lands and botanical resources for enjoyment, education, 
research, and recreation. The NPCC requests that the Senate augment the 
budget of the Bureau of Land Management (BLM) by $21,126,613 and that 
of the U.S. Forest Service (USFS) by $15,516,977 to adequately staff 
botany programs within these agencies. We further request a minimum of 
$100 million for the FWS Recovery Program budget to begin to address 
the backlog in recovery plan implementation, and $14.4 million for 
invasive non-native plant inventory and control. Finally we request $10 
million for the BLM and USFS Native Plant Materials Development 
Program.

                               BACKGROUND

Land Management Agency Staffing
    America's native plants and public lands are central to the 
nation's quality of life and economic well being. Botanists are among 
the most important resource managers on public lands, but land 
management agencies are severely understaffed in botany. Nationwide, 
the Bureau of Land Management (BLM) employs approximately 61 botanists 
to manage vegetation on its 264 million acres (1 botanist/4.3 million 
ac.). The U.S. Forest Service (USFS) employs approximately 200 
botanists across 191 million acres of National Forests (1 botanist/1.1 
million ac.). This is a serious problem for a number of reasons.
    First, plants are the foundations of ecosystems. Health of native 
vegetation controls the quality and quantity of goods, services and 
enjoyment that Americans derive from our public lands. Second, 
butterflies, bears, and all native wildlife that the public enjoys 
require healthy native plant communities for survival. Third, species 
conservation, recreation, commodity production and all other programs 
require input and review from qualified botanists to avoid resource 
damage, controversy and litigation. National Forests, for example, 
provide habitat for nearly 2,000 ``sensitive'' plants, any of which 
could become eligible for federal listing if mismanaged. Finally, the 
President's priorities for public lands include increased emphasis on 
fire and invasive species management to prevent further ecological 
degradation. These priorities require high quality vegetation 
management, so botanists are integral to their successful 
implementation. Staffing levels are inadequate to meet agencies' duties 
to taxpayers or the needs of our resources.

Recovery
    Recovery of imperiled species and their removal from the federal 
endangered species list is the primary goal of the Endangered Species 
Act (ESA). Unfortunately, the President's 2006 budget request reduces 
recovery funding by 10 percent. Further, plant recovery programs are 
severely underfunded and understaffed. Sixty percent of federal 
endangered species are plants. However, according to the FWS in fiscal 
year 2000, only 4.5 percent of federal recovery funding went to listed 
plants. Thus, most plant recovery plans are not adequately implemented; 
many are not implemented at all. The FWS has a recovery ranking system 
based on likelihood of recovery and degree of threat to each listed 
species and a priority system for recovery tasks. We suggest that this 
system be used as the basis for more equitable recovery budgeting.

Invasive Non-Native Species
    Invasive non-native species cause up to $123 billion in economic 
losses in the United States each year. Scientists implicate non-native 
species in the decline of 49 percent of federally listed species (57 
percent of plants). According to the BLM, invasive non-native plants 
(weeds) already dominate at least 17 million acres of federal lands. 
These infestations reduce the value of our public lands for recreation, 
wildlife, and livestock. They also often cause other problems such as 
reduced water supply and increased fire danger. Agencies must be 
adequately funded to prevent and control invasive non-native species 
infestations. The President's budget calls for a reduction of funding 
for the Forest Service invasive species program. This is unacceptable 
as weeds are devastating ecosystems and economies throughout the United 
States.

Native Plant Materials Development Program--BLM Wildland Fire 
        Management Budget
    The purpose of this program is to develop seed of local native 
plants to be used for restoration and revegetation projects on federal 
lands. The use of native plant materials ensures sustainable, 
successful revegetation and restoration of public lands, helps maintain 
local biological diversity, and maintains a sustainable flow of goods 
and services from public lands. Funding for this program has been 
dropping. It should be fully funded. This program is funded through the 
BLM wildland fire management budget.

                                REQUEST

Land Management Agency Staffing
    The following augmentations are the minimum necessary to begin to 
move the agencies towards adequate botany staffing:
  --Each USFS Ranger District should be staffed with at least one full 
        time series 430 botanist.
  --There are 156 BLM field offices. Their areas of responsibility vary 
        from several thousand to several million acres. We propose that 
        BLM nationwide employ one series 430 botanist for each 500,000 
        acres under management. Botanists should be distributed based 
        on local workloads. At minimum each BLM field office should be 
        staffed with one full time botanist.
    Based on a GS-11 Step 1 base salary with no locality adjustment 
($45,239/yr), these staff levels would require the following budget 
augmentations:

----------------------------------------------------------------------------------------------------------------
                                                                                                    Additional
                                                               Current                               cost (vs.
                           Agency                                FTEs       FTE goal     Needed       current
                                                                                                      budget)
----------------------------------------------------------------------------------------------------------------
USFS.......................................................          200      \1\ 543        343     $15,516,977
BLM........................................................           61      \2\ 528        467      21,126,613
                                                                                                 ---------------
      Total................................................  ...........  ...........  .........      36,643,590
----------------------------------------------------------------------------------------------------------------
\1\ 1 FTE per Ranger District.
\2\ 1 FTE per 0.5 million acres.

Recovery
    We request full funding for FWS recovery plans for fiscal year 2006 
for plants and animals with High Recovery Potential and a High or 
Moderate degree of Threat, according to the FWS priority ranking 
system. For lower ranked species, we request that Priority 1 recovery 
actions identified in recovery plans be funded for fiscal year 2006. 
Priority 1 actions are defined by FWS as actions needed to prevent 
extinction.
    We do not have the FWS recovery budget requests for the species 
that fall into these categories. However, recent scientific studies 
based on the FWS priority system and species status recommended an 
augmentation of $300 million above current annual recovery spending. 
This augmentation would certainly improve recovery success under the 
ESA. Given current budget constraints, we request a recovery budget of 
at least $100 million for the fiscal year 2006 FWS recovery program.

Invasive non-native species
    The BLM received $7.7 million in fiscal year 2004 for control and 
inventory of invasive non-native plants nationwide. The agency 
estimated it required approximately $16 million to adequately meet 
needs for fiscal year 2005. That was a budget augmentation of $8.3 
million. We do not have fiscal year 2006 figures.
    Region 5 of the USFS has estimated that an additional $700,000/yr 
is needed to meet regional weed control needs for fiscal year 2006. 
Based on the assumption that all 10 USFS regions need at least that 
amount, we request a budget augmentation of $7 million for USFS non-
native plant inventory and control programs service-wide. Total fiscal 
year 2006 request for BLM + Forest Service = $15.4 million over fiscal 
year 2005 budget

Native Plant Materials Development
    This crucial program should be funded at a minimum of $10 million.
    We hope that you will take these proposals and issues into account 
as you formulate budgets for fiscal year 2006 and beyond. Thank you for 
the opportunity to present this request.

                            NPCC AFFILIATES

    Arizona-Sonora Desert Museum; Arizona Native Plant Society; Botanic 
Gardens Conservation International (BGCI); California Native Plant 
Society; California Oak Foundation; Center for Biological Diversity; 
Colorado Native Plant Society; Florida Native Plant Society; Grand 
Prairie Friends of Illinois; Herb Society of America; Idaho Native 
Plant Society; Iowa Native Plant Society; Kauai Native Plant Society; 
Lady Bird Johnson Wildflower Center; Maryland Native Plant Society; 
Minnesota Native Plant Society; Missouri Native Plant Society; Montana 
Native Plant Society; Native Plant Society of New Mexico; Native Plant 
Society of Northeastern Ohio; Native Plant Society of Oregon; New 
England Wild Flower Society (NH, CT, RI, MA, ME, VT); New Mexico Rare 
Plant Technical Council; North Carolina Botanical Garden; North 
Carolina Wild Flower Preservation Society; Oklahoma Native Plant 
Society; South Carolina Native Plant Society; Ticonderoga Arboretum and 
Botanical Gardens, VA; Utah Native Plant Society; Virginia Native Plant 
Society; Washington Native Plant Society; West Virginia Native Plant 
Society; and Wyoming Native Plant Society.

                            NPCC COOPERATORS

    Botresearch USA; CalFlora Database; California Trout; Center for 
Native Ecosystems; Defenders of Wildlife; Endangered Species Coalition; 
Forest Service Employees for Environmental Ethics; Pacific Rivers 
Council; PlantaEuropa; PlantLife, UK; Public Employees for 
Environmental Responsibility T&E Inc.; and Xerces Society.
                                 ______
                                 
           Prepared Statement of the Northern Forest Alliance

    On behalf of the Northern Forest Alliance, a coalition of fifty 
non-profit organizations, I would like to offer testimony in support of 
fiscal year 2006 Forest Legacy Program and Land and Water Conservation 
Fund (LWCF) projects in the Northern Forest totaling $21.667 million 
and $7.55 million, respectively. We hope to see these projects included 
in the fiscal year 2006 Interior and Related Agencies Appropriations 
Bill, and have listed them in two tables at the end of this testimony.
    Even in the face of challenging fiscal times, we feel that the 
federal government would greatly advance the public good by continuing 
to invest in Northern Forest conservation. The Northern Forest is a 
rural region of 26 million acres stretching from the Tug Hill Plateau 
in New York through the Adirondacks, northern Green Mountains and 
northern White Mountains, and into northern Maine. The Northern Forest 
is truly a place out of time that has retained its rural character and 
resource-based economy in the face of overwhelming changes in the 
broader eastern landscape.
    For example, forest products remain the largest industrial sector 
in the Northern Forest. The forest products industry in Maine alone 
contributes $6.5 billion annually to the Northern Forest economy with 
wages and salaries of more than $1 billion. To maintain this important 
economic activity, many of the Forest Legacy projects in our region 
have been designed to maintain working forests that might otherwise be 
converted for private development. The Katahdin Ironworks project in 
Maine, for example, has already put $200,000 into local payrolls from 
timber harvest on the project site. Timber harvest from the Adirondack 
Working Forest Easement (IP Lands) project in New York will feed a mill 
in Ticonderoga that employs 500 people--the only remaining large mill 
in Adirondack Park.
    Like other rural regions across the country, the Northern Forest is 
also seeking to diversify its economy through tourism and other 
measures. Tourism has already grown to include 10 percent of all 
Northern Forest jobs, with a payroll of $455 million. All of the fiscal 
year 2006 Forest Legacy and LWCF projects in the Northern Forest would 
have a significant impact on tourism. The Machias River, Phase II 
project in Maine's Downeast Lakes exemplifies this significance. The 
project will help conserve 20 percent of the remaining Atlantic salmon 
habitat in the country, maintain access to the famed Machias River 
canoe trip, and create permanent public access to backcountry campsites 
and river access points across more than 7,000 acres. While more than 
329,000 acres surrounding the Machias River project area are being 
conserved specifically to maintain the Downeast Lakes' forest products 
industry, the Machias River project will help bring anglers, paddlers, 
and other tourists to this beautiful region.
    The LWCF projects for the Silvio Conte National Wildlife Refuge, 
Lake Umbagog National Wildlife Refuge, and Green Mountain National 
Forest would have similar positive impacts on tourism. The Conte and 
Umbagog National Wildlife Refuges have brought previously unimagined 
levels of tourism and related economic benefits to rural towns like 
Island Pond, Vermont and Errol, New Hampshire. Through our Businesses 
for the Northern Forest, we have worked with these towns and others to 
help them remain important hubs for the forest products industry while 
also developing other tools such as gateway tourism amenities that will 
support diversified economic growth. In a sign of how much towns across 
the Northern Forest are embracing land conservation as part of their 
economic future, the town of Pownal voted to approve the Green Mountain 
National Forest project included in our list by a two to one margin 
last year. The fiscal year 2006 funding would complete the USFS 
acquisition of the Broad Brook property, an area of over 3,900 acres 
that serves as a critical water supply area for local communities and 
is valued by locals and visitors alike for its extended section of the 
Long Trail.
    The Northern Forest is also a vital investment area for America to 
conserve important wildlife habitat and public water supplies. The 
Northern Forest is critical habitat for many forest-dependent species, 
most notably birds. The Northern Forest is part of ``BCR 14'', an 
internationally significant bird breeding habitat that produces more 
than a third of global populations of some familiar species like the 
black-throated blue warbler. The region is also the headwaters of 
virtually every major river in the Northeast, including the Hudson, 
Connecticut, and Androscoggin. These rivers meet the needs of major 
population centers along the coast as well as local communities, and 
investing in land conservation around the headwaters of these rivers 
conserves public dollars that would otherwise be needed for water 
treatment costs.
    The Forest Legacy and LWCF project funding that we are requesting 
is made necessary by a relentless string of large land sales in the 
Northern Forest that are destabilizing the land base while upsetting 
local economies and community traditions alike. As recently as 1990, 51 
percent of the Northern Forest land base was in the hands of large 
private landowners, primarily timber companies with long ties to the 
region and long-term management goals. In just the last 6 years a full 
25 percent of the region--7 million acres--has changed hands. According 
to the North East State Foresters Association, more than 3 million 
acres of that land have passed from traditional industrial timber 
owners to new classes of owners, such as Real Estate Investment Trusts, 
that have short-term investment horizons, increased willingness to use 
development and other different methods of producing revenue, and less 
affiliation with local communities.
    These changes have led to widespread mill closings, liquidation 
harvesting, and new development in formerly consolidated timberlands. 
These changing ownerships have also led to new restrictions on public 
access to private forestland that greatly impact hunters, snowmobilers, 
hikers, skiers, and others. For example, the Vermont Department of Fish 
and Wildlife reports a remarkable 1,287 percent increase in posted land 
just since 1991.
    It is imperative that the states and federal government continue to 
partner to accomplish conservation projects through Forest Legacy and 
LWCF that can help maintain the Northern Forest's economy, communities, 
and natural resources. Funding the projects listed below would help 
assure that as inevitable changes hit the Northern Forest, we are able 
to utilize this time of transition to conserve and maximize the 
region's natural assets as the basis for a bright future.

                        [In millions of dollars]
------------------------------------------------------------------------
                           Project                               Amount
------------------------------------------------------------------------
Fiscal year 2006 Forest Legacy Projects Supported by the
 Northern Forest Alliance (Order reflects rank in President's
 Budget):
    Katahdin Ironworks (ME)..................................      5.000
    Machias River, Phase II (ME).............................      3.000
    IP Lands/NY Working Forest Easement (NY).................      5.000
    Green Mountain Wildlife Corridor (VT)....................      1.050
    Rossview (NH)............................................      2.000
    Willard Pond (NH)........................................      2.500
    Orange County Headwaters (VT)............................      1.542
    Adams Pond (VT)..........................................       .875
    Tumbledown Mountain (ME).................................       .700
                                                              ----------
      Total..................................................     21.667
                                                              ==========
Fiscal year 2005 LWCF Projects Supported by the Northern
 Forest Alliance (Order reflects rank in President's Budget):
    U.S. Fish and Wildlife Service:
        Lake Umbagog NWR (NH)................................       .750
        Silvio Conte NWR (VT/NH/MA/CT).......................      3.300
    U.S. Forest Service:
        Green Mountain National Forest (VT)..................      3.500
                                                              ----------
          Total LWCF.........................................      7.550
------------------------------------------------------------------------
Note.--Italicized projects not included in President's Budget.

    These projects represent the best that our region has to offer, 
only a piece of the total range of ripe projects across the region. In 
appreciation of the severe constraints on federal resources for the 
upcoming fiscal year, we have gone through careful evaluation to 
develop this prioritized set of time-sensitive strategic investments 
that will leverage other funding sources and deliver critically 
important public benefits. We would be grateful for your consideration 
of this testimony as you go through the appropriations process.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association

    Outdoor Industry Association urges the subcommittee to fund the 
Land and Water Conservation Fund (LWCF) State Assistance Program at 
$100 million for fiscal year 2006 and the Urban Park and Recreation 
Recovery Program (UPARR) at $60 million for fiscal year 2006. We also 
urge adequate funding for the federal LWCF program.
    Outdoor Industry Association (OIA) is a national trade association 
whose mission is to ensure the growth and success of the outdoor 
industry. A wide spectrum of leading manufacturers, distributors, 
suppliers, and retailers of outdoor recreation equipment and services, 
as well as other related business entities make up OIA's membership. 
OIA programs include representation in government/legislative affairs, 
cutting edge market research, member cost-saving benefits and consumer 
outreach initiatives to grow participation in outdoor activities and 
promote healthier lifestyles. Conferences including the annual Outdoor 
Industry Rendezvous and the Capitol Summit in Washington, D.C. are 
hosted by OIA. Outdoor Industry Association is the exclusive endorser 
of the Outdoor Retailer tradeshow.
    The outdoor industry is made up of over 4,000 businesses with 
500,000 employees in all 50 states, generating $20.1 billion in sales 
every year. Last year 159 million Americans participated in outdoor 
recreation, with the greatest numbers in the gateway activities of 
hiking, biking, camping and paddling.
    The LWCF stateside assistance and the Urban Parks and Recreation 
Recovery programs are vital for providing recreation experiences and 
healthy lifestyle options to all Americans. Stateside LWCF and UPARR 
are the government's primary investment tools for ensuring that kids 
and families have access to outdoor recreation activities. The 
stateside program has 40 years of strong success as one of America's 
most effective federal/state recreation and conservation partnership 
programs. Since its inception, LWCF has underwritten the development of 
more than 40,000 state and local park and recreation projects, touching 
98 percent of the counties in the United States.
    The Land and Water Conservation Fund was established by Congress in 
1964 to meet America's needs for outdoor recreation opportunities, 
wildlife habitat conservation and open space. According to the 
Congressional Research Service, through fiscal year 2004, $27.2 billion 
has been credited to the Land and Water Conservation Fund, but only 
$13.8 billion has been appropriated.
    We encourage the subcommittee to consider the following as it works 
on funding levels for programs under its jurisdiction for fiscal year 
2006:
  --69 percent of the American population, or 159 million people, 
        participate in outdoor recreation each year.
  --Parks and recreation facilities drive a $20.1 billion industry.
  --In fiscal year 2004, Stateside LWCF funded nearly 600 state and 
        local park projects across the nation, improving quality of 
        life for millions of Americans.
  --The documented unmet need for state and local park facilities is 
        $836 million.
  --``Exploring the Active Lifestyle'', research conducted by Harris 
        Interactive for Outdoor Industry Foundation, found that hiking, 
        biking and camping are gateway activities to an active 
        lifestyle.
  --The same research showed that if children start early, these 
        behaviors will be engrained, leading to healthier, active 
        lives.
  --The stateside LWCF program increases the opportunities and 
        availability of trails, parks, and other outdoor recreation in 
        local communities.
  --61 percent of U.S. adults are overweight.
  --According to a Task Force on Community Preventive Services, 
        increased accessibility of open space can boost physical 
        activity by 25 percent.
  --The LWCF program helps ensure that this and future generations of 
        Americans can have quality outdoor experiences in America's 
        Great Outdoors.
    In the fiscal year 2003, 2004, and 2005 Interior Appropriations 
bills, Congress stepped back from a deal struck in 2001 to increase 
dollars for these programs through the Conservation Spending Category. 
Instead of steadily increasing programs as outlined in 2001, many 
programs have seen significant decreases. Both federal and stateside 
LWCF have lost ground, and UPARR has been zeroed out. The President's 
proposed budget eliminates funding for both stateside LWCF and UPARR in 
fiscal year 2006. The elimination of the LWCF State Assistance Program 
is of significant concern to the outdoor business community; we urge 
the Subcommittee to reject the President's recommendation to zero-out 
stateside LWCF.

                                         LWCF AND UPARR FUNDING HISTORY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal year                          Our
                                               -------------------------------------------------------  request
                                                                                                         fiscal
                                                   2001       2002       2003       2004       2005    year 2006
----------------------------------------------------------------------------------------------------------------
Land and Water Conservation Fund:
    Federal LWCF..............................     $450.0     $429.0     $313.0     $176.0     $167.0     $450.0
    Stateside LWCF Grants.....................       90.0      144.0       97.0       94.0       92.5      100.0
Urban Park Recreation and Recovery (UPARR)....       30.0       30.0  .........  .........  .........       60.0
----------------------------------------------------------------------------------------------------------------

    OIA strongly encourages the Senate Interior and Related Agencies 
Appropriations Subcommittee to invest in healthier communities through 
the LWCF State Assistance Program and the Urban Park and Recreation 
Recovery Program, and in backcountry recreation opportunities through 
the federal LWCF. We look forward to working with you to provide 
adequate funding for these important programs in fiscal year 2006.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    The Society of American Foresters (SAF), representing over 15,000 
professional foresters, supports sound management and stewardship of 
our nation's forest resources. SAF urges Congress to provide 
consistent, long-term funding to better enable long-term management of 
the nation's forest lands, both public and private, so our forests 
continue to provide desired values and benefits over the long-term. We 
offer the following suggestions to facilitate improved stewardship and 
management of federal forest lands and provide family forest owners 
with the tools to better manage their lands. Given the understandable 
restrictions on the length of our testimony, we do not offer the in-
depth analysis we normally provide but would be pleased to offer 
further detail upon request.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year
                  Discretionary appropriations                   --------------------------------    2006 SAF
                                                                   2005  enacted  2006  proposed  recommendation
----------------------------------------------------------------------------------------------------------------
Forest and Rangeland Research \1\...............................           220.4           216.7           220.4
Forest Inventory and Analysis \2\...............................            60.9            73.4            73.4
State and Private Forestry Total \1\............................       \3\ 287.6           248.7           305.9
Forest Health Management--Federal...............................            54.2            50.0            54.2
Forest Health Management--Cooperative...........................            47.6            22.3            47.6
State Fire Assistance...........................................        \3\ 32.9            20.9            32.9
Volunteer Fire Assistance.......................................             5.9             5.9             5.9
Forest Stewardship Program......................................            32.3            37.0            37.0
Forest Legacy Program...........................................            57.1            80.0            70.0
Urban and Community Forestry....................................            31.9            27.5            31.9
Economic Action Programs........................................            19.0  ..............            20.0
International Forestry..........................................             6.4             5.0             6.4
                                                                 -----------------------------------------------
      National Forest System Total..............................     \4\ 1,380.8         1,651.4         1,651.4
Land Management Planning........................................            63.2            59.1            59.1
Inventory and Monitoring........................................           167.3           167.0           167.0
Forest Products.................................................           273.2           278.3           278.3
                                                                 -----------------------------------------------
      Wildland Fire Management Total............................     \5\ 1,703.0     \6\ 1,725.3         1,775.3
Preparedness....................................................       \7\ 668.6           676.5           676.5
Fire Operations.................................................           648.8           700.5           700.5
Hazardous Fuels.................................................           262.5           281.0           281.0
Rehabilitation and Restoration..................................            12.8             2.0            12.8
Fire Research and Development \8\...............................            21.7            16.9            21.7
Joint Fire Sciences Program.....................................             7.9              NS            10.0
Forest Health Management--Federal...............................            14.8             7.0            14.8
Forest Health Management--Cooperative...........................             9.9             4.6             9.9
State Fire Assistance...........................................            40.2            29.4            40.2
Volunteer Fire Assistance.......................................             7.9             7.9             7.9
                                                                 -----------------------------------------------
      Capital Improvement and Maintenance Total.................       \9\ 514.7           380.8           391.2
Facilities......................................................      \10\ 198.8           117.8           117.8
Roads...........................................................           226.4           189.6           200.0
Deferred Maintenance............................................            13.8             9.8             9.8
----------------------------------------------------------------------------------------------------------------
\1\ This line does not include funding for FIA, as it is broken out in a separate line.
\2\ This includes funding allocated under S&PF and Research in the proposed budget.
\3\ This figure does not include $49 million in emergency & supplemental appropriations.
\4\ This figure does not include $16 million in emergency funding.
\5\ This figure does not include $12.1 million in emergency and supplemental funding.
\6\ This figure does not include $426 million in emergency and supplemental funding.
\7\ The figure includes hazardous fuels funding, which the budget proposes to move to National Forest system.
\8\ This figure does not include $8 million for Joint Fire Sciences, as we chose to separate JFS as another line
  item.
\9\ Includes regular appropriations and supplemental appropriations.
\10\ This figure does not include $60.8 million provided in emergency and supplemental funding.

    State and Private Forestry.--SAF believes that the proposed 
budget's lack of support for family forests is not in the nation's 
interest and urges Congress to recognize its negative implications. 
While managing federal lands is extremely important, especially given 
the record levels of fuel buildup and insect and disease problems, 
management needs on over 393 million acres of private forest lands 
cannot be ignored if we expect to sustainably manage forests at 
landscape and watershed levels. Through federal appropriations, state 
agencies, non profit organizations, and individual landowners leverage 
millions of dollars to achieve management goals on family-owned forest 
lands, and at the same time, provide essential public benefits, 
particularly watershed protection and wildlife habitat.
    Forest Health Management.--SAF believes that the 53 percent 
decrease in funding proposed for forest health management on state and 
private lands under the State and Private Forestry and the Wildland 
Fire Management Accounts will inhibit responsible land stewardship. 
Again, the proposed budget appears to ignore the role of state and 
private forest lands in reducing the threat of invasive species, 
insects, and diseases in our forests. Without treatment, these threats 
can easily spread to other lands and can also result in increase fire 
risk, threatening homes, lives, and other values. These funds allow the 
states and private landowners to survey for these threats and treat 
them in a timely manner to prevent further damage to our public and 
private forests.
    State Fire Assistance.--The over 30 percent decrease proposed in 
the fiscal year 2006 budget for State Fire Assistance will severely 
limit protection of the nation's forests. Decreased funding of this 
magnitude will threaten the nation's capacity to ensure those who are 
often the first to respond to wildfires on both federal and non federal 
lands have the resources and training to do so. Lives, communities, 
property, and our forest resources rely on the protection and 
preventative treatments accomplished with State Fire Assistance 
funding. SAF recommends continued funding for this program through 
Wildland Fire Management and State and Private Forestry at fiscal year 
2005 enacted levels.
    Forest Stewardship Program.--SAF strongly supports the increase in 
the proposed budget for the Forest Stewardship Program. Developing a 
stewardship plan is a critical first step in enabling family forest 
owners to sustainably manage their forests and meet their own 
objectives while at the same time providing numerous public benefits. 
SAF encourages a more strategic approach to this program at both the 
federal and state level, where program funds are targeted at those 
forest lands faced with priority issues such as wildfire risk, invasive 
species, insect, or disease threats, endangered species habitats, and 
development pressure. With this targeted approach, Stewardship plans 
can be developed to address priority issues and subsequent educational, 
technical, and cost-share assistance can be targeted to address these 
priorities. This will make better use of federal dollars and leverage 
funding from other landowner assistance programs such as the Forest 
Land Enhancement Program and the Forest Legacy Program as well as non-
federal resources.
    Forest Legacy Program and Land Acquisition.--SAF continues to be 
extremely concerned with the growing threat of loss of our nation's 
forest lands through conversion to non-forest uses, fragmentation, and 
parcelization into tracts that are too small to manage. The Forest 
Legacy Program helps landowners keep their land as a working forest 
which provide public benefits through retention of forests for 
watershed protection, wildlife habitat and other diverse values. We 
recommend $70 million for this program, which is less than the proposed 
budget request, in consideration of the overall current budget deficit. 
The budget should achieve balance between programs that help avoid 
conversion of forests to non forest uses and programs that help family 
forest owners sustainably manage their lands, and implement practices 
that address imminent threats. We also recommend shifting some funds 
from the Land Acquisition account to programs that encourage private 
forest stewardship. While there is certainly a need for the federal 
government to acquire strategically important forest lands, 
particularly key inholdings, we believe that, given the current fiscal 
constraints, federal land acquisition funds will be better spent by 
encouraging family forest owners to retain ownership and improve the 
long-term management of their lands.
    International Forestry.--Through this program, the Forest Service 
provides assistance to other countries striving towards sustainable 
forest management. Additionally, the program fosters partnerships 
across borders to help achieve common resource objectives. SAF supports 
funding this program at fiscal year 2005 enacted levels.
    National Forest System.--The National Forest System lands, 
comprising over one-quarter of the nation's forested lands, are 
increasingly important to the nation's economic and social well-being. 
It is critical that these lands be managed in a way that provides for 
their long-term health and productivity. SAF supports the funding 
levels proposed in the fiscal year 2006 budget for land management 
planning, inventory and monitoring, and forest products. These funding 
levels, along with anticipated improvements in the land management 
planning process and other new authorities, will improve the ability of 
forest managers to use proven silvicultural practices to address forest 
health and other issues on federal lands.
    Woody Biomass Utilization.--The utilization of woody biomass can 
offer a long-term solution to reducing fuel loads and addressing other 
forest management needs on public and private forests. Utilization of 
biomass can reduce costs of projects designed to improve our forests, 
particularly in wildfire-prone areas and can also foster economic 
growth in areas where there are limited markets for this type of 
material. Often, the high costs and limited infrastructure associated 
with biomass removal prevents the efficient use of these materials. SAF 
recommends providing $10 million of Forest Service hazardous fuels 
funding for grants to create incentives for biomass utilization from 
national forest lands, and recommends non-federal lands be explicitly 
included in this grant program. While biomass utilization should 
certainly be encouraged on federal lands, the surrounding non-federal 
lands can offer a consistent and adequate supply of biomass materials 
to stimulate investments in infrastructure for utilizing biomass from 
federal lands. In addition, SAF urges creation of opportunities for 
woody biomass utilization on other federal lands and tribal lands.
    Wildland Fire Management.--While federal land management agencies 
and their non-federal partners continue to make progress in reducing 
the threat of catastrophic wildfire, we remain concerned regarding the 
adequacy of wildfire suppression funding. It is difficult to predict 
wildfire suppression expenditures and when expenditures are 
underestimated, the agencies are forced to borrow from other accounts 
disrupting federal and non federal land management and, in fact, often 
taking from the very accounts that help prevent catastrophic wildfire 
through fuels treatment. SAF strongly urges a long-term solution to 
this problem with mechanisms for cost containment and accountability.
    SAF also recommends funding rehabilitation and restoration at the 
fiscal year 2005 enacted level of $12.8 million. SAF supports 
appropriate and timely efforts to rehabilitate and restore forests 
after wildfires and other catastrophic events. Timely rehabilitation 
can restore damaged watersheds and reduce the risk of long-term soil 
loss from surface erosion and landslides. The removal of dead and dying 
trees in certain areas can reduce potential for subsequent fires and 
recover some of the economic value of the forest.
    Forest and Rangeland Research.--The Forest Service's long-term and 
short-term research is a critical component of forestry research in the 
United States. The program helps maintain forest science capacity 
within the Forest Service and its partners and helps identify solutions 
to many of the forestry problems we face as a nation. Equally important 
is the transfer of research information to forest managers and land 
owners to implement new findings and solutions on the ground. We 
recommend funding this program at fiscal year 2005 levels and support 
the proposed focus on technology transfer. We encourage the Agency to 
utilize existing mechanisms such as State and Private Forestry Programs 
and Extension Agents at universities across the country to achieve this 
goal.
    Forest Inventory and Analysis Program.--The Forest Inventory and 
Analysis program is the only nationwide effort that monitors the 
extent, condition, uses, impacts of management, and health of forest 
ecosystems across all ownerships in the United States. This 
comprehensive analysis provides the basis for improved forest policy 
and forest management decisions and can provide warning of imminent 
problems such as loss of forest land to non forest uses, the long-term 
consequences of invasive species and insect and disease outbreaks, and 
losses due to catastrophic wildfire. SAF strongly supports the increase 
proposed in the fiscal year 2006 budget, and urges full implementation 
of the program with coverage of each state and annual reporting in a 
timely manner.
    Department of the Interior, Bureau of Land Management (BLM).--The 
BLM manages 55 million acres of forest lands, approximately 5 percent 
of all forestlands in the United States, of which 16 million acres are 
in need of restoration treatments including mechanical thinning, 
hazardous fuels reduction and tree species reintroduction to halt the 
spread of invasive species. SAF supports the BLM in its efforts to 
improve conditions on these forestlands through the BLM's Public Domain 
Forest Management Program funds. In addition to providing funding for 
treatments on BLM land, this Program also helps to ensure BLM has 
professional forestry expertise on its staff to make sound forest 
management decisions. SAF supports funding this program at the fiscal 
year 2006 proposed level, $10.6 million.
                                 ______
                                 
          Prepared Statement of the Town of Greenville, Maine

    I am Town Manager for the Town of Greenville, Maine, and am pleased 
to submit this testimony in support of the State of Maine's Katahdin 
Iron Works (KIW) Forest Legacy Project, and to specifically request a 
$5 million appropriation from the Forest Legacy Program for the KIW 
project. As you know, this funding has been proposed in the President's 
budget for fiscal year 2006 for the Forest Legacy Program, and the KIW 
project is ranked 4 in the nation.
    The funding proposed for this project will allow the state of Maine 
to purchase a conservation easement over 37,000 acres of critically 
located land about nine miles east of Greenville. The property is 
bisected by the Appalachian Trail and includes land around Gulf Hagas, 
the Barren/Chairback Mountain Range, a significant stretch of the Class 
A West Branch of the Pleasant River, and many other important natural 
and recreational features.
    When the Appalachian Mountain Club (AMC) purchased this property in 
2003, residents of Greenville were extremely pleased because that 
organization had already been working with us to fashion a sustainable 
future through enhanced outdoor recreation opportunities. The Forest 
Legacy project proposed at KIW will ensure that Greenville and other 
towns in the region can maintain continued economic vitality in the 
face of changing markets. This project has garnered significant local 
support because it protects the spectacular landscape that makes our 
region so special, creates new recreational opportunities for the 
public, and secures the future of this property as a working forest. In 
our view, these goals strike the right balance between conservation of 
important natural resource lands and economic development that comes 
from those lands.
    Just last month, the benefits of AMC's ownership of the KIW 
property has proven beneficial to the future economic growth of 
Greenville as it relates to outdoor recreation. We hosted the 1st 
Annual 100-Mile Wilderness Dog Sled Race, which ran from Greenville to 
Brownville and back directly across AMC's land and along trails they 
helped construct. The race was a huge success, drawing 11 mushers with 
teams of up to a dozen dogs from several states and territories. We 
expect growth in this event next year and are extremely excited about 
its impact on our economic growth. Had the KIW property been sold on 
the open market and subdivided or closed to public use, our future 
would look much less favorable.
    With a Forest Legacy Program conservation easement that ensures 
permanent public access, sustainable forestry and recreational 
opportunities, the KIW project fits in well to our community's future 
and we urge your support.
    We hope that you will provide $5 million to ensure the success of 
this effort in the fiscal year 2006 Interior appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

                              INTRODUCTION

    The Wilderness Society appreciates this opportunity to submit 
testimony on the President's fiscal year 2006 budget appropriations for 
wildfire management. As this committee is certainly aware, 
appropriations to the agencies responsible for managing public lands 
are divided into discrete categories, each representing a specific set 
of activities to be accomplished. We have three broad concerns about 
fiscal year 2006 proposed appropriations: ongoing suppression funding 
problems, implementation concerns related hazardous fuels treatments, 
and insufficient funding for State & Local Assistance programs. Much of 
the background data presented in this testimony comes from a 
forthcoming report by The Wilderness Society entitled Following the 
Money: Implementation of the National Fire Plan. In this report, 
empirical data on funding and reported accomplishments was gathered 
from the USDA Forest Service's Washington Office, Region 2, and two 
National Forests in Colorado: The Arapaho/Roosevelt and the Pike/San 
Isabel. Additionally, funds and accomplishments were tracked through 
the Colorado State Forest Service.

                              SUPPRESSION

    The biggest problem plaguing effective funding of long-term 
wildland fire management goals is the cycle of suppression 
appropriations, over-spending, borrowing, and partial repayment. With 
suppression funding accounting for approximately 70 percent of all 
Wildland Fire Program (Title IV of the Forest Service's budget) dollars 
spent, many have identified it as a primary source of concern. Current 
incentives do not encourage cost savings, and fire managers on the 
ground have something of a ``blank check mentality''. For example, in 
fiscal year 2003, which was a relatively mild fire year, the FS was 
appropriated a total of $351.9 million for suppression, including 
Congressionally authorized emergency appropriation funds. Still, 
suppression expenditures for that year were $1,023 million, leaving a 
$671.1 million shortfall which was covered only by transferring money 
out of other National Forest accounts. As the GAO noted in a recent 
report, when money is transferred out of other fire accounts, projects 
are frequently delayed or cancelled.
    We are aware that this committee is considering a proposal to 
authorize the creation of emergency accounts for suppression should 
expenditures again exceed appropriations. While this will likely reduce 
the negative impacts associated with suppression transfers, the 
solution is both short-term and inadequate. We urge the committee to 
consider more systemic and lasting changes to the current process of 
funding fire suppression. Only when suppression spending is contained 
will more proactive fire management activities be adequately funded.

                            HAZARDOUS FUELS

    Funding for hazardous fuels reduction has again seen an increase in 
the fiscal year 2006 proposed budget. Increases are apparent both for 
the Forest Service and for the Department of Interior, suggesting an 
ongoing commitment to treating fuels and an effort to implement the 
ideals embodied in the Healthy Forest Restoration Act (2003). The 
Wilderness Society supports the treating of fuels in the places where 
it will effectively protect communities. However, current methods for 
funding this program and tracking accomplishments hamper efforts to 
achieve the desired outcomes.
    First, effective planning requires realistic cost estimates for the 
work, but the current method for estimating costs is deeply flawed. 
Most cost estimates are given in a cost per acre format, even though 
costs in the southeast are vastly different from those in the west. 
Estimates in the literature range from $31-$2,500, making any average 
essentially meaningless. Even two forests located along Colorado's 
Front Range, the Arapaho-Roosevelt (ARNF) and the Pike/San Isabel 
(PSI), show highly variable costs. In fiscal year 2003, the ARNF was 
allocated approximately $3.6 million for hazardous fuels reduction 
treatments; they treated nearly 5,000 acres, 87 percent of them in the 
Wildland-Urban Interface (WUI), and were able to use prescribed burning 
for 63 percent of the work. By contrast, the PSI got $5.8 million (60 
percent more than the ARNF), treated 18,869 acres (280 percent more 
than the ARNF) with similar WUI and prescribed burning percentages as 
the ARNF. The bottom line of these wildly different outputs is that it 
cost the ARNF $736.74 per acre, more than double the $311.14 it cost 
the PSI. As a result, the two neighboring forests are able to 
accomplish a vastly different amount of work with only slightly 
different pots of money.
    Explanations for this disparity have been many and varied. Whatever 
the reason, these two forests are located in very similar forest types, 
have extensive Wildland-Urban Interface areas, and are able to burn as 
opposed to mechanically treat approximately the same proportion of 
acres; the difference in cost/acre highlights the tremendous 
variability in costs and accomplishments even within a limited 
geographic area. More research must be devoted to understanding the 
factors that influence costs, and thereby increase the agency's ability 
to accomplish more work with limited funds.
    Second, the agencies report the number of acres they treat, and 
track these acres both by method of treatment (prescribed fire or 
mechanical means) and location (priority Wildland-Urban Interface, or 
``other''). More recently, they have also begun to record fire regime 
and condition class changes. In many cases, acres get counted twice or 
even three times. A single WUI acre might be thinned one year, burned 
the next, and contribute to a landscape-scale condition class change. 
Most readers of the data would easily conclude that three times as much 
terrain had actually been treated, since the treatment of that single 
acre would appear in several columns over two different years.
    Current incentive structures thus strongly favor the treatment of a 
high number of acres, without requiring consistent priority-setting 
across National Forests. Treating acres that may not represent the 
highest hazard but help elevate accomplishment data is clearly 
inadequate. In the absence of more rigorous efforts to prioritize 
hazardous fuels reduction treatments, projects are often selected for 
reasons such as safety of treatment and lack of local objection. 
Funding for hazardous fuels reduction must be matched with careful 
priority-setting, reliable record-keeping, and transparent reporting of 
accomplishments.

                        STATE & LOCAL ASSISTANCE

    In 2001, federal planners identified 11,376 ``communities at risk'' 
(66 FR 751-777) as an indication of the extent of the land ownership 
problem facing fire managers. Since fire doesn't recognize ownership 
boundaries, private land must be integrated into landscape-scale 
problem definition and fire management planning. State forest officials 
therefore have a fundamental role to play in ensuring that public fire 
managers work across ownership lines.
    Funding hazardous fuels reduction exclusively on federal lands is 
incomplete and will ultimately undermine program success. The 
President's fiscal year 2006 budget actually decreases funding 
allocated to State & Local Assistance, reducing it to a mere 3 percent 
of total money in the National Fire Plan. The Forest Service estimates 
that 59 million private acres in the ``community protection zone'' are 
at high risk, but the agency is powerless to address fuel treatment 
needs there with such limited funds. Increasing funding to state and 
private entities will go a long way toward communicating commitment, 
reducing fire risk and building capacity to bridge the public-private 
divide.

                               CONCLUSION

    The current Administration has focused much of its rhetoric around 
the wildfire issue on protecting communities and yet, they continue to 
make dramatic cuts to State and Local Assistance programs. Even though 
up to 85 percent of the land around communities at the highest risk is 
state or private, resources going to non-federal lands continue to 
decrease.
    The Wilderness Society recommends the following fiscal year 2006 
funding levels for National Fire Plan State and Local Assistance 
programs:
  --State Fire Assistance.--Provides technical and financial assistance 
        to states for grants and agreements with communities to 
        implement fire protection activities, including the removal of 
        hazardous fuels, fire prevention campaigns, personnel training, 
        equipment availability and FIREWISE--a public education program 
        developed by the National Wildland Fire Coordinating Group to 
        assist communities located near fire-prone lands. Funding for 
        this program has ranged from $72 million to $84 million since 
        2001. The Wilderness Society recommends $84 million for fiscal 
        year 2006.
  --Community and Private Land Fire Assistance.--Established to help 
        western communities recover from the 2000 fire season and for 
        assistance to areas threatened by wildfire. This program has 
        not been funded since fiscal year 2001 and The Wilderness 
        Society recommends $35 million for fiscal year 2006.
  --Rural Fire Assistance.--Targeted to communities of less than 10,000 
        people, this DOI program provides technical expertise, 
        training, supplies, and materials, equipment and educational 
        activities to fire departments. The Wilderness Society 
        recommends $10 million for fiscal year 2006.
  --Volunteer Fire Assistance.--Provides technical and financial 
        assistance for grants with rural communities for the protection 
        of more than one billion acres of state and private lands, 
        targeted to volunteer fire department in communities of less 
        than 10,000 people. The Wilderness Society recommends $14 
        million for fiscal year 2006.
  --Economic Action Program.--Facilitates and fosters sustainable 
        community development opportunities utilizing the wood removed 
        through hazardous fuels reduction treatments. The Wilderness 
        Society recommends $40 million for fiscal year 2006.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    Mr. Chairman, The Wilderness Society (TWS) would like to thank you 
for the opportunity to provide recommendations and comments on the 
fiscal year 2006 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of the more than 250,000 members and 
supporters of TWS, a 70-year-old organization dedicated to preserving 
America's last remaining wild places, I provide below our fiscal year 
2006 funding recommendations for a number of important conservation 
programs. Our top priorities include:
  --Continuation and full funding for the Interior portion of the 
        Conservation Trust Fund (Land Conservation, Preservation and 
        Infrastructure Improvement Fund) at $1.8 billion;
  --Within the Conservation Trust Fund, $450 million for Land and Water 
        Conservation Fund federal land acquisition;
  --Within the Conservation Trust Fund, reinstate the Land and Water 
        Conservation Fund state-side to a minimum of last year's level: 
        $92.5 million; and
  --Within the Conservation Trust Fund, $80 million for the Forest 
        Legacy program.
    We also urge you to maintain the integrity of both the Conservation 
Trust Fund, and of the Land and Water Conservation Fund contained 
within it.
    Adequate funding for the programs discussed below is vital to 
protect America's wild areas and environmental values, essential 
components of our American identity and our heritage. The land and our 
relationship with it infuse our history, our heroes, and our hearts. We 
hope to work with you to find the resolve and funding to protect those 
values that are a national birthright.

                        CONSERVATION TRUST FUND

    In 2000, a bipartisan Congress enacted a roughly $2 billion-per-
year dedicated conservation funding mechanism called the Conservation 
Trust Fund. This fund was designed to ensure that, in good times and in 
bad, the country always had adequate federal resources to meet our most 
important conservation, recreation, wildlife and preservation needs. 
Unfortunately, the administration's new budget has abandoned the 
Conservation Trust Fund mechanism, underfunding the lands and wildlife 
portion of its programs by nearly $1 billion, with the result that, 
across the nation, our parks, forests, wild lands and wildlife will 
suffer. We respectfully urge the Subcommittee to provide full funding 
for its portion of the Conservation Trust Fund (CTF) at $1.8 billion 
for fiscal year 2006.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund (LWCF) is our nation's 
premiere tool to create and preserve parks, forests, wildlife refuges 
and open space. For the first time, the administration does not even 
try to claim that it is fulfilling the president's campaign promise to 
fully fund LWCF at $900 million. And while the administration says its 
budget funds the program at $680 million, in reality the fiscal year 
2006 budget provides only $132 million for LWCF's core programs--
funding federal land acquisition at $130 million and eliminating 
stateside assistance. As it did last year, the budget then attempts to 
cloak this glaring shortfall by declaring more than a dozen other 
ongoing programs to be part of the LWCF. National treasures from the 
Everglades to our neighborhood parks will suffer from the resulting net 
loss in funds for expanding and consolidating parks, refuges and 
forests.
    Within the CTF, we urge the Subcommittee to provide $450 million 
for Federal Land Acquisition and reinstate state-side LWCF to last 
year's level: $92.5 million. For decades, LWCF has been a premier tool 
to fund two things: federal land acquisition and the state assistance 
program. Again this year, in an attempt to make LWCF look ``full'', the 
Administration shoehorns in numerous additional unrelated programs. 
This was done to mask real cuts in funding for land acquisition. 
Funding in the President's Budget for National Park Service, Fish and 
Wildlife Service, Bureau of Land Management and U.S. Forest Service 
land acquisition is cut from a proposed $220 million in fiscal year 
2005 to $130 million proposed for fiscal year 2006. Americans have long 
relied on federal land acquisition to protect and complete its parks, 
forests and refuges, and the Administration's cuts would result in 
smaller, more degraded lands and fewer recreation experiences--and the 
words ``Land and Water Conservation Fund'' would lose the meaning they 
have had since 1965.
    We support the administration's requested project list for LWCF and 
Forest Legacy. In addition to the administration's projects, we 
recommend LWCF federal land acquisition funding for 42 priority 
projects for fiscal year 2006, listed in Table A. Federal acquisition 
of these lands is necessary to address immediate environmental threats 
with the potential for permanent damage, and to help protect and 
restore wildlands of significance (e.g. those with rare ecosystems, 
endangered species, and/or other special qualities).
    Forest Legacy.--We support the President's fiscal year 2006 request 
of $80 million for the Forest Legacy program and the administration's 
list of requested Forest Legacy projects. Authorized by Congress in 
1990, the Forest Legacy program offers the opportunity for the federal 
government to work in partnership with states, local communities and 
private landowners to ensure that the multiple benefits found on forest 
lands--economic sustainability, wildlife habitat protection, and 
recreational opportunities--are secured for future generations. Since 
its inception, Forest Legacy has proven an extremely popular means to 
combat the loss of privately-owned timberlands to development. In 
fiscal year 2005, the approved funding level met just over 20 percent 
of national requests, resulting in lost opportunities to conserve 
critical private forestlands. For fiscal year 2006, project requests 
from states enrolled in the program totaled over $200 million. This 
program is especially important in our eastern forests, where over 80 
percent of forestlands are in private ownership and are increasingly 
threatened by sprawling development patterns.

            ADDITIONAL AGENCY APPROPRIATIONS RECOMMENDATIONS

    Fish and Wildlife Service.--The National Wildlife Refuge System is 
suffering under a $1.408 billion backlog in operations and $1.3 billion 
backlog in maintenance. Consequently, we strongly recommend that 
funding to the Refuge System be increased over the fiscal year 2005 
levels, in an effort to begin to counteract the massive backlogs. We 
urge the subcommittee to appropriate $800 million for the Operations 
and Maintenance Program to carry out necessary repairs, fund staff 
positions, and support development of Comprehensive Conservation Plans.
    Bureau of Land Management.--We support the Administration's 
proposal to raise approximately $9 million from new user fees imposed 
on oil and gas operators on public lands to help defray the growing 
administrative costs of the oil and gas program. No BLM constituency 
group profits more handsomely from extracting resources from the public 
lands, nor demands more in terms of performance from the BLM, than does 
the oil and gas industry. We note that since 2000, funding for the 
BLM's oil and gas program has increased from $55.3 million to $87.3 
million, all from appropriated funds. We also note that funding for 
other critical programs--such as wilderness management and fisheries 
and wildlife--have remained essentially flat during the same time 
period.
    We urge the committee to increase the Administration's fiscal year 
2006 budget for the National Landscape Conservation System (NLCS) by 
$3.1 million, for operations and maintenance, to provide a total of 
$46.6 million to conserve the unique National Monuments, Conservation 
Areas, Trails, Rivers, and Wilderness areas which the System 
encompasses. Since the System's inception five years ago, funding has 
ranged from $38-$42 million a year--never enough to meet the System's 
unmet needs. Priority needs include law enforcement and vandalism 
prevention, resource monitoring, cultural resource protection, and 
invasive species control. Even with the proposed increase in 2006 
funding, the 26 million acre System will still receive less than $1.80 
an acre. We also urge the committee to add $2.1 million to purchase 
inholdings in BLM National Landscape Conservation System (NLCS) areas 
which are threatened by development, including Oregon's Steens Mountain 
wilderness and Cascade-Siskiyou National Monument, and in Utah's Grand 
Staircase-Escalante National Monument. The fiscal year 2006 budget is 
particularly critical for the NLCS, as the BLM will need to implement 
at least 15 forthcoming Resource Management Plans for areas in the 
System in 2005 and 2006.
    As stated, we support the President's priority projects for BLM 
land acquisition through the Land and Water Conservation Fund. We note 
that the President's request includes important projects that will 
improve ecosystem and wildlife health and recreational opportunities in 
the National Landscape Conservation System.

    TABLE A.--RECOMMENDED FEDERAL LWCF PROJECTS FOR FISCAL YEAR 2006
------------------------------------------------------------------------
                                                                Total
               State                          Unit             project
                                                                 need
------------------------------------------------------------------------
AL.................................  Cahaba River NWR (AL).   $1,000,000
AL.................................  Alabama NFs (AL)......    2,300,000
AR.................................  Ouachita NF...........    1,300,000
AZ.................................  Coconino NF...........    4,000,000
CA.................................  Tahoe NF..............    2,500,000
CO.................................  White River NF........      500,000
CO.................................  Uncompahgre NF........    2,500,000
FL.................................  Florida National          3,000,000
                                      Scenic Trail (FL).
FL.................................  Suwannee Wildlife         3,000,000
                                      Corridor/Pinhook
                                      Swamp (FL).
GA.................................  Kennesaw Mountain NBP.    2,200,000
GA.................................  Chattahoochee NF......    3,000,000
GA, NC, SC.........................  Chattooga Wild &          2,500,000
                                      Scenic River (GA, NC,
                                      SC).
ID.................................  Idaho WSR (phase I)...      500,000
ID.................................  Payette NF (phase II).    2,000,000
KY.................................  Cumberland Gap........    3,000,000
MA.................................  Cape Cod NS...........    3,000,000
ME.................................  Rachel Carson NWR.....    2,300,000
MN.................................  Superior NF...........  \1\ 2,000,0
                                                                      00
MS.................................  Gulf Islands NS.......    2,000,000
MS.................................  Delta NF (MS).........    2,300,000
MT.................................  GYE...................    2,250,000
MT.................................  Beaverhead-Deerlodge      3,000,000
                                      NF.
MT.................................  Flathead NF...........   10,600,000
Multi-state (NH/VT)................  Silvio Conte NWR          3,300,000
                                      (multi-state).
NC.................................  Uwharrie NF (NC)......      500,000
NJ.................................  E.B. Forsythe NWR.....    1,300,000
NJ.................................  Great Swamp NWR (NJ)..    1,000,000
OR.................................  Pac NW Streams........  \1\ 550,000
PA.................................  Flight 93 Memorial        4,200,000
                                      (PA).
RI.................................  Trustom Pond NWR......    2,150,000
TN.................................  Chickasaw NWR.........    1,500,000
TN.................................  Chickamauga-              2,000,000
                                      Chattanooga.
TN.................................  Tennessee Mountains       3,000,000
                                      (TN).
TN.................................  Obed Wild and Scenic      1,500,000
                                      River (TN).
TX.................................  Balcones NWR..........    1,900,000
USVI...............................  Virgin Islands NP.....      850,000
UT.................................  BST...................    3,000,000
VA.................................  Jefferson NF-Black        2,000,000
                                      Lick, Rumley Branch
                                      (VA).
VT.................................  Green Mtn NF-Broad        3,500,000
                                      Brook and others (VT).
WA.................................  Mt. Rainier NP........  \1\ 1,500,0
                                                                      00
WA.................................  Mount Baker-Snoqualmie    1,300,000
                                      NF.
WI.................................  Chequamegon NF........  \1\ 2,700,0
                                                                      00
                                                            ------------
      Total........................  ......................   81,550,000
------------------------------------------------------------------------
\1\ Part of a larger program.

                                 ______
                                 

                    ENVIRONMENTAL PROTECTION AGENCY

           Prepared Statement of the Alliance to Save Energy

                              INTRODUCTION

    The Alliance to Save Energy, a bipartisan, nonprofit coalition of 
more than 90 business, government, environmental, and consumer leaders, 
appreciates this opportunity to submit written testimony in support of 
a $10 million increase for the Environmental Protection Agency's (EPA) 
Energy Star Program in fiscal year 2006. The Alliance's mission is to 
promote energy efficiency worldwide to achieve a healthier economy, a 
cleaner environment, and greater energy security. The Alliance, founded 
in 1977 by Senators Charles Percy and Hubert Humphrey, currently enjoys 
the leadership of Senator Byron Dorgan as Chairman; Washington Gas 
Chairman and CEO James DeGraffenreidt, Jr. as Co-Chairman; and 
Representatives Ralph Hall, Zach Wamp and Ed Markey and Senators Jeff 
Bingaman, Susan Collins and Jim Jeffords as its Vice-Chairs. The 
American Council for an Energy-Efficient Economy (ACEEE) also supports 
the recommendations in this testimony.
    The Energy Star program is one of the government's most successful 
efforts to promote marketplace solutions to greater energy efficiency. 
The Energy Star program is an entirely voluntary program that reduces 
energy demand, lowers energy bills, and helps avoid greenhouse gas 
emissions. Increased investment by the federal government in the Energy 
Star program will translate to increased energy savings by taxpayers 
across the country. The EPA estimates that every federal dollar spent 
on the Energy Star program results in an average savings of $75 or more 
in consumer energy bills; the reduction of about 3.7 tons of carbon 
dioxide emissions; an investment of $15 in private sector capital; and 
the contribution of over $60 to the economy.
    The Energy Star program testifies to the important achievements 
that can be made through cooperative partnerships between government 
and businesses. The Climate Protection Partnerships Division at EPA, 
which operates the Energy Star program, works closely with 
manufacturers, retailers, building owners, and energy service 
providers, as well as state and local governments, nonprofits, and 
other organizations to promote energy-efficient products and buildings.
    Energy efficiency is an investment. There is often a modest 
additional cost for purchasing more efficient, smarter technologies, 
but that additional cost is paid back many times to the consumer 
through lower energy bills. Energy Star helps consumers understand and 
realize these benefits. The label represents the ``good housekeeping 
seal of approval.'' In order to qualify for the Energy Star label, a 
set of rigorous guidelines that represent high energy efficiency goals 
are established through the Energy Star program for the products or 
services of the participants. Last year alone, Americans, with the help 
of Energy Star, saved $10 billion on their energy bills. Consumers can 
use these savings to invest in the economy, their families, and their 
future.

        ENERGY EFFICIENCY IS AMERICA'S GREATEST ENERGY RESOURCE

    Energy efficiency is America's greatest energy resource. It makes a 
larger contribution to meeting our energy needs than petroleum, natural 
gas, or coal. The Alliance to Save Energy estimates that energy 
efficiency gains since 1973 are now saving at least 40 quadrillion Btus 
of energy each year, or about 40 percent of our actual energy use. 
What's more, increasing America's energy efficiency is the quickest, 
cleanest, and cheapest way of meeting our energy needs. Without these 
enormous savings, our difficulties in meeting energy demand would be 
far, far worse than they are today.
    For example, in 2004 alone, Energy Star helped Americans save 
24,000 Megawatts of peak power, enough to avoid the need for 72 300-
Megawatt power plants, and thus avoiding the use of electricity from 
some of the dirtiest, oldest power plants that come online during peak 
hours. Working together with Energy Star, Americans prevented the 
release of 30 million metric tons of greenhouse gas emissions, which is 
equivalent to removing 20 million cars from the road. As these 
statistics exemplify, the Energy Star program is helping millions of 
Americans get the energy they need, while saving money and avoiding 
pollution.

              HOW ENERGY STAR CAPITALIZES ON THIS RESOURCE

    EPA's Energy Star program has proven to be an extremely effective 
way for this nation to capitalize on the potential of energy efficiency 
as a resource. Energy Star's voluntary partnership program--which 
includes Energy Star Buildings, Energy Star Homes, Energy Star Small 
Businesses, and Energy Star Labeled Products--works by removing 
marketplace barriers to existing and emerging technologies, providing 
information on technology opportunities, generating awareness of 
energy-efficient products and services, and educating consumers about 
life-cycle energy savings.
    Two years ago, the Alliance to Save Energy undertook an extensive 
public opinion survey and found that the name recognition of the Energy 
Star program is very high--86 percent among U.S. homeowners. 
Approximately one-third of U.S. consumers report using the Energy Star 
label as an information tool for making purchase decisions; and an even 
higher number report using Energy Star as an information tool to help 
them save energy. Most consumers who are aware of the Energy Star label 
correctly understand that products bearing the Energy Star label use 
less energy and can save them money on energy bills.

                   ABOUT THE ENERGY STAR PARTNERSHIPS

    Energy Star is composed entirely of voluntary partnerships, and 
these have grown since the early 1990s to include thousands of product 
manufacturers, private and public building owners and operators, 
homebuilders, small businesses, utilities, and retailers. These 
partnerships demonstrate that energy efficiency delivers ``pollution 
prevention at a profit.''
    Energy Star serves broad constituencies in every state in the 
country. Energy Star currently has more than 7,000 company partners who 
are committed to improving the energy efficiency of our homes, 
businesses and products. Among those partners are over 1,400 
manufacturing partners who make and market over 32,000 different models 
of Energy Star qualifying products, and 550 retail partners 
representing 21,000 storefronts. Energy Star counts more than 2,000 
builder partners and partners who supply products and services for 
energy-efficient home construction. More than 360,000 families now live 
in Energy Star Homes--locking in financial savings for homeowners of 
more than $200 million annually. In fact, nearly 10 percent of all 
homes built in 2004 earned the Energy Star label.
    As you may know, 2005 marks the fifth year that the Alliance has 
asked Energy Star company partners to join us in our request for a 
significant increase in funding for the program. The response has been 
remarkable. Joining us in our request this year are 620 companies and 
partners and another 25 individuals.

    MUCH HAS BEEN ACCOMPLISHED, BUT HUGE POTENTIAL REMAINS UNTAPPED

    Although the Energy Star program has made a significant 
contribution to reducing consumer energy use, a wide array of 
important, additional opportunities to use the program to promote 
energy remain untapped. Energy Star is a success, poised to provide 
more savings and enhanced environmental protection as soon as the 
government is ready and able to invest more.
    In 2001, the President's National Energy Plan recommended that the 
Energy Star program be expanded and that the Energy Star labeling 
program be extended to cover more products. Time and again, the 
President and the Administrator of the EPA have noted that voluntary 
measures are vital to addressing climate change and have held up Energy 
Star as an exemplary program. Yet funding for the program has remained 
flat. The fiscal year 2006 proposed budget for Energy Star, $50.5 
million, is up less than 1 percent from last year, and is the same as 
the fiscal year 2002 appropriation. Worse, funding rescissions and 
internal cuts have plagued the program over the past several years. 
Even with tight federal budgets, the number of products and 
manufacturers in the labeling program has greatly expanded, and the 
number of partners in the Buildings, Homes, and Small Business programs 
has soared.
    But more funds are needed. Considering the soaring energy prices 
around the country and the concerns about electricity reliability and 
pollution abatement, the Alliance believes that funding for the Energy 
Star program should be significantly increased for fiscal year 2006 and 
should be doubled over the next five years. This would enable the 
Energy Star program not only to add additional products and increase 
consumer education campaigns but also to address energy-efficient home 
improvements nationwide.
    By building on the Energy Star name, we can save much more energy 
and break through additional market barriers, building homeowner trust 
in energy audit programs and whole-home retrofits, including 
insulation, duct sealing, and home envelope sealing. In addition to 
labeling products and buildings, Energy Star has begun a successful 
effort working with state and local organizations to help homeowners 
audit and upgrade the efficiency of their homes. Home Performance with 
Energy Star is growing as state and utilities look for opportunities to 
save energy and reduce peak load. More than 11,000 homes in California, 
Colorado, Georgia, Idaho, Kansas, Massachusetts, Minnesota, New York, 
Texas, and Wisconsin have been improved through this program. But much 
more needs to be done to implement similar programs across the country. 
With additional funding, the Energy Star program could develop a 
supportive infrastructure for contractors around the country, share 
information with interested state organizations, and develop marketing 
efforts in up to 10 metropolitan areas per year.

                            RECOMMENDATIONS

    EPA's Energy Star program has clearly demonstrated its importance 
in helping the United States to capitalize on its greatest energy 
``resource''--energy efficiency. The program is delivering real 
progress toward meeting our country's environmental and energy security 
goals, while at the same time putting more money in consumers' pockets 
through reduced energy bills. More investment by the federal government 
is needed to expand the impact of this voluntary partnership between 
the government and industry.
    The Alliance to Save Energy recommends the subcommittee take the 
following actions to best leverage the proven results that stem from 
EPA's Energy Star program:
  --First, we ask that the House, Senate, and conference specify the 
        exact level of federal funding that is appropriated for the 
        Energy Star program. Both the House and the Senate included 
        such report language for fiscal year 2004; the Senate did again 
        in fiscal year 2005. Such direction to EPA is needed to assure 
        that funding intended by Congress for the program is used by 
        the agency for that purpose.
  --Second, we recommend that the Congress increase funding of the 
        Energy Star program by $10 million over the Administration's 
        request, in order to expand the number of products, programs, 
        and partners involved in the current program. This should be a 
        first step to doubling the $50 million budget for the Energy 
        Star program within five years. In particular, the added funds 
        will allow expansion of the new Energy Star ``Home 
        Performance'' component nationwide.

                               CONCLUSION

    The Energy Star program proves that we can protect the environment 
while simultaneously saving consumers money on their energy bills and 
enhancing the economy. Energy Star provides the catalyst for many 
businesses, state and local governments, and consumers to invest in 
energy efficiency, which in turn yields multiple private and public 
benefits. It does this by providing access to information, improving 
brand recognition, and providing positive publicity.
    While there are many demands on the country's financial resources, 
Energy Star has proven tremendously cost-effective, and it returns 
important benefits to the nation. Every added federal dollar invested 
in Energy Star in fiscal year 2006 will return a significant and cost-
effective yield in pollution reduction; economic stimulation; energy 
security; and consumer savings.
                                 ______
                                 
        Prepared Statement of the Ecological Society of America

    As President of the Ecological Society of America, I am pleased to 
provide written testimony for the Environmental Protection Agency 
(EPA), the Forest Service, and the U.S. Geological Survey. The 
Ecological Society of America has been the nation's premier 
professional society of ecological scientists for 90 years, with a 
current membership of 9,000 researchers, educators, and managers. We 
appreciate the opportunity to offer written testimony on behalf of 
these three agencies.

                 ENVIRONMENTAL PROTECTION AGENCY (EPA)

    The Ecological Society of America is disappointed that the proposed 
budget for the EPA would reduce the agency's Human Health and 
Ecosystems Program, which includes much valuable biological and 
ecological research. The agency is requesting $169.6 million for the 
program in fiscal year 2006, a 4 percent drop from last year's request. 
In addition, the agency's valuable fellowship programs would stay at 
flat funding levels.
    The Ecological Society of America is concerned about several 
science programs slated to be cut in the budget proposal: the ecosystem 
protection research program would be reduced by $5.8 million to $88 
million, negatively affecting the Western Environmental Monitoring and 
Assessment Program (EMAP), the National Coastal Assessment, the 
Regional Vulnerability Assessment tools and watershed modeling 
research. In addition, the proposed EPA budget also includes a $5.0 
million (50 percent) cut to its exploratory grants program, which 
supports investigator-initiated research projects that address future 
or emerging environmental issues.
    It is regrettable that the agency is slated to see no expansion of 
its valuable fellowship programs, which, when taken together, would be 
funded at the current level of $8.3 million. These include the Science 
to Achieve Results (STAR), Greater Research Opportunities (GRO), 
Environmental Science and Technology (EST) and Environmental Public 
Health (EPH) fellowship programs. EPA's STAR Fellowship Program is of 
particular interest to our community. The program is the only one of 
its kind--funding graduate students conducting applied environmental 
research--and has had an excellent track record since its inception in 
1995. An extremely competitive program--only 7 percent of applicants 
are awarded fellowships--the program has produced high quality research 
and is helping to train the next generation of environmental 
scientists.
    We appreciate the opportunity to provide our comments on the 
Environmental Protection Agency and its proposed budget. Thank you for 
your consideration of our testimony.

                        U.S. FOREST SERVICE (FS)

    The Ecological Society of America supports the President's budget 
request for an increase in the Forest Service (FS) Research and 
Development (R&D) budget to $285 million. The FS is responsible for 
managing 191 million acres across the United States. This is no simple 
task considering that those acres are home to 360 endangered species 
and 2,500 sensitive species. Along with maintaining ecosystem 
sustainability, the FS is also charged with providing forest products 
from its lands for the economic well being of the surrounding 
communities. In order to complete these sometimes competing mandates, 
it is essential that the Forest Service have the ability to perform 
high level ecological analysis and research to ascertain the needs of 
the ecosystems that it manages.
    The R&D division of the Forest Service provides this research, as 
well as critical support to land management activities on Forest 
Service land. It contributes to overall ecological knowledge and 
expertise, and is of great importance to the Society's membership. The 
Forest Service R&D budget is an essential element in the overall 
success of the Forest Service's mission, as it provides basic and 
applied research in the biological and physical sciences on national 
forests and grasslands. These lands are extremely diverse and 
biologically rich, providing a great store of information on ecology. 
The Forest Service's R&D has particular strengths in researching the 
habitat needs of wildlife species, watershed function, invasive 
species, aquatic habitats, and the role of the atmosphere and climate 
in forest health.
    The Forest Service R&D, in cooperation with State and Private 
Forestry and the National Forest System, administers the Forest 
Inventory and Analysis (FIA) program. FIA is the only program to 
comprehensively assess all of the nation's forests in a nationally 
consistent manner across all land ownerships. Data collected through 
this program has been invaluable in helping government and non-
government scientists document the role of U.S. forests in sequestering 
carbon from the atmosphere, a process that slows climate change. In 
fiscal year 2004, the Forest Service R&D expanded its inventory of 
America's forests to two more states, bringing the total coverage to 83 
percent of America's forests. ESA supports the President's request for 
full implementation of the FIA in all 50 states.
    The Ecological Society is disappointed that the President's budget 
request reduces funding for the National Fire Plan by $4.8 million. 
While funding for research on fuels will increase by $711,000 under the 
budget request, this will not offset the cuts to National Fire Plan 
research. The budget shortfall for fire research will ultimately hinder 
effective management of our nation's forests. This is of particular 
concern given that the Healthy Forests Initiative is a far-reaching 
proposal that will require an increased and sustained level of 
scientific research in order to be successful. If fire research funds 
are reduced, the overall ecological integrity of our national forests 
may be sacrificed.
    The Society remains concerned that the proposed Forest Service 
budget for fire fighting is inadequate. For several years, the FS and 
the Department of the Interior's wildfire suppression costs have 
exceeded appropriated levels. To make up the difference, the agencies 
have transferred funds from other accounts to cover the costs, 
decreasing the ability to conduct research as well as necessary on-the-
ground work such as rehabilitation and restoration, wildlife habitat 
improvements, and hazardous fuels reduction. A long-term solution to 
the lack of sufficient funding is needed to avoid negative consequences 
for the nation's forests and for the communities that live, work and 
recreate in them. The Ecological Society supports the establishment of 
a non-discretionary fire emergency fund to ensure that both fire 
suppression and fire research needs are met in the future.

                     U.S. GEOLOGICAL SURVEY (USGS)

    ESA is grateful to Congress for its leadership in restoring past 
budget cuts and for report language supporting strengthening USGS core 
science programs and cooperative initiatives. We ask that Congress 
strongly consider funding USGS at $1 billion for fiscal year 2006. This 
7.1 percent boost above the fiscal year 2005 enacted level would 
restore proposed cuts to key agency programs and begin to reverse the 
nearly decade-long funding shortfall for this agency.
    As the Department of Interior's sole science agency, the USGS 
conducts research critical to Interior's responsibilities in managing 
land, water and in protecting wildlife and environmental resources. In 
addition, USGS's long-term monitoring programs, nationwide networks and 
multidisciplinary scope make USGS a unique and important research body 
in such areas as combating invasive species, maintaining water quality 
and quantity, and tracking wildlife diseases. These problems affect the 
health, well being and economic security of many U.S. residents, in 
addition to being key areas of ecological research.
    The President's budget would provide essentially flat funding to 
USGS' biology division, a funding increase to the mapping program, and 
cuts to geology and water. Overall funding for the science agency would 
fall by 0.2 percent to $933.5 million. The Society is concerned that 
the proposed cuts would curb the agency's ability to provide integrated 
scientific information. For example, proposed cuts to the Mineral 
Resources program would terminate research that has important 
implications for public health and environmental protection, such as 
studies on mercury, arsenic, and other inorganic toxins.
    These proposed budget cuts would adversely affect the ability of 
the USGS to achieve its mission. We encourage Congress to restore these 
cuts, but this funding should not come at the expense of other high 
priority programs.
    The USGS budget request would expand funding for several 
initiatives, including increases of $300,000 for invasive species 
research, $250,000 for ecological systems mapping, and $19.5 million 
for land remote sensing activities. It also would expand funding by 
$750,000 for the Science on the DOI Landscape initiative, a 
collaborative effort building on scientific expertise to meet regional 
priorities of Interior Bureaus and local communities.
    These initiatives would enhance and integrate ecological knowledge 
and deserve the support of Congress.
    The USGS budget request for fiscal year 2006 provides full funding 
for increases in fixed costs such as employees' salaries. In past 
years, increases in fixed costs were not accounted for in the budget 
and so were partially absorbed by individual programs, ultimately 
curtailing the USGS' ability to carry out research in its core 
programs. The Ecological Society encourages Congress to meet the 
President's budget request for full funding of fixed costs in fiscal 
year 2006 so that fixed costs will not be met at the expense of 
research.
    The USGS is an exceptional and unique research organization. Many 
of the ecological problems that the USGS is charged with addressing 
require an interdisciplinary and integrative approach. USGS is 
positioned to utilize its expertise in geology, hydrology, geography 
and biology to address these complex problems so crucial to maintaining 
human and environmental health.
    We hope that Congress will do its best to support USGS at the $1 
billion level. Thank you for your thoughtful consideration of our 
request.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Mr. Chairman and members of the Subcommittee, I am Sara Ward of 
Ohio and Chair of the National Association of State Energy Officials 
(NASEO). NASEO represents the energy offices in the states, 
territories, and the District of Columbia. NASEO is submitting this 
testimony in support of funding for the Energy Star program (within the 
Climate Protection Division of the Office of Air and Radiation) at the 
U.S. Environmental Protection Agency (EPA). NASEO supports funding of 
at least $10 million above the Administration's fiscal year 2006 
request of $50.6 million, including specific report language directing 
that the funds be utilized only for the Energy Star program.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with states, local governments and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and over thirty-five states are Energy Star Partners. In February, EPA 
and NASEO announced a new Clean Energy and Environment State 
Partnership program, which already has over ten state members. With 
very limited funding, EPA's Energy Star program works closely with the 
state energy offices to give consumers and businesses the opportunity 
to make better energy decisions, without regulation or mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. The Energy Star label is recognized across the United 
States. It makes the work of the state energy offices much easier, by 
working with the public on easily recognized products, services and 
energy savings targets. In order to obtain the Energy Star label a 
product has to meet established guidelines. Energy Star's voluntary 
partnership programs include Energy Star Buildings, Energy Star Homes, 
Energy Star Small Business and Energy Star Labeled Products. The 
program operates by encouraging consumers and by working closely with 
state and local governments to purchase these products and services. 
Marketplace barriers are also eradicated through education.
    In addition to the state partners, the program has more than 7,000 
company partners. More than 360,000 families now live in Energy Star 
homes. We are working with EPA, DOE and HUD on the development of a 
``Home Performance'' with Energy Star activity. This allows us to focus 
on whole-house improvements, not simply a single product or service. 
This will be extremely beneficial to homeowners. Pilots have already 
been undertaken in New York, Illinois and Wisconsin. We are also 
working closely with EPA in the implementation of the new Energy Star 
Challenge, which is encouraging businesses and institutions to reduce 
energy use by 10 percent or more, usually through very simple actions. 
We will work with the building owners to identify the level of energy 
use and compare that to a national metric, establish goals and work 
with them to make the specified improvements. Again, this is being done 
without mandates. In just one week, Delaware, Maine, Massachusetts, New 
Hampshire, New York, Ohio and Pennsylvania have agreed to participate.
    The state energy offices are very encouraged with progress made at 
EPA and in our states to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been offering critically 
useful technical assistance to state energy offices in such areas as 
benchmark training (how to rate the performance of buildings), setting 
an energy target and training in such areas as financing options for 
building improvements and building upgrade strategies.
    This Subcommittee was instrumental in funding the State 
Technologies Advancement Collaborative (STAC), which is a joint venture 
between the state energy offices, the state research institutions and 
the Department of Energy. We are working closely with the Energy Star 
program to ensure that STAC coordinates the Rebuild America activities 
with EPA's Energy Star program.
    The state energy offices are working cooperatively with our peers 
in the state environmental agencies and state public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.

                             STATE EXAMPLES

    In the examples noted below, the state energy offices have been 
active program participants and promotion agents for Energy Star.

Alaska
    Thirty companies and public entities in the State are now working 
with the Energy Star program, with 7,200 homes already earning the 
Energy Star label. With high energy costs, the evaluation tools 
prepared by Energy Star have been very helpful in assessing building 
performance and recommending and implementing improvements. For 
example, the Matanuska-Susitna Borough School District has upgraded 
lighting, installed programmable thermostats and taken other measures 
to reduce energy usage.

California
    More than 1,850 companies and public entities are participating in 
the program, with 202 manufacturers of Energy Star products located in 
the State. More than 21,100 homes have already earned the Energy Star 
label. The State is focusing on a new homes program, there is a State 
``Energy Star'' purchase requirement and companies as varied as Intel 
Corporation and Hilton Hotels have been program participants.

Colorado
    Energy Star initiatives and projects have been implemented 
throughout the State. Some notable examples include the: (1) Poudre 
School District in Fort Collins, which completed 95 projects saving 
over $300,000/year; (2) Jefferson County Public Schools in Golden, 
which are saving $2.8 million each year; and (3) 26 different 
homebuilders constructing Energy Star homes.
    Hundreds of companies and public entities are participating in the 
program.

Idaho
    Twenty-eight companies are building Energy Star homes in the State. 
Western Window in Caldwell is producing Energy Star windows for use in 
the southern part of the State. Utilities are actively participating in 
the program, including both investor-owned and municipal utilities. The 
State's ``GemStar'' program is promoting the use of high performance 
homes. Over 100 companies and other public entities are involved in the 
program.

Maryland
    Almost 800 companies and public agencies, with active participation 
of the Executive Branch, are involved in Maryland. Over 4,000 homes 
have earned the Energy Star label. State legislation has promoted the 
use of Energy Star appliances, including making some energy efficient 
models tax free. Partners include such diverse entities as Harley-
Davidson, Howard County Public Schools and Archstone Smith Realty.

Mississippi
    With 60 companies and public entities, numerous manufacturers and 
many homes participating in Energy Star and earning the Energy Star 
label, Mississippi is moving aggressively to promote the program. 
Retailers stocking Energy Star products include Wal-Mart, Best Buy, 
Circuit City, Home Depot, Lowe's, Sam's Club, and Sears. Five companies 
are now building Energy Star homes.

Montana
    Over 50 companies and public entities are participating in the 
program, with 210 retail locations selling Energy Star products. 
Executive Order 03-01 has directed that Energy Star be included in 
state procurement. Active partners include the Northwest Energy 
Efficiency Alliance, Montana State University, hospitals, schools 
districts, etc. The State has forcefully promoted the program.

Nevada
    Over 100 companies and public entities are program participants. 
The state energy office and the public utility commission are working 
together to promote a variety of activities, including a recent Energy 
Star appliance rebate program for utilities. The Clark County School 
District has reduced annual utility costs by $4 million through energy 
efficiency efforts across 147 schools. The City of Las Vegas has saved 
4.8 million kWh through aggressive energy efficiency measures. Thirty-
three companies are now building Energy Star homes.

New Hampshire
    Over 110 companies and numerous public entities are program 
participants. Hundreds of retail locations are selling Energy Star 
products. Rebates for Energy Star products are now offered by the 
utilities as a result of regulatory actions. The State initiated a 
master lease program to promote performance contracting for energy 
efficiency initiatives. Over 500 State-owned buildings are either being 
evaluated or undergoing modifications.

New Mexico
    Over 80 companies and public entities are participating in the 
program, with over 2,200 homes already receiving the Energy Star 
rating. Active participants thus far include Two Park Square in 
Albuquerque, the federal buildings in Gallup and Roswell, the 
Albuquerque Indian Hospital and the VA Health Center and scores of 
schools in Albuquerque. Six companies are now building Energy Star 
homes, led by Artistic Homes.

North Dakota
    Thirty companies and public entities are participating, with 3 
manufacturers of Energy Star products located in the State. Numerous 
schools have been involved, including, for example, Grand Forks West 
Elementary School, Grand Forks Winship Elementary School, Cavalier 
Public Schools and Walhalla Public Schools. A variety of retailers sell 
these products and Thermal Line Windows in Mandan sells Energy Star 
windows in 12 states.

Utah
    Over 110 companies and public entities are program participants, 
with over 170 retail outlets selling Energy Star products. More than 
1,800 Energy Star homes have been constructed in the State, with 
notable developers including Ence Homes (St. George). Thirty-two 
companies are now building Energy Star homes. Amsco Windows of Salt 
Lake City is a major seller of Energy Star windows. The University of 
Utah has now retrofitted 81 buildings with significant energy 
efficiency improvements.

Vermont
    Over 150 companies and public entities are program participants, 
with 5 manufacturers of Energy Star products located in the State. Over 
1,900 homes have already earned the Energy Star rating, with active 
promotion of the program accelerating market penetration and 
acceptance. The state energy office, the Vermont Energy Investment 
Corporation (operating public benefit programs), Efficiency Vermont 
(composed of 20 utilities and others), Green Mountain College, 
Killington Ski Resort and the University of Vermont are all aggressive 
program participants.

West Virginia
    Seventy companies and public entities are participating in the 
program. The state energy office has provided technical assistance to 
industries, public institutions and local governments to promote Energy 
Star products and services, including over 100 energy audits leading to 
significant improvements. Individual participants have included Royal 
Vendors, Inc. (Kearneysville), Simonton Windows (Parkersburg) and 
Marion County Schools (Fairmont).

Wisconsin
    Almost 800 companies and public entities are participating in 
Energy Star. Over 2,300 homes have earned Energy Star recognition. In 
addition 45 schools, 6 office buildings, and 4 supermarkets have now 
earned Energy Star recognition. In addition to active promotion work by 
the state energy office having spearheaded the implementation of 22 
facility upgrades leading to $2.6 million in annual savings, 291 
builders are constructing Energy Star homes. Johnson Controls, based in 
Milwaukee, has been an industry leader in promoting Energy Star through 
their performance contracting activities.
    We can provide a myriad of other state examples at your request.

                               CONCLUSION

    Increases in funding for the Energy Star Programs are justified. 
NASEO endorses these activities and the state energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs.
                                 ______
                                 
Prepared Statement of the National Research Center for Coal and Energy 
                              (NRCCE) \1\
---------------------------------------------------------------------------
    \1\ The National Research Center for Coal and Energy is located at 
West Virginia University. This statement has been prepared by Richard 
Bajura, Director. George Fumich, NRCCE Program Advisor, now deceased, 
contributed to this statement. For additional information, contact our 
web site at http://www.nrcce.wvu.edu.
---------------------------------------------------------------------------
    This testimony requests appropriations for three projects 
administered under the Environmental Protection Agency [EPA] in the 
area of water and one program in the area of air quality. Comments on 
each project are described below.
    The NSFC and the NETCSC programs were funded in fiscal year 2005 
appropriations. The remaining two programs have been funded in previous 
years, but are not funded in fiscal year 2005.

                             WATER PROGRAMS

1. Rural Water Technical Assistance [RWTA] Projects
    This portion of our testimony focuses on two projects funded under 
the RWTA provision in the Environmental Programs and Management section 
of the EPA budget. The RWTA funds several national organizations that 
provide drinking water and wastewater services to small and rural 
communities. While the types of services provided by each organization 
are different, each organization is dedicated to improving the water 
environment of rural America.
    Small communities in the United States (populations less than 
10,000) need significant assistance for basic water and wastewater 
services. Services provided by RWTA organizations enable the 
communities to achieve and maintain regulatory compliance using 
technologies which are less costly than conventional sewers and 
treatment plants.
    Section 1442(e) (42 U.S.C. 300j-1(e)) of the Safe Drinking Water 
Act provides funding in the amount of $15 million per year through the 
Safe Drinking Water Act for Rural Water Technical Assistance. 
Congressional support to continue the work of these programs is 
imperative because the communities these programs assist cannot pay the 
RWTA organizations on a fee-for-service basis.
National Small Flows Clearinghouse [NSFC]--$2 million
    The NSFC, one of the programs funded under the RWTA provision of 
the Clean Water Act, was created in legislation to provide information 
and assistance to small and rural communities on proper technology 
selection and the management of onsite and small wastewater systems. 
Users of these services include individual home owners, small town 
officials who do not have staff support to address regulatory 
requirements, developers and state regulators, and professionals who 
install and service alternative treatment systems.
    NSFC is the premier (and only) comprehensive national source of 
information about ``small flows'' systems--those systems that have 
fewer than one million gallons of wastewater flowing through them per 
day. These systems range from individual septic systems to small sewage 
treatment plants and require technologies which are different from the 
technologies used for large volume water treatment plants. 
Decentralized systems such as onsite septic systems and small cluster 
systems serve 25 percent of the total U.S. population, especially in 
small communities. Projections through 2019 show that 40 percent of 
wastewater utilities and 25 percent of water utilities have 
insufficient funds for services, and 29 percent of utilities have 
deferred maintenance on their plants.
    Using NSFC services, small communities across the nation have been 
able to learn how to leverage funding in the face of declining federal 
and state support and obtain information about small system 
technologies which are less expensive yet meet regulatory requirements. 
The NESC's mandate is to serve small and rural communities throughout 
the United States by providing information and assistance on small 
wastewater treatment system technologies. The NSFC accomplishes this 
mandate by:
  --Better enabling operators of small water treatment systems to 
        comply with federal regulations.
  --Providing access to expert advice and training on wastewater.
  --Guaranteeing the most current, comprehensive information in small 
        wastewater system financing, technologies, and management.
  --Delivering public health and environmental awareness education, 
        information and technical assistance to small communities and 
        rural areas.
    National benefits of the program include increased health of 
residents through effective management of wastewater treatment systems 
and reduced costs for infrastructure investments. We request continued 
support for the National Small Flows Clearinghouse at $2 million for 
fiscal year 2006.

National Environmental Training Center for Small Communities [NETCSC]--
        $1.5 million
    Environmental professionals such as operators, engineers, 
regulators and installers, and local decision makers in small 
communities need training to resolve their community environmental 
problems. In 1991, Congress created NETCSC to meet this need. In a 
unique approach, NETCSC develops, disseminates, and delivers training 
customized for small community environmental management. NETCSC 
provides training resources to environmental trainers and technical 
assistance providers, who in turn train environmental professionals 
that serve small communities. NETCSC has developed more than 40 model 
training packages. These training packages are delivered and available 
coast-to-coast to thousands of participants, often in co-sponsorship 
with other training and/or service providing organizations.
    Hundreds of environmental trainers across the nation attend NETCSC 
training and subsequently use NETCSC training materials in turn to 
train thousands of local officials, operators, installers, regulators, 
engineers and homeowners. More than 7,000 environmental trainers, 
technical assistance providers, and small community professionals 
receive NETCSC's environmental training newsletter to obtain relevant 
updates on environmental infrastructure, training, security, and 
emergency preparedness issues and opportunities.
    Since September 2001, NETCSC has been assisting smaller communities 
in addressing water security concerns. At the request of the 
Environmental Protection Agency and the Department of Agriculture, 
NETCSC has developed and delivered training courses designed to improve 
the security of small drinking water and wastewater systems. NETCSC has 
also developed and compiled an array of vulnerability assessment, 
emergency response, and security resources. These efforts include 
multiple training deliveries, substantial coverage of security issues 
in E-Train (NETCSC's newsletter), and substantial coverage of security 
issues on the organization's frequently accessed worldwide web sites. 
These and other security-related efforts have been undertaken in 
consultation with a variety of national, regional, and state and local 
partners. A vulnerability assessment guide for small wastewater systems 
has also been developed in cooperation with the Environmental 
Protection Agency. NETCSC is playing a leading role in assisting small 
treatment systems with security training issues. The present request 
for the National Environmental Training Center for Small Communities 
includes an added $0.5 million over the fiscal year 2005 level for a 
total appropriation of $1.5 million to expand our work in the area of 
homeland security. EPA is the lead agency for homeland security issues 
in the area of water.
2. Monongahela Basin Mine Flooding Program--$1 million
    This project addresses the assessment, monitoring, and control of 
contaminated water from abandoned coal mines in the Monongahela River 
Basin area of Northern West Virginia and Southwestern Pennsylvania.
    Coal has been mined in the Monongahela River Basin since colonial 
times, resulting in more than 1,200 mines having been developed. All 
but 10 of them are now abandoned or closed. The non-active mines are 
either flooded or are rapidly filling with polluted mine water. Over 
the past 30 years, much of this mine water had been treated by active 
mining companies. They treated water from adjacent, abandoned mines to 
keep their working faces dry. However, after closure of a mine, the 
companies are only responsible for the water issuing from their 
portals. As a result, significant new discharges are anticipated from 
old workings.
    The recent water eruption from a mine shaft in the town of 
McDonald, PA, near Pittsburgh, illustrates the need for continued 
effort for mapping, monitoring, and cataloging the older mine sites. In 
the McDonald incident, the mine discharge burst from a long-forgotten 
portal and flowed through the town at rates of up to 10,000 gallons per 
minute.
    We request funding of $1 million for the Monongahela Basin Mine 
Flooding Program for fiscal year 2006. The project was supported 
previously under the U.S. EPA Clean Water Action Plan. The National 
Environmental Technology Laboratory [NETL], through its Environmental 
Technologies Program, is a partner in this project.

                          AIR QUALITY PROGRAMS

3. National Alternative Fuel Vehicle [AFV] Day Odyssey--$0.5 million
    We seek support from the Environmental Protection Agency for the 
third National Alternative Fuel Vehicle Day Odyssey, a public outreach 
event which supports the EPA programs in clean air through the 
deployment and use of alternative fuel vehicles and advanced technology 
vehicles. EPA was a partner and provided extensive cost-sharing to the 
first two Odyssey events in 2002 and 2004. The event is coordinated by 
the National Alternative Fuel Training Consortium [NAFTC], a consortium 
of 25 higher education educations which also develops curricula and 
conducts training on the servicing of alternative fuel vehicles and 
advanced technology vehicles.
    National AFV Day Odyssey is a focused, well-defined, public 
awareness event that brings national attention to cleaner, more energy-
efficient and smarter choices in transportation. The Odyssey is held at 
multiple sites simultaneously in conjunction with a central national 
headliner event. The Odyssey program has shown that the results of such 
a unity-of-purpose event held on one day increases the impact of each 
individual site's Odyssey event and catalyzes momentum for the AFV/
advanced technology vehicle movement nationwide.
    National AFV Day Odyssey 2004, conducted on April 2, reached over 
24 million individuals through media and participant attendance. 
National AFV Day Odyssey was conducted in 54 sites in 32 states and 2 
Canadian Provinces and involved over 650 Local Partners in the events. 
Participating organizations included the National Clean Cities local 
coalitions, AFV associations such as the Natural Gas Vehicle Coalition 
and the Electric Drive Transportation Association, Professional 
Associations and Industry Associations. Sponsors of the Odyssey event 
included General Motors Corporation, Diamler-Chrysler Corporation, 
American Honda Motor Company, and Toyota Motor Sales, USA, Inc., and 
the USDOE through Oak Ridge National Laboratory, in addition to EPA as 
our cooperative agreement partner. In view of the success of the first 
two Odyssey events, the NAFTC and its partners wish to establish a 
regular cycle for repeating the Odyssey program. We seek $0.5 million 
from the EPA for the NAFTC National Alternative Fuel Vehicle Day 
Odyssey.
    Thank you for considering these requests.
                                 ______
                                 
   Prepared Statement of the Agency for Toxic Substances and Disease 
                                Registry

    Mr. Chairman and distinguished Members of the Subcommittee: The 
Agency for Toxic Substances and Disease Registry (ATSDR) is pleased to 
provide written testimony in support of the President's fiscal year 
2006 budget request of $76.024 million. This funding will support 
ATSDR's ongoing activities and critical programs, including programs to 
enhance the understanding of health impacts from exposures to hazardous 
substances.
    As an agency newly under your jurisdiction, we would first like to 
introduce ourselves. We will then discuss some highlights of ATSDR's 
Superfund site work, demonstrating how the Agency has been successful 
in meeting its goal to mitigate the risks of health effects at toxic 
waste sites and how we have assisted the Environmental Protection 
Agency (EPA) in documenting the need for and effectiveness of its 
remediation efforts. This testimony will address (1) ATSDR's 
achievements in carrying out its mission under the Superfund to assess 
potential health impacts from exposures of hazardous waste sites; (2) 
ATSDR's education of the public and the medical community to mitigate 
potential health problems facing communities around the nation; and (3) 
ATSDR's partnerships and their protective impact on the public's health 
from hazardous substances.

                              INTRODUCTION

    What is ATSDR? A community discovers its drinking water is 
contaminated with a toxic substance that came from the local landfill . 
. . An Indian tribe has concerns about mercury in fish and wild game . 
. . A child is found to be suffering from exposure to high levels of 
lead . . . Basements in a neighborhood have annoying fumes that smell 
like gas or oil . . . What health effects might have occurred, or will 
occur, as a result of these exposures? These are the types of 
environmental health issues that ATSDR addresses every day.
    ATSDR was created under the Comprehensive Environmental Response, 
Compensation, and Liability Act of 1980 (CERCLA), more commonly known 
as the Superfund law. The Superfund program is charged with finding and 
cleaning up the most dangerous hazardous waste sites in the country. 
ATSDR supports this mission by providing and using the best science, 
taking responsive public health actions, and providing trusted health 
information to prevent harmful exposures and disease related to toxic 
substances.

                           ATSDR ACHIEVEMENTS

    All the work we do is geared toward meeting the overarching goal of 
ensuring that the sites where we work become healthy places to live, 
work, and play.
    Protecting the Public's Health by Addressing Asbestos Exposure: Our 
work in addressing health problems associated with exposure to asbestos 
is an example of our efforts. The asbestos exposures that took place in 
Libby, Montana, have become well known since ATSDR studies and 
screening defined the extent of the health problem. ATSDR medical 
screening revealed that:
  --Nearly one in five of the 7,300 people participating in the medical 
        testing during the years 2000 and 2001 were found to have lung 
        or breathing abnormalities associated with exposure to asbestos 
        fibers.
  --Of the former W.R. Grace employees receiving x-rays, 51 percent had 
        pleuralabnormalities.
    In addition, an updated analysis of deaths due to asbestos-related 
disease in the Libby area from 1979-1998 showed increased mortality due 
to asbestosis, lung cancer, and other, non-malignant respiratory 
diseases. We are continuing to provide medical screening for exposed 
individuals and have established a registry to track their ongoing 
health status.
    But the contamination was not limited to Libby; the asbestos 
contaminated vermiculite was shipped for processing to over 200 plants 
around the country. ATSDR is now studying the 28 sites that received 
nearly 80 percent of the Libby vermiculite mined from 1964 through 
1980. The findings from studying these sites will indicate whether the 
scope of the project needs to be expanded to include other sites that 
processed Libby vermiculite and the associated health concerns. The 28 
pilot sites are scattered across the United States and include 
locations in California, Colorado, Maryland, and North Dakota. ATSDR is 
working to determine whether past (or current) exposures took place at 
or near these sites-paying particular attention to former workers and 
their families. The Agency will then work with community residents and 
state partners to mitigate any existing or potential health effects. 
Health statistics reviews to evaluate mortality and cancer registry 
data are under way in sixteen states, and pilot mesothelioma 
surveillance is being initiated in the states of New York, Wisconsin, 
and New Jersey.
    Another unfolding asbestos-related challenge is in El Dorado Hills, 
California, where workers found a vein of naturally occurring asbestos 
during construction of a soccer field at Oak Ridge High School. ATSDR 
has evaluated the public health threat associated with exposures to 
airborne asbestos fibers at the school, and will be documenting its 
findings. ATSDR will continue to consult with state and local agencies 
and the EPA to address this issue.
    Meeting the Goal to Mitigate the Risks of Human Health Effects at 
Toxic Waste Sites: Communities around the country benefit directly from 
ATSDR's assessment and interventions concerning potential exposures to 
hazardous substances and related risks of adverse health effects. 
Indeed, ATSDR has made significant strides in the past year at 
documenting the effectiveness of Agency recommendations and 
interventions to reduce community members' risk of adverse health 
effects. The Agency and its state partners work on hundreds of 
Superfund sites each year to evaluate the health hazards at these 
sites. Many are found to pose a public health hazard-sites where 
children and other residents suffer from potentially harmful exposures.
    Examples of Superfund sites where ATSDR's recommendations and 
interventions have helped people include the following:
  --Tar Creek, Oklahoma.--ATSDR-sponsored activities have helped 
        produce a significant drop in blood-lead levels (BLLs) among 
        young children in Tar Creek. In 1996, data from the Oklahoma 
        State Department of Health (OSDH) showed that among young 
        children (aged 1-5 years) living at the site, 31.2 percent had 
        a BLL at or above 10 micrograms per deciliter (gg/dL), the 
        Centers for Disease Control and Prevention (CDC) level of 
        health concern. By 2003, OSDH data indicated that elevated BLLs 
        among children in the same age group had dropped to just 2.8 
        percent. Las Vegas, Nevada-ATSDR expertise helped limit 
        injuries from mercury spilled m a Las Vegas home. Over a 2-3 
        month period, a 17-year-old resident spilled approximately one 
        quart of elemental liquid mercury inside and outside his home. 
        When the boy was hospitalized for severe mercury poisoning, EPA 
        emergency personnel checked the home and found toxic mercury 
        vapors up to 150 times higher than acceptable levels. One 
        sink's drain trap contained as much as two tablespoons of the 
        metal. With the help of ATSDR guidance on cleanup levels and 
        handling of mercury-contaminated household items, EPA was able 
        to clean the house and eliminate further exposures. ATSDR also 
        coordinated with health officials in California to ensure that 
        several part-time members of the household who had been exposed 
        but who were in California at the time of the investigation 
        also received medical follow-up.
  --Eureka, Utah.--Interventions by ATSDR and state efforts have helped 
        decrease average blood-lead levels (BLLs) in children living in 
        Eureka, where mining activities conducted from 1870 to 1965 
        resulted in elevated levels of metals in the soil. Children in 
        this community are 10 times more likely to have elevated BLLs 
        (at or over IOgg/dL) than children elsewhere in Utah. The Utah 
        Department of Health, in cooperation with ATSDR, has developed 
        a successful new health education program designed to encourage 
        blood-lead testing for residents and to decrease average BLLs 
        in children. The program reaches approximately 110 Eureka 
        Elementary students twice per month. Cleanup by the EPA and the 
        Utah Department of Environmental Quality has resulted in a 
        return to blood-lead levels below the threshold of health 
        concern. Blood-lead testing since 2000 indicates that BLLs 
        among children in Eureka have dropped and stabilized, although 
        average levels in the city's children remain high compared to 
        the state average.
  --Bunker Hill Mining and Metallurgical Complex/Couer d'Alene River 
        Basin, Idaho.--ATSDR has been engaged for several years in 
        evaluating the public health impact of metals released during 
        mining and smelting operations at the Bunker Hill site. 
        Although ATSDR has identified seven chemicals of potential 
        concern, including aluminum, antimony, arsenic, cadmium, iron, 
        manganese, and zinc, the contaminant of greatest concern at the 
        site is lead. In late 2004, ATSDR released for public comment a 
        public health assessment (PHA) that concluded that (1) high 
        levels of lead and other metals exist in surface soil, 
        household dusts, and fish at and near the site; (2) possible 
        long-term exposure to contaminants existed in a variety of 
        media; and (3) site conditions have resulted in elevated blood 
        lead levels in some children. The PHA's recommendations include 
        conducting further testing of surface soils and household dusts 
        throughout the River Basin site and remediating or covering 
        contaminated soil in children's play areas at residences and 
        common use areas.

          ATSDR EDUCATION OF THE PUBLIC AND MEDICAL COMMUNITY

    ATSDR also proactively works with EPA and the states to provide a 
variety of resources and technical support services, including 
emergency response, publication of toxicological profiles, and referral 
to environmental health specialists. ATSDR assessments and 
interventions concerning potential exposures to hazardous substances 
serve as an important link between health and environmental agencies 
and stakeholders. For example:
  --ATSDR published and distributed more than 12,000 copies of 
        toxicological profiles, each one on CD-ROM containing 
        information on more than 800 chemicals. These profiles are 
        considered the authoritative source of up-to-date information 
        on the known health effects of these chemicals by federal, 
        state, and local health and environmental officials, as well as 
        by private industry.
  --ATSDR supports the network of Pediatric Environmental Health 
        Specialty Units in major medical centers in all 10 EPA/HHS 
        regions of the country. These units provide pediatricians and 
        other health care providers with experts on how best to 
        diagnose and treat patients exposed to such chemical 
        contaminants as lead, mercury, or dioxin.

                 ATSDR PARTNERSHIPS AND HEALTH IMPACTS

    ATSDR leverages resources and partnerships to maximize health 
impacts. ATSDR has an extensive state cooperative agreement program and 
research partnerships with organizations such as the American Chemistry 
Council to improve and facilitate capacity-building in environmental 
health.
    Terrorism.--ATSDR has a significant role in planning for and 
responding to the threat of terrorist events, including performing 
emergency service functions of the National Response Plan. ATSDR's 
staff, located in EPA regional offices, work daily with EPA and 
regional staff and state partners to provide expertise in planning for 
and responding to chemical emergencies. ATSDR has responded and 
participated in several public health emergencies of this nature, 
including the ricin incident at a South Carolina post office.
    Strengthened Ties with EPA and Documented Health Improvements Post-
Remediation.--Another measure of success ATSDR has established is the 
percentage of ATSDR recommendations that EPA adopts. More than 70 
percent of our recommendations for site action directed to EPA in 2003 
have been implemented by EPA, with 10 percent still pending decision. 
We also play a critical role in helping EPA and state site managers to 
prioritize and identify which sites pose the greatest threat to human 
health.
    Further, in this past year we have been working with EPA to support 
its remediation actions by measuring the effectiveness of its clean-up 
efforts in reducing adverse health effects. One of the best examples of 
that work is our joint effort at the Doe Run Smelter, in Herculaneum, 
Missouri. BLLs for children in the town are decreasing following EPA's 
remediation of lead sources and ATSDR-sponsored health education and 
intervention activities. In 2001, 28 percent of 118 young children 
(aged 6 to 72 months) tested had elevated BLLs. Of the 67 young 
children living within a half mile of the smelter, 30 (45 percent) had 
BLLs at or above 10 gg/dL, the level of concern set by CDC, and ten 
times the percentage of children with such levels nationally. Results 
were evident by the following year. By 2002, just 14 percent of the 
children tested had elevated BLLs. Similarly, of the young children 
living within a half mile of the site, only 17 percent had an elevated 
BLL. Another strong example of ATSDR work in support of EPA is a study 
that demonstrated that removal of lead-contaminated soil from 
residential yards in Idaho's Silver Valley was effective in reducing 
blood lead levels in children. Other examples of sites where strong 
partnerships have led to positive results include:
  --Beloit, Wisconsin.--Wisconsin's Department of Health and Family 
        Services (DHFS) and ATSDR helped a business owner in Beloit 
        protect people from breathing hazardous levels of volatile 
        organic compounds (VOCs). Investigating odor complaints from 
        occupants of a building, state health officials detected high 
        levels of VOCs in the air. The VOCs, apparently from fuel oil-
        contaminated water seeping into the basement, posed an 
        intermittent, short-term health hazard when vapors from the 
        basement entered the main building. DHFS consulted with the 
        building's owners and recommended interim measures to prevent 
        exposures. The suspected source, an underground fuel oil tank 
        on an adjoining property, is now slated for removal. Health 
        officials will follow up to ensure that the measures were 
        effective.
  --Huntington, West Virginia.--ATSDR expertise and guidance helped the 
        West Virginia Cooperative Partners Program (WVCPP) and local 
        health officials protect residents and school children from 
        exposure to benzene, a known carcinogen. When a railroad-car 
        valve failed at the TechSol facility in Huntington, some 23,000 
        gallons of coal tar light oil spilled into Kraut's Creek and 
        into storm sewers. The spill forced people in over 500 homes 
        and an elementary school to evacuate. To ensure that people 
        returning to their homes would be safe, WVCPP, an ATSDR 
        partner, determined safe reoccupation levels and conducted 
        indoor air tests. As a result, most of those evacuated were 
        able to return two days later. WVCPP is now working with the 
        community to address concerns about exposure, and cleanup of 
        the creek continues.
    We look forward to working on these and additional challenges in 
the future. We thank you for the opportunity to provide you with 
written testimony and we look forward to responding to any questions 
you may have.
                                 ______
                                 

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

Prepared Statement of the Confederated Tribes of the Siletz Indians of 
                                 Oregon

    I am Delores Pigsley, Chairman for the Confederated Tribes of the 
Siletz Indians of Oregon. On behalf of the Confederated Tribes of the 
Siletz Indians, I would like to thank the Committee for the opportunity 
to present written testimony regarding fiscal year 2006 Appropriations 
for the Indian Health Service and the Bureau of Indian Affairs.
    Our Tribe is fortunate to live along the beautiful Oregon Coast. 
But we are isolated from metropolitan areas. As a result, our most 
critical funding needs are for health care and education. We urge 
Congress to provide additional funds for the Indian Health Service and 
the Bureau of Indian Affairs' Education Programs.

                         INDIAN HEALTH SERVICE

    The Confederated Tribes of Siletz operate a small ambulatory health 
facility under a Public Law 93-638 Self-Governance Compact with the 
Indian Health Service. Our outpatient program was initially funded by a 
special congressional earmark as a demonstration project to serve the 
entire community of Siletz, Oregon. The demonstration project has been 
successful and today our small facility provides more than 24,000 
primary care visits each year.
    As you know, diabetes, heart disease, alcoholism, teenage suicide 
and infant mortality rates are higher for American Indians than for any 
other minority, and far higher than for the general American 
population. Congress has recognized that the Federal government has a 
trust responsibility to provide health care to Native Americans. This 
obligation was paid for long ago by the Native people of this country 
with millions of acres of land.
    Despite the demonstrated health needs in Indian country, the 
federal government has consistently failed to appropriate enough money 
to fulfill even its basic trust responsibility to Indian people. 
Funding for health care, especially preventative health care that 
clearly improves the quality of life and helps to avoid more expensive 
health care costs in the future, is completely inadequate in the 
President's fiscal year 2006 Budget. We urge Congress to honor its 
commitment to protect Indian tribes and our members. The failure of the 
Administration to recognize this responsibility and request sufficient 
funding for tribal health programs, while disappointing, cannot be a 
basis for Congress to abdicate its responsibility to appropriate the 
funds necessary to meet these needs.

Overall IHS Funding Levels
    While the President's budget request for Indian Health Service 
represents an increase on paper, it fails to keep pace with medical 
inflation rates and will not translate into program improvements or 
expansions. The Northwest Portland Area Indian Health Board has done a 
comprehensive study of the fiscal year 2006 IHS Budget, and made a 
series of recommendations regarding Indian health care funding needs. 
Our Tribe is an active participant in the Board's activities and we 
completely support the analysis and recommendations made by the Board. 
We urge the Committee to review the Board's analysis and 
recommendations and we have provided a copy of the Board's report to 
Committee staff.
    The Northwest Portland Area Indian Health Board estimates that 
simply to maintain the current level of services provided in Indian 
health programs nationwide, it would be necessary to increase the 
Budget for IHS by $317 million (or 12 percent) over the fiscal year 
2005 funding levels. While the President's fiscal year 2006 IHS Budget 
proposes an increase to IHS funding, that increase is a mere 2.1 
percent (including the adjustment for facilities construction) and does 
not come anywhere close to accurately addressing the increased costs 
for such services caused by medical inflation and growing populations. 
As a result, the President's proposed budget will, in fact, fall short 
of meeting existing need by $308 million. Our programs cannot afford to 
absorb such large losses year after year.
    In addition, IHS must be protected from budget rescissions. Budget 
rescissions have occurred in each of the last four years, and have 
seriously damaged Indian health care programs. This year, after two 
rescissions were mandated, our tribal health program experienced a 
significant decrease in operating funds. The most responsible budget 
adjustments for inflation, pay costs and population growth are 
meaningless unless they are protected from across-the-board rescissions 
to deal with spending caps in the appropriations process.

Contract Health Services (CHS)
    Particularly alarming is the failure to request adequate funding 
for Contract Health Services. For Tribes in the Northwest, where there 
are no IHS in-patient facilities, Contract Health is the only way some 
of our members can receive health care. All specialty care and 
hospitalizations are paid for through Contract Health Services. Because 
we lack the resources to pay all requests, we must prioritize needs. 
Under current funding levels, only Priority I (Emergency/Acutely Urgent 
Care) and Priority II (Preventive Care) are considered for approval. 
Medical, dental and mental health needs that are not Priority I or II 
are deferred. These include CT scans, MRIs, hernia repair, knee and/or 
hip surgeries, psychological counseling, back surgeries and many other 
treatments that do not meet current funded levels of priority. Later in 
the fiscal year, as funds become exhausted, our members are restricted 
only to care that will preserve life or limb. Our patients must become 
sicker to meet priority for treatment. This is contrary to responsible 
health care practice and to the Tribe's goals of promoting the health 
and well-being for our membership. If we can spend billions of dollars 
in Iraq, we should have the moral decency to fund Indian health at 
least at the same level as health care funding for federal prisoners.
    CHS is the program that is most vulnerable to inflation pressures. 
In order to maintain the current level of Contract Health Services in 
light of medical inflation and population growth, CHS funding should be 
increased by $62.3 million over fiscal year 2005 levels. While the 
President's proposed budget recommends an increase in Contract Health 
Services, the President's proposal will actually result in a shortfall 
of $35.3 million for CHS in fiscal year 2006. We urge Congress to 
increase Contract Health Services funding by $62.3 million above the 
fiscal year 2005 level.

Contract Support Costs
    The Confederated Tribes of Siletz have partnered with our 
neighboring Tribe, the Confederated Tribes of the Grand Ronde, to 
explore the feasibility of joint assumption of the Western Oregon 
Service Unit, Chemawa Health Center located in Salem, Oregon. Our 
mission is to improve service delivery to our tribal members who access 
this facility, along with the Chemawa student population and a large 
urban Indian population. In order to proceed, it is critical that 
Congress appropriate adequate funds for Contract Support Costs, which 
cover the costs of the administrative functions of running Tribal 
health programs. Contract Support Cost funding was not increased in 
either of the last two fiscal years and, in fact, as a result of the 
rescissions, the Tribes have seen reductions in this funding. While the 
President's fiscal year 2006 Budget proposes a small increase in 
Contract Support Costs, that proposal does not even cover the past 
years' shortfalls. We estimate a shortfall of at least $107 million, 
and we urge Congress to increase Contract Support Costs funding by $107 
million over the fiscal year 2005 level.

               BUREAU OF INDIAN AFFAIRS EDUCATION FUNDING

    The Confederated Tribes of Siletz, under a self-governance compact 
with the Bureau of Indian Affairs, provides educational programs and 
services to Indian children and adults over an eleven-county service 
area. Our services include Johnson O'Malley, Adult Vocational Training 
and Adult Education. In addition, higher education funding is provided 
to our students regardless of address. Every year we see an exponential 
growth in the number of students with no increase in funding level. To 
see success as individuals and as a united people and insure that no 
child is really left behind, additional BIA funding is needed for the 
following programs:

Johnson O'Malley
    Funds for Johnson O'Malley are frozen at the 1995 TPA. We receive 
only $83,000 for this program, which does not cover services for 
children or staff time. In 2004, services were provided to 1,299 
children. The number of children that receive services has increased at 
a greater rate each year since 1995, and we are forced to spread few 
dollars among more children. Additionally, we serve tribal children in 
the three largest cities in Oregon and receive requests for children 
from other tribes. Despite this clear need, the President's fiscal year 
2006 Budget proposes to cut the Johnson O'Malley program by $8.8 
million. We urge Congress to at least restore those funds, but if at 
all possible to increase them.

Higher Education
    We have seen significant increases in the number of children 
needing and eligible for higher education assistance. In 1995, Siletz 
had 35 such students. This number has grown to 155 students in 2004. 
The current funding level simply does not cover either the dramatic 
increase in students, or the increasing costs of higher education. We 
are now unable to cover the basic cost of education for our students. 
Lack of BIA funding limits opportunities for our students and they are 
unable to reach their potential. The President's fiscal year 2006 
Budget proposes only a $500,000 increase in this program and that 
increase would only be used for a pilot loan repayment project. We urge 
Congress to increase federal funds for the BIA Higher Education Program 
and allow those funds to be used for new scholarships.

Adult Vocational Training
    In 1995, we had 12 students in Adult Vocational Training. In 2004 
that number has quadrupled to 49 students. With a need for new skills 
to compete for jobs in a dwindling job market, more Tribal members are 
turning to Adult Vocational Training. With an increase in applications 
we are now at the point where we cannot meet the needs of our Tribal 
members. This limits the opportunities that they would have with 
further training. We urge Congress to increase the BIA funds for Adult 
Vocational Training.

Adult Education
    Increased funding is also needed to meet growing needs for Adult 
Education. Each year, we receive more applications to participate in 
this program. In 2004, we had 77 requests for Adult Education, but 
again without any increase in BIA funds. Adult Education is also an 
integral part of our overall Education program and provides a valuable 
service to our Tribal members. Without additional funding, our people 
are further handicapped and their opportunities limited.
    All of these programs are essential to Indian people. We urge 
Congress to assist us by providing federal funds at levels that will 
allow us to take real steps to meet our people's needs. Thank you for 
allowing us to share our recommendations with you.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board

         FISCAL YEAR 2006 INDIAN HEALTH SERVICE BUDGET ANALYSIS

Introduction
    The 16th Annual Northwest Portland Area Indian Health Board 
analysis of the Indian Health Service (IHS) Budget continues a 
tradition of close scrutiny of the IHS Budget that began in the 1980's. 
The character of budget formulation is vastly different for tribes than 
it is for the beneficiaries of other programs funded by the federal 
government. Trust responsibility and the government-to-government 
relationship between tribes and the federal government, by definition, 
requires a partnership in the development of the budget. Tribes welcome 
the continued commitment to joint development of the IHS budget under 
the Administration of President George W. Bush. The Northwest Portland 
Area Indian Health Board presented this budget analysis to tribes at 
its March 9, 2005 Budget meeting in Portland, Oregon.
    Tribes agree that, given the current budget realities, this is the 
best IHS budget of the Bush Administration. It includes an average 
increase of over 5 percent for the health services account. This is 
double the average increase for the Department's other health and 
social service programs. In addition to the reasonable health services 
account increase, Northwest tribes agree that the distribution of the 
increase and the redirection of new construction facilities dollars to 
health services is both smart and it is reflective of tribal 
consultation. In nearly every case, the sub-subactivity increases (line 
items) are true to the priorities identified by tribes in the budget 
formulation process. Compared to the last four years and with other 
agencies, IHS did very well and it deserves this increase given its 
record of strong performance. Unfortunately, compared to the great need 
it is still a budget that, taken together with other trends in health 
care finance and inflation, will be less than what is needed to 
maintain the IHS funded health programs.
    Although willing to concede that the President's request is a 
reasonable one and one that reflects priorities identified in the 
budget formulation process, tribes have serious concerns. Tribes fear 
that the Congress will once again take the President's request and make 
changes to suit the priorities of their own constituencies and 
secondly, that they will once again apply an across the board reduction 
to meet artificial budget targets that have nothing to do with health 
care priorities. Tribes want money added to the budget and they are 
alert to the danger of Congressional cuts hiding behind the word 
rescission.
    Northwest Tribes see their role as presenting reasonable estimates 
of needs so these needs can be understood and appropriated their fair 
share of available funds. Each year the Board first discusses its 
priorities during its January Board Meeting and during the February 
meeting of the Affiliated Tribes of Northwest Indians. The Board then 
develops its analysis and conducts a budget workshop prior to the House 
Interior Appropriations hearing (if hearings are held) on the IHS 
budget. In addition to the Budget Analysis, the Board also prepares a 
Legislative Plan that presents official Board positions on the budget 
and other health legislation. The Legislative Plan is developed by the 
Board and presented for discussion and adoption through resolution at 
the January Board meeting and again at the Affiliated Tribes of 
Northwest Indians at its February meeting. The 2005 Northwest Portland 
Area Indian Health Board Legislative Plan and this budget analysis are 
the basis of the Board's lobbying activities (both are available at 
www.npaihb.org).

         BUDGET FORMULATION: THE I/T/U BUDGET FORMULATION TEAM

    For the past eight years representatives from the Portland Area 
have joined Tribes nationwide in the IHS budget formulation process 
that includes direct service Tribes, Tribally operated programs, and 
urban programs. This group, commonly referred to as the I/T/U, meets 
annually to develop the IHS budget. The Northwest Tribes' long interest 
in the budget process allows them to understand the complexity of 
developing the final approved appropriations. In the past, various 
Administrations have underestimated the need for funding the Indian 
Health Service. They have also often over estimated the amount of 
revenue received from collections from Medicare, Medicaid, and third 
party collections.
    This analysis was first conceived as a reality check to the lack of 
integrity in past executive branch budgets. The analysis establishes 
criteria that are used to grade the President's budget request.

                           FUNDING TRUE NEED

    The Northwest Portland Area Indian Health Board supports the work 
of both the I/T/U Budget Formulation Process and the Federal 
Disparities Index (FDI) Workgroup (formerly known as the Level of Need 
Funded). The Indian Health Service Budget Formulation Process and the 
FDI Workgroup have both established that the approximate level of 
funding needed to meet the true health care needs of Indian people is 
$9-10 billion. This corroborates the long-held view that less than 50 
percent of true need is funded by the Indian Health Service budget. If 
funded at $9 billion, an additional phased-in facilities cost of $9-10 
billion would be needed to house the expanded health care services. 
This is sometimes stated as a $20 billion need-based budget, but in 
reality, the annualized need after facilities are constructed is closer 
to $10 billion per year in 2005 dollars. A 10-year phase-in of the $20 
billion budget can be achieved if the Congress and the Administration 
can commit to several years of sizeable increases.\1\
---------------------------------------------------------------------------
    \1\ For more discussion on the ``IHS Needs Based Budget,'' see: The 
True Health Care Needs of American Indians and Alaska Natives, 
Northwest Portland Area Indian Health Board, June 2003: available at 
www.npaihb.org.
---------------------------------------------------------------------------
    Throughout the years, this analysis has sought to maintain the 
integrity of its estimates by not inflating amounts in the manner of 
conventional negotiations. Tribal leaders want information that is 
reliable so they can make their case to the Congress without fear of 
accusations of exaggerated estimates or double counting needs and 
challenge the true need. There is nothing to be gained by 
overestimating the funding required to meet the health care needs of 
Indian people. The Northwest Portland Area Indian Health Board invites 
discussion over every estimate presented in this analysis.
    The following graph illustrates the diminished purchasing power of 
the IHS budget over the past 14 years (also see Table 8). The graph 
demonstrates the compounding effect of multi-year funding shortfalls 
that have considerably eroded the IHS base budget. In 1993, the IHS 
health services accounts received $1.52 billion, had the accounts 
received adequate increases for inflation and population growth, that 
amount would be $5.2 billion today. The NPAIHB estimates that the IHS 
budget has lost over $2.46 billion over the last 14 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 AUDIENCE FOR THIS ANALYSIS: TRIBES, THE ADMINISTRATION AND THE UNITED 
                            STATES CONGRESS

    Efforts have been made to identify pertinent issues that impact 
Northwest Tribes and to provide a meaningful discussion of each. This 
information is intended to assist leaders of each of our 43 member 
tribes in making their own analysis of the budget proposal and its 
impact on their respective communities. It is also intended to serve as 
a useful analysis for tribes nationwide since in nearly every case the 
interests of tribes nationwide are the interests of Northwest Tribes. 
It is only by making these views known that effective budget policy can 
be developed. The Northwest Portland Area Indian Health Board and 
Northwest Tribes actively participate in attempts to develop consensus 
positions on budget priorities.
    This analysis is distributed to the Administration and to 
congressional committees who finalize the annual IHS budget. Although 
the analysis is prepared for the tribes of the Northwest, the analysis 
is now made available to tribes throughout the country. It is 
distributed to the National Indian Health Board, National Congress of 
American Indians, Tribal Self-Governance Advisory Committee, Alaska 
Native Health Board, California Rural Indian Health Board, Aberdeen 
Tribal Chairman's Association, Inter-Tribal Council of Arizona, 
Montana-Wyoming Health Board, and the United South and Eastern Tribes. 
It was posted on the Board's website (at www.npaihb.org) as soon at it 
is published so all tribes can consider its recommendations for their 
own use in the consultation process.
    The Congress and the Administration must find common ground to 
maintain the purchasing power of health care resources, address unmet 
needs, and to facilitate service delivery that meets health objectives 
while maintaining fiscal discipline.
    The Northwest Portland Area Indian Health Board estimates it will 
take $371 million to maintain the current level of services provided in 
our health programs nationwide. Indian Health programs cannot afford to 
absorb such a large portion of mandatory cost increases year after 
year. The health and very lives of American Indian and Alaskan Natives 
are being put at risk by this chronic under-funding of the Indian 
Health Service budget. The most obvious effect of these lost revenues 
is fewer services and ultimately lower health status for American 
Indians and Alaska Natives. If tribes received mandatory cost increases 
there would be a decrease in the health disparities between the general 
population and American Indians and Alaska Natives.
    Unfortunately, there is evidence that services have been cut 
despite the best efforts of Indian health programs. Further 
efficiencies in Indian health programs will be extremely difficult to 
attain. Cutting services for life threatening conditions are very 
likely, and in fact--some Northwest Tribes report that this is already 
the case in their programs.

        RESTORED SERVICES WILL BE CUT DUE TO INADEQUATE FUNDING

    There is strong evidence that services will be cut due to 
inadequate funding. After the 10 percent increase approved in the last 
Clinton Budget of fiscal year 2001 some services were restored. In 
fiscal year 2001, the number of service denials declined for the first 
time since 1993. In fiscal year 2004 the IHS deferred payment 
authorization for 156,862 recommended cases reached a new high and IHS 
funded programs denied care to 23,368 eligible cases, however, they 
were determined not to be within medical priorities (Priority One). 
These reported amounts understate the actual unmet need since many 
tribes no longer report deferred services because of the expense 
involved in reporting. More disturbing is that many IHS users do not 
even visit IHS facilities because they know they will be denied 
services due to funding shortfalls. Last year denial and deferred 
services increased to an unacceptable level.
    In fiscal year 2002, the first year of the Bush Administration, the 
IHS received a budget increase of 5 percent. In 2003, the increase was 
3 percent, in fiscal year 2004 the increase was just 2.1 percent, and 
again in fiscal year 2005 it is a mere 2.1 percent. This year's fiscal 
year 2006 President's request is again only a 2.1 percent increase when 
the reduction in new facilities construction is considered. The 
Northwest Portland Area Indian Health Board estimates the lost 
purchasing power during the first Bush Administration at $886 million 
when the compounding effect of each year's absorption of mandatory cost 
increases is included in the estimate. The President's budget request 
is far less than what is needed to accomplish the stated goals of the 
Administration. It is very hard to argue that some of the management 
improvements have increased performance enough to cover these loses.
    The unfunded amount for Catastrophic Health Emergency Fund (CHEF) 
cases totaled $13.4 million in fiscal year 2004. There were 667 CHEF 
cases funded and 756 were not due to lack of funding. It is estimated 
that millions of dollars in unreported cases exist since Indian health 
programs do not report cases once they know the funding has been 
exhausted during the fiscal year. Nearly every one of the 20 tribes in 
attendance at the March 9, 2005 Budget workshop reported that they are 
already at Priority One. Others noted that they have shifted economic 
development funds to their contract health program to avoid priority 
one status. Tribes should not have to sacrifice their economic 
development to fund the federal obligation for health care services.
    How will this funding gap be filled? Unfortunately, some believe 
increased revenues from tribes or from the Medicaid program are filling 
this gap. Last year every state planned cuts to its Medicaid program. 
Washington has proposed a benefit reduction and has proposed cost 
sharing premiums, which American Indian and Alaska Native will have to 
pay if things stand with CMS. The number of American Indians and Alaska 
Natives who lost their coverage is estimated to be as high as 2,400 in 
Oregon. Without Medicaid coverage, these people will seek out services 
at IHS and Tribally operated facilities.
    The U.S. Commission on Civil Rights' reports ``A Quite Crisis'' and 
``Broken Promises'' document the harsh realities of life in Indian 
Country. The reports discuss the United States' obligation to provide 
programs and services to Native Americans. In short, the report finds a 
crisis in the persistence and growth of unmet funding needs of Indian 
programs and concludes that conditions in Indian Country could be 
greatly relieved if the federal government honored its treaty 
obligations and commitment to provide funding. The report offers eleven 
recommendations, which if implemented, would greatly improve the lives 
of Indian people. Two of those recommendations include exempting Indian 
programs from across-the-board rescissions and funding the unique needs 
of Indian Country (which includes funding the disparate health 
conditions of Indian people). Failure to fund anything less will only 
signify that this Country's agreements with Indian nations and other 
legal rights are only empty promises.
    There seems to be a misconception in the Congress and with the 
general public that Indian Tribes are getting rich by operating 
casinos. That myth must be dispelled. Tribes are not getting rich 
through gaming. Like state lotteries, proceeds from Indian gaming must 
be used for purposes like building houses, schools, roads and sewer and 
water systems; to fund the health care and educational systems; and, to 
develop a strong, diverse economic base for the future. Tribes like all 
elected governments have many competing needs for resources and often 
dedicate a portion of gaming revenue to health care as this is what 
they have had to do to prevent illness and deaths due to funding 
shortfalls in their health programs. The health funding needs are so 
critical in Indian Country that gaming revenue alone will not solve the 
problem.
    The NPAIHB's recommends an increase of 12 percent or $317 million 
over fiscal year 2005 to fund current services and maintain the current 
program. Program increases above current services amount to $228 
million. The Northwest Portland Area Indian Health Board recommended 
increase for current services and program increase totals $599.3 
million. This amount is required if the Administration is serious about 
addressing health disparities. The enhancements include small facility 
construction, pharmacy, Information Technology improvements, and 
increases above current services for many of the line items in the 
budget. It adequately funds mandatory cost increases and addresses 
unmet needs for the Indian Health Service, and addresses disparities in 
health status between the general population and the American Indian/
Alaska Native population.
    This year's analysis continues to be dedicated to those who are 
suffering right now, just six months into fiscal year 2005, in health 
programs that are already in Priority One status. As we noted last 
year, there are a few members of Congress, some HHS bureaucrats, a 
reporter or two nationally that knows what the term means. Priority One 
means dishonor for all Americans and ill health for American Indians--
this is beyond dispute for members of Northwest Tribes.

                            ACKNOWLEDGEMENTS

    This analysis is based on over 16 years of contributions from 
delegates and staff of the Northwest Portland Area Indian Health Board 
including: Pearl Capoeman-Baller, Chair; Julia Davis, former Chair; 
former Executive Directors: Doni Wilder (1990-1998) and IHS Portland 
Area Office Director; Cheryle Kennedy (1998-2000); and, Ed Fox, 
Executive Director (2000-current) and Jim Roberts, Policy Analyst.
  --Senate Democratic (http://www.senate.gov/budget/democratic/) and 
        Republican http://www.senate.gov/budget/republican/Budget 
        Committee publications.
  --The House analysis is available at www.house.gov/budget/
        prezbudget.htm.
  --The Budget for fiscal year 2006 (http://www.whitehouse.gov/omb/
        budget/fy2006/is the President's budget request of February 7, 
        2005. It is actually a set of documents with narrative and 
        statistical information on the President's proposed budget for 
        fiscal year 2006.
  --Congressional Budget Office (CBO http://www.cbo.gov/), The Budget 
        and Economic Outlook: Fiscal Years 2006-2015, January, 2005 and 
        Preliminary Analysis of the President's Budgetary Proposals for 
        Fiscal Year 2006, March 4, 2005. These documents examine the 
        federal budget under different economic assumptions and provide 
        estimates that are used for comparison to those of the 
        President's Office of Management and Budget (OMB).
  --Department of Health and Human Services fiscal year 2006. DHHS 
        Fiscal Year 2006 Budget In Brief, February 3, 2005 available at 
        http://www.hhs.gov/budget/docbudget.htm.
  --The Indian Health Service, Justification of Estimates for 
        Appropriations Committees Fiscal Year 2006 available at 
        www.ihs.gov/AdminMngrResources/Budget/index.asp.
  --Additional information about the U.S. Budget is available at the 
        Center on Budget and Policy Priorities: http://www.cbpp.org/
        pubs/fedbud.htm.

THE FISCAL YEAR 2006 NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD BUDGET 
                      ANALYSIS AND RECOMMENDATIONS

    The fiscal year 2006 President's request for the Indian Health 
Service (IHS) budget is $3.05 billion and is an increase of $62.9 
million (2.1 percent increase) over last year's final enacted level. 
NPAIHB estimates that it will take $371 million to maintain current 
services for IHS and tribally operated health programs. Thus, the 
President's request will fall short by $308 million. The expenses 
associated with pay act increases and staffing for new facilities 
($27.4 million) and proposed program increases ($35.4) exhausts the 
President's proposed increase of $62.9 million. Despite the small 
overall increase, Table 1 depicts comparatively large increases for the 
health services account line items. This is achieved by postponing new 
facilities construction for one year. By doing so, IHS is able to 
allocate increases to tribally identified priorities in the health 
services line items such as Dental (9.8 percent increase), Mental 
Health (7.8 percent increase) and Public Health and Health Education 
(10 percent).

                                     TABLE 1.--INDIAN HEALTH SERVICE BUDGET
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                    Final                       President's   Change over fiscal
                                          ------------------------ Change over     budget         year 2005
                                             Fiscal      Fiscal    fiscal year  fiscal year --------------------
                                            year 2004   year 2005      2004         2006       Amount    Percent
----------------------------------------------------------------------------------------------------------------
Services:
    Hospitals & Health Clinics...........  $1,249,781  $1,289,418     $39,637    $1,359,541    $70,123       5.4
    Dental Health........................     104,513     109,023       4,510       119,489     10,466       9.6
    Mental Health........................      53,294      55,060       1,766        59,328      4,268       7.8
    Alcohol & Substance Abuse............     138,250     139,073         823       145,336      6,263       4.5
    Contract Health Services.............     479,070     498,068      18,998       525,021     26,953       5.4
                                          ----------------------------------------------------------------------
      Sub-total, Clincial Services.......   2,024,908   2,090,642      65,734     2,208,715    118,073       5.6
                                          ======================================================================
Prevention Health, Services:
    Public Health Nursing................      42,581      45,015       2,434        49,690      4,675      10.4
    Health Education.....................      11,793      12,429         636        13,787      1,358      10.9
    CHRs.................................      50,996      51,364         368        53,737      2,373       4.6
    AK Immunization......................       1,561       1,573          12         1,645         72       4.6
                                          ----------------------------------------------------------------------
      Sub-total, Prevention Health.......     106,931     110,381       3,450       118,859      8,478       7.7
                                          ======================================================================
    Urban Health.........................      31,619      31,816         197        33,233      1,417       4.5
    Indian Health Professions............      30,774      30,392        (382)       31,503      1,111       3.7
    Tribal Management....................       2,376       2,343         (33)        2,430         87       3.7
    Direct Operations....................      60,714      61,648         934        63,123      1,475       2.4
    Self Governance......................       5,644       5,586         (58)        5,752        166       3.0
    Contract Support Costs...............     267,398     263,683      (3,715)      268,683      5,000       1.9
                                          ----------------------------------------------------------------------
      Total, Services....................   2,530,364   2,596,491      66,127     2,732,298    135,807       5.2
                                          ======================================================================
Facilities:
    Maintenance & Improvement............      48,897      49,204         307        49,904        700       1.4
    Sanitation Facilities Const..........      93,015      91,767      (1,248)       93,519      1,752       1.9
    Health Care Facilities Const.........      94,554      88,597      (5,957)        3,326    (85,271)    -96.2
    Facil & Env Hlth Support.............     137,803     141,669       3,866       150,959      9,290       6.6
    Equipment............................      17,081      17,337         256        17,960        623       3.6
                                          ----------------------------------------------------------------------
      Total, Facilities..................     391,350     388,574      (2,776)      315,668    (72,906)    -18.8
                                          ======================================================================
      Total, IHS.........................   2,921,714   2,985,065      63,351     3,047,966     62,901       2.1
----------------------------------------------------------------------------------------------------------------

             THE FINAL ENACTED FISCAL YEAR 2005 IHS BUDGET

    The Consolidated Appropriations Act of 2005 (Public Law 108-447) 
initially provided $3.03 billion for the Indian Health Service (IHS), 
however after two rescissions, the final enacted fiscal year 2005 IHS 
budget is $2.99 billion. The final fiscal year 2005 IHS appropriation 
is a $63.4 million increase, or a 2 percent increase, over the fiscal 
year 2004 spending level. Last year, the NPAIHB estimated that it would 
take $380 million just to maintain current services in fiscal year 
2005. The fiscal year 2005 budget increase of $63.4 fell short by 
$316.6 million. Pay cost increases, staffing for new facilities, and 
program increases alone accounted for $63.1 million. No funding was 
programmed for inflation and population growth in the final IHS fiscal 
year 2005 budget.
    The approved fiscal year 2005 IHS budget includes an additional 
$66.1 million, an increase of 2.6 percent, for the Health Services 
Accounts. The Health Facilities accounts were cut by .7 percent. Only 
three of the Health Facilities Construction accounts received any type 
of increase. Two years ago, the Health Facilities Construction account 
received a significant increase 13.6 percent ($12.9 million) however it 
did not benefit any Northwest tribes. Portland Area tribes are 
supportive of using a new health facility construction priority system 
that would hopefully include funding for the type of facilities needed 
in the Northwest; funding that would include both facilities and 
staffing packages.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Congress continues the use of rescissions to deal with spending 
caps in the appropriations process. These rescissions have begun to 
have a significant impact on the IHS appropriations. Over the last four 
years, the rescissions as a percentage of the approved IHS budget have 
increased significantly. In fiscal year 2002, the rescission ($1 
million) was approximately 1 percent of the approved increase ($130 
million) for the IHS budget. In fiscal year 2003, the effect of the 
rescission ($18 million) grew to 17 percent of the approved increase 
($109 million) for the IHS budget. In fiscal year 2005, the rescissions 
($42 million) have escalated to become 40 percent of the approved 
increase ($105 million) for the IHS budget. Members of Congress can now 
have it both ways; they can first say they supported increases and then 
go on to say (after elections) that they supported fiscal 
responsibility by cutting funding. No one has even engaged the Congress 
in a discussion about how unfair and illogical across the board cuts 
are to IHS funded programs.
    The information that follows describes how insufficient funding has 
created funding shortfalls that threaten health care services for 
American Indian and Alaska Native people.

FISCAL YEAR 2006: PRESERVING THE BASIC HEALTH PROGRAM FUNDED BY THE IHS 
                                 BUDGET

    Unfortunately, the fiscal year 2006 IHS budget falls far short of 
preserving the existing IHS programs. Tribes and IHS are focused on 
preserving the basic health care program funded by this budget. 
Preserving the purchasing power of the IHS base program should be the 
first budget principle, not an afterthought. How can unmet needs ever 
be addressed if the existing program is not maintained? Tribes have one 
overriding concern that is crucial to this discussion. There must be a 
trusting relationship between tribes who are concerned about improving 
their health status, the Administration that is charged with that 
responsibility, and the Congress who holds the purse strings. Tribes, 
IHS and Congress must continue to focus on the goals and objectives of 
the IHS program and assure that the necessary resources are available 
to continue to make improvements in health status. If the 
Administration is serious about addressing health disparities it must 
improve its commitment to adequate funding for the Indian Health 
Service. If it is not serious it should stop highlighting these 
disparities as if words are the same as action.

                  THE OFFICE OF MANAGEMENT AND BUDGET

    The Office of Management and Budget continues in its refusal to 
share vital budget information with Tribes. The ``who-struck-john'' 
table that allows tribes to understand where budget cuts were made is 
embargoed information. This table should be public information. The OMB 
could open the process even further by sharing budget information prior 
to the first Monday in February. The continued embargo of the fiscal 
year 2006 budget information allows the Administration to violate 
accepted standards of government-to-government consultation. Tribes 
have specifically requested that OMB allow the Department of Health and 
Human Services to share the OMB passback information with tribes so 
they can provide their comments to the Administration and the IHS to 
assist in preparation of its appeal to the Department and OMB. Sharing 
the final budget information with tribes would allow them to prepare 
their testimony for the oversight committees in a timely manner.
    Tribes cannot be content with an under funded program that so 
deeply affects their communities. In the course of this budget review, 
the President's budget request is evaluated, major issues and concerns 
are identified, and suggestions are provided that will benefit tribes 
and IHS. Recommendations for funding levels are also included. It is 
hoped that this document will be a valuable resource for the 
Administration, the Congress, and the congressional staff that are 
responsible for understanding the Indian Health Service Budget. The 
treaties, executive orders, and the legislation that tribes have fought 
so hard to achieve with the government of the United States remain the 
basic foundation of the unique status of health care for Indian people.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Medicare and Medicaid Collections
    The IHS Congressional Justification document proposes that the IHS 
and Tribes will increase their Medicare and Medicaid collections by 
$8.4 million in fiscal year 2006. While the IHS and Tribes have 
significantly increased their ability to collect third party 
reimbursements, the Medicare and Medicaid programs have entered a 
period of no growth or actual reductions in collections.
    The Medicare Modernization Act (MMA) will be fully implemented in 
2006 and it will negatively impact the ability of Indian health systems 
to collect third party resources from this very important program. The 
President has also proposed $48 billion in cost savings in the Medicaid 
program over the next ten years and current discussions are underway 
for Medicaid reform. Tribes support the concept of a Medicaid 
Commission and welcome the invitation to be a part of that Commission's 
work. The prospect of IHS and Tribal programs increasing Medicaid 
collections is not likely given the President's proposed savings and 
the fact that states continue efforts to balance their budgets with 
cost containment in Medicaid programs.
    Increasing Medicare collections will be difficult since the MMA 
fails to adequately integrate Indian health programs into the 
prescription drug program. It fails to protect the right of elderly and 
disabled Indian people to receive prescription drug coverage without 
charge from the federal government. The new program raises significant 
issues of access and cost-sharing which will impact how and where 
elderly and disabled Indians get coverage. The Medicare program also 
threatens to significantly reduce reimbursements to Indian health 
programs for prescription drugs provided by IHS and Tribally operated 
programs.
    Beginning in 2006, Medicare enrolled-seniors who previously got 
their pharmacy coverage under Medicaid (Dual-Eligibles) will be 
required to choose or be assigned to a private prescription drug plan. 
There is no guarantee that if they continue to receive prescriptions 
from Indian programs or that payment will be made to the I/T/U 
programs. It is estimated that there are 25,963 \2\ to 30,544 \3\ 
individuals in the IHS patient database who are receiving both Medicare 
and Medicaid. While there is no comprehensive data on the per-capita 
drug costs for dual-eligibles in the Indian health system, estimates 
can be made by examining average state per-capita spending for this 
population. In 2002, the average per-capita spending for dual-eligibles 
was $918.\4\ This is thought to be a very conservative figure for 
Indian Country, in view of the higher rates of illness that have 
expensive drugs associated with their treatment, including diabetes and 
mental illness. Thus, if this average is projected to 2006, the 
expected average per capita spending on drugs for dual-eligibles would 
be $1,756. Using these population and per-capita spending data, it is 
estimated that the Medicaid payments for dual eligible drug costs to 
Indian health programs ranges from $23 million to $53 million.\5\ \6\ 
NPAIHB estimates that between $10 million to $25 million in payments 
are likely to be lost by Indian health programs unless tribally 
recommended changes are made. The President's proposed budget fails to 
take into consideration this dramatic effect of the MMA on the Indian 
health system. In fact, the dual eligible issue could result in as much 
as a 20 percent decrease in Medicare collections for the IHS and Tribal 
health programs. In their present form, the Part D rules would 
jeopardize the ability of the Indian health system to maintain this 
level of dual eligible (Medicaid) reimbursements. These important 
revenues must be protected.
---------------------------------------------------------------------------
    \2\ This number represents 85 percent of the three-year total of 
active users.
    \3\ This is the number of active users, defined as at least one 
visit in the past three years.
    \4\ From Table 2, ``Full'' Dual Eligible Enrollment and 
Prescription Drug Spending, by State, 2002, in ``The `Clawback:' State 
Financing of Medicare Drug Coverage'' by Andy Schneider, published by 
the Kaiser Commission on Medicaid and the Uninsured, June 2004.
    \5\ This low number was calculated using the 25,963 figure for dual 
eligibles in 2003 and the $918 per capita spending in 2002. It is 
probably unrealistically low for 2006 given the increase in aging 
population in Indian Country and the increase in drug prices.
    \6\ This higher number uses the 30,544 number of dual eligibles in 
2003 and the $1,756 estimated spending in 2006.
---------------------------------------------------------------------------
    The state fiscal crisis continues to threaten the viability of IHS 
and Tribal health programs as states continue efforts to contain costs 
in Medicaid programs. At the end of 2004, there were at least 22 states 
across the country that projected funding shortfalls averaging from 6-8 
percent of their general fund spending. Over half of these states have 
American Indian tribes in them. Oregon and Washington are two of the 
states that project funding shortfalls. Despite improving revenues, 
projected state deficits threaten many public services including the 
Medicaid program. This will negatively impact the ability for Tribes to 
obtain Medicaid reimbursements.
    The unique status of tribes and Indian people has also been 
challenged by the Executive branch. In 2004, CMS informed Oregon and 
Washington that it would not approve waiver amendments containing 
special provisions for Indian participation in the Medicaid program. 
This is a departure from past CMS policy, in which Indian people were 
allowed special provisions for participation in Medicaid and SCHIP 
programs. CMS indicates that such treatment would have consequences 
related to the Civil Rights Act of 1964. The former CMS policy is one 
that acknowledges the federal government's unique legal 
responsibilities under the trust obligation to provide recognized 
privileges to American Indians and Alaska Natives. This standard holds 
that the federal government's unique legal responsibilities under the 
trust obligation provide recognized privileges to American Indians and 
Alaska Natives. It is a standard that permits American Indians and 
Alaska Natives to be treated differently in federal programs because of 
the political status of Tribes as sovereign nations and is the standard 
that should be followed by CMS in determining eligibility, access to 
services and cost sharing issues for American Indian and Alaska Native 
people.
    Congress acknowledges the Federal trust responsibility for Indian 
health on a continuing basis through annual appropriations to the 
Department of Health and Human Services for the operation of Indian 
Health Service programs, in fiscal year 2005, a total of $3 billion was 
supplied for provision of health services and health facility needs in 
Indian Country. This budget is supplemented by some $600 million 
collected by Indian health programs from Medicare, Medicaid and other 
third-party insurance sources. By including Medicare and Medicaid 
collections in the IHS appropriations, Congress expects that these 
resources will be available to IHS and Tribes in order to provide 
health services to American Indian and Alaska Native people.
    The Medicaid program could be a more effective means of financing 
Indian health programs if it would exempt American Indians and Alaska 
Natives from cost sharing including co-pays, premiums and any other 
form of cost sharing. It makes little sense to Indian people to sign up 
for a health program that charges them for health care services that 
their tribe gave up lands and other considerations to secure for all 
generations. The practical effect is that they will not sign up for 
Medicaid and the IHS funded programs will end up paying all the costs 
of their health care. If this becomes the case, CMS will save the 
federal government millions of dollars, but renege on rights guaranteed 
by law and treaties. The Administration or Secretary of HHS could 
easily exempt American Indians and Alaska Natives from these cost 
sharing requirements. The Senate Committee on Indian Affairs fiscal 
year 2006 Views and Estimates letter supports this same exemption. 
Tribes in the Northwest have repeatedly stated their preference for 
full funding of the health needs of American Indians and Alaska Natives 
by fully funding the Indian Health Service over grants or increases in 
Medicare and Medicaid collections. However, most tribes are reconciled 
to the fact that all revenue sources must be pursued until some type of 
entitlement to full funding is secured through the IHS budget. The past 
four years' reductions in state Medicaid programs do call into question 
the wisdom of relying on this uncertain source of income. Northwest 
Tribal leaders again call on the Congress to consider making Indian 
health an entitlement similar to the Medicare program promise to those 
over 65 years.

CURRENT SERVICES BUDGET: MAINTAINING THE CURRENT HEALTH PROGRAM AND THE 
            PRESIDENT'S PROPOSED FISCAL YEAR 2006 IHS BUDGET

    This year's fiscal year 2006 IHS budget increase of $62.9 million 
(an increase of 2.1 percent) is far short of the $371 million needed to 
maintain current services. In addition, Portland Area tribes are 
recommending an additional $228 million for program increases to 
addresses health priority needs. This brings the total recommended 
increase to $599 million or 20 percent (see Table 4).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Current services estimates' calculate mandatory costs increases 
necessary to maintain the current level of services. These 
``mandatories'' are unavoidable and include medical and general 
inflation, pay costs, staff for recently constructed facilities and 
population growth. The 10 percent increase received in fiscal year 2001 
was the last budget that allowed tribes to reduce denials of services. 
The Northwest Portland Area Indian Health Board estimates a fiscal year 
2006 current services need of $371,293,000. This is the amount 
necessary to fund inflation and population growth and fully fund 
contract support costs. Anything less will continue the trend of denied 
health care services as illustrated above.
    There are a number of ways to compute current services. The Indian 
Health Service usually estimates pay cost increases and reports this as 
separate from inflation. The reason for this has less to do with budget 
presentation and more with the simple fact that since Congress passes a 
pay act each year these are costs that are very precisely computed for 
federal employees. The Indian Health Service has also added reasonable 
tribal pay estimates and also reports these. The pay act is legislation 
that requires compliance, no matter how long it may take the President 
to act on pay cost increases. Last year, the Consolidated 
Appropriations Act that the President signed included a 3.5 percent 
overall average pay increase for Federal employees, which became 
effective on the first day of the first applicable pay period beginning 
on after January 1, 2005.

    TABLE 3.--SUMMARY OF MANDATORY COST INCREASES (CURRENT SERVICES)
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                             Increase
                                                             needed to
                     Mandatory Cost                          maintain
                                                              current
                                                             services
------------------------------------------------------------------------
CHS inflation estimated at 12.5 percent.................          62,259
Health Services Account (not including CHS) inflation            127,182
 estimated at 7.5 percent...............................
Facilities Inflation Needs (M&I, Sanitation, etc).......          15,325
Contract Support Costs (unfunded amount)................         112,000
Population Growth.......................................          54,526
                                                         ---------------
      Total Mandatory Costs.............................         371,293
------------------------------------------------------------------------
Note on Medical Inflation.--Medical Inflation is estimated at between 8
  to 14 percent in the Northwest states of Oregon, Washington and Idaho
  Health care analysts understand that increases in medical spending
  reflect increases in the value of services and pharmaceuticals and not
  simply inflation as measured for most goods and services Medicare and
  Medicaid will increase their spending by 9 percent in fiscal year
  2006, but NPAIHB assumes Indian health programs will not achieve the
  same level of cost containment due to the lack of large group
  purchasing power.

    In the Northwest Portland Area Indian Health Board proposed budget 
(Table 4), pay act costs are not displayed separately from general and 
medical inflation costs. Personnel inflation is a part of the overall 
inflation adjustment and does not need a special treatment for the 
purposes of calculating a current services budget. The proposed budget 
applies an 8 percent inflation adjustment in fiscal year 2006 for the 
health services accounts. This amount is added to the fiscal year 2005 
budget as the estimated amount needed just to maintain current 
services. The CHS account has a separate adjustment of 12.5 percent 
percent since 100 percent of this line item is subject to the higher 
level of medical inflation for specialty and hospital care. The Urban 
line item is also estimated at 12.5 percent as a result of inflation 
and the lack of any real increases in past years. Contract Support 
Costs need is estimated at $112 million amount, the amount provided by 
the Office of Tribal Activities, and includes inflation and past year's 
shortfalls. Finally, the facilities account estimate uses a 4 percent 
adjustment since the inflation rate for facilities activities is 
similar to the general inflation rate.

               TABLE 4.--COMPARING PRESIDENT'S FISCAL YEAR 2006 REQUEST TO CURRENT SERVICES BUDGET
----------------------------------------------------------------------------------------------------------------
                                        Enacted    President's    Change
                                      fiscal year     request      over      Increase    Current    (President's
                                       2005  19-   2006  7-Feb-   fiscal       for       services      is less)
                                        Nov-2004       2005      year 2005  inflation
----------------------------------------------------------------------------------------------------------------
SERVICES:
    Hospitals & Clinics.............   $1,289,418   $1,359,541    $70,123     $90,259   $1,379,677     -$20,136
    Dental Health...................      109,023      119,489     10,466       7,632      116,655        2,834
    Mental Health...................       55,060       59,328      4,268       3,854       58,914          414
    Alcohol Substance Abuse.........      139,073      145,336      6,263       9,735      148,808       -3,472
    Contract Health Services........      498,068      525,021     26,953      62,259      560,327      -35,306
    Public Health Nursing...........       45,015       49,690      4,675       3,151       48,166        1,524
    Health Education................       12,429       13,787      1,358         870       13,299          488
    CHRs............................       51,364       53,737      2,373       3,595       54,959       -1,222
    AK Immunization.................        1,573        1,645         72         110        1,683
    Urban Health....................       31,816       33,233      1,417       3,977       35,793       -2,560
    Health Professions..............       30,392       31,503      1,111       1,216       31,608         -105
    Tribal Management...............        2,343        2,430         87          94        2,437           -7
Direct Operations...................       61,648       63,123      1,475       2,466       64,114         -991
    Self Governance.................        5,586        5,752        166         223        5,809          -57
    Contract Support Costs..........      263,683      268,683      5,000   \1\ 10,54      274,230        -5547
                                                                                    7
                                     ---------------------------------------------------------------------------
      Total, SERVICES...............    2,596,491    2,732,298    135,807   \2\ 189,4    2,796,479      -53,634
                                                                                   41
                                     ===========================================================================
FACILITIES:
    Maintenance & Improvement.......       49,204       49,904        700       1,968       51,172       -1,268
    Sanitation Facilities...........       91,767       93,519      1,752       3,671       95,438       -1,919
    Health Care Facilities                 88,597        3,326    (85,271)  \3\ 3,326        3,326  ............
     Construction...................
    Facil & Env Hlth Support........      141,669      150,959      9,290       5,667      147,336        3,623
    Equipment.......................       17,337       17,960        623         693       17,869          -70
                                     ---------------------------------------------------------------------------
      Total, FACILITIES.............      388,574      315,668    -72,906      15,325      315,141      -88,231
                                     ===========================================================================
      Total, IHS....................    2,985,065    3,047,966     62,901     204,766    3,111,620     -141,865
                                     ===========================================================================
Other increases:
    Population Growth...............  ...........  ...........  ..........     54,526       54,526      -54,526
    Contract Support Cost (CSC).....  ...........  ...........  ..........    112,000      112,000     -112,000
                                     ---------------------------------------------------------------------------
      Subtotal Pop. Growth/CSC......  ...........  ...........  ..........    166,526      166,526     -166,526
                                     ===========================================================================
Program Enhancements................  ...........  ...........  ..........  .........      228,000  ............
                                     ---------------------------------------------------------------------------
      Totals........................    2,985,065    3,047,966     62,901     371,293      599,293     -308,392
                                     ===========================================================================
Percent increase....................  ...........  ...........       2.11        12.4         20.1  ............
----------------------------------------------------------------------------------------------------------------
\1\ Contract Support Costs (CSC) are calculated for inflation at 4 percent, however are not factored into the
  total for increase for Inflation column. Rather, the CSC estimate of $112 million is used to determine the
  total increase required for CSC inflation. (Source: Indian Health Service, Office of Tribal Activities)
\2\ Does not include $10,547 CSC increase (see footnote above).
\3\ The President cut the Health Facilities construction line item by $85 million; this is good budgeting
  practice until the IHS completes its revision of the Health Facilities Construction Priority System. This will
  allow the facilities construction needs of Indian Country to be re-prioritized with current data and reflect
  the true health facility needs of Indian people.

FISCAL YEAR 2006 SLIGHT INCREASE FOR INFLATION AND POPULATION GROWTH IS 
                               INADEQUATE

    The President's fiscal year 2006 IHS budget request includes $46 
million for inflation and $33.4 million for population growth. IHS and 
Tribal health programs have not received funding for population growth 
since 1993 so this year's increase is a welcome recognition of the need 
to provide funds for this mandatory cost increase. Tribes have long 
testified that resources must increase to compensate for population 
growth just as they must increase for actual inflation costs. If one 
takes the American Indian population growth rate of 2.1 percent (the 
actual increase in 2004 user population) and multiplies this by the 
health services account it results in a suggested increase of $54.5 
million for fiscal year 2006. At a minimum, IHS and tribal health 
programs will require this amount to keep pace with population growth. 
The President's budget falls short by $21 million for funding 
population growth. There has been no additional funding to cover the 
population increase of approximately 17 percent between 1995 and 2005.
    Population growth is built into the funding mechanisms for the 
Medicare and Medicaid budgets. Medicare is only now beginning to absorb 
the retiring baby boomers and growth will increase expenditures from 
$325 billion in fiscal year 2006 to $520 billion in fiscal year 
2010.\7\ Medicaid expenditures are projected to increase from $186 
billion in fiscal year 2005 to $262 billion over the same period. 
Medicare and Medicaid are entitlement programs that automatically 
receive population growth increases. That is one reason why annual 
Medicaid and Medicare expenditures growth is estimated at 7 percent 
over the next five years. If more participate, funds increase 
accordingly. It is inequitable that health services for American 
Indians and Alaska Natives are not likewise increased when the Indian 
population increases. Unlike Medicaid and Medicare, where spending 
increases are automatic to accommodate growth of enrollees, for the 
Indian Health Service budget population growth adjustments can only be 
secured by approving appropriations increases.
---------------------------------------------------------------------------
    \7\ Source.--The Budget and Economic Outlook: fiscal years 2006 to 
20015, Congressional Budget Office, January 2005.
---------------------------------------------------------------------------
              TRIBAL RECOMMENDATIONS FOR PROGRAM INCREASES

    Portland Tribes debated various program increases that they felt 
were essential to address current priority needs. Facilities funding 
for small ambulatory clinics continues to be a high priority for the 
Portland area. The balance of the increases are basic increases for 
high priority issues (line items) such as Mental Health, Alcohol and 
Substance Abuse, Public Health Nurses, Community Health 
Representatives, and Health Education. Many of these increases 
supported important components necessary to address long term care 
needs for the growing elder population in Indian communities. There was 
a spirited discussion on keeping the request within the bounds of 
political feasibility. Everyone who participated felt that the funding 
increases for the line items listed above were far short of what was 
needed. However, it was decided that they wanted to highlight these 
areas as key opportunities to make major improvements in health status. 
It was a very difficult decision not to add funding in every line item, 
but a decision was made to limit increases to what was felt might be 
politically feasible.

                 TABLE 5.--IHS BUDGET PROGRAM INCREASES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
CHS Unfunded Need, Deferred Services, and Denials of CHEF..       55,000
Mental Health..............................................       18,000
Alcohol and Substance Abuse................................       15,000
Public Health Nursing......................................        5,000
Health Education...........................................        5,000
Community Health Representatives...........................        5,000
Self Governance............................................        5,000
Pharmacy...................................................       30,000
Information Technology.....................................       20,000
Sanitation Facilities Construction.........................       10,000
Small Ambulatory Clinics...................................       25,000
Joint Venture..............................................       15,000
M & I......................................................        5,000
Guaranteed Loan Program....................................       15,000
                                                            ------------
      Total................................................      228,000
------------------------------------------------------------------------

    It was noted that this increase above current services raises the 
Portland Area request to a level that may not be politically feasible 
(from the basic current services amount of 12.8 percent to 18.8 percent 
with these program increases), but it was decided that highlighting 
these priorities was necessary to indicate to the Congress areas 
especially deserving of increases above current services levels.

                      STAFFING FOR NEW FACILITIES

    Staffing the new facilities opening at the following locations--
Pinon, AZ; Idabel, OK; Coweta, OK; Red Mesa, AZ; Sisseton, SD; and St. 
Paul, AK--will require $18.4 million in fiscal year 2006. The ``new 
staffing package'' becomes a recurring appropriation. The increase 
associated with staffing for new facilities is more than the amount of 
applied to other mandatories so its benefit to Indian Health Service 
programs calls into question the wisdom of building these facilities if 
funding is not available to maintain current programs.

                    TABLE 6.--STAFFING NEW FACILITIES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Staffing
                          Facility                               Cost
------------------------------------------------------------------------
Pinon, AZ Health Center....................................        4,119
Idabel, OK Health Center...................................          562
Coweta, OK Health Center...................................        6,960
Red Mesa, AZ Health Center.................................        3,171
Sisseton, SD Health Center.................................        3,524
St. Paul, AK Health Center.................................          144
                                                            ------------
      Total................................................       18,480
------------------------------------------------------------------------

    The significance of staffing new facilities is that it removes from 
distribution funds necessary to maintain current services. Staffing 
packages for new facilities are like pay act costs in two respects: (1) 
They come ``off the top,'' i.e., they are distributed before other 
increases, and (2) They are recurring appropriations. Northwest Tribes 
frequently ask: Why did our health program receive a 1 percent increase 
in funding this year when we were told there was a 2 percent or 3 
percent increase for the Indian Health Service budget? In fiscal year 
2004, the IHS received a 2.1 percent increase; however Portland Area 
Tribes realized less than a 1 percent increase in their health care 
budgets. In fiscal year 2004, the new staffing was over 60 percent of 
the IHS budget increase. In fiscal year 2005, new staffing costs 
accounted for over 50 percent of the increase. As the graph 
illustrates, the reason for this gap between the annual approved 
increases for the IHS accounts and actual program level increases is 
the cost of staffing new facilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Staffing costs are obviously legitimate costs that must be provided 
when a new facility is built. Unfortunately, the existing programs 
absorb the cost of mandatories for new facilities rather than an 
additional appropriation. As Table 7 (below) highlights, the staffing 
of new facilities has received 27.7 percent of all increases in the IHS 
health services account over the past 12 years. In fiscal year 2006, 
$18.5 million will go to staffing new facilities. This amount is down 
from last year, however is still quite significant. If scheduled new 
facilities construction proceeds as planned, it is estimated that this 
percentage will rise to over 50 percent of the overall IHS budget in 
fiscal year 2007 through 2010. NW tribes cannot support this level of 
funding for staffing when we do not have enough funding to maintain 
current services.

 TABLE 7.--PERCENTAGE OF TOTAL IHS INCREASE EXPENDED ON STAFFING FOR NEW
                               FACILITIES
------------------------------------------------------------------------
                        Fiscal year                            Percent
------------------------------------------------------------------------
1995.......................................................         19.1
1996.......................................................         28.3
1997.......................................................         43.2
1998.......................................................         28.7
1999.......................................................         13.0
2000.......................................................          8.0
2001.......................................................          5.8
2002.......................................................         14.2
2003.......................................................         27.8
2004.......................................................         64.0
2005.......................................................         51.0
2006.......................................................         29.4
                                                            ------------
      Average..............................................         27.7
------------------------------------------------------------------------

    Once we subtract pay act costs ($29.3 million in fiscal year 2006) 
and the costs of staffing newly opened facilities ($18.49 million), 
there is simply no money left to maintain the current health care 
program. Since the President has requested only an overall $62.9 
million increase, there is a balance of $15.1 million left for the rest 
of the IHS budget. Since the actual pay act increase will probably be 
from 2 to 3 percent, the balance will be less than one-third the amount 
needed for federal and tribal employees pay increases.

                        HEALTH SERVICES ACCOUNT

The Compounding Effect of Multi-year Funding Shortfalls
    Table 8 below demonstrates the loss of real resources in the Health 
Services Account due to increases that have been inadequate to pay for 
cost increases due to inflation (medical and general) and population 
growth. The inflation and population figures presented in Table 8 are 
based on the NPAIHB previous year's analysis and recommendations to 
fund current services. Table 5 illustrates the annual and cumulative 
impact of annual under-funding of mandatory cost increases. This 
information is depicted graphically in Figure 1 of this document.

                   TABLE 8.--INDIAN HEALTH SERVICES ACCOUNT FISCAL YEAR 1993-FISCAL YEAR 2006
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Approved       Budget with
                                                                      health        inflation &    Real resource
                              Year                                   services         growth           loss
                                                                      budget        adjustment
----------------------------------------------------------------------------------------------------------------
1993............................................................       1,524,990       1,540,087          15,097
1994............................................................       1,646,088       1,644,195          -1,893
1995............................................................       1,707,092       1,744,221          37,129
1996............................................................       1,745,309       1,847,113         101,804
1997............................................................       1,807,269       1,945,326         138,057
1998............................................................       1,841,074       2,060,512         219,438
1999............................................................       1,950,322       2,274,992         324,670
2000............................................................       2,074,173       2,411,496         337,323
2001............................................................       2,265,663       2,610,497         344,834
2002............................................................       2,389,614       2,630,009         240,395
2003............................................................       2,475,916       2,644,996         169,080
2004............................................................       2,530,364       2,661,614         131,250
2005............................................................       2,596,492       2,804,211         207,719
2006............................................................       2,732,298       2,923,559         191,261
                                                                                                 ---------------
      Total real resources lost fiscal years 1993-2005..........  ..............  ..............       2,456,165
----------------------------------------------------------------------------------------------------------------

    The loss of purchasing power over the past fourteen years is 
conservatively estimated at $2.46 billion. It is difficult to estimate 
how much collections from Medicaid (and to a lesser extent Medicare) 
have reduced these shortfalls. One reason for the difficulty is that 
collections estimates are understated in each year of the IHS budget 
justification because only IHS facilities' collections are reported. 
One thing is clear, and that is Medicaid collections have not grown in 
the Portland Area in the past three years due to the state fiscal 
crisis in Oregon and Washington. States nationwide are continuing to 
cut benefits and eligibility for the Medicaid program in an attempt to 
balance state budgets.
    The following section reviews the IHS budget at the ``sub-
subactivity'' level for the health services account. The number in the 
parenthesis is the page number in the Congressional Justification for 
the Indian Health Service fiscal year 2006 budget. The reader will note 
that the percentage increase for each line item is well over the 
average proposed fiscal year 2006 increase for the Department of Health 
and Human Services.

          TABLE 9.--HOSPITALS AND CLINICS FOR FISCAL YEAR 2006
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
President Request.......................................       1,289,418
Increase/Decrease (5.4 percent).........................          70,123
NPAIHB Current Services Estimate........................       1,379,677
President's Proposed....................................       1,359,541
Shortfall...............................................          20,136
------------------------------------------------------------------------

                     HOSPITALS AND CLINICS (IHS 3)

    The Hospitals and Clinics line item would receive $1,289,418,000 
under the Administration's request. The Administration's request is 
$20.1 million short of the amount needed to maintain services. Pay act 
cost increases for this account total $20.5 million and staffing new 
facilities requires an additional $18.5. This account will also receive 
$18.2 million for population growth and $15.9 million for inflation, 
bringing the total current services for this line item to $73.1 
million. The Administration's increase of $62.9 million will not even 
cover the cost of the proposed current service increases.
    This line item funds hospitals and many services some might expect 
to find under administrative costs such as information technology. In 
some Areas, funds that should be under contract health care are 
actually found in the H & C line item. The Portland Area receives far 
less per capita than most areas from this line item, under 5 percent of 
all funding despite Portland's nearly 7 percent share of the IHS user 
population. There are logical reasons for this, most importantly, the 
lack of expensive hospitals in the Portland Area (one of two areas with 
no hospitals) and the high costs associated with service delivery in 
Alaska.

                          EPIDEMIOLOGY CENTERS

Permanent Funding for the Northwest Tribal Epidemiology Center (IHS 10)
    IHS funds 8 Epidemiology Centers, seven tribal and one urban. One 
of these centers, the Northwest Tribal Epidemiology Center (The 
EpiCenter), is located in the Portland Area at the Northwest Portland 
Area Indian Health Board. The EpiCenter is providing epidemiological 
and programmatic assistance on a variety of health issues. It has taken 
the lead in helping Northwest Tribes work to achieve the Health Status 
Objectives specified in the Indian Health Care Improvement Act 
Amendments of 1992. The eight Epi-Centers include:
  --Alaska Native Epi-Center, Anchorage, AK
  --Great Lakes Inter-Tribal Epi-Center, Bemidji, MN
  --Inter-Tribal Council Epi-Center, Phoenix, AZ
  --Northern Plains Epi-Center, Rapid City, SD
  --NPAIHB Epi-Center, Portland, OR
  --Oklahoma Area Epi-Center, Oklahoma City, OK
  --United South and Eastern Tribal Epi-Center, Nashville, TN
  --Seattle Indian Health Board Epi-Center, Seattle, WA
    The Board would like tribal EpiCenters to be funded at a level that 
will enable them to be a fully functional epidemiological and 
surveillance centers. Recent increases have allowed the NPAIHB 
EpiCenter to be funded at a level that allows it to provide 
professional, high quality work for Indian health programs. Last year, 
the Board supported the President's proposed increase of $2.5 million 
for EpiCenters in order to fund two new centers and to raise the amount 
of funding for current EpiCenters. There is likely to be another 
EpiCenter that will be added in fiscal year 2006 and additional funding 
will be needed in order to sustain the current level of effort. There 
is some merit in having an EpiCenter in each area, but this goal must 
compete with other Indian Health Service priorities. The feasibility of 
having EpiCenters in each of the 12 IHS Areas must be seriously 
examined before expanding to all 12 areas.

                THE INDIAN HEALTH CARE IMPROVEMENT FUND

    The Indian Health Care Improvement Act Amendments of 1992 
authorized the Indian Health Improvement Fund plus additional 
initiatives to address the unmet health needs of Indian communities. 
The Level of Need Funded (LNF) methodology, now termed the Federal 
Employees Health Benefit Package Disparity Index (FDI), has been used 
to distribute funds appropriated to the fund. Tribes expect some 
appropriation to be included each year to raise tribes' funding level. 
In fiscal year 2005 $18 million will be distributed using the FDI 
formula.

                                 HIPAA

    The Health Insurance Portability and Accountability Act of 1996 
(HIPAA) requires that IHS and tribal health programs comply with 
national standards for electronic health care transactions and protect 
the security and privacy of health data. The fiscal year 2003 budget 
appropriation included $850,000 to implement the new privacy standards. 
Of major importance in the HIPAA legislation is the issue of data and 
transaction standardization--a mandate very few healthcare providers 
can sidestep if they bill third parties for services provided to 
patients. There is no funding in fiscal year 2006 to comply with the 
on-going special requirements of HIPAA. This un-funded mandate deserves 
an on-going appropriation until it is fully implemented.

                        TABLE 10.--DENTAL HEALTH
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................      119,489
Increase/Decrease (9.6 percent)............................       10,466
NPAIHB Current Services Estimate...........................        7,632
President's Proposed.......................................       10,466
Shortfall..................................................      (2,834)
------------------------------------------------------------------------

                        DENTAL SERVICES (IHS 13)

    The President's increase of $10,466,000 represents a 9.6 percent 
increase for the Dental Health services account. While the amount is 
$2.8 million more than the NPAIHB's estimate to maintain current 
service, it will not cover the programming costs proposed by the 
President. The fiscal year 2006 request includes $2 million to cover 
pay cost increases and $5.8 million is for phasing-in of new dental 
staff at Pinon, AZ; Idabel, OK; Coweta, OK; Red Mesa, AZ; Sisseton, SD; 
and St. Paul, AK. Dental Services is also slated to receive increases 
of $1.1 million for inflation and $1.5 million for population growth. 
The increases for current services total $11.4 million, and are 
$900,000 more than the President's recommended increase of $10.4 
million.
    This is an increase that is very much appreciated by IHS and tribal 
dental programs especially since both Washington and Oregon, as have 
other states, have eliminated adult dental services from their Medicaid 
programs. This will mean additional users to the IHS system. Indian 
dental programs are unparalleled in their ability to provide efficient 
and effective health care services to the patients who need dental 
care. The Board has one of the seven Dental Support Centers that 
provide consultation services to area health programs.

                        TABLE 11.--MENTAL HEALTH
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................       55,328
Increase/Decrease (7.8 percent)............................        4,268
NPAIHB Current Services Estimate...........................        3,854
President's Proposed Increase..............................        4,268
Shortfall..................................................        (414)
------------------------------------------------------------------------

                         MENTAL HEALTH (IHS 16)

    This request of $59.3 million is a 7.8 percent increase over last 
year's line item and is adequate to cover the NPAIHB estimated costs of 
$58.9 million to maintain current services. The Mental Health line item 
also received a decent increase in fiscal year 2004. Tribes appreciate 
the attention to this very important area. Suicides occur more 
frequently (72 percent higher) and among younger people in the Indian 
population with the age group 15-24 having the highest rate. This is a 
shocking statistic. Consider that the highest rate for non-natives is 
for individuals over 74 years and one can conclude that a horrendous 
loss of productive years needs to be addressed in a concerted effort. 
Pay costs and new staffing packages will take 66 percent of the 
increase, leaving the balance to cover the costs of $1.6 million to 
cover inflation and population growth. None of the increase will 
provide for expanded services by current programs.

                  TABLE 12.--ALCOHOL & SUBSTANCE ABUSE
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................      145,336
Increase/Decrease (4.5 percent)............................        6,263
NPAIHB Current Services Estimate...........................        9,735
President's Proposed Increase..............................        6,263
Shortfall..................................................        3,472
------------------------------------------------------------------------

                  ALCOHOL AND SUBSTANCE ABUSE (IHS 21)

    Alcohol and substance abuse continues to be the highest priority 
identified by tribal leaders and health directors during the IHS budget 
formulation process. The fiscal year 2005 enacted level for this 
account is barely a 1 percent increase over fiscal year 2004. This 
year's proposed increase of 4.5 percent reflects tribal priorities 
during the IHS budget formulation process. However, it will fall short 
of maintaining current services by $3.4 million. More needs to be done 
to address the circle of violence, depression, intergenerational 
violence, and domestic abuse in tribal communities. The cost for 
treatment of alcohol and substance abuse is increasing at a rate that 
exceeds the availability of funds. The use of methamphetamine is on the 
rise throughout Indian Country and is causing tremendous cost to the 
Indian health care system. Studies show that to be effective Tribes 
need to pay for 180-day inpatient treatment costs and provide 
significant aftercare treatment. Currently, there are no programs in 
the Northwest to provide for this type of adult treatment. Dual 
diagnosis patients needing a combination of mental health and alcohol 
treatment services would benefit from a larger appropriation for these 
services.
    The proposed increase of $6.3 million will go to cover $2.2 million 
for pay costs, $2.1 million for inflation, and $1.9 is to cover the 
costs of population growth.

                   TABLE 13.--CONTRACT HEALTH SERVICES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................      525,021
Increase/Decrease (5.4 percent)............................       26,953
NPAIHB Current Services Estimate...........................       62,259
President's Proposed Increase..............................       26,953
Shortfall..................................................       35,306
------------------------------------------------------------------------

                   CONTRACT HEALTH SERVICES (IHS 26)

    This year's requested CHS increase of $26.9 million is a reasonable 
percentage of the overall increase, but far short of need. The $35.3 
million shortfall means referrals for dental services and specialty 
care will be curtailed. It means tribes will once again fall into 
PRIORITY ONE in the winter instead of spring of the fiscal year. CHS 
funding is the most critical line item for Tribes in the Northwest. The 
Northwest Portland Area Indian Health Board estimates $62.3 million is 
needed to maintain the current level of services purchased with 
Contract Health Service (CHS) dollars. The fiscal year 2006 request 
includes $18.9 million to fund inflation and $7 million for population 
growth. This is the first time since fiscal year 2001 that the CHS 
program has received any funding to cover these critical areas. In 
fiscal year 2001, President Clinton requested $40 million for the first 
time since 1992. The increase was sufficient to fund population growth 
and the medical inflation rate and for the first time Tribes saw the 
level of CHS denials begin to fall (see Figure No. 2). This year's 
request is far short ($35.3 million) of the amount needed to truly fund 
inflation and population growth. CHS funding for new facilities is 
estimated to be $1 million.
    Congress should note that there are no pay costs associated with 
the CHS program, yet the providers that tribes purchase specialty care 
services from are as deserving of pay cost increases as federal 
workers. In many cases these increases would go to small town 
practitioners and rural hospitals. CHS purchases of specialty care are 
a very efficient method of providing health care services that 
contributes to rural economies. CHS is a much more efficient method of 
providing care than building new hospitals.
    CHS represents about 18 percent of the total health services 
account. In the Northwest it represents over 20 percent of the Portland 
Area Office's budget. The consequence of twelve years of un-funded 
inflationary increases has been declining services for tribes who 
depend upon Contract Health Services to support inpatient and specialty 
care. IHS areas like the Portland Area (with no hospitals) are 
particularly hurt by the lack of sufficient increases to cover medical 
care inflation. There is only so much that can be done to restrict 
medical priorities. Rationing and erosion of service has been a 
constant problem, particularly for CHS programs. The Portland Area 
strongly supports distribution of CHS dollars with a formula that 
recognizes that some areas are strongly dependent on this funding 
source. The new formula for CHS distribution was not supported by 
Northwest tribes.

           TABLE 14.--LOST PURCHASING POWER 1993 TO 2005 FOR CONTRACT HEALTH SERVICES LINE ITEM (CHS)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                               Medical      Un-funded    Un-funded
                     Year                         Approved    inflation      medical     population   Total  un-
                                                   budget        need       inflation      growth       funded
----------------------------------------------------------------------------------------------------------------
1992..........................................      308,589      ( \1\ )  ............  ...........  ...........
1993..........................................      328,394      331,425        3,031         6,480        9,511
1994..........................................      349,848      354,260        4,412         6,896       11,308
1995..........................................      362,564      373,635       11,071         7,347       18,418
1996..........................................      362,564      390,428       27,864         7,614       35,478
1997..........................................      368,325      406,744       38,419         7,614       46,032
1998..........................................      373,375      419,433       46,058         7,735       53,793
1999..........................................      385,801      438,218       52,417         7,841       60,258
2000..........................................      406,000      414,350        8,350         8,102       16,452
2001..........................................      445,773      444,570       (1,203)        8,526       13,096
2002..........................................      460,776      490,350       29,574         9,240       51,036
2003..........................................      475,022      518,373       43,351         9,500       52,851
2004..........................................      479,070      536,558       57,488         9,581       67,070
2005..........................................      498,068      557,836       59,768         9,961       69,730
                                               -----------------------------------------------------------------
      Thirteen Year Total.....................  ...........  ...........      380,601       106,438      505,032
----------------------------------------------------------------------------------------------------------------
\1\ Base Year.

    Contract Health Services is the program most vulnerable to 
inflation pressures. Between fiscal year 1992 and fiscal year 2005, the 
NPAIHB estimates that over $1/2 billion have been lost to inflation in 
the CHS program nationally. Unfunded medical inflation alone exceeds 
$380 million, while unfunded population growth is $106 million--
representing $505 million in lost purchasing power as depicted in the 
Table 14 above.

TABLE 15.--BUDGET HISTORY OF CHS FUNDING FISCAL YEAR 1996 TO FISCAL YEAR
                                  2006
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                  Increase
                                       CHS          over      Percent of
                                     approved     previous     increase
                                                    year
------------------------------------------------------------------------
1996.............................     $362,564  ...........  ...........
1997.............................      368,325       $5,761         1.56
1998.............................      373,375        5,050         1.35
1999.............................      385,801       12,426         3.22
2000.............................      406,756       20,955         5.15
2001.............................      445,773       39,017         8.75
2002.............................      460,776       15,003         3.26
2003.............................      468,130        7,354         1.57
2004.............................      479,070       10,940         2.28
2005.............................      498,068       18,998         3.81
2006.............................      525,021       26,953         5.13
                                                            ------------
      Ten Year Total.............  ...........  ...........         3.40
------------------------------------------------------------------------

    Table 15 charts the past 11 years funding for CHS. The increase has 
been about 3 percent each year while medical inflation rate experienced 
in the Northwest is approximately 10 percent over the past decade. CHS 
should receive medical inflation adjustments at least equal to the 
Medicaid program (projected to be 8.4 percent for through 2007 \8\) 
since both purchase care from private providers. Since the fiscal year 
2005 approved appropriation was $498 million, a fair inflation 
adjustment would total $62.3 million for fiscal year 2006. The 
President has requested an amount that is not sufficient to protect 
real resources that continue to be lost to medical inflation.
---------------------------------------------------------------------------
    \8\ The Budget and Economic Outlook: Fiscal Years 2006 to 2015, p. 
57, Congressional Budget Office, January 2005.
---------------------------------------------------------------------------
    Medicaid's enrollment growth rate is projected at 1.8 percent over 
the next 5 years and is less than the projected increase in the Indian 
population (2.1 percent); so population growth does not justify the 
higher rate of growth for Medicaid. Surely no one believes that the 
relatively small Indian Health Program is able to secure better rates 
from providers than the Medicare and Medicaid programs. The IHS should 
expedite the publication of regulations to implement Section 506 of the 
Medicare Modernization Act (MMA). This provision would require 
hospitals that accept Medicare payments to pass on those same rates for 
services provided for under the CHS program. The Board assisted in the 
development of these very beneficial regulations however, they have not 
been published by the IHS or CMS. In the meantime, Tribes continue to 
drawdown on their CHS budgets, and the Section 506 regulations would 
provide a significant cost savings that would allow for additional 
services to Indian people.

               CATASTROPHIC HEALTH EMERGENCY FUND (CHEF)

    The CHS budget includes a Catastrophic Health Emergency Fund (CHEF) 
of $18 million intended to protect the daily administration of local 
CHS programs from overwhelming expenditures for catastrophic health 
cases. This fund is a lifesaver for Indian health programs. Its purpose 
is to fund catastrophic health care cases with large expenses. 
Northwest Tribes urge the Congress to consider fully funding CHEF since 
these cases are all well-documented need and critical to the financial 
stability of the small programs that exist in the Portland Area and 
many other Areas of the Indian Health Service.
    The current fiscal year 2005 threshold is $23,800 before a case is 
considered for funding. The Catastrophic Health Emergency Fund is an 
important source of funds for programs that experience high cost cases. 
These cases place a tremendous financial and ethical burden on a 
Service Unit or a tribe if the case occurs near the end of the year 
after the Fund has been exhausted.
    In fiscal year 2004,\9\ CHEF claims totaling $13.3 million for 756 
cases went unpaid and were absorbed by local CHS budgets. The actual 
unfunded need is certainly greater than $13 million because the fund is 
usually depleted by the third quarter of the fiscal year. CHS deferred 
services include those cases within the CHS medical priority area, 
however, are deferred due to lack of funding. Portland Area Tribes 
strongly urge the Congress to fully fund CHEF since the impact of not 
funding it fully threatens Indian Health programs more than any other 
line activity in the budget. Based on fiscal year 2004 data (the most 
current year data are available) the CHEF need is easily $32 million.
---------------------------------------------------------------------------
    \9\ Fiscal year 2004 is the most current year that CHEF data area 
available since expenditures are not reported until the following 
fiscal year.
---------------------------------------------------------------------------
    For fiscal year 2004, the IHS estimates that there are 156,862 
deferred services totaling $144.7 million. This is an increase of 8,339 
cases over fiscal year 2003. In addition, there are another 23,368 
eligible cases that meet the eligibility requirements for CHS services, 
but are denied because the care is not within the CHS medical 
priorities (Priority One). Every year tribes simply do not submit 
claims since they know that in the last quarter claims are not likely 
to be approved.

                    TABLE 16.--PUBLIC HEALTH NURSING
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
President's Request.......................................       49,690
Increase/Decrease (10.4 percent)..........................        4,675
NPAIHB Current Services Estimate..........................        3,151
President's Proposed Increase.............................        4,675
Shortfall.................................................       (1,524)
------------------------------------------------------------------------

                     PUBLIC HEALTH NURSING (IHS 33)

    The President's request for Public Health Nurses (PHNs) is a 10.4 
percent increase though it is not enough maintain current services. The 
NPAIHB estimates it will take $3.1 million to maintain current 
services. The President proposes new staffing of $2.8 million (60 
percent of increase). This will leave only $1.9 million to cover the 
costs of maintaining current services.
    PHNs are at the center of many community based health care services 
including home visits to provide: disease surveillance, direct therapy; 
and group education comprise 40 percent of the PHNs time. The growing 
elderly population has resulted in a 15 percent increase in home visits 
by PHNs. It is clear that this growing need requires greater than 
average increases if we are to meet this demand. A significant amount 
of time is dedicated to maternal and child health promotion. The 
important work being done to lower infant mortality and Sudden Infant 
Death Syndrome cannot be maintained if funding falls below the rate of 
inflation. SIDS awareness campaigns have resulted in a lower rate of 
infant deaths, yet it is still the greatest cause of infant mortality 
with rates that are the highest of any group in the United States.

                       TABLE 17.--HEALTH EDUCATION
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
President's Request.......................................       13,787
Increase/Decrease (10.9 percent)..........................        1,358
NPAIHB Current Services Estimate..........................          870
President's Proposed Increase.............................        1,358
Shortfall.................................................         (488)
------------------------------------------------------------------------

                       HEALTH EDUCATION (IHS 36)

    The President's request for Health Education is quite significant 
given the past year's increases for this account. In fiscal year 2006, 
the President has requested $13.8 million, an increase of 10.9 percent. 
It is more than double past year's requests. The amount needed to 
maintain current services is $870,000. After staffing new facilities, 
there is only $553,000 available for current services. The President 
has also requested $214,000 for pay costs, $164,000 for inflation and 
$175,000 for population growth.
    The Health Education program communicates the importance and on-
going need for comprehensive clinical and community health education 
programs. It ensures education to patients, works with hospitals, 
clinics, and community education programs to integrate IHS patient 
education protocols and code systems.

               TABLE 18.--COMMUNITY HEALTH REPRESENTATIVES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................       53,737
Increase/Decrease (4.6 percent)............................        2,373
NPAIHB Current Services Estimate...........................        3,595
President's Proposed Increase..............................        2,373
Shortfall..................................................        1,222
------------------------------------------------------------------------

               COMMUNITY HEALTH REPRESENTATIVES (IHS 39)

    The President proposes spending $52.7 million for the Community 
Health Representatives (CHRs) Program (an increase of 4.6 percent over 
last year). No new staffing dollars are proposed for the CHR program. 
Increases for CHRs includes $863,000 for pay cost increases, $785,000 
for inflation, and $724,000 for population growth. Increased training 
for CHRs has made them effective partners on the health care team. CHRs 
are at the forefront of much of the preventive health that needs to be 
emphasized in Indian health programs. Unfortunately, the requested 
level of funding will result in cuts at the program level since it does 
not cover inflationary cost increases.

                         TABLE 19.--URBAN HEALTH
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................       33,233
Increase/Decrease (4.5 percent)............................        1,417
NPAIHB Current Services Estimate...........................        3,977
President's Proposed Increase..............................        1,417
Shortfall..................................................        2,560
------------------------------------------------------------------------

                         URBAN HEALTH (IHS 49)

    The 34 Urban Health Programs serve a diverse patient base with 
tribal affiliation from around the country. Most American Indians and 
Alaska Natives are urban Indians (an estimated 57 percent) with 
approximately 605,000 American Indians or Alaska Natives are eligible 
to use Title V Urban Indian Programs. In some cities, however, such as 
Phoenix, Anchorage, Albuquerque and Seattle, far more urban Indians 
receive their care from IHS and tribally operated programs than urban 
programs. There is no data to accurately describe the true need, but it 
is clearly underfunded in the Indian Health Service budget. The 
availability of care in urban settings relieves the caseload at IHS/
tribal programs and saves many from difficult transportation 
challenges. Like the CHS program, medical inflation and past year 
shortfalls require at least a 12.5 percent increase just to maintain 
services. In fiscal year 2005 Urban Programs received only a 1 percent 
increase. This year's increase of $1.4 million will cover pay cost 
increases of $482,000, inflation $485,000, and population growth 
$449,000. This will leave a shortfall of $2.6 million that will cut 
into current services. This means that many patients will be forced to 
travel great distances back to reservations to secure care at their 
tribe or another Indian health programs.

                  TABLE 20.--INDIAN HEALTH PROFESSIONS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................       31,503
Increase/Decrease (3.7 percent)............................        1,111
NPAIHB Current Services Estimate...........................        1,216
President's Proposed Increase..............................        1,111
Shortfall..................................................          105
------------------------------------------------------------------------

                   INDIAN HEALTH PROFESSIONS (IHS 54)

    The Administration's request is $31.5 million, an increase of 3.7 
percent over fiscal year 2005 levels. Last year's final approved budget 
for this account (a cut of 1.3 percent) makes absolutely no sense when 
the IHS is experiencing critical shortages of physicians, nurses, 
dentists, pharmacists and optometrists and a growing concern of other 
professions essential to staffing health facilities. This year's 
increase includes $44,000 for pay cost increases and $1.1 million for 
inflation. The NPAIHB estimates the current service need to be $1.2 
million, with the President's request short by $105,000. The 
scholarship and loan repayment programs are vital to the IHS system 
developing its own human resource capital.

                      TABLE 21.--TRIBAL MANAGEMENT
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................        2,430
Increase/Decrease (3.7 percent)............................           87
NPAIHB Current Services Estimate...........................           94
President's Proposed Increase..............................           87
Shortfall..................................................            7
------------------------------------------------------------------------


                       TRIBAL MANAGEMENT (IHS 58)

    For the first time in two years, the President's request includes 
an increase for Tribal Management. The Tribal Management program is an 
essential component of the Self-Determination program that awards 
grants to Tribes to assist them to assume part of all of their IHS 
programs. The grants allow tribes to assess, evaluate, and develop 
their capacity to assume IHS programs. The President's request is 
adequate to maintain the current level of effort, however does not 
provide for any expansion of the current program. The President's 
increase of $87,000 will be used to cover the costs inflation.

                      TABLE 22.--DIRECT OPERATIONS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................       63,123
Increase/Decrease (2.4 percent)............................        1,475
NPAIHB Current Services Estimate...........................        2,466
President's Proposed Increase..............................        1,475
Shortfall..................................................          991
------------------------------------------------------------------------

                       DIRECT OPERATIONS (IHS 60)

    Direct Operations includes the cost of management at IHS 
headquarters and the 12 Area Offices. This year the President request 
includes $63.1 million, an increase of 2.4 percent over last years 
spending level. The fiscal year 2005 final approved budget only 
included a 1.2 percent increase, so the Presidents request is more than 
double the amount received last year. The increase will cover $1.1 
million of pay costs and $357,000 for inflation--leaving a shortfall to 
cover current services of $991,000.

                       TABLE 23.--SELF-GOVERNANCE
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................        5,752
Increase/Decrease (2.9 percent)............................          166
NPAIHB Current Services Estimate...........................          223
President's Proposed Increase..............................          166
Shortfall..................................................           57
------------------------------------------------------------------------

                        SELF-GOVERNANCE (IHS 64)

    Two years ago, Congress reduced the Self Governance line item by 
$4.7 million, a loss of 43 percent from the previous year. The final 
enacted fiscal year 2005 budget did not include an increase for the 
Self-Governance programs. In fact, once last year's rescissions are 
applied, the Self-Governance programs once again lost funding by having 
its base budget eroded by $51,000.
    The fiscal year 2006 request of $5.752 million is a 2.9 percent 
increase, however, will not even cover past year's shortfalls, 
inflation, population growth, and the loss to last year's base budget. 
The Self-Governance office supports compacted tribes operating programs 
under the Tribal Self-Governance Amendments of 2000. This law, Public 
Law 106-260 established compacting as permanent, under the new Title V 
of Public Law 93-638. The Self-Governance process serves as a model 
program for federal government outsourcing, which builds Tribal 
infrastructure and provides quality services to Indian people. It is 
estimated that Tribes operate $1.8 billion, or 55 percent of the total 
IHS budget, and it is imperative that they receive the necessary 
resources to develop and build their administrative infrastructure and 
allow for new and expanded programs.
    The fiscal year 2006 requested increase will go to cover $18,000 
for federal pay cost increases and $148,000 for inflationary costs. 
This will leave an estimated $57 million to maintain the current 
program.

                    TABLE 24.--CONTRACT SUPPORT COSTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
President's Request........................................      268,683
Increase/Decrease (1.9 percent)............................        5,000
CSC Unmet Obligations Estimate.............................      112,000
President's Proposed Increase..............................        5,000
Shortfall..................................................      107,000
------------------------------------------------------------------------

                    CONTRACT SUPPORT COSTS (IHS 121)

    The Indian Self-Determination and Education Assistance Act of 1975 
authorizes Tribes to enter into contracts or self-governance compacts 
to manage federal programs previously administered by the IHS. The 
well-documented achievements of the Indian self-determination policies 
have consistently improved service delivery, increased service levels, 
and strengthened Tribal governments, institutions, and services for 
Indian people. Every Administration since 1975 has embraced this policy 
and Congress has repeatedly affirmed it through extensive amendments to 
strengthen the Self-Determination Act in 1988 and 1994. The President 
fails adequately request Contract Support Costs (CSC) funding to 
support the administrative functions of running Tribal health programs.
    In the fiscal year 2005 final appropriation, Congress failed to 
provide an increase for the second straight year and when the 
rescissions of fiscal year 2004 and fiscal year 2005 are applied, the 
CSC line item has actually had its base funding eroded by $6.9 million 
over the past two years. The $264 million provided for CSC is not 
adequate to fund past year's shortfalls or provide necessary resources 
for Tribes to continue to manage health programs assumed from the 
Federal government. The damaging cuts to CSC are contrary to the 
Administration's principles of government outsourcing. The fiscal year 
2006 increase of $5 million will not even restore the CSC base funding 
lost over the last two years!
    For the first time in two years, the President request includes a 
small increase of $5 million for the CSC account. The increase will be 
directed for new and expanded Public Law 93-638 programs. Congress must 
appropriate an additional $107 million to eliminate the ongoing 
shortfall. The continuing shortfall threatens to pit tribe against 
tribe as mature contractors are asked to absorb all inflationary 
increases in order to fund new contractors.

             INFORMATION TECHNOLOGY INFRASTRUCTURE (IHS 74)

    The Information Technology Infrastructure account supports the 
adoption of information technology in the Indian health care system. 
The activities supported by this program go to reduce medical errors 
and improve health care quality, and modernize the administrative 
functions of the IHS system. The Resource Patient Management System is 
the enterprise health information system and is supported by this 
account. In fiscal year 2006, the President proposes a $1.7 million 
decrease for this very important function. Many tribal leaders and 
health directors feel that this decrease is a direct result of the data 
set-aside funds from the Special Diabetes Program for Indians. It is 
felt that the residual function of maintaining the RPMS and other data 
systems is being offset by the data improvement funds from the SDPI. 
The information technology needs of Indian Country are too great and 
this offset should not continue in the future.

          MEDICAID, MEDICARE AND PRIVATE COLLECTIONS (IHS 78)

    The fiscal year 2006 budget justification for the first time in 
many years, proposes increases of $8.4 million in Medicare and Medicaid 
collections. This estimate may not be entirely accurate given severe 
cutbacks in the Medicaid program in many states. While the IHS and 
Tribes have significantly increased their ability to collect third 
party reimbursements, the Medicare and Medicaid programs have entered a 
period of change.
    The Medicare Modernization Act (MMA) will be fully implemented in 
2006 and proposed changes will significantly impact the ability of 
Indian health systems to collect third party resources from this very 
important program. Increasing Medicare collections will be difficult 
since the MMA fails to adequately incorporate Indian health programs 
into the prescription drug program. It fails to protect the right of 
elderly and disabled Indian people to receive prescription drug 
coverage without charge from the federal government. The new program 
raises significant issues of access and cost-sharing which will impact 
how and where elderly and disabled Indians get coverage. The Medicare 
program also threatens to significantly reduce reimbursements to Indian 
health programs for prescription drugs provided by IHS and Tribally 
operated programs. The current Medicaid all-inclusive rate is $206 for 
outpatient visits.
    No one really knows how much is collected for Medicare and 
Medicaid, but at least the Administration does not inflate the 
estimates and then use the inflated estimates to justify lower 
increases in the IHS budget. The estimates are not worth restating 
here. One wonders why the Centers for Medicare and Medicaid cannot 
produce better figures since they are paying the bills. In addition, 
they are paying states 100 percent of the costs of American Indians and 
Alaska Natives.
    There are some indications that collections will not increase as 
much as estimated by the Administration because enrollment growth in 
Medicaid has stopped in Washington and is declining in Oregon over the 
past two years. In addition, CMS has recently denied Washington's 
request to exempt American Indians from co-payments at the point of 
service, with a similar issue pending in Oregon. The NPAIHB and the 
American Indian Health Commission are working with the state to 
challenge this change in CMS policy.

             CHANGES IN MEDICARE AND MEDICAID RULES NEEDED

    The Centers for Medicare and Medicaid should work with states and 
tribes to insure that American Indians and Alaska Natives can choose 
Indian Health Programs as their providers. They should not be 
automatically assigned to managed care plans nor should they be 
required to pay co-payments or premiums. The Medicare program also 
threatens to significantly reduce reimbursements to Indian health 
programs for prescription drugs provided by IHS and Tribally operated 
programs. Beginning in 2006, seniors that get their pharmacy coverage 
under Medicaid (Dual-Eligibles) will be required to choose or be 
assigned to a private prescription drug plan and may no longer receive 
prescriptions from Indian programs. Tribal programs have become 
increasingly dependent on Medicaid reimbursements to help their under-
funded programs. IHS funding covers only about 50 percent of the health 
needs of American Indians and Alaska Natives. The new law could 
significantly reduce the payments to the Indian programs by both 
encouraging the elderly and disabled to enroll in private prescription 
drug programs, which may or may not include IHS and Tribal pharmacies 
in their networks, and by reducing the rate of reimbursement. CMS 
should exempt American Indian people from the premiums for enrollment 
into the Part D program and waive the co-pay associated with filling 
prescriptions under the new Part D program.

                   SPECIAL DIABETES FUNDING (IHS 81)

    Fiscal year 2004 was the first year of the $150 million per year 
authorized for diabetes by the 107th Congress. In response to 
Congressional direction, the IHS developed and implemented a 
competitive grant program entitled, the Targeted Demonstration Project. 
The competitive grant program provides $24 million to focus on primary 
prevention of Type 2 diabetes and reduction of cardiovascular risk in 
American Indian people. A careful evaluation of this expenditure of 
over $100 million for a research project should be conducted annually 
to ensure the wise use of limited funds.
    The Special Diabetes program will most surely result in program 
dollar savings in future years. Tribes welcome new resources for 
diabetes and hope to make these funds a recurring addition to the IHS 
budget until such time as they are not needed. These funds are a good 
investment. They are helping tribes nationwide to understand the 
magnitude of the burden of disease from diabetes and to develop 
interventions. They will likely save future spending on this disease. 
Improved health status depends on adequate appropriations. In some 
cases failing to maintain current services will result in the need for 
greater resources in the future. In addition to the human suffering it 
causes, diabetes is a financial drain on Indian health program 
resources. If prevention activities are successful, much suffering and 
expense will be avoided. Tribes are successfully developing programs to 
prevent and treat this serious disease that disproportionately impacts 
Indian people. The Northwest Portland Area Indian Health Board's 
EpiCenter is assisting tribes in this effort and continues to report on 
progress made by Northwest Tribes. Northwest tribes have invested over 
$1 million of their own diabetes allocation in improving Diabetes data 
reporting and information generation since the start of the SDPI.

                   HEALTH FACILITIES ACCOUNT (IHF 1)

Maintenance and Improvement (M&I) (IHF 3)
    Over the past 12 years (fiscal year 1993-fiscal year 2005) there 
has been less than a 5 percent increase in M&I despite the fact that 
the inventory of space has increase appreciably (over 30 percent in the 
Portland Area). Many tribes have seen a decrease in their funding due 
to the lack of adequate increases to reflect the growth in new and 
expanded facilities. The current (2004) replacement value of facilities 
eligible for M&I is $2.25 billion. The capital assets of Indian health 
facilities must be protected from deteriorating due to lack of funding 
for routine maintenance.
    The IHS Backlog of Essential Maintenance and Repair (BEMAR) survey 
for October 2004 estimates that there is a chronic backlog of $482 
million in needed repairs to Indian health facilities. In fiscal year 
2002 $14,145,000 was available for program deficiencies identified by 
BEMAR. The Indian Health Service should continue to update this 
information to provide Congress with the basis for increased funding to 
address this need.
    The President's request for M&I is $49.9 million, an increase of 
$700,000 or 1.4 percent over last years enacted level. The NPAIHB 
estimates that it will take at least $1.9 million to adequately address 
the M&I needs of Indian health facilities. This leaves a shortfall of 
$1.3 million.

Sanitation (IHF 8)
    Approximately 7.5 percent of all AI/AN homes lack safe water in the 
home compared to less than 1 percent average nationally. Unfortunately, 
the enacted fiscal year 2005 budget for Sanitation services was cut by 
$1.1 million even though the list of documented projects totaling $915 
million. The President's fiscal year 2006 request includes $93.5 
million for Sanitation Facilities, an increase of $1.75 million or 1.9 
percent over last year's enacted level. The NPAIHB estimates that it 
will take at least $3.7 million to adequately address the sanitation 
needs of Indian Country. This leaves a shortfall of $1.9 million.

Health Facilities Construction (IHF 14)
    Northwest tribes reluctantly support the one-year pause in new 
facilities construction if the money saved is redirected to the health 
services account. As noted above, facilities, especially hospitals, are 
expensive to build and their staffing packages more costly still. The 
Administration and Congress funded $88.6 million in fiscal year 2005 
while allowing Contract Health Services to erode with funding 75 
percent below the level needed to maintain services.
    The cost of the Ft. Defiance Hospital through fiscal year 2004 
totaled $125 million--far above the initial estimate of $105 million. 
The latest projections for the Phoenix Indian Medical Center have 
jumped from $526 million to over $589 million, an increase of $53 
million in a little over one year. The Portland Area tribes are on 
record as opposing any new facilities construction projects until the 
IHS completes its revision of the Health Facilities Construction 
Priority System. The current priority list was developed in 1991 and 
virtually locks out Tribes from badly needed construction dollars 
unless you are one of the facilities on the current list. The current 
environment of delivering health care services has changed dramatically 
from large hospital based systems to smaller outpatient health clinics, 
and the current use of facilities health construction dollars may not 
be the most beneficial use of valuable resources.

Alternative Methods of Acquiring Health Facilities
    If new facilities construction dollars are restored to the fiscal 
year 2006 budget, some of these funds should go to alternative funding 
mechanisms. Northwest Tribes have long encouraged more alternative 
methods to construct new facilities. These alternative methods of 
acquiring health facilities must be supported. There is such an 
enormous need that depending exclusively upon IHS appropriations for 
all health facility requirements is not realistic. The Indian Health 
Service and Tribes have developed a strategy that will greatly increase 
the number of new ambulatory health facilities constructed, but some 
IHS funding is required for this strategy of leveraging financing to 
work.
    The Indian Health Care Improvement Amendments (Section 818 of 
Public Law 102-573) authorized joint venture projects in which a tribe 
plans and constructs a health facility and IHS provides the equipment, 
staffing and operations costs. The Administration requests no funds for 
additional projects. $20 million would fund 2 to 3 projects per year.
    The Indian Health Care Improvement Act (Section 306 of Public Law 
102-573) authorized a grant program for the construction, expansion and 
modernization of small ambulatory care facilities. This is a program 
that has long been needed to assist tribes to secure quality health 
care in isolated rural areas. In the Northwest this could mean 
replacing old, worn out trailers that serve as the health clinics in 
tribal communities. Small modern clinic facilities assist tribes to 
attract health care professionals, provide a health focus for the 
community, and where tribes are agreeable and resources available, can 
provide health care services to underserved non-Indian individuals in 
the community. $25 million would support 4 to 10 projects a year. There 
is an excellent record of achievement that should be rewarded with 
increased appropriations.
    The Northwest Portland Area Indian Health Board has also suggested 
that the Indian Health Service secure authority to make loan guarantees 
for tribes who are seeking outside financing for health facilities. 
This would create another opportunity for tribes to build needed 
facilities rather than waiting for the Indian Health Service to fulfill 
its obligation. A loan guarantee would substantially reduce the debt 
service associated with financing facilities. A $15 million fund 
(possibly funded with government bonds) could support construction of 7 
projects a year with tribes repaying their loans with Medicaid 
collections or other sources of revenue.

Facilities and Environmental Health and Engineering Support (IHF-35)
    This line item consists of four subsidiary activities; facilities 
support, environmental health support, and the Office of Environmental 
Health and Engineering support. The fiscal year 2005 enacted level 
included $141.6 million for this account, and increase of 2.7 percent. 
The President's fiscal year 2006 request is $150.9 million, an increase 
of $9.2 million or 6.6 percent. The NPAIHB estimates that it will take 
$5.7 million to maintain the current levels of service.

Equipment (IHF 55)
    The Administration requests $17.960 million for Equipment, an 
increase of $623,000 or 3.6 percent over last year's enacted level. 
Indian Health Service estimates an inventory of $320 million in 
equipment with an average estimated life expectancy of 6 years. New 
facilities, including facilities built with non-IHS funds would benefit 
from additional funding for the equipment line item. The equipment line 
item funds normal equipment replacement due to age and maintenance. A 
reasonable estimate is that Indian health programs will need an 
additional $18 million annually to cover needs for biomedical, facility 
and telecommunications equipment. This amount will only cover the cost 
of upgrades and will not cover the cost of equipment--even where that 
would be more cost effective in the long run.

  THE FISCAL YEAR 2006 IHS BUDGET IN THE CONTEXT OF THE NEW BUDGETARY 
                               REALITIES

    It is worthwhile to consider the overall budgetary context in any 
analysis of the fiscal year 2006 Indian Health Service budget. When 
President Clinton left office there was a budget surplus that was 
anticipated to continue to grow to $6 trillion over ten years. 
Unfortunately, the recent recession combined with tax cuts and war 
spending associated with fighting terrorism and funding for homeland 
defense has completely reversed the expected revenue and spending 
picture. It is anticipated that deficit spending will continue over the 
next ten years.

                              TABLE 25.--ANNUAL BUDGET SURPLUS/DEFICIT PROJECTIONS
                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year
                                         ------------------------------------------------------------    Total
                                            2005      2006      2007      2008      2009      2010
----------------------------------------------------------------------------------------------------------------
CBO Baseline Projections................     (539)     (487)     (477)     (473)     (463)     (461)     (2,900)
President's Budget Projections..........     (394)     (332)     (278)     (250)     (246)     (229)     (1,729)
----------------------------------------------------------------------------------------------------------------
Source.--CBO--The Budget & Economic Outlook Fiscal Year 2006-Fiscal Year 2015, January 2005

    Table 25 above compares significant differences between the 
estimates of the Congressional Budget Office (CBO) and President (OMB) 
over the next five years. The current budget deficit is $412 billion. 
As the table illustrates, the CBO estimates a $539 billion deficit, 
while the President proposes a $394 in fiscal year 2006. Over the next 
five years, the President proposes to cut the deficit by 50 percent 
from $412 down to $229 billion.

Budget Realities
    For fiscal year 2006, discretionary programs represent 
approximately one-third of the budget of the United States government. 
Debt interest will represent approximately 7 percent of the budget down 
from 11 percent last year. Mandatory spending for Social Security Act 
programs like Medicare, Medicaid and other mandatory programs such as 
veterans programs represent over 54 percent of the budget. Debt 
interest is projected to stay approximately the same over the next five 
growing to 11 percent in fiscal year 2010. The CBO projections do 
include a modest estimate of $32 billion for supplemental requests for 
the war efforts that continue to linger in Iraq. It is expected that 
this amount will be greater than that, and perhaps as much as $40 
billion in fiscal year 2006.

Discretionary Spending
    President Bush has proposed $843 billion in discretionary spending 
authority for fiscal year 2006. The fiscal year 2005 spending amounts 
for discretionary included $840 billion in spending authority and $11.5 
billion for disaster relief enacted in October 2004. This means that 
discretionary spending will only grow by 1.7 percent or $14 billion 
from fiscal year 2005 to fiscal year 2006. Meanwhile, the Defense 
appropriations have grown by 4.4 percent.
    Last year, the CBO estimated the Iraq war could cost as much as $41 
billion, however the current supplemental appropriation is $82 billion. 
The CBO has estimated a $32 billion supplemental appropriation for Iraq 
in fiscal year 2006. Last year, the CBO estimated that the ongoing 
military operations in Iraq, Afghanistan, and the continuing war on 
terrorism could cost $280 billion over ten years. These costs have 
exceeded the initial estimates of the war and will continue to have an 
impact on U.S. spending with a severe effect on discretionary spending 
over the next five years.

Discretionary Spending for Indian Programs
    Federal spending on Indian programs is considered discretionary 
spending. This does not mean the U.S. Government has no obligation to 
fund Indian programs, but it does mean that an annual appropriation is 
required to fund these programs, including the Indian Health Service 
budget. This year's HHS budget only includes $67.1 million, or 10.5 
percent, of its total budget for discretionary programs. The IHS budget 
($3.05 billion) represents less than 1 percent of the overall HHS 
budget ($642,188 billion) and 4.8 percent of the discretionary portion 
of the HHS budget. The President proposes to hold discretionary 
spending to 1 percent (less the rate of inflation). Given the costs of 
the war in Iraq, the Administration's proposal to cut the deficit in 
half in five years, and some of the reform efforts to curtail mandatory 
spending--the prospect for discretionary programs does not look good in 
fiscal year 2006.

Appropriations Subcommittees
    The House has reorganized its appropriation subcommittee structure 
from 13 down to 10 subcommittees. The House Interior Subcommittee has 
responsibility for the IHS appropriation and has also picked up the 
responsibility of appropriations for the Environmental Protection 
Agency. It is not expected that the environmental issues will compete 
directly with Indian health care, therefore the added responsibility 
should not off-set the needs of Indian health programs. However, with 
the Senate continuing to have 12 appropriations committees, it is 
difficult to see how the Senate and House can work on appropriations 
bills with one body having 12 and the other having 10 committees. It is 
to be seen if the Senate will follow suit with the same reorganization 
structure of the House. If the Senate does not change, it will make it 
difficult to conference appropriation bills and legislation that 
impacts the different committees. The Senate and House Interior 
Appropriation Committees develop the Bureau of Indian Affairs and the 
Indian Health Service budgets. IHS funds are transferred to the 
Department of Health and Human Services (similar to FDA funds from 
Agriculture to HHS). The Interior Appropriations Committee appropriates 
only 2 percent percent of all discretionary spending or about 5 percent 
of all non-defense discretionary spending. The Bush Administration's 
fiscal year 2006 request for the Interior Appropriations Bill totals 
$19.8 billion in budget authority. This is a $200 million decrease from 
the fiscal year 2005 enacted level. If this ends up being the 302(b) 
allocation to the committee, the committee will be under severe 
constraints in allocating these small increases across the varied 
programs of the committee.

The Indian Health Service Budget and Department of Health and Human 
        Services
    The fiscal year 2006 Budget Authority of the Department of and 
Human Services totals approximately $642 billion. The final enacted 
fiscal year 2005 appropriation for the Indian Health Service budget 
totals $2.98 billion. This means the Indian Health Service represents 
less than one percent (0.53 percent) of all spending by the Department. 
By comparison, Medicare represents $340,412 (53.2 percent) of all 
spending and Medicaid $193 billion (30 percent) of total spending by 
the Department of Health and Human Services in fiscal year 2005. The 
Part D drug benefit of the Medicare Modernization Act will increase 
Medicare spending in fiscal year 2006 to over 50 percent of HHS's 
budget. Medicaid's spending is down from 31 percent last year to 30 
percent this year, a reflection of this Administration's attempt to 
control spending in mandatory programs and the shifting of some costs 
to Medicare.
    Although the IHS fiscal year 2006 increase compares favorably to 
other HHS agencies, Table 26 below shows the IHS, as the only agency 
whose only business is providing health care services, lags behind most 
agencies that do not suffer from the effects of medical inflation 
eroding their core programs.

                                                     TABLE 26.--FIVE HEALTH CARE AGENCIES OF THE HHS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                  Fiscal year
                                                                 -----------------------------------------------------------------------------   5-year
                                                                                                                                       2006     percent
                                                                     2001       2002       2003       2004       2005       2006     percent    increase
                                                                                                                                      change
--------------------------------------------------------------------------------------------------------------------------------------------------------
CDC.............................................................     $3,823     $4,449     $4,340     $4,440     $4,572     $4,017      -12.1        4.8
NIH.............................................................     20,535     23,554     27,178     28,041     28,444     28,845        1.4       28.8
HRSA............................................................      6,304      6,209      7,017      7,188      7,373      5,982      -18.9       -5.4
IHS.............................................................      2,604      2,758      2,849      2,922      2,984      3,048        2.1       14.6
SAMHSA..........................................................      2,966      3,136      3,158      3,235      3,269      3,215       -1.7        7.7
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source.--DHHS Budget in Brief Fiscal Year 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

NIH Program Increases compared with IHS
    The chart below illustrates the National Institutes of Health (NIH) 
budget increases over the last seven years as compared to the increases 
received for the Indian Health Services. Over the last seven years, the 
NIH has received $11 billion in budget increases, while the IHS has 
only received $627 million--a difference of 94 percent.
    The Department's discretionary program spending is just 10.5 
percent ($67.1 billion in budget authority) of its total spending. 
Other discretionary programs in the Department include the National 
Institutes of Health, the Centers for Disease Control and Prevention, 
the Health Resources and Services Administration and the Substance 
Abuse and Mental Health Services Administration.

The Agenda of the 109th Congress
    Republicans in the 109th Congress will continue to control both the 
House and the Senate, while at the same time having a Republican 
president. Despite nominal control of the government, it is once again 
unclear whether this Congress will pass a budget resolution since the 
Republicans do not have a veto-proof Senate. If there is a budget 
resolution it is likely there will be a reconciliation bill. Since such 
a bill only requires 51 votes for passage it is the likely vehicle for 
important agenda items of the Republican Party. If a reconciliation 
bill is introduced, it could mean certain cost savings measures will be 
taken by Congress that will adversely effect Indian health programs. 
Reconciliation directives instruct various committees to meet budget 
targets through spending and tax measures.
    The must-pass appropriation bills will be a key test of 
bipartisanship claims of President Bush. If he insists on his extremely 
low increase for non-defense spending (and he has House support for 
this), battles with the more moderate Senate could ensue. The 
Republicans in the Senate will have their own difficulties securing 60 
votes to pass Administration-sponsored legislation.
    The agenda for the 109th Congress will be focused on reacting to 
the Presidential priority of cutting the deficit in half over the next 
four years, wrestling with the challenge of reforming Social Security, 
and controlling spending in the Medicaid program. The Administration's 
tax cutting proposals are becoming more difficult to justify, but will 
do well in the current Congress. Finally an $83 billion supplemental 
for increase defense spending is likely.

The Performance Assessment Rating Tool
    A feature of the President's Management Agenda, the Performance 
Assessment Rating Tool (PART) is being used to measure the success of 
federally funded programs to meet their goals and assess intended 
results. This year marks the third year that PART has been used to 
assess programs and make recommendations to improve performance. The 
Office of Management and Budget (OMB) uses these factors to make 
decisions about funding and budget increases. For the first time in 
three years, federally funded programs have seen the impact that PART 
will play in the appropriations process. In fiscal year 2006, there are 
154 programs that the President has proposed to cut or drop in the 
budget. Fourteen of these programs are in the Department of Health and 
Human Services. Three of the identified programs include Indian related 
programs (BIA School Construction Program, Native American Housing 
Block Grant Program, and the EPA Discretionary Proposal for Alaska 
Natives).
    Although the Indian health programs have scored quite well in the 
PART process, it is a wake up call to make sure that Indian health 
programs comply with the requirements of the PART process. This is the 
first year that significant cuts and reprogramming have occurred as a 
result of PART. This year, the administrative elements of 638 programs 
will be scored using PART and tribes and the IHS will need to work 
together to ensure the best rating possible.

Conclusion: The Purpose of this Report
    This document and the Portland, Oregon budget workshop that was 
held March 9, 2005 represent an effort by the NPAIHB to provide tribes 
with an analysis of the Administration's proposed Indian Health Service 
budget and the pertinent legislation to assist them in their efforts to 
improve health care for their people. It is intended to identify issues 
that will impact or benefit all Northwest Tribes. While it is 
recognized that individual tribes will have their own particular issues 
and projects, it is hoped that tribes will also embrace the main budget 
and legislative issues identified in this document. Issues with broad 
support are most likely to achieve congressional action.
    Budget formulation should be a participatory process. One of the 
best ways to develop such participation is for Tribes and the Indian 
Health Service to agree on common principles and determine the cost of 
achieving those objectives. It is the connection between budget 
principles and funding that can bring Tribes and IHS together on the 
budget. The evaluation of this budget in Table 27 is based on these 
principles.

Evaluation Based on Budget Principles: Table 27
    Table 27 grades the President's fiscal year 2006 IHS budget against 
criteria (or principles) that the Northwest Portland Area Indian Health 
Board has developed and applied to budget analyses over the past five 
years. It is the Northwest Tribes' attempt to make an inherently 
subjective process more objective. The Northwest Portland Area Indian 
Health Board stands ready to engage in an honest debate over each 
aspect of this evaluation to clarify our position in the debate over 
funding Indian health programs. As noted above, the President's 
proposed fiscal year 2006 increase for the Indian Health Service is 
greater than nearly every other discretionary program. Unfortunately, 
the obligation to fund health services is not considered discretionary 
by Northwest tribes. The President's grades reflect this view by 
Tribes. As Tribal and IHS health programs go on Priority One status in 
March of 2005 they cannot give the President high marks for meeting the 
health care needs of Indian people.

   TABLE 27.--GRADING THE PRESIDENT'S PROPOSED FISCAL YEAR 2006 INDIAN
                          HEALTH SERVICE BUDGET
------------------------------------------------------------------------
                                        President
                                    February 8, 2005
                                    fiscal year 2006   Senate     House
                                          grade
------------------------------------------------------------------------
    Criteria or Budget
     Principle:
      1 Budget Information        C-                ........  ........
         Shared with Tribes in
         Consultation Sessions
         Prior to release date
         of the first Monday in
         February
      2 Appropriate adjustment    D                 ........  ........
         will be made to fully
         cover expected
         inflation
      3 Appropriate increases     C+                ........  ........
         will be included to
         address population
         growth
      4 Appropriate adjustments   B                 ........  ........
         will be made to fully
         fund tribal and federal
         employee compensation
      5 The Contract Health       D+                ........  ........
         Service Budget will be
         increased to fully fund
         the need for deferred
         services
      6 Collection estimates are  C-                ........  ........
         not represented as
         fulfilling the federal
         responsibility to fully
         fund the IHS budget
      7 Increases will be         F                 ........  ........
         provided to address the
         goals of the Indian
         Health Care Improvement
         Act
      8 Full funding will be      D+                ........  ........
         included to support
         staff associated with
         new construction
         projects
      9 The Catastrophic Health   F                 ........  ........
         Emergency (CHEF) Fund
         will be budgeted at a
         level to cover all
         qualifying cases
     10 Funding will be provided  F                 ........  ........
         to cover Contract
         Support Costs for
         tribes electing to
         compact or contract
         their health care
         services
     11 Adequately support        D-                ........  ........
         maintenance of IHS and
         tribal health
         facilities
     12 The public announcements  F                 ........  ........
         relating to the budget
         will honestly depict
         what is in the budget
     13 Provides adequate         F                 ........  ........
         funding to reduce
         health disparities
     14 Honor the federal trust   F                 ........  ........
         responsibility to
         provide health care
         services to American
         Indians and Alaska
         Natives
        Overall Grade             D                 ........  ........
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of Advocates for Health, Public Parks, and 
                               Recreation

    The undersigned organizations urge your support for a fiscal year 
2006 appropriation of $100 million from the Land and Water Conservation 
Fund for assistance to state and local governments, and $25 million for 
the Urban Park and Recreation Recovery Program. These federal matching 
grant programs contribute importantly to nationwide health and wellness 
strategies.
    The Centers for Disease Control and Prevention now recognizes that 
obesity is a full-scale epidemic, with related health care costs 
exceeding $117 billion a year. Children and youth especially benefit 
from regular physical activity and the development of healthy habits, 
including active recreation. About 15 percent of all children are 
overweight, a condition that increases the risk of high blood 
cholesterol, high blood pressure, and diabetes. By being physically 
active on a regular basis, often at public park and recreation sites, 
youth may be able to avoid or delay many health problems.
    Studies reported in the Journal of the American Medical Association 
(March 10, 2004) on the increasing rate of mortality attributable to 
physical inactivity and poor diet also suggest that investments in 
public park and recreation facilities that encourage active lifestyles 
are an imperative. The 365,000 deaths annually due to physical 
inactivity and poor diet is the ``largest increase among all causes of 
death,'' the JAMA report observes. The International City/County 
Management Association (ICMA) conducted a survey in 2004 to determine 
how communities could address the critical and growing issue of obesity 
at the community level. Nearly 89 percent of the respondents agreed 
that community park and recreation departments should take the lead in 
developing communities that are conducive to active living.
    A report by the National Center for Chronic Disease Prevention and 
Health Promotion reinforces our recommendations. The Center observed, 
``(C)haracteristics of our communities such as the accessibility and 
location of parks, trails, sidewalks and recreation centers . . . may 
play an even greater (than social environments) role in promoting or 
discouraging an individual or family's level of physical activity.''
    Congressional support of investments in public access through 
recreation development and resource conservation holds high potential 
for perhaps stabilizing health care costs over the long term. For 
example, the four diseases that may be prevented by appropriate active 
lifestyles, including active recreation--heart disease, cancer, stroke, 
and diabetes--are life-threatening and costly to treat. The Centers for 
Disease Control and Prevention has observed that if physically inactive 
people were to become sufficiently active, we could potentially reduce 
health care costs by over $75 billion a year. Active recreation also 
can promote mental health by reducing feelings of anxiety and 
depression.
    With appropriate funds, thousands of public park and recreation 
facilities in American communities will be created, restored, and 
expanded, thus offering greater opportunity for active lifestyles. We 
urge your support for federal-state-local fiscal partnerships that will 
further these objectives.
    American Public Health Association; American Running Association; 
Americans for Our Heritage and Recreation; Association of State and 
Territorial Public Health Nutrition Directors; California Food Policy 
Advocates; Center for Science in the Public Interest; Directors of 
Health Promotion and Education; East Coast Greenway Alliance; Elyria 
City Health District; Healthy Streets Campaign and the Chicagoland 
Bicycle Federation; International Health, Racquet & Sportsclub 
Association; Louisiana Public Health Institute; MetroParks Tacoma; 
National Center for Bicycling & Walking; National Recreation and Park 
Association; New York State Nutrition Council; North American Society 
for Pediatric Exercise Medicine; Pedestrians Educating Drivers on 
Safety; Preventive Cardiovascular Nurses Association; Shape Up 
America!; Sporting Goods Manufacturers Association; Texas Public Health 
Association; United Fresh Fruit & Vegetable Association; U.S. Soccer 
Federation; U.S. Soccer Foundation; United States Tennis Association; 
U.S. Youth Soccer; and YMCA of the USA.
                                 ______
                                 
Prepared Statement of the Nottawaseppi Huron Band of Potawatomi Indians

                              INTRODUCTION

    The Nottawaseppi Huron Band of Potawatomi Indians appreciates the 
opportunity to present testimony on the President's budget for fiscal 
year 2006 for the Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS). The Tribe is disappointed that the Administration has 
failed to acknowledge the unique needs facing Indian tribes. The 
President's fiscal year 2006 budget continues to include programs 
essential to Indian tribes in across-the-board budget cuts in the 
Interior and Related Agencies Appropriations bill without assessing the 
successes Indian tribes have had in taking greater control over the use 
of BIA- and IHS-funded programs. We agree with the statement of Senator 
John McCain who, while a fiscal conservative, stated that:

    ``I object to many of the decreases in funding that are proposed in 
the President's fiscal year 2006 Budget for Indian programs. The 
federal government has continually reneged on its trust and moral 
obligations to meet the educational, healthcare, and housing needs of 
Indians, and these needs far outweigh the imperceptible contribution 
that the proposed cuts will make to reducing the deficit.''

    The President's fiscal year 2006 Interior and Related Agencies' 
budget is an unfortunate shell game, redistributing flat or reduced 
appropriations for Indian programs among existing and newly created 
programs for Indian tribes, rather than realistically assessing the 
needs of Indian tribes, most of which are confronted with higher levels 
of unemployment and health issues than the general public. For example, 
increasing funding for the Office of Special Trustee by $78 million for 
the Interior Department's historic accounting of Individual Indian 
Money Accounts while reducing funding for other Indian programs 
essentially forces Indian tribes to underwrite the cost of a court-
ordered mandate--to quantify more than a century of negligence and 
incompetence--with funds otherwise appropriated by Congress to benefit 
Indian tribes and their members. This is an action not worthy of a 
great Nation. We ask the Congress to restore federal appropriations for 
Indian tribes and to finance court-ordered mandates from separate 
funds.
    Without adequate federal investment in tribal governments, and the 
limited infrastructure which characterizes most rural Indian 
communities, Indian tribes will continue to struggle to meet the needs 
of their members. Cuts of $9.3 million in the BIA's Tribal Priority 
Allocation (TPA) budget, a program essential to Tribal government 
operations, hampers the ability of tribal governments to provide basic 
services to their members as well as to attract businesses and other 
economic development opportunities to their reservations. Coupled with 
significant cuts of $44 million in HUD's NAHASDA Indian Housing Block 
Grant (IHBG) program and reductions of $86 million in the Indian Health 
Service's facility construction program, the President's budget 
contributes to rather than reverses the debilitating cycle of 
unemployment, poor housing, health and societal ills that diminishes 
the futures of so many Native Americans today. Many of the programs 
targeted for reduction are pass-through programs which the federal 
agencies essentially block grant to Indian tribes, the local 
governments best able to prioritize limited resources to maximal 
effect.
    Cutting the BIA's TPA budget, which the BIA obligates to hundreds 
of Indian tribes, will force Indian tribal governments to lay off 
experienced personnel and curtail program operations at a time when 
demand is only increasing. This is a misuse of federal funds and has 
little effect on the deficit.

                        BUREAU OF INDIAN AFFAIRS

Move the Huron Band Out of BIA's ``New Tribes'' Funding and Award 
        Adequate BIA Resources Commensurate with Our True Needs
    The Tribe was restored to federal acknowledgment as a historic 
Indian tribe in 1995, yet the BIA continues to award the Tribe only 
``new tribes'' funding, and has not adequately assessed our true needs 
and obligated appropriate funding. As a result, the Tribe has been 
deprived of hundreds of thousands of dollars each year. We request that 
the BIA Midwest Region be instructed to examine the needs of our Tribe 
and increase TPA funding based on the actual needs of our members and 
Tribal government rather than continue with only modest increases to 
the ``new Tribes'' funding we have been receiving since the late 
1990's.

Restore Cuts to the BIA's Tribal Priority Allocation (TPA) Program
    As noted above, the BIA's Tribal Priority Allocation (TPA) budget 
of $760 million is divided up among hundreds of Indian tribes which 
assume Department of Interior programs serving or benefiting Indian 
tribes under authority of the Indian Self-Determination and Education 
Assistance Act. Public Law 93-638. This unique form of government 
contract is perhaps the only government contract where the entity 
contracting with the United States must subsidize the program it is 
carrying out on behalf of the United States. For-profit businesses 
usually make significant profits on government contracts, but sovereign 
Indian governments are given inadequate funds to carry out essential 
government programs for their members and are not provided the full 
level of funding required to meet the program's requirements.
    In December 1999, we submitted a fee-to-trust petition to the 
Interior Department to accept four parcels of land totaling 365 acres 
into trust. The application is still pending. Our primary economic 
initiative, to establish a tribal gaming facility on a 79 acre parcel 
in Calhoun County pursuant to the Indian Gaming Regulatory Act, has 
been delayed by legal challenges. We will persevere with that effort 
until we succeed. But in the interim, our needs and the needs of our 
members are not being met. The Tribe requests increases to the BIA's 
Tribal Priority Allocation (TPA) program to increase funds for such TPA 
programs as Aid to Tribal Government, Education, Law Enforcement, 
General Assistance and Real Estate/Rights Protection programs. We ask 
that Congress increase the TPA budget by 6.5 percent or $50 million 
above the fiscal year 2005 appropriations level.

Increase Contract Support Cost Funds
    Under the Indian Self-Determination Act, the Secretary of the 
Interior and the Secretary of the Department of Health and Human 
Services, are required to provide Contract Support Costs 
(administrative overhead) on top of the base program funds obligated to 
an Indian tribe's Indian Self-Determination Act contract or Self-
governance agreement. For a number of years now Congress has capped the 
amount of Contract Support Costs available to Indian tribes assuming 
BIA-funded programs. Historically, Contract Support Cost funding has 
not been adequate to provide 100 percent of the costs incurred by 
Indian tribes. The BIA usually awards tribes a fraction (e.g., 90 
percent) of the Contract Support Cost funds they require. The balance 
of the cost incurred by Indian tribes is either subsidized by the 
tribes or taken from the direct program award, thus diminishing 
services.
    We ask the Congress to restore the $2.0 million reduction proposed 
by the Administration and increase funding for Contract Support Costs 
from $134.6 to $150 million.

                         INDIAN HEALTH SERVICE

    The Tribe operates two health clinics, one in Grand Rapids and one 
in Battle Creek, Michigan to serve the health needs of our 600 tribal 
members. The Tribe serves a seven county service area encompassing 
Allegan, Barry, Branch, Calhoun, Kalamazoo, Kent and Ottawa counties. 
With federal funds from the IHS, plus a grant from the Inter-Tribal 
Council of Michigan, we employ two nurses, two Community Health 
Representatives (CHRs), a diabetic coordinator, a full and part-time 
social worker, a child welfare specialist, and until recently a nurse 
practitioner. As our members age, our health care costs continue to 
rise. While we hope one day to have the resources to cover all of the 
health care needs of our members, at present we are reliant on IHS 
funds to meet the health needs of our members.
    The President's budget request for Contract Health Services is $525 
million, a 5 percent increase over the fiscal year 2005 level. Every 
health facility which does not offer a full complement of medical 
services must refer patients to better staffed or equipped clinics and 
hospitals. Tribes must use Contract Health Services funds to pay for 
such referrals. Medical inflation costs far exceed 5 percent and we 
request that Congress increase the appropriation for Contract Health 
Services by $52 million to $550 million for fiscal year 2006 so that 
Indian tribes may provide additional health services to more members 
and other eligible Native Americans. Our Tribe has an especially high 
incidence of cancer and diabetes. Additional funding will help us 
diagnose and treat more members so that they can continue to lead 
productive and longer lives.
    Thank you for permitting us the opportunity to submit comments on 
the President's fiscal year 2006 Interior and Related Agencies budget.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
